No. 20-222

In the Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

JOINT APPENDIX
(VOLUME 1; PAGES 1-400)

KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel of Record
for Petitioners

THOMAS C. GOLDSTEIN
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com
Counsel of Record
for Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: AUGUST 21, 2020
CERTIORARI GRANTED: DECEMBER 11, 2020

TABLE OF CONTENTS

Page
VOLUME 1

Court of appeals docket entries (No. 18-3667) ................... 1
Court of appeals docket entries (No. 16-250) ..................... 5
District court docket entries (No. 10-3461) ........................ 8
Goldman Sachs 2007 Form 10-K: Conflicts Warning
(D. Ct. Dkt. No. 78-6) .................................................... 23
Goldman Sachs 2007 Annual Report: Business
Principles (D. Ct. Dkt. No. 143-16) ............................. 30
Financial Times, Markets & Investing, “Goldman’s
risk control offers right example of governance,”
Dec. 5, 2007 (D. Ct. Dkt. No. 193-20) .......................... 34
Dow Jones Business News, “13 Reasons Bush’s
Bailout Won’t Stop Recession,” Dec. 11, 2007
(D. Ct. Dkt. No. 170-24) ................................................ 37
The Wall Street Journal, “How Goldman Won Big
on Mortgage Meltdown,” Dec. 14, 2007 (front
page) (D. Ct. Hearing Ex. T) ....................................... 42
The New York Times, Off the Shelf, “Economy’s
Loss Was One Man’s Gain,” Dec. 6, 2009
(D. Ct. Hearing Ex. II) ................................................. 54
Goldman Sachs Press Release, “Goldman Sachs
Responds to The New York Times on Synthetic
Collateralized Debt Obligations,” Dec. 24, 2009
(D. Ct. Dkt. No. 143-28) ................................................ 58
The New York Times, “Banks Bundled Debt, Bet
Against It and Won,” Dec. 24, 2009 (front page)
(D. Ct. Hearing Ex. JJ)................................................. 61
Complaint, SEC v. Goldman, Sachs & Co.,
Civ. No. 10-3229 (S.D.N.Y. Apr. 16, 2010)
(D. Ct. Dkt. No. 155-3) .................................................. 74
Goldman Sachs E-mail Re: GS and Peers (After the
Bell), Apr. 16, 2010 (D. Ct. Dkt. No. 197-8) ................ 99

(I)

II
Page
SEC Litigation Release No. 21489, “Goldman, Sachs
& Co. and Fabrice Tourre,” Apr. 16, 2010
(D. Ct. Dkt. No. 155-4) ................................................ 101
Reuters, Business News, “Goldman Sachs charged
with fraud by SEC,” Apr. 16, 2010
(D. Ct. Hearing Ex. FFF) .......................................... 104
Chicago Tribune, “SEC lawsuit alleges Goldman
Sachs fraud,” Apr. 17, 2010
(D. Ct. Dkt. No. 155-6) ................................................ 113
The Associated Press, Business News, “Fraud
charge deals big blow to Goldman’s image,”
Apr. 18, 2010 (D. Ct. Dkt. No. 155-5) ........................ 116
The Wall Street Journal, “Where’s the Goldman
Sachs That I Used to Know,” Apr. 21, 2010
(D. Ct. Dkt. No. 155-7) ................................................ 122
The Wall Street Journal, “Criminal Probe Looks
Into Goldman Trading,” Apr. 30, 2010
(D. Ct. Dkt. No. 170-63) .............................................. 127
The Wall Street Journal, “How Goldman Gets Its
Premium Back,” May 21, 2010
(D. Ct. Dkt. No. 201-11) .............................................. 131
Financial Times, “US Regulators step up probe of
second Goldman mortgage deal,” June 10, 2010
(D. Ct. Hearing Ex. PPPP) ........................................ 136
Consent of Defendant Goldman, Sachs & Co., SEC
v. Goldman, Sachs & Co., Civ. No. 10-3229
(S.D.N.Y. July 14, 2010) (D. Ct. Dkt. No. 197-4) ..... 138
Consolidated class action amended complaint,
Arkansas Teacher Retirement System, et al.
v. Goldman Sachs Group, Inc., et al., Civ. No.
10-3461 (S.D.N.Y. July 25, 2011) (D. Ct. Dkt. No.
68) ................................................................................... 150

III
Page
Opinion and order granting in part and denying in
part defendants’ motion to dismiss, June 21,
2012 (D. Ct. Dkt. No. 85)............................................. 306
Memorandum and order denying defendants’
motion for reconsideration, June 23, 2014
(D. Ct. Dkt. No. 122).................................................... 339
Viniar testimony, Oct. 28, 2014
(D. Ct. Dkt. No. 197-9) ................................................ 350
Finnerty deposition testimony (excerpts), Mar. 19,
2015 (D. Ct. Dkt. No. 193-68) ..................................... 352
Porten deposition testimony (excerpts), May 1, 2015
(D. Ct. Dkt. No. 155-8) ................................................ 355
Finnerty expert report (excerpts), May 22, 2015
(D. Ct. Dkt. No. 170-10) .............................................. 366
VOLUME 2

Gompers expert report, July 2, 2015
(D. Ct. Dkt. No. 170-1) ................................................ 401
Choi expert report (excerpts), July 2, 2015
(D. Ct. Dkt. No. 170-2) ................................................ 517
Starks expert report (excerpts), July 2, 2015
(D. Ct. Dkt. No. 170-3) ................................................ 584
Finnerty rebuttal report (excerpts), Aug. 7, 2015
(D. Ct. Dkt. No. 170-11) .............................................. 637
Gompers deposition testimony (excerpts), Sept. 9,
2015 (D. Ct. Dkt. No. 155-1) ....................................... 660
Starks deposition testimony (excerpts), Sept. 22,
2015 (D. Ct. Dkt. No. 201-16) ..................................... 666
Finnerty deposition testimony (excerpts), Oct. 1,
2015 (D. Ct. Dkt. No. 193-69) ..................................... 670
Chart: Public Allegations of Goldman Sachs Client
Conflicts on 36 Dates Prior to Plaintiffs’
“Corrective Disclosure” Dates, Apr. 13, 2018
(D. Ct. Dkt. No. 193-2) ............................................... 689

IV
Page
Plaintiffs’ Analysis of Defendants’ News Articles on
the 36 Dates Purportedly Reporting on
Goldman’s Conflicts of Interest, Apr. 27, 2018
(D. Ct. Dkt. No. 201-1) ................................................ 695
Evidentiary Hearing: Finnerty direct examination
and cross examination (excerpts), July 25, 2018
(D. Ct. Dkt. No. 233).................................................... 746
Evidentiary Hearing: Gompers cross examination
(excerpts), July 25, 2018 (D. Ct. Dkt. No. 233) ........ 791
VOLUME 3 (Supplemental Joint Appendix)

CIBC World Markets, Equity Research Earnings
Update, Goldman Sachs Group, Jan. 29, 2007
(D. Ct. Dkt. No. 201-5) ................................................ 805
Merrill Lynch Company Update, Goldman Sachs
Group, Mar. 13, 2007 (D. Ct. Dkt. No. 201-6)........... 819
The Buckingham Research Group, Goldman Sachs
Rating, June 17, 2008 .................................................. 835
Merrill Lynch Company Update, Goldman Sachs
Group, July 28, 2008 (D. Ct. Dkt. No. 201-7) ........... 840
Macquarie (USA) Equities Research, Goldman
Sachs Group, Apr. 19, 2010
(D. Ct. Dkt. No. 201-12) .............................................. 852
Wells Fargo, Equity Research, The Goldman Sachs
Group, Inc., Apr. 19, 2010
(D. Ct. Dkt. No. 201-14) .............................................. 858
Citi Report, Goldman Sachs Group, Inc. (GS), May
2, 2010 (D. Ct. Dkt. No. 201-13) ................................. 865
Bernstein Research, Goldman Sachs: Management
Speaks Frankly About the Future of the Firm,
May 4, 2010 (D. Ct. Dkt. No. 201-15) ........................ 881
Plaintiffs’ class certification hearing opening
argument demonstratives, July 25, 2018
(D. Ct. Dkt. No. 215) ................................................... 891

V
Page
Finnerty direct examination demonstratives, July
25, 2018 (D. Ct. Dkt. No. 215-1) ................................. 924
Lead plaintiffs’ summary of argument in further
support of class certification, July 26, 2018
(D. Ct. Dkt. No. 215-2) ................................................ 952

VI
The following opinions and orders have been omitted in
printing the joint appendix because they appear as
appendices to the petition for certiorari as follows:
Appendix A:

Court of appeals opinion,
April 7, 2020

Appendix B:

District court opinion,
August 14, 2018

Appendix C:

Court of appeals opinion,
January 12, 2018

Appendix D:

District court opinion,
September 24, 2015

Appendix E:

Court of appeals order denying
rehearing, June 15, 2020

1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
No. 18-3667
————
ARKANSAS TEACHER RETIREMENT SYSTEM,
v.
GOLDMAN SACHS GROUP, INC.
————
RELEVANT DOCKET ENTRIES
DATE
12/11/2018

NO.
1

PROCEEDINGS
NOTICE OF CIVIL APPEAL, with
district court docket, on behalf of
Appellant Lloyd C. Blankfein, Gary
D. Cohn, Goldman Sachs Group,
Inc. and David A. Viniar, FILED.
[2453066]
[18-3667]
[Entered:
12/11/2018 03:28 PM]
* * *

02/15/2019 62

BRIEF & SPECIAL APPENDIX,
on behalf of Appellant Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc. and David A.
Viniar, FILED. Service date
02/15/2019 by CM/ECF. [2497793]
[18-3667] [Entered: 02/15/2019
11:25 AM]
* * *

2
DATE

NO.

PROCEEDINGS

04/19/2019 187 BRIEF, on behalf of Appellee
Arkansas Teachers Retirement
System, Plumbers and Pipefitters
Pension Group and West Virginia
Investment Management Board,
FILED. Service date 04/19/2019
by CM/ECF. [2544138] [18-3667]
[Entered: 04/19/2019 02:07 PM]
* * *
05/03/2019 222 REPLY BRIEF, on behalf of
Appellant Lloyd C. Blankfein, Gary
D. Cohn, Goldman Sachs Group,
Inc. and David A. Viniar, FILED.
Service date 05/03/2019 by CM/ECF.
[2555456]
[18-3667]
[Entered:
05/03/2019 02:45 PM]
* * *
06/26/2019 232 CASE, before RCW, DC, RJS,
HEARD.
[2595132]
[18-3667]
[Entered: 06/26/2019 12:08 PM]
04/07/2020 233 OPINION, afirming the judgment
of the district court and remanding
for further proceedings consistent
with this opinion, by RCW, DC, RJS
(dissenting), FILED.[2815158] [183667] [Entered: 04/07/2020 08:46
AM]
04/07/2020 235 OPINION, Dissenting, by RJS,
FILED.
[2815163]
[18-3667]
[Entered: 04/07/2020 08:49 AM]
* * *

3
DATE

NO.

PROCEEDINGS

04/07/2020 241 JUDGMENT, FILED. [2815368]
[18-3667] [Entered: 04/07/2020
11:42 AM]
* * *
05/12/2020 246 PETITION FOR REHEARING/
REHEARING EN BANC, on behalf
of Appellant Lloyd C. Blankfein,
Gary D. Cohn, Goldman Sachs
Group, Inc. and David A. Viniar,
FILED. Service date 05/12/2020
by CM/ECF. [2838130] [18-3667]
[Entered: 05/12/2020 08:55 PM]
* * *
06/15/2020 277 ORDER, petition for panel rehearing, or, in the alternative, for
rehearing en banc, denied, FILED.
[2861522]
[18-3667]
[Entered:
06/15/2020 09:26 AM]
* * *
08/21/2020 290 LETTER, on behalf of Appellants
Lloyd C. Blankfein, Gary D. Cohn,
Goldman Sachs Group, Inc. and
David A. Viniar, pursuant to Federal Rule of Appellate Procedure
41(d)(2)(B)(ii) to provide the Court
with notice that DefendantsAppellants have today filed a
petition for a writ of certiorari
with the U.S. Supreme Court,
RECEIVED. Service date 08/21/2020
by CM/ECF. [2914115] [18-3667]—

4
DATE

NO.

PROCEEDINGS
[Edited 08/21/2020 by YL] [Entered:
08/21/2020 02:39 PM]
* * *

08/26/2020 293 U.S. SUPREME COURT NOTICE
of writ of certiorari filing, dated
08/25/2020, U.S. Supreme Court
docket # 20-222, RECEIVED.
[2917557]
[18-3667]
[Entered:
08/27/2020 07:46 AM]
* * *

5
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
No. 16-250
————
PENSION FUNDS,
v.
ARKANSAS TEACHERS RETIREMENT SYSTEM.
————
RELEVANT DOCKET ENTRIES
DATE

NO.

01/26/2016 1

PROCEEDINGS
NOTICE OF CIVIL APPEAL, with
district court docket, on behalf of
Appellant Lloyd C. Blankfein, Gary
D. Cohn, Goldman Sachs Group,
Inc. and David A. Viniar, FILED.
[1691978]
[16-250]
[Entered:
01/26/2016 04:22 PM]
* * *

04/27/2016 46

BRIEF & SPECIAL APPENDIX,
on behalf of Appellant Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc. and David A.
Viniar, FILED. Service date
04/27/2016 by CM/ECF. [1759194]
[16-250] [Entered: 04/27/2016 09:39
AM]
* * *

6
DATE

NO.

PROCEEDINGS

08/19/2016 129 BRIEF, on behalf of Appellee
Arkansas Teachers Retirement
System, Plumbers and Pipefitters
Pension Group and West Virginia
Investment Management Board,
FILED. Service date 08/19/2016
by CM/ECF. [1845267] [16-250]
[Entered: 08/19/2016 02:37 PM]
* * *
09/19/2016 172 REPLY BRIEF, on behalf of
Appellant Lloyd C. Blankfein, Gary
D. Cohn, Goldman Sachs Group,
Inc. and David A. Viniar, FILED.
Service
date
09/19/2016
by
CM/ECF.
[1865992]
[16-250]
[Entered: 09/19/2016 04:10 PM]
* * *
03/15/2017 215 CASE, before JAC, RCW, C.JJ.,
SESSIONS,
D.J.,
HEARD.
[1989015]
[16-250]
[Entered:
03/15/2017 11:20 AM]
* * *
01/12/2018 224 OPINION, the district court’s order
is vacated and remanded for further
proceedings, by JAC, RCW, W.
SESSIONS, FILED.[2212524] [16250] [Entered: 01/12/2018 09:42
AM]
* * *

7
DATE

NO.

PROCEEDINGS

01/12/2018 230 JUDGMENT,
FILED.[2213065]
[16-250] [Entered: 01/12/2018 02:19
PM]
* * *

8
U.S. DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
No. 1:10-cv-03461-PAC
————
PENSION FUNDS,
v.
ARKANSAS TEACHERS RETIREMENT SYSTEM.
————
RELEVANT DOCKET ENTRIES
DATE

NO.

04/26/2010 1

PROCEEDINGS
COMPLAINT against Goldman
Sachs Group, Inc., Lloyd C.
Blankfein, David A. Viniar, Gary D.
Cohn. (Filing Fee $ 350.00, Receipt
Number 901612) Document filed by
Ilene Richman. (ama) (Entered:
04/27/2010)
* * *

07/25/2011 68

CONSOLIDATED CLASS ACTION
AMENDED COMPLAINT amending 1 Complaint against Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc., David A. Viniar
with JURY DEMAND.Document
filed by Plumbers and Pipefitters
Pension Group, West Virginia
Investment Management Board,
Arkansas Teachers Retirement

9
DATE

NO.

PROCEEDINGS
System. Related document: 1 Complaint filed by Ilene Richman.
***This document relates to all
actions.(mro)
(sdi).
(Entered:
07/26/2011)
* * *

10/06/2011 74

FIRST MOTION to Dismiss the
Consolidated Complaint. Document
filed by Lloyd C. Blankfein, Gary D.
Cohn, Goldman Sachs Group, Inc.,
David A. Viniar.(Klapper, Richard)
(Entered: 10/06/2011)

10/06/2011 75

MEMORANDUM OF LAW in Support re: 74 FIRST MOTION to
Dismiss the Consolidated Complaint.. Document filed by Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc., David A. Viniar.
(Klapper,
Richard)
(Entered:
10/06/2011)
* * *

11/14/2011 77

MEMORANDUM OF LAW in
Opposition re: 74 FIRST MOTION
to Dismiss the Consolidated Complaint.. Document filed by Arkansas
Teachers
Retirement
System,
Plumbers and Pipefitters Pension
Group, West Virginia Investment
Management
Board.
(Dubbs,
Thomas) (Entered: 11/14/2011)
* * *

10
DATE

NO.

12/14/2011 81

PROCEEDINGS
REPLY MEMORANDUM OF LAW
in Support re: 74 FIRST MOTION
to Dismiss the Consolidated Complaint.. Document filed by Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc., David A. Viniar.
(Klapper,
Richard)
(Entered:
12/14/2011)
* * *

05/21/2012

Minute Entry for proceedings held
before Judge Paul A. Crotty: Oral
Argument held on 5/21/2012 re: 74
FIRST MOTION to Dismiss the
Consolidated Complaint. filed by
Gary D. Cohn, David A. Viniar,
Lloyd C. Blankfein, Goldman Sachs
Group, Inc.. (Court Reporter Alena
Lynch) (mov) (Entered:05/22/2012)
* * *

06/21/2012 85

OPINION & ORDER: #101981 In
conclusion, Defendants’ motion to
dismiss is GRANTED with respect
to Plaintiffs claim relating to
Defendants failure to disclose their
receipt of Wells Notices, and
DENIED in all other respects. The
Clerk of Court is directed to terminate this motion. SO ORDERED.
(Signed by Judge Paul A. Crotty
on June 21, 2012) (mov) Modified
on
7/2/2012
(jab).
(Entered:
06/21/2012)

11
DATE

NO.

PROCEEDINGS
* * *

08/20/2012 87

ANSWER to 68 Amended Complaint,. Document filed by Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc., David A.
Viniar.(Klapper, Richard) (Entered:
08/20/2012)
* * *

05/30/2014 116 MOTION for Reconsideration of the
Court’s June 21, 2012 Ruling on
Defendants’ Motion to Dismiss.
Document filed by Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc., David A.
Viniar.(Klapper, Richard) (Entered:
05/30/2014)
* * *
06/06/2014 119 MEMORANDUM OF LAW in
Opposition re: 116 MOTION for
Reconsideration of the Court’s June
21, 2012 Ruling on Defendants’
Motion to Dismiss. . Document filed
by Arkansas Teachers Retirement
System, Plumbers and Pipefitters
Pension Group, West Virginia
Investment Management Board.
(Dubbs,
Thomas)
(Entered:
06/06/2014)
06/13/2014 120 REPLY MEMORANDUM OF LAW
in Support re: 116 MOTION for
Reconsideration of the Court’s June
21, 2012 Ruling on Defendants’

12
DATE

NO.

PROCEEDINGS
Motion to Dismiss. . Document filed
by Lloyd C. Blankfein, Gary D.
Cohn, Goldman Sachs Group, Inc.,
David A. Viniar. (Klapper, Richard)
(Entered: 06/13/2014)
* * *

06/23/2014 122 ORDER denying 116 Motion for
Reconsideration (Signed by Judge
Paul A. Crotty on 06/23/2014) (mov)
(Entered: 06/23/2014)
* * *
01/30/2015 135 MOTION to Certify Class . Document filed by Arkansas Teachers
Retirement System, Plumbers and
Pipefitters Pension Group, West
Virginia Investment Management
Board. (Burkholz, Spencer) (Entered:
01/30/2015)
01/30/2015 136 MEMORANDUM OF LAW in
Support re: 135 MOTION to Certify
Class . . Document filed by Arkansas
Teachers
Retirement
System,
Plumbers andPipefitters Pension
Group, West Virginia Investment
Management Board. (Attachments:
# 1 Exhibit A - Robbins Geller Firm
Resume, # 2 Exhibit B - Labaton
Sucharow Firm Resume)(Burkholz,
Spencer) (Entered: 01/30/2015)
* * *

13
DATE

NO.

PROCEEDINGS

04/06/2015 142 MEMORANDUM OF LAW in
Opposition re: 135 MOTION to
Certify Class . . Document filed by
Lloyd C. Blankfein, Gary D. Cohn,
Goldman Sachs Group, Inc., David
A. Viniar. (Attachments: # 1 Appendix A)(Klapper, Richard) (Entered:
04/06/2015)
* * *
05/15/2015 153 REPLY MEMORANDUM OF LAW
in Support re: 135 MOTION to
Certify Class . . Document filed by
Arkansas Teachers Retirement
System, Plumbers and Pipefitters
Pension Group, West Virginia
Investment Management Board.
(Burkholz,
Spencer)
(Entered:
05/15/2015)
* * *
05/28/2015 156 LETTER addressed to Judge Paul
A. Crotty from Richard H. Klapper
dated May 28, 2015 re: Request for
Evidentiary Hearing or Pre-Motion
Conference. Document filed by
Lloyd C. Blankfein, Gary D. Cohn,
Goldman Sachs Group, Inc., David
A.
Viniar.(Klapper,
Richard)
(Entered: 05/28/2015)
06/02/2015 157 LETTER addressed to Judge Paul
A. Crotty from Thomas A, Dubbs
dated 6/2/2015 re: Response and in
opposition to Defendants’ letter of

14
DATE

NO.

PROCEEDINGS
5/28/2015 requesting oral argument
and two-day evidentiary hearing on
Plaintiffs’ motion for class certification. Document filed by Arkansas
Teachers
Retirement
System,
Plumbers and Pipefitters Pension
Group, West Virginia Investment
Management Board.(Dubbs, Thomas)
(Entered: 06/02/2015)

06/08/2015 158 ORDER: The Court is in receipt of
the parties’ letters of May 28, 2015
and June 2, 2015. Defendants have
requested oral argument and a twoday evidentiary hearing on Plaintiffs’ motion for class certification.
Defendants have also requested
leave to submit a 10-page surreply
brief, responsive expert declarations, and “relevant portions of their
experts’ testimony that Plaintiffs
elected not to submit.” Plaintiffs
oppose the request for an evidentiary hearing and the request
to submit supplemental papers.
Defendants’ requests for an evidentiary hearing and oral argument
are denied. Defendants’ request for
leave to file surreply papers in
granted in part. Defendants may
submit a 5-page responsive brief, a
10-page responsive expert declaration, and any testimony necessary
to ensure that the record is complete. (Signed by Judge Paul A.

15
DATE

NO.

PROCEEDINGS
Crotty on 6/8/2015) (lmb) (Entered:
06/08/2015)
* * *

06/23/2015 160 REPLY MEMORANDUM OF LAW
in Opposition re: 135 MOTION to
Certify Class . . Document filed by
Lloyd C. Blankfein, Gary D. Cohn,
Goldman Sachs Group, Inc., David
A. Viniar. (Klapper, Richard)
(Entered: 06/23/2015)
* * *
09/24/2015 163 OPINION & ORDER re: 135
MOTION to Certify Class . filed by
Arkansas Teachers Retirement
System, West Virginia Investment
Management Board, Plumbers and
Pipefitters Pension Group. For the
foregoing reasons, the Court grants
Plaintiffs’ motion for class certification. The Court certifies a class of:
“All persons or entities who,
between February 5, 2007 and June
10, 2010, purchased or otherwise
acquired the common stock of The
Goldman Sachs Group, Inc . . . . and
were damaged thereby.” Labaton
Sucharow LLP and Robbins Geller
Rudman & Dowd LLP are approved
as Class Counsel, and Lead
Plaintiffs Arkansas Teacher Retirement System, Plumbers and Pipefitters National Pension Fund, and

16
DATE

NO.

PROCEEDINGS
West Virginia Investment Management Board are appointed Class
Representatives. The Clerk of the
Court is directed to close out the
pending motion at Docket 135. (As
further set forth in this Order)
(Signed by Judge Paul A. Crotty
on 9/24/2015) (lmb) (Entered:
09/24/2015)
* * *

01/28/2016 175 TRUE COPY ORDER of USCA
USCA Case Number 15-3179.
Petitioners move, pursuant to
Federal Rule of Civil Procedure
23(f), for leave to appeal the district
court’s order granting Respondents
motion for class certification. Petitioners also move for leave to file a
reply in support of their motion.
Further, non-parties the Securities
Industry and Financial Markets
Association (“SIFMA”), the Chamber of Commerce of the United
States (“the Chamber”), and a
group of former Securities and
Exchange Commission (“SEC”) officials and law professors move to file
briefs as amicus curiae in support of
Petitioners’ motion. Upon due consideration, it is hereby ORDERED
that: (1) Petitioners’ motion to file a
reply is GRANTED; (2) the motions
of the Chamber, SIFMA, and the

17
DATE

NO.

PROCEEDINGS
group of former SEC officials and
law professors to file amicus briefs
are GRANTED; and (3) the petition
for leave to appeal is GRANTED.
Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Certified: 01/28/2016. [New Appeal
Case No. 16-250]. (nd) (Entered:
01/28/2016)
* * *

02/02/2018 183 MANDATE of USCA (Certified
Copy) USCA Case Number 16-0250.
The appeal in the above captioned
case from an order of the United
States District Court for the Southern District of New York was
argued on the district court’s record
and the parties briefs. Upon consideration thereof, IT IS HEREBY
ORDERED,
ADJUDGED
and
DECREED that the order of the
district court is VACATED and the
case is REMANDED for further
proceedings consistent with this
Court’s opinion. Catherine O’Hagan
Wolfe, Clerk USCA for the Second
Circuit. Issued As Mandate:
02/02/2018. (Attachments: # 1
Opinion) (nd) (Entered: 02/02/2018)
* * *
03/15/2018 189 ORDER, The Court orders the
following schedule: Opening Brief:

18
DATE

NO.

PROCEEDINGS
April 13, 2018, Reply Brief: April
27, 2018, Oral Argument: May 22,
2018 at 10:00 AM. Parties are
ordered to simultaneously file the
opening briefs and the reply briefs
by the respective deadlines. The
opening briefs shall be limited to 25
pages; the reply briefs shall be
limited to 15 pages. The oral
argument shall be limited to 3
hours, 1.5 hours per side. The Court
reserves the right to hold an evidentiary hearing should the parties’
briefs and oral argument demonstrate its necessity or desirability.
The Court hereby lifts the previously imposed stay of this action. So
Ordered. (Brief due by 4/13/2018.,
Replies due by 4/27/2018., Oral
Argument set for 5/22/2018 at 10:00
AM before Judge Paul A. Crotty.)
(Signed by Judge Paul A. Crotty on
3/15/18) (yv) Modified on 3/15/2018
(yv). (Main Document 189 replaced
on 3/15/2018) (yv). (Entered:
03/15/2018)
* * *

04/13/2018 192 SUPPLEMENTAL MEMORANDUM
OF LAW in Opposition re: 135
MOTION to Certify Class . .
Document filed by Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc., David A. Viniar.

19
DATE

NO.

PROCEEDINGS
(Giuffra,
Robert)
04/13/2018)

(Entered:

* * *
04/13/2018 196 MEMORANDUM OF LAW in
Support re: 135 MOTION to Certify
Class . (Lead Plaintiffs’ Memorandum of Law in Further Support of
Class Certification). Document filed
by Arkansas Teachers Retirement
System, Plumbers and Pipefitters
Pension Group, West Virginia
Investment Management Board.
(Dubbs,
Thomas)
(Entered:
04/13/2018)
* * *
04/27/2018 198 SUPPLEMENTAL REPLY MEMORANDUM OF LAW in Opposition
re: 135 MOTION to Certify Class . .
Document filed by Lloyd C.
Blankfein, Gary D. Cohn, Goldman
Sachs Group, Inc., David A. Viniar.
(Giuffra,
Robert)
(Entered:
04/27/2018)
04/27/2018 199 SUPPLEMENTAL REPLY MEMORANDUM OF LAW in Support re:
135 MOTION to Certify Class .
(Lead Plaintiffs’ Supplemental
Reply Memorandum of Law in
Further Support of Class Certification). Document filed by Arkansas
Teachers
Retirement
System,
Plumbers and Pipefitters Pension

20
DATE

NO.

PROCEEDINGS
Group, West Virginia Investment
Management
Board.
(Dubbs,
Thomas) (Entered: 04/27/2018)
* * *

07/25/2018

Minute Entry for proceedings held
before Judge Paul A. Crotty: Evidentiary Hearing held on 7/25/2018.
Lawrence Sucharow, Thomas Dubbs,
Spencer Burkholz, Jonah Goldstein,
James Johnson, and Robert
Henssler, Jr. appeared for the Lead
Plaintiff. Robert Giuffra, Jr.,
Richard Klapper, David Rein,
Benjamin Walker, Jacob Cohen,
and Julia Malkina appeared for the
Defendants. Argument was heard
from both sides. Oral Argument will
go forward tomorrow, July 26, 2018
at 9:30 AM. See transcript for
details. (Court Reporter Pamela
Utter,
Sam
Mauro,
Kristen
Carannante)
(dgo)
(Entered:
07/25/2018)
* * *

08/14/2018 217 OPINION AND ORDER re: (135 in
1:10-cv-03461-PAC) MOTION to
Certify Class . filed by Arkansas
Teachers Retirement System, West
Virginia Investment Management
Board, Plumbers and Pipefitters
Pension Group. For the reasons set
forth above, the Court concludes

21
DATE

NO.

PROCEEDINGS
that Defendants have failed to meet
their burden of proof: the Basic
presumption is not rebutted and the
motion for class certification is
granted. The Clerk of Court is
directed to terminate the pending
motion at ECF 135. (Signed by
Judge Paul A. Crotty on 8/14/2018)
Filed In Associated Cases: 1:10-cv03461-PAC et al.(rro) (Entered:
08/14/2018)
* * *

12/11/2018 232 ORDER of USCA (Certified Copy)
USCA Case Number 18-2557. Petitioners request, pursuant to Federal Rule of Civil Procedure 23(f),
leave to appeal the district court’s
order granting Respondents’ motion
for class certification. Petitioners
also move for permission to file a
reply brief. And three amici curiae
move for leave to file amicus briefs.
Upon due consideration, it is hereby
ORDERED that the petition for
leave to appeal is GRANTED. The
motion for leave to file a reply brief
is DENIED. The motions of amici
curiae for permission to file amicus
briefs are GRANTED. The Petitioners are directed to file a scheduling
notification within 14 days of the
date of entry of this order pursuant
to Second Circuit Local Rule 31.2.

22
DATE

NO.

PROCEEDINGS
Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Certified:
12/11/2018.
(nd)
(Entered: 12/11/2018)

23
UNITED STATES
SECURITIES AND EXCHANGE COMMISSION
Washington, D.C. 20549
FORM 10-K
ANNUAL REPORT PURSUANT TO SECTION
13 OR 15(d) OF THE SECURITIES
EXCHANGE ACT OF 1934
————
For the fiscal year ended November 30, 2007
Commission File Number: 001-14965
————
The Goldman Sachs Group, Inc.
(Exact name of registrant as specified in its
charter)
————
Delaware
13-4019460
(State or other jurisdiction (I.R.S. Employer
Identification No.)
of incorporation or
organization)
85 Broad Street
New York, N.Y.
(Address of principal
executive offices)

10004
(Zip Code)

(212) 902-1000
(Registrant’s telephone number,
including area code)
————

24
Securities registered pursuant to
Section 12(b) of the Act:
Title of each class:

Name of each
exchange on which
registered:

Common stock, par value
$.01 per share, and
attached Shareholder
Protection Rights

New York Stock
Exchange

Depositary Shares, Each
Representing 1/1,000th
Interest in a Share of
Floating Rate NonCumulative Preferred
Stock, Series A

New York Stock
Exchange

Depositary Shares, Each
Representing 1/1,000th
Interest in a Share of
6.20% Non-Cumulative
Preferred Stock, Series B

New York Stock
Exchange

Depositary Shares, Each
Representing 1/1,000th
Interest in a Share of
Floating Rate NonCumulative Preferred
Stock, Series C

New York Stock
Exchange

Depositary Shares, Each
Representing 1/1,000th
Interest in a Share of
Floating Rate Non-

New York Stock
Exchange

25
Cumulative Preferred
Stock, Series D
5.793% Fixed-to-Floating
Rate Normal Automatic
Preferred Enhanced
Capital Securities of
Goldman Sachs Capital
II (and Registrant’s
guarantee with respect
thereto)

New York Stock
Exchange

Floating Rate Normal
Automatic Preferred
Enhanced Capital
Securities of Goldman
Sachs Capital III (and
Registrant’s guarantee
with respect thereto)

New York Stock
Exchange

Medium-Term Notes,
Series B, Index-Linked
Notes due February 2013;
Index-Linked Notes due
April 2013; Index-Linked
Notes due May 2013;
Index-Linked Notes due
2010; and Index-Linked
Notes due 2011

American Stock
Exchange

Medium-Term Notes,
Series B, 7.35% Notes due
2009; 7.80% Notes due
2010; Floating Rate Notes
due 2008; and Floating
Rate Notes due 2011

New York Stock
Exchange

26
Medium-Term Notes,
Series A, Index-Linked
Notes due 2037 of GS
Finance Corp. (and
Registrant’s guarantee
with respect thereto)

NYSE Arca

Medium-Term Notes,
Series B, Index-Linked
Notes due 2037

NYSE Arca

Securities registered pursuant to
Section 12(g) of the Act: None
————
Indicate by check mark if the registrant is a wellknown seasoned issuer, as defined in Rule 405 of the
Securities Act.
Yes  No 
Indicate by check mark if the registrant is not
required to file reports pursuant to Section 13 or 15(d)
of the Act.
Yes  No 
Indicate by check mark whether the registrant (1)
has filed all reports required to be filed by Section 13
or 15(d) of the Securities Exchange Act of 1934 during
the preceding 12 months (or for such shorter period
that the registrant was required to file such reports),
and (2) has been subject to such filing requirements
for the past 90 days.
Yes  No 
Indicate by check mark if disclosure of delinquent
filers pursuant to Item 405 of Regulation S-K is not
contained herein, and will not be contained, to the best

27
of registrant’s knowledge, in definitive proxy or
information statements incorporated by reference in
Part III of the Annual Report on Form 10-K or any
amendment to the Annual Report on Form 10-K. 
Indicate by check mark whether the registrant is a
large accelerated filer, an accelerated filer, or a nonaccelerated filer. See definition of “accelerated filer
and large accelerated filer” in Rule 12b-2 of the
Exchange Act. (Check one):
Large accelerated filer 
Accelerated filer 
Non-accelerated filer 
Indicate by check mark whether the registrant is a
shell company (as defined in Rule 12b-2 of the
Exchange Act).
Yes  No 
As of May 25, 2007, the aggregate market value of
the common stock of the registrant held by nonaffiliates of the registrant was approximately $89.1
billion.
As of January 18, 2008, there were 395,907,302
shares of the registrant’s common stock outstanding.
Documents incorporated by reference: Portions
of The Goldman Sachs Group, Inc.’s Proxy Statement
for its 2008 Annual Meeting of Shareholders to be held
on April 10, 2008 are incorporated by reference in the
Annual Report on Form 10-K in response to Part III,
Items 10, 11, 12, 13 and 14.
* * *
Conflicts of interest are increasing and a failure
to appropriately identify and deal with conflicts
of interest could adversely affect our businesses.

28
Our reputation is one of our most important assets.
As we have expanded the scope of our businesses and
our client base, we increasingly have to address
potential conflicts of interest, including situations
where our services to a particular client or our own
proprietary investments or other interests conflict, or
are perceived to conflict, with the interests of another
client, as well as situations where one or more of our
businesses have access to material non-public
information that may not be shared with other
businesses within the firm.
The SEC, the NYSE, FINRA, other federal and state
regulators and regulators outside the United States,
including in the United Kingdom and Japan, have
announced their intention to increase their scrutiny of
potential conflicts of interest, including through
detailed examinations of specific transactions. There
have been complaints filed against financial
institutions, including Goldman Sachs, alleging the
violation of antitrust laws arising from their joint
participation in certain leveraged buyouts, referred to
as “club deals,” as discussed under “Legal Proceedings
— Private Equity-Sponsored Acquisitions Litigation”
in Part I, Item 3 of the Annual Report on Form 10-K.
In addition, a number of class action complaints have
also been filed in connection with certain specific “club
deal” transactions which name the relevant “club deal”
participants among the defendants, including
Goldman Sachs affiliates in several cases, and
generally allege that the transactions constitute a
breach of fiduciary duty by the target company and
that the “club” participants aided and abetted such
breach. We cannot predict the outcome of the litigation
to which we are a party, and we may become subject

29
to further litigation or regulatory scrutiny in the
future in this regard.
We have extensive procedures and controls that are
designed to identify and address conflicts of interest,
including those designed to prevent the improper
sharing of information among our businesses.
However, appropriately identifying and dealing with
conflicts of interest is complex and difficult, and our
reputation could be damaged and the willingness of
clients to enter into transactions in which such a
conflict might arise may be affected if we fail, or
appear to fail, to identify and deal appropriately with
conflicts of interest. In addition, potential or perceived
conflicts could give rise to litigation or enforcement
actions.

30

The Goldman Sachs Business Principles

31
1
Our clients’ interests always come first. Our
experience shows that if we serve our clients well, our
own success will follow.
2
Our assets are our people, capital and reputation. If
any of these is ever diminished, the last is the most
difficult to restore. We are dedicated to complying fully
with the letter and spirit of the laws, rules and ethical
principles that govern us. Our continued success
depends upon unswerving adherence to this standard.
3
Our goal is to provide superior returns to our
shareholders. Profitability is critical to achieving
superior returns, building our capital, and attracting
and keeping our best people. Significant employee
stock ownership aligns the interests of our employees
and our shareholders.
4
We take great pride in the professional quality of our
work. We have an uncompromising determination to
achieve excellence in everything we undertake.
Though we may be involved in a wide variety and
heavy volume of activity, we would, if it came to a
choice, rather be best than biggest.
5
We stress creativity and imagination in everything we
do. While recognizing that the old way may still be the
best way, we constantly strive to find a better solution
to a client’s problems. We pride ourselves on having

32
pioneered many of the practices and techniques that
have become standard in the industry.
6
We make an unusual effort to identify and recruit the
very best person for every job. Although our activities
are measured in billions of dollars, we select our
people one by one. In a service business, we know that
without the best people, we cannot be the best firm.
7
We offer our people the opportunity to move ahead
more rapidly than is possible at most other places.
Advancement depends on merit and we have yet to
find the limits to the responsibility our best people are
able to assume. For us to be successful, our men and
women must reflect the diversity of the communities
and cultures in which we operate. That means we
must attract, retain and motivate people from many
backgrounds and perspectives. Being diverse is not
optional; it is what we must be.
8
We stress teamwork in everything we do. While
individual creativity is always encouraged, we have
found that team effort often produces the best results.
We have no room for those who put their personal
interests ahead of the interests of the firm and its
clients.
9
The dedication of our people to the firm and the
intense effort they give their jobs are greater than one
finds in most other organizations. We think that this
is an important part of our success.

33
10
We consider our size an asset that we try hard to
preserve. We want to be big enough to undertake the
largest project that any of our clients could
contemplate, yet small enough to maintain the loyalty,
the intimacy and the esprit de corps that we all
treasure and that contribute greatly to our success.
11
We constantly strive to anticipate the rapidly
changing needs of our clients and to develop new
services to meet those needs. We know that the world
of finance will not stand still and that complacency can
lead to extinction.
12
We regularly receive confidential information as part
of our normal client relationships. To breach a
confidence or to use confidential information
improperly or carelessly would be unthinkable.
13
Our business is highly competitive, and we
aggressively seek to expand our client relationships.
However, we must always be fair competitors and
must never denigrate other firms.
14
Integrity and honesty are at the heart of our business.
We expect our people to maintain high ethical
standards in everything they do, both in their work for
the firm and in their personal lives.

34
FINANCIAL TIMES
Markets & Investing
Wednesday December 5, 2007
John Plender Insight
Goldman’s risk control offers right example of
governance
Financial institutions are notorious for responding
to market shocks in a herd. They are driven to this
behaviour by complex but flawed risk-management
models that assume little interaction between the
individual institution and other players in the market.
Yet in spite of this impulse to conformity, the riskmanagement performance of banks in this credit
market turmoil is anything but herd-like. What is
striking is the sheer variability of outcomes.
At one end of the spectrum Goldman Sachs sails
sublimely on, churning out ever-improving earnings
figures while offsetting losses on its exposure to the
subprime market with vast profits on short positions
in mortgages. At the other end, Merrill Lynch and
Citigroup write off billions and shed their chief
executive officers. How is this disparity to be explained?
Much of it is down to culture. Until recently,
Goldman was a partnership, which is one of the best
risk-control mechanisms invented. The culture of
partnership, which entails a high degree of mutual
surveillance in the common interest, still survives in
spite of Goldman’s status as a listed company. That is
clear from remarks made at a Wharton finance conference in New York last month by Lloyd Blankfein,
Goldman’s chairman and chief executive.

35
Apart from the discipline of marking to market, he
explained, the firm put great emphasis on ensuring
that risk concerns were constantly communicated to
higher levels of management, “getting more fingerprints”
on potential problem risks and challenging the notion
that a business group leader ought to make independent decisions on risks that affected the entire firm.
There was intense accountability through a host of
management committees that evaluated all aspects of
risk.
Most importantly, Goldman ascribes as much
status, prestige and pay to people engaged in control
functions as to those running businesses. It constantly
rotates human capital back and forth between risk
control and business operations.
Compare and contrast with any large bank, where
risk management too often degenerates into mere
compliance. In such a culture, traders will always find
ways around the rules. And if those in charge of the
bank are rewarded with bonuses and other incentives
where the award is not deferred for long enough, you
have a roller-coaster cycle of escalating returns
invariably followed by heavy losses.
The structure of boards is also relevant. In the US
governance model, the chairman and CEO roles tend
not to be split, while the boards are dominated by nonexecutives who too often lack expertise in risk. Over
the recent credit cycle, these non-executive directors
permitted a huge escalation of risk across the banking
system. They also sanctioned pay deals for CEOs,
complete with rewards for failure, that encouraged
risk escalation.
Pete Hahn, a former Citigroup executive who is now
a fellow at the Cass Business School in London, argues

36
bank boards too often resemble retirement clubs. And
he has a point. Apart from CEO Stan O’Neal, only
three of the 12 directors of Merrill at the end of last
year were under 60. Distinguished though Merrill’s
board was, it was hardly chock-a-block with expertise
on banking and risk.
In contrast, Mr Blankfein is accompanied on the
board by two other executive directors, together with
Stephen Friedman, a former senior partner of the
firm. So there is a core group on the board steeped in
the disciplines of risk. And Goldman’s managing
directors include Gerald Corrigan, a former head of
the Federal Reserve Bank of New York, who is
regarded as the pre-eminent expert on financial
plumbing.
It would be foolish to assume the firm will be
necessarily immune from upsets in a deepening credit
squeeze. It has had problems with its in-house hedge
funds. But it does offer a marked contrast to the “big
bank” model now under attack from shareholder
activists such as Knight Vinke. Within a predominantly wholesale operation its activities are diverse.
Yet they offer genuine synergies, albeit with potential
conflicts of interest.
It is clear that bank governance badly needs a
rethink. With its distinctive model, Goldman offers
interesting food for thought.
John Plender is an FT columnist and chairman of
Quintain

37
DOW JONES
BUSINESS NEWS
December 11, 2007
13 Reasons Bush’s Bailout Won’t Stop A Recession
By Paul B. Farrell
ARROYO GRANDE, Calif. (Dow Jones) – “What do
you call an economist with a prediction? Wrong.”
That was the headline of a Business Week column
in late 1999, just months before the 2000 dot-com crash.
Yes, wrong: Conservative supply-siders, balancedbudget centrists and liberal Keynesian stimulators, too.
All wrong! And the 2000 to 2002 recession proved it.
Unfortunately, everybody thinks they’re an economist today, even politicians. But they’re bad at it, too.
So we need to update the headline to fit the mortgage
bailout and other quick-fix solutions to America’s
problems.
First, the context: Fortune magazine recently put
CEOs such as Citi’s Prince and Merrill’s O’Neill under
the microscope: “What Were They Smoking?” The
best-and-brightest lost $165 billion, but exited rich,
with hundreds of millions.
Now we need to ask guys like Paulson, Bernanke
and their Beltway buddies: “What are you guys still
smoking?” Bailout? Freeze? Voluntary? They must be
smoking hundred dollar bills from lobbyists because
this government intervention scheme smells bad.
Why? Because all these solutions are being dreamed
up by the same political and financial geniuses who
got us into the problems in the first place. The same
guys who failed to act before the economy spun out of

38
control. Trusting those same guys makes absolutely no
sense! They were clueless going in. They’re clueless
about the solutions. So, a new rule: “What do you call
a politician with a prediction? Wrong!”
Though you may disagree with Dick Cheney, this
time he’s the only guy inside the Beltway who’s got it
right. Fortune says “the staunchly free-market Vice
President can be expected to resist any impulse to
soften the blow with government action.” His position:
“The markets work, and they are working.”
But unfortunately, Bush, Paulson, Bernanke and
the Democrats are out-voting Cheney. They’re all
pushing government programs predicted to slow the
record number of home foreclosures and “ease the
damage from the housing recession,” as USAToday
described the short-term goals.
What are they still smoking? Reminds me of Viking
King Canute sitting on his throne at the shore commanding the tide to stop. Folks, tides and recessions
come and go. And wishful-thinking, fairy-tale solutions
won’t stop the inevitable, any more than proclaiming
this plan will “ease the damage of the recession,” but
it’s “not a bailout, nor a silver bullet.”
So let’s step back and look at the facts objectively
and rationally. Let’s look at the 13 reasons why all
the bailout fixes are just cosmetic PR that politicians
and lobbyists spin for the masses, to gloss over Wall
Street’s greed and stupidity during the latest bull runup, while pandering to voter naiveté, undermining
America’s long-term needs, and proving once again
that our leaders cannot manage our nation effectively.

39
Here are 13 reasons:
1. No bailout for sock puppets. . . and not for junk
mortgages
Remember all the shareholders who invested in
Wall Street’s last fiasco, those bizarre, no-earnings,
dot-com schemes like Pets.com and its cute sock
puppet? Nobody bailed them out after the 2000 crash
that triggered a 30-month recession and wiped out $8
trillion in market-cap. This time Washington’s just
trying to salvage an out-of-control Wall Street.
2. U.S. dollar loses more credibility
Can it get worse? Yes, the dollar will sink lower.
Martin Feldman, former chairman of Reagan’s Council
of Economic Advisers, recommends doing nothing in a
Wall Street Journal OpEd piece: “Arbitrarily changing
the terms of mortgages held by investors around the
world would destroy the credibility of American private
debt.” But they’re doing it anyway. They got greedy,
sold junk. Now people don’t trust us anymore.
3. Supply-side hypocrisy
It’s almost funny. Supply-siders pretend to trust the
free market to work out problems. Yet the elite of the
conservative free-market supply-siders on Wall Street,
at the Federal Reserve and (except for the Veep) in the
White House, pushed for and got government
intervention to minimize mortgage credit losses
created by Wall Street’s excessive greed.
4. PR stunt and photo-op
Washington knows this is just a PR photo-op pandering to Middle America’s fears. But “it’s too little, too
late and too voluntary” says a New York Times editorial.
“Only an estimated 250,000 borrowers, at best, will

40
benefit” from the mortgage-rate freeze. “From mid2007 to now, some 800,000 have entered foreclosure.
From 2008 through mid-2010 . . . there will be an estimated 3.5 million loan defaults.” Free market politicians
know it won’t work.
5. Undermines responsible mortgagees
Many worry the biggest losers may profit most, like
speculators. Even junk mortgagees who are able to pay
excessive reset rates may get no breaks. Moreover, the
damage will spill-over to the tens of millions of responsible homeowners who are current on their mortgages.
Plus, they will be indirectly penalized; for example, if
they have to sell, they’ll compete against mortgagees
getting bailout benefits and tax breaks in a down
market.
6. Taxpayer revolution coming
Wall Street got too greedy, made mega-billions. The
average managing director made $2.52 million repackaging mortgages. Bubble pops. Housing collapses.
Defaults. Foreclosures. Local revenues dropping. Federal,
too. A Wall Street Journal editorial put it bluntly:
“More than 95% of homeowners are making payments
on time, and they believe it is unfair to pay more taxes
to assist those who’ve been less responsible.” Still, it’s
happening and they’re angry. Expect a rebellion. This
is Wall Street’s problem, not the taxpayers.
7. Déjà vu Spitzer and Enron
New York Attorney General Andrew Cuomo has
already subpoenaed Wall Street. Next: Congress, the
SEC and other state regulators will demand answers,
such as why was Goldman shorting the SIVs they were
selling, many of which quickly went into default?
What did they fail to disclose? Sounds like a massive

41
conflict of interest with major liabilities. These hearings could drag on a long time, further undermining
the international credibility of the dollar.
8. Washington was hiding the truth
As recently as August, U.S. Treasury Secretary Henry
Paulson and Federal Reserve Chairman Ben Bernanke
both proclaimed that our subprime/credit problems were
“contained.” Then, suddenly, they were a “contagion”
enflaming recession fears. The truth: Both had the
data long before August, and mislead us. One is a
former chief of a leading Wall Street bank packaging
the SIVs. The other is our Fed boss with a staff of
thousands of economists and data-crunchers. They
knew the truth many months ago, and did nothing.
9. Washington’s priority? Wall Street
Remember, Paulson’s first response in August was
not to help the two million subprime mortgage holders.
No, Paulson’s first response was to create a $100
billion bailout fund to help his old Wall Street cronies
keep all those junk mortgage credits off their balance
sheets. More conflicts? You bet. Enough to make Chris
Dodd, chairman of the Senate Banking Committee,
threaten a formal investigation of Paulson.
* * *

42
THE WALL STREET JOURNAL
Friday, December 14, 2007 – VOL. CCL NO. 140
How Goldman Won Big On Mortgage Meltdown
A Team’s Bearish Bets Netted Firm Billions;
A Nudge From the CFO
By Kate Kelly
The subprime-mortgage crisis has been a financial
catastrophe for much of Wall Street. At Goldman
Sachs Group Inc., thanks to a tiny group of traders, it
has generated one of the biggest windfalls the
securities industry has seen in years.
The group’s big bet that securities backed by risky
home loans would fall in value generated nearly $4
billion of profits during the year ended Nov. 30,
according to people familiar with the firm’s finances.
Those gains erased $1.5 billion to $2 billion of
mortgage-related losses elsewhere in the firm. On
Tuesday, despite a terrible November and some of the
worst market conditions in decades, analysts expect
Goldman to report record net annual income of more
than $11 billion.
Goldman’s trading home run was blasted from an
obscure corner of the firm’s mortgage department -the structured-products trading group, which now
numbers about 16 traders. Two of them, Michael
Swenson, 40 years old, and Josh Birnbaum, 35, pushed
Goldman to wager that the subprime market was
heading for trouble. Their boss, mortgage-department
head Dan Sparks, 40, backed them up during heated
debates about how much money the firm should risk.
This year, the three men are expected to be paid
between $5 million and $15 million apiece, people
familiar with the matter say.

43

Under Chief Executive Lloyd Blankfein, Goldman
has stood out on Wall Street for its penchant for rolling
the dice with its own money. The upside of that

44
approach was obvious in the third quarter: Despite
credit-market turmoil, Goldman earned $2.9 billion,
its second-best three-month period ever. Mr.
Blankfein is set to be paid close to $70 million this
year, according to one person familiar with the matter.
Goldman’s success at wringing profits out of the
subprime fiasco, however, raises questions about how
the firm balances its responsibilities to its shareholders
and to its clients. Goldman’s mortgage department
underwrote collateralized debt obligations, or CDOs,
complex securities created from pools of subprime
mortgages and other debt. When those securities
plunged in value this year, Goldman’s customers
suffered major losses, as did units within Goldman
itself, thanks to their CDO holdings. The question now
being raised: Why did Goldman continue to peddle
CDOs to customers early this year while its own traders
were betting that CDO values would fall? A spokesman
for Goldman Sachs declined to comment on the issue.
The structured-products trading group that
executed the winning trades isn’t involved in selling
CDOs minted by Goldman, a task handled by others.
Its principal job is to “make a market” for Goldman
clients trading various financial instruments tied to
mortgage-backed securities. That is, the group
handles clients’ buy and sell orders, often stepping in
on the other side of trades if no other buyer or seller is
available.

45

The group also has another mission: If it spots
opportunity, it can trade Goldman’s own capital to
make a profit. And when it does, it doesn’t necessarily
have to share such information with clients, who may
be making opposite bets. This year, Goldman’s traders

46
did a brisk business handling trades for clients who
were bullish on the subprime-mortgage-securities
market. At the same time, they used Goldman’s money
to bet that that market would fall.
Tight Leash
Financial firms have good reason to keep a tight
leash on proprietary traders. In 1995, bad bets by
Nicholas Leeson, a young trader, led to $1.4 billion in
losses and the collapse of Barings PLC. Last year, the
hedge fund Amaranth Advisors shut down after a
young Canadian trader lost more than $6 billion on
natural-gas trades. But big trading wins such as
George Soros’s 1992 bet against the British pound,
which netted more than $1 billion for his hedge fund,
tend to be talked about for years.
The subprime trading gains notched by Messrs.
Birnbaum and Swenson and their Goldman associates
are large by recent Wall Street standards. Traders at
Deutsche Bank AG and Morgan Stanley also bet
against the subprime-mortgage market this year, but
in each case, their gains were essentially wiped out
because their firms underestimated how far the
markets would fall. New York hedge-fund company
Paulson & Co. also turned a considerable profit on the
subprime meltdown this year, as did Hayman Capital
Partners, a Dallas-based hedge-fund firm, say people
familiar with the matter.
As recently as a year ago, few on Wall Street thought
that the market for home loans made to risky
borrowers, known as subprime mortgages, was
heading for disaster. At that point, Goldman was
bullish on bonds backed by such loans.

47
Hashing Out Risk
Last December, Mr. Sparks, a longtime trader of
bond-related products, was named head of Goldman’s
400-person mortgage department. That gave him a
seat on the firm’s risk committee, which numbers
about 30 and meets weekly to hash out the firm’s risk
profile. It also gave him authority over the structuredproducts trading group, which then had just eight
traders and was run jointly by Mr. Swenson and David
Lehman, 30, a former Deutsche Bank trader.
Mr. Swenson, known as Swenny on the trading
desk, is a former Williams College hockey player with
four children and an acid wit. A veteran trader of
asset-backed securities, he joined Goldman in 2000. In
late 2005, he helped persuade Mr. Birnbaum, a
Goldman veteran, to join the group. Mr. Birnbaum had
developed and traded a new security tied to mortgage
rates.
Mr. Swenson and Mr. Sparks, then No. 2 in the
mortgage department, wanted Mr. Birnbaum to try
his hand at trading related to the first ABX index,
which was scheduled to launch in January 2006.
Because securities backed by subprime mortgages
trade privately and infrequently, their values are hard
to determine. The ABX family of indexes was designed
to reflect their values based on instruments called
credit-default swaps. These swaps, in essence, are
insurance contracts that pay out if the securities
backed by subprime mortgages decline in value. Such
swaps trade more actively, with their values rising
and falling based on market sentiments about
subprime default risk.

48
Messrs. Swenson and Sparks told Mr. Birnbaum the
ABX was going to be a hot product, according to people
with knowledge of their pitch.
They were right. On the first day of trading,
Goldman netted $1 million in trading profits, people
familiar with the matter say. But the index was tough
to trade. In comparison to huge markets like Treasury
bonds, there wasn’t much buying and selling. That
meant that Mr. Swenson’s team nearly always had to
use Goldman’s capital to complete trades for clients
looking to buy or sell.
Signs of Weakness
Last December, David Viniar, Goldman’s chief
financial officer, gave the group a big push, suggesting
that it adopt a more-bearish posture on the subprime
market, according to people familiar with his
instructions. During a discussion with Mr. Sparks and
others, Mr. Viniar noted that Goldman had big
exposure to the subprime mortgage market because of
CDOs and other complex securities it was holding,
these people say. Emerging signs of weakness in the
market, meant that Goldman needed to hedge its bets,
the group concluded, these people say.
Mr. Swenson and his traders began shorting certain
slices of the ABX, or betting against them, by buying
credit-default swaps. At that time, new subprime
mortgages still were being pumped out at a rapid clip,
and gloom hadn’t yet descended on the market. As a
result, the swaps were relatively cheap.
Still, trading volume was thin, so it took months for
the group to accumulate enough swaps to fully hedge
Goldman’s exposure to the subprime market. By
February, Goldman had built up a sizable short

49
position, and was poised to profit from the subprime
meltdown.
The timing was nearly perfect. Goldman’s bets were
focused on an ABX index that reflects the value of a
basket of securities that came to market in early 2006,
known as the 06-2 index. Goldman bet that the riskiest
portion of that index – a sub-index that reflects the
value of the slices of the securities with the lowest
credit ratings – would plunge in value. This January,
as concerns about subprime mortgages grew, that subindex dropped from about 95 to below 90. The traders
handling the ABX trades were sitting on big profits.
Like other Wall Street firms, Goldman weighs its
financial risk by calculating its average daily “value at
risk,” or VaR. It’s meant to be a measure of how much
money the firm could lose under adverse market
conditions. Because the ABX had become so volatile,
the VaR connected to the trades was soaring.
Goldman’s co-president, Gary Cohn, who oversees
the firm’s trading business, became a frequent visitor,
as did the firm’s risk managers. More than once, Mr.
Sparks was summoned to Mr. Blankfein’s office to
discuss the market. Goldman’s top executives
understood the group’s strategy, say people with
knowledge of the matter, but were uncompromising
about the VaR. They demanded that risk be cut by as
much as 50%, these people say.
Messrs. Swenson and Birnbaum, however, argued
that the mortgage market was heading down, and
Goldman should take full advantage by maintaining
large short positions, people familiar with the matter
say.
One day in late February, with the riskiest portion
of the 06-2 index heading toward 60, the discussion

50
about what to do grew heated, these people say. Mr.
Birnbaum argued that Goldman would be leaving
money on the table by unwinding some of the trades
his group had used to bet on the mortgage market’s
decline.
“This is the wrong price” to close out the positions,
Mr. Birnbaum snapped at a colleague assigned to help
reduce risk, slamming down his phone receiver, these
people say. He was overruled.
In March and April, the risky portion of the 06-2
index, which had taken a beating in February,
bounced back from near 60 into the mid-70s. By then,
the CDO underwriting business, which had been
lucrative for Goldman, Merrill Lynch & Co. and other
Wall Street firms, was slowing dramatically. Potential
buyers had grown worried about the market.
Thanks to the wager that the ABX index would fall,
Goldman’s mortgage department earned several
hundred million dollars during the first quarter, say
people familiar with the matter. But the traders had
unwound that bet in the weeks that followed. That
left Goldman unhedged against further carnage, a
worrisome situation for the second quarter.
In late April, Mr. Sparks, the mortgage-department
chief, met with Mr. Cohn, the trading head, Mr.
Viniar, the chief financial officer, and a couple of other
senior executives. “We’ve got a big problem,” Mr.
Sparks told them as they paged through a handout
listing the declining values of Goldman’s CDO
portfolio, according to people with knowledge of the
meeting. Prices were heading straight down, he told
them. He suggested that Goldman cancel a number
of pending CDO deals, these people say, and sell

51
whatever it could of the firm’s roughly $10 billion in
CDOs and related securities – probably at a loss.
Into the Red
Led by Mr. Lehman, the co-head of the structuredproducts trading group, Goldman began selling off the
majority of its CDO holdings. The losses pushed the
mortgage group into the red for the second quarter.
By then, the subprime-mortgage market was
cratering. Dozens of lenders had filed for bankruptcy
protection, and legions of subprime borrowers were
losing their homes. At Bear Stearns Cos., two internal
hedge funds that had invested in risky portions of
CDOs and other securities were struggling. Merrill
and Citigroup Inc., among others, were sitting on
billions of dollars in depreciating mortgage holdings.
Although it had become more expensive to wager
against the ABX index, Messrs. Swenson and
Birnbaum got a green light to once again ratchet up
the firm’s bet that securities backed by subprime
mortgages would fall further. In July, the riskiest
portion of the index plunged.
No Time for Breaks
The structured-products traders were working long
hours. Mr. Swenson would leave his home in Northern
New Jersey in time to hit the gym and be at his desk
by 7:30 a.m. When Mr. Birnbaum arrived from his
Manhattan loft, they’d begin executing large trades on
behalf of clients. There was no time for breaks. They
took breakfast and lunch at their desks – for Mr.
Swenson, the same chicken-and-vegetable salad every
day from a nearby deli; for Mr. Birnbaum, an eggwhite sandwich for breakfast, a chicken or turkey
sandwich for lunch.

52
Mr. Sparks, the mortgage chief, climbed into his car
at 5:30 each morning for the drive in from New
Canaan, Conn. To calm his nerves, he’d stop by the
gym in Goldman’s downtown building to briefly jump
rope and lift weights. Sometimes he worked past
midnight, arriving home exhausted. He canceled a
family ski trip to Wyoming. Although he loved to
attend Texas A&M football games and owned a second
home near the university, he decided not to join his
wife and two children on more than one trip. (Mr.
Sparks is a major donor to the university’s athletic
program.)
By late July, the Bear Stearns funds had collapsed
and rumors were circulating of multibillion-dollar
CDO losses at Merrill. Goldman was raking in profits.
But once again, concern was growing about VaR, the
all-important measure of risk. At one point in July,
senior executives called another meeting to demand
the mortgage traders pull back, according to people
familiar with the matter. The traders agreed.
Ratcheting Back
Around Labor Day, Mr. Birnbaum was asked to
ratchet back one of his short positions by $250 million,
according to Hayman Capital managing partner Kyle
Bass, a client who had similar positions at the time.
Mr. Bass says he made $100 million by relieving
Goldman of that particular short bet. “It appeared to
me that [the traders] constantly fought a VaR battle
with the firm once the market started to break,” says
Mr. Bass.
In the first three quarters of its fiscal year,
Goldman’s VaR rose 38%, ending that period at $139
million per day, an all-time high, regulatory filings
indicate.

53
During the third quarter ended Aug. 30, the
structured-products trading group made more than
$1 billion, say people knowledgeable about its
performance. That helped the mortgage department
notch record quarterly earnings of $800 million, these
people say.
The subprime market continued to deteriorate
through the fall. Both Merrill and Citigroup
announced massive write-downs connected to the
subprime mess, and their chief executive officers
resigned.
Goldman pressed forward with its bearish bets on
the ABX index, people familiar with its strategy say.
In October, Goldman’s mortgage unit moved from one
downtown Manhattan office building to another.
Despite their stellar year, traders were crowded into a
low-ceiling floor where 150 employees shared one
small men’s room.
In late November, Mr. Sparks summoned Messrs.
Birnbaum and Swenson to his office for separate
visits. He thanked each trader for what he had done
for the firm.
But there has been no time to relax. Two weeks into
Goldman’s new fiscal year, credit markets are looking
bleaker than ever. Already, analysts are trimming
their estimates of how much Goldman and other Wall
Street firms will make in the coming year.

54
THE NEW YORK TIMES
Sunday, December 6, 2009
OFF THE SHELF
Devin Leonard
Economy’s Loss Was One Man’s Gain
There has been no shortage of books about Wall
Street leaders who made billions of dollars disappear
in the financial crisis. But as the Wall Street Journal
reporter Gregory Zuckerman writes in “The Greatest
Trade Ever,” (Broadway Books, 295 pages) the
financial crisis was a goldmine for a small group of
investors. One of them, John Paulson, founder of
Paulson & Company, a New York hedge fund, made
$15 billion in 2007 by shorting the housing bubble.
How did he do it? His fund purchased insurance
contracts – called credit default swaps – on securitized
mortgage debt at the peak of the real estate boom.
Their value soared when the subprime crisis arrived.
Mr. Paulson personally took home $4 billion of his
fund’s take.
Mr. Zuckerman argues that Mr. Paulson’s lucrative
bets – it wasn’t a single trade – put him in the
pantheon of legendary investors like Warren E.
Buffett, George Soros and Bernard Baruch.
“They also made him one of the richest people in the
world, wealthier than Steven Spielberg, Mark
Zuckerberg and David Rockefeller Sr.,” he writes.
Mr. Zuckerman is a first-rate reporter who is also
able to explain the complexities of real estate finance
in layman’s terms. At times, “The Greatest Trade
Ever” (the subtitle is “The Behind-the-Scenes Story of

55
How John Paulson Defied Wall Street and Made
Financial History”) reads like a thriller.
But as you might have already discerned from the
overly exuberant title, his book lacks perspective.
Mr. Zuckerman depicts Mr. Paulson as a hero for
seeing through “the hubris and failure of Wall Street
and the financial sector.”
Mr. Paulson did indeed see through Wall Street
hubris. But if you read this book closely, you realize
he’s no hero.
The author clearly considers Mr. Paulson morally
superior to the leaders of investment banks like Bear
Stearns and Lehman Brothers and subprime
mortgage lenders like Countrywide Financial and
New Century, all of whom are vilified.
But is he really? It’s true that the bearish
Mr. Paulson enriched his investors while his bullish
counterparts helped bring about a global economic
crisis that impoverished countless people. But he
wouldn’t have made his billions if those players had
acted more prudently.
According to Mr. Zuckerman, Mr. Paulson
persuaded Goldman Sachs and Deutsche Bank to put
together securitized collateralized debt obligations
(known as C.D.O.’s), which were filled with nasty
mortgages that he could then short.
Of course, nobody told the suckers – er, investors –
who bought those C.D.O.’s that they were designed to
help a man who wanted the most toxic mortgages
imaginable so he could profit when they went sour.
But Mr. Zuckerman doesn’t make much of this scandal
– and it is a scandal – perhaps because he doesn’t want
to taint his supposedly heroic central character.

56
This isn’t the only instance in which Mr. Zuckerman
bends over backward to present Mr. Paulson in a
favorable light. He goes to great lengths to depict him
as a self-effacing regular guy who takes the bus and
dresses unfashionably. In short, the author would like
us to think that this hedge fund manager is very
un-Wall Street.
Perhaps. But Mr. Zuckerman also explains that
Mr. Paulson, who grew up in Queens, marched off to
Wall Street for the same reason everybody else does:
to make piles of money.
We learn in “The Greatest Trade Ever” that, in his
30s, Mr. Paulson had a loft in SoHo where he mingled
with models, celebrities and other bankers. After
turning 40, Mr. Zuckerman writes, Mr. Paulson
married his attractive assistant. They settled down to
raise their daughters in a $15 million, six-story
mansion, complete with indoor pool, on the Upper East
Side.
The former sybarite then became something of a
prig, by Mr. Zuckerman’s account, scolding his friends
for using foul language and his employees for eating
pizza, which he considered unhealthy. That may not
be typical Wall Street behavior. The rest of it sounds
familiar, though.
Luckily for Mr. Zuckerman – and his readers –
Mr. Paulson is not the only character in the book.
There is also Paolo Pelligrini, a 50-year-old Italian
analyst who is living in a one-bedroom rental in
Westchester after washing out at the investment bank
Lazard Frêres and breaking up with his second wife, a
wealthy New York socialite.
Mr. Paulson, an old Wall Street acquaintance,
throws him a lifeline in the form of a job offer. Mr.

57
Pelligrini reciprocates by throwing himself into his
work and helps his boss create his winning strategy.
There is Mr. Paulson’s friend, Jeffery Green, a Los
Angeles real estate investor who pals around with
Mike Tyson and Paris Hilton. He falls out with Mr.
Paulson after learning of his friend’s investment
strategy and making his own bets again[st] the boom.
Jeffery Libert, another old acquaintance, also
decides to buy credit default swaps. But he is racked
with guilt, Mr. Zuckerman writes, when he finds
himself wishing for homeowners to default so he can
make his money. It’s a rare moment of introspection in
“The Greatest Trade Ever.” For the most part, the
people in Mr. Zuckerman’s book couldn’t be happier
when the housing market collapses.
At the end of the book, Mr. Paulson has more money
than he will ever be able to spend. He gives $15 million
to the Center for Responsible Lending, a non-profit
that helps families facing foreclosure. That’s not much
for a guy who made $4 billion in a single year.
Mr. Buffett and Mr. Soros have been more generous
with their earnings. If Mr. Paulson wants to be
remembered as a hero, he might want to do more for
the people who are on the wrong side of his trades.

58
GOLDMAN SACHS
MEDIA RELATIONS - IN THE NEWS
Goldman Sachs Responds to The New York Times on
Synthetic Collateralized Debt Obligations
Background: The New York Times published a story
on December 24th primarily focused on the synthetic
collateralized debt obligation business of Goldman Sachs.
In response to questions from the paper prior to publication, Goldman Sachs made the following points.
As reporters and commentators examine some of the
aspects of the financial crisis, interest has gravitated
toward a variety of products associated with the mortgage
market. One of these products is synthetic collateralized
debt obligations (CDOs), which are referred to as synthetic because the underlying credit exposure is taken
via credit default swaps rather than by physically
owning assets or securities. The following points provide
a summary of how these products worked and why
they were created.
Any discussion of Goldman Sachs’ association with
this product must begin with our overall activities in
the mortgage market. Goldman Sachs, like other
financial institutions, suffered significant losses in its
residential mortgage portfolio due to the deterioration
of the housing market (we disclosed $1.7 billion in
residential mortgage exposure write-downs in 2008).
These losses would have been substantially higher had
we not hedged. We consider hedging the cornerstone
of prudent risk management.
Synthetic CDOs were an established product for
corporate credit risk as early as 2002. With the introduction of credit default swaps referencing mortgage
products in 2004-2005, it is not surprising that market

59
participants would consider synthetic CDOs in the context of mortgages. Although precise tallies of synthetic
CDO issuance are not readily available, many observers
would agree the market size was in the hundreds of
billions of dollars.
Many of the synthetic CDOs arranged were the result
of demand from investing clients seeking long exposure.
Synthetic CDOs were popular with many investors
prior to the financial crisis because they gave investors
the ability to work with banks to design tailored securities which met their particular criteria, whether it be
ratings, leverage or other aspects of the transaction.
The buyers of synthetic mortgage CDOs were large,
sophisticated investors. These investors had significant in-house research staff to analyze portfolios and
structures and to suggest modifications. They did not
rely upon the issuing banks in making their investment decisions.
For static synthetic CDOs, reference portfolios were
fully disclosed. Therefore, potential buyers could simply
decide not to participate if they did not like some or all
the securities referenced in a particular portfolio.
Synthetic CDOs require one party to be long the risk
and the other to be short so without the short position,
a transaction could not take place.
It is fully disclosed and well known to investors that
banks that arranged synthetic CDOs took the initial
short position and that these positions could either have
been applied as hedges against other risk positions or
covered via trades with other investors.
Most major banks had similar businesses in synthetic
mortgage CDOs.

60
As housing price growth slowed and then turned
negative, the disruption in the mortgage market resulted
in synthetic CDO losses for many investors and financial
institutions, including Goldman Sachs, effectively putting an end to this market.

61
THE NEW YORK TIMES
New York, Thursday, December 24, 2009
VOL. CLIX No. 54,899
Banks Bundled Debt, Bet Against It and Won
By GRETCHEN MORGENSON and LOUISE STORY
In late October 2007, as the financial markets were
starting to come unglued, a Goldman Sachs trader,
Jonathan M. Egol, received very good news. At 37, he
was named a managing director at the firm.
Mr. Egol, a Princeton graduate, had risen to
prominence inside the bank by creating mortgagerelated securities, named Abacus, that were at first
intended to protect Goldman from investment losses if
the housing market collapsed. As the market soured,
Goldman created even more of these securities,
enabling it to pocket huge profits.
Goldman’s own clients who bought them, however,
were less fortunate.
Pension funds and insurance companies lost billions
of dollars on securities that they believed were solid
investments, according to former Goldman employees
with direct knowledge of the deals who asked not to be
identified because they have confidentiality agreements with the firm.
Goldman was not the only firm that peddled these
complex securities — known as synthetic collateralized debt obligations, or C.D.O.’s — and then made
financial bets against them, called selling short in
Wall Street parlance. Others that created similar
securities and then bet they would fail, according to
Wall Street traders, include Deutsche Bank and
Morgan Stanley, as well as smaller firms like Tricadia

62
Inc., an investment company whose parent firm was
overseen by Lewis A. Sachs, who this year became a
special counselor to Treasury Secretary Timothy F.
Geithner.
How these disastrously performing securities were
devised is now the subject of scrutiny by investigators
in Congress, at the Securities and Exchange Commission
and at the Financial Industry Regulatory Authority,
Wall Street’s self-regulatory organization, according
to people briefed on the investigations. Those involved
with the inquiries declined to comment.
While the investigations are in the early phases,
authorities appear to be looking at whether securities
laws or rules of fair dealing were violated by firms that
created and sold these mortgage-linked debt instruments and then bet against the clients who purchased
them, people briefed on the matter say.
One focus of the inquiry is whether the firms
creating the securities purposely helped to select
especially risky mortgage-linked assets that would be
most likely to crater, setting their clients up to lose
billions of dollars if the housing market imploded.
Some securities packaged by Goldman and Tricadia
ended up being so vulnerable that they soured within
months of being created.
Goldman and other Wall Street firms maintain
there is nothing improper about synthetic C.D.O.’s,
saying that they typically employ many trading
techniques to hedge investments and protect against
losses. They add that many prudent investors often do
the same. Goldman used these securities initially to
offset any potential losses stemming from its positive
bets on mortgage securities.

63
But Goldman and other firms eventually used the
C.D.O.’s to place unusually large negative bets that
were not mainly for hedging purposes, and investors
and industry experts say that put the firms at odds
with their own clients’ interests.
“The simultaneous selling of securities to customers
and shorting them because they believed they were
going to default is the most cynical use of credit
information that I have ever seen,” said Sylvain R.
Raynes, an expert in structured finance at R & R
Consulting in New York. “When you buy protection
against an event that you have a hand in causing, you
are buying fire insurance on someone else’s house and
then committing arson.”
Investment banks were not alone in reaping rich
rewards by placing trades against synthetic C.D.O.’s.
Some hedge funds also benefited, including Paulson &
Company, according to former Goldman workers and
people at other banks familiar with that firm’s trading.
Michael DuVally, a Goldman Sachs spokesman,
declined to make Mr. Egol available for comment. But
Mr. DuVally said many of the C.D.O.’s created by Wall
Street were made to satisfy client demand for such
products, which the clients thought would produce
profits because they had an optimistic view of the
housing market. In addition, he said that clients knew
Goldman might be betting against mortgages linked to
the securities, and that the buyers of synthetic
mortgage C.D.O.’s were large, sophisticated investors,
he said.
The creation and sale of synthetic C.D.O.’s helped
make the financial crisis worse than it might
otherwise have been, effectively multiplying losses by
providing more securities to bet against. Some $8

64
billion in these securities remain on the books at
American International Group, the giant insurer
rescued by the government in September 2008.
From 2005 through 2007, at least $108 billion in
these securities was issued, according to Dealogic, a
financial data firm. And the actual volume was much
higher because synthetic C.D.O.’s and other customized
trades are unregulated and often not reported to any
financial exchange or market.
Goldman Saw It Coming
Before the financial crisis, many investors — large
American and European banks, pension funds, insurance companies and even some hedge funds — failed
to recognize that overextended borrowers would default
on their mortgages, and they kept increasing their
investments in mortgage-related securities. As the
mortgage market collapsed, they suffered steep losses.
* * *
One former Goldman salesman wrote a novel about
the crisis. A Deutsche Bank trader passed out T-shirts
for investors hoping to profit on a housing bust.
A handful of investors and Wall Street traders,
however, anticipated the crisis. In 2006, Wall Street
had introduced a new index, called the ABX, that
became a way to invest in the direction of mortgage
securities. The index allowed traders to bet on or
against pools of mortgages with different risk
characteristics, just as stock indexes enable traders to
bet on whether the overall stock market, or technology
stocks or bank stocks, will go up or down.
Goldman, among others on Wall Street, has said
since the collapse that it made big money by using the
ABX to bet against the housing market. Worried about

65
a housing bubble, top Goldman executives decided in
December 2006 to change the firm’s overall stance on
the mortgage market, from positive to negative,
though it did not disclose that publicly.
Even before then, however, pockets of the investment bank had also started using C.D.O.’s to place
bets against mortgage securities, in some cases to
hedge the firm’s mortgage investments, as protection
against a fall in housing prices and an increase in
defaults.
Mr. Egol was a prime mover behind these securities.
Beginning in 2004, with housing prices soaring and
the mortgage mania in full swing, Mr. Egol began
creating the deals known as Abacus. From 2004 to
2008, Goldman issued 25 Abacus deals, according to
Bloomberg, with a total value of $10.9 billion.
Abacus allowed investors to bet for or against the
mortgage securities that were linked to the deal. The
C.D.O.’s didn’t contain actual mortgages. Instead,
they consisted of credit-default swaps, a type of
insurance that pays out when a borrower defaults.
These swaps made it much easier to place large bets
on mortgage failures.
Rather than persuading his customers to make
negative bets on Abacus, Mr. Egol kept most of these
wagers for his firm, said five former Goldman
employees who spoke on the condition of anonymity.
On occasion, he allowed some hedge funds to take
some of the short trades.
Mr. Egol and Fabrice Tourre, a French trader at
Goldman, were aggressive from the start in trying to
make the assets in Abacus deals look better than they
were, according to notes taken by a Wall Street

66
investor during a phone call with Mr. Tourre and
another Goldman employee in May 2005.
On the call, the two traders noted that they were
trying to persuade analysts at Moody’s Investors
Service, a credit rating agency, to assign a higher
rating to one part of an Abacus C.D.O. but were having
trouble, according to the investor’s notes, which were
provided by a colleague who asked for anonymity
because he was not authorized to release them.
Goldman declined to discuss the selection of the assets
in the C.D.O.’s, but a spokesman said investors could
have rejected the C.D.O. if they did not like the assets.
Goldman’s bets against the performances of the
Abacus C.D.O.’s were not worth much in 2005 and
2006, but they soared in value in 2007 and 2008 when
the mortgage market collapsed. The trades gave Mr.
Egol a higher profile at the bank, and he was among a
group promoted to managing director on Oct. 24, 2007.
“Egol and Fabrice were way ahead of their time,”
said one of the former Goldman workers. “They saw
the writing on the wall in this market as early as
2005.” By creating the Abacus C.D.O.’s, they helped
protect Goldman against losses that others would
suffer.
As early as the summer of 2006, Goldman’s sales
desk began marketing short bets using the ABX index
to hedge funds like Paulson & Company, Magnetar
and Soros Fund Management, which invests for the
billionaire George Soros. John Paulson, the founder of
Paulson & Company, also would later take some of the
shorts from the Abacus deals, helping him profit when
mortgage bonds collapsed. He declined to comment.

67
A Deal Gone Bad, for Some
The woeful performance of some C.D.O.’s issued by
Goldman made them ideal for betting against. As of
September 2007, for example, just five months after
Goldman had sold a new Abacus C.D.O., the ratings
on 84 percent of the mortgages underlying it had been
downgraded, indicating growing concerns about
borrowers’ ability to repay the loans, according to
research from UBS, the big Swiss bank. Of more than
500 C.D.O.’s analyzed by UBS, only two were worse
than the Abacus deal.
Goldman created other mortgage-linked C.D.O.’s
that performed poorly, too. One, in October 2006, was
a $800 million C.D.O. known as Hudson Mezzanine. It
included credit insurance on mortgage and subprime
mortgage bonds that were in the ABX index; Hudson
buyers would make money if the housing market
stayed healthy — but lose money if it collapsed.
Goldman kept a significant amount of the financial
bets against securities in Hudson, so it would profit if
they failed, according to three of the former Goldman
employees.
A Goldman salesman involved in Hudson said the
deal was one of the earliest in which outside investors
raised questions about Goldman’s incentives. “Here
we are selling this, but we think the market is going
the other way,” he said.
A hedge fund investor in Hudson, who spoke on the
condition of anonymity, said that because Goldman
was betting against the deal, he wondered whether the
bank built Hudson with “bonds they really think are
going to get into trouble.”
Indeed, Hudson investors suffered large losses. In
March 2008, just 18 months after Goldman created

68
that C.D.O., so many borrowers had defaulted that
holders of the security paid out about $310 million to
Goldman and others who had bet against it, according
to correspondence sent to Hudson investors.
The Goldman salesman said that C.D.O. buyers
were not misled because they were advised that
Goldman was placing large bets against the securities.
“We were very open with all the risks that we thought
we sold. When you’re facing a tidal wave of people who
want to invest, it’s hard to stop them,” he said. The
salesman added that investors could have placed bets
against Abacus and similar C.D.O.’s if they had
wanted to.
A Goldman spokesman said the firm’s negative bets
didn’t keep it from suffering losses on its mortgage
assets, taking $1.7 billion in write-downs on them in
2008; but he would not say how much the bank had
since earned on its short positions, which former
Goldman workers say will be far more lucrative over
time. For instance, Goldman profited to the tune of
$1.5 billion from one series of mortgage-related trades
by Mr. Egol with Wall Street rival Morgan Stanley,
which had to book a steep loss, according to people at
both firms.

69

Credit...Left, Treasury Department; Kevin Wolf/
Associated Press
Lewis Sachs, left, who oversaw C.D.O.’s before
becoming a Treasury adviser, and John Paulson,
whose company profited as the housing market
collapsed.
Tetsuya Ishikawa, a salesman on several Abacus
and Hudson deals, left Goldman and later published a
novel, “How I Caused the Credit Crunch.” In it, he
wrote that bankers deserted their clients who had
bought mortgage bonds when that market collapsed:
“We had moved on to hurting others in our quest for
self-preservation.” Mr. Ishikawa, who now works for
another financial firm in London, declined to comment
on his work at Goldman.

70
Profits From a Collapse
Just as synthetic C.D.O.’s began growing rapidly,
some Wall Street banks pushed for technical
modifications governing how they worked in ways that
made it possible for C.D.O.’s to expand even faster,
and also tilted the playing field in favor of banks and
hedge funds that bet against C.D.O.’s, according to
investors.
In early 2005, a group of prominent traders met at
Deutsche Bank’s office in New York and drew up a new
system, called Pay as You Go. This meant the
insurance for those betting against mortgages would
pay out more quickly. The traders then went to the
International Swaps and Derivatives Association, the
group that governs trading in derivatives like
C.D.O.’s. The new system was presented as a fait
accompli, and adopted.
Other changes also increased the likelihood that
investors would suffer losses if the mortgage market
tanked. Previously, investors took losses only in
certain dire “credit events,” as when the mortgages
associated with the C.D.O. defaulted or their issuers
went bankrupt.
But the new rules meant that C.D.O. holders would
have to make payments to short sellers under less
onerous outcomes, or “triggers,” like a ratings
downgrade on a bond. This meant that anyone who bet
against a C.D.O. could collect on the bet more easily.
“In the early deals you see none of these triggers,”
said one investor who asked for anonymity to preserve
relationships. “These things were built in to provide
the dealers with a big payoff when something bad
happened.”

71
Banks also set up ever more complex deals that
favored those betting against C.D.O.’s. Morgan
Stanley established a series of C.D.O.’s named after
United States presidents (Buchanan and Jackson)
with an unusual feature: short-sellers could lock in
very cheap bets against mortgages, even beyond the
life of the mortgage bonds. It was akin to allowing
someone paying a low insurance premium for coverage
on one automobile to pay the same on another one even
if premiums over all had increased because of high
accident rates.
At Goldman, Mr. Egol structured some Abacus deals
in a way that enabled those betting on a mortgagemarket collapse to multiply the value of their bets, to
as much as six or seven times the face value of those
C.D.O.’s. When the mortgage market tumbled, this
meant bigger profits for Goldman and other short
sellers — and bigger losses for other investors.
Selling Bad Debt
Other Wall Street firms also created risky
mortgage-related securities that they bet against.
At Deutsche Bank, the point man on betting against
the mortgage market was Greg Lippmann, a trader.
Mr. Lippmann made his pitch to select hedge fund
clients, arguing they should short the mortgage
market. He sometimes distributed a T-shirt that read
“I’m Short Your House!!!” in black and red letters.
Deutsche, which declined to comment, at the same
time was selling synthetic C.D.O.’s to its clients, and
those deals created more short-selling opportunities
for traders like Mr. Lippmann.
Among the most aggressive C.D.O. creators was
Tricadia, a management company that was a unit of

72
Mariner Investment Group. Until he became a senior
adviser to the Treasury secretary early this year,
Lewis Sachs was Mariner’s vice chairman. Mr. Sachs
oversaw about 20 portfolios there, including Tricadia,
and its documents also show that Mr. Sachs sat atop
the firm’s C.D.O. management committee.
From 2003 to 2007, Tricadia issued 14 mortgagelinked C.D.O.’s, which it called TABS. Even when the
market was starting to implode, Tricadia continued to
create TABS deals in early 2007 to sell to investors.
The deal documents referring to conflicts of interest
stated that affiliates and clients of Tricadia might
place bets against the types of securities in the TABS
deal.
Even so, the sales material also boasted that the
mortgages linked to C.D.O.’s had historically low
default rates, citing a “recently completed” study by
Standard & Poor’s ratings agency — though fine print
indicated that the date of the study was September
2002, almost five years earlier.
At a financial symposium in New York in September
2006, Michael Barnes, the co-head of Tricadia,
described how a hedge fund could put on a negative
mortgage bet by shorting assets to C.D.O. investors,
according to his presentation, which was reviewed by
The New York Times.
Mr. Barnes declined to comment. James E. McKee,
general counsel at Tricadia, said, “Tricadia has never
shorted assets into the TABS deals, and Tricadia has
always acted in the best interests of its clients and
investors.”
Mr. Sachs, through a spokesman at the Treasury
Department, declined to comment.

73
Like investors in some of Goldman’s Abacus deals,
buyers of some TABS experienced heavy losses. By the
end of 2007, UBS research showed that two TABS
deals were the eighth- and ninth-worst performing
C.D.O.’s. Both had been downgraded on at least 75
percent of their associated assets within a year of
being issued.
Tricadia’s hedge fund did far better, earning roughly
a 50 percent return in 2007 and similar profits in 2008,
in part from the short bets.

74
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
10-CV-

(

)

————
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
GOLDMAN SACHS & CO. and
FABRICE TOURRE,
Defendants.
————
ECF CASE
Jury Trial Demanded
————
COMPLAINT
[Securities Fraud]
Plaintiff, the United States Securities and Exchange
Commission (“Commission”), alleges as follows
against the defendants named above.
OVERVIEW
1. The Commission brings this securities fraud
action against Goldman, Sachs & Co. (“GS&Co”) and
a GS&Co employee, Fabrice Tourre (“Tourre”), for
making materially misleading statements and
omissions in connection with a synthetic collateralized
debt obligation (“CDO”) GS&Co structured and
marketed to investors. This synthetic CDO, ABACUS
2007-AC1, was tied to the performance of subprime
residential mortgage-backed securities (“RMBS”) and

75
was structured and marketed by GS&Co in early 2007
when the United States housing market and related
securities were beginning to show signs of distress.
Synthetic CDOs like ABACUS 2007-AC1 contributed
to the recent financial crisis by magnifying losses
associated with the downturn in the United States
housing market.
2. GS&Co marketing materials for ABACUS
2007-AC1 — including the term sheet, flip book and
offering memorandum for the CDO — all represented
that the reference portfolio of RMBS underlying the
CDO was selected by ACA Management LLC (“ACA”),
a third-party with experience analyzing credit risk in
RMBS. Undisclosed in the marketing materials and
unbeknownst to investors, a large hedge fund, Paulson
& Co. Inc. (“Paulson”), with economic interests directly
adverse to investors in the ABACUS 2007-AC1 CDO,
played a significant role in the portfolio selection
process. After participating in the selection of the
reference portfolio, Paulson effectively shorted the
RMBS portfolio it helped select by entering into credit
default swaps (“CDS”) with GS&Co to buy protection
on specific layers of the ABACUS 2007-AC1 capital
structure. Given its financial short interest, Paulson
had an economic incentive to choose RMBS that it
expected to experience credit events in the near future.
GS&Co did not disclose Paulson’s adverse economic
interests or its role in the portfolio selection process in
the term sheet, flip book, offering memorandum or
other marketing materials provided to investors.
3. In sum, GS&Co arranged a transaction at
Paulson’s request in which Paulson heavily influenced
the selection of the portfolio to suit its economic
interests, but failed to disclose to investors, as part of
the description of the portfolio selection process

76
contained in the marketing materials used to promote
the transaction, Paulson’s role in the portfolio
selection process or its adverse economic interests.
4. Tourre was principally responsible for ABACUS
2007-AC1. Tourre devised the transaction, prepared
the marketing materials and communicated directly
with investors. Tourre knew of Paulson’s undisclosed
short interest and its role in the collateral selection
process. Tourre also misled ACA into believing that
Paulson invested approximately $200 million in the
equity of ABACUS 2007-AC1 (a long position) and,
accordingly, that Paulson’s interests in the collateral
selection process were aligned with ACA’s when in
reality Paulson’s interests were sharply conflicting.
5. The deal closed on April 26, 2007. Paulson paid
GS&Co approximately $15 million for structuring and
marketing ABACUS 2007-AC1. By October 24, 2007,
83% of the RMBS in the ABACUS 2007-AC1 portfolio
had been downgraded and 17% were on negative
watch. By January 29, 2008, 99% of the portfolio had
been downgraded. As a result, investors in the
ABACUS 2007-AC1 CDO lost over $1 billion.
Paulson’s opposite CDS positions yielded a profit of
approximately $1 billion for Paulson.
6. By engaging in the misconduct described herein,
GS&Co and Tourre directly or indirectly engaged in
transactions, acts, practices and a course of business
that violated Section 17(a) of the Securities Act of
1933, 15 U.S.C. §77q(a) (“the Securities Act”), Section
10(b) of the Securities Exchange Act of 1934, 15 U.S.C.
§78j(b) (“the Exchange Act”) and Exchange Act Rule
10b-5, 17 C.F.R. §240.10b-5. The Commission seeks
injunctive relief, disgorgement of profits, prejudgment
interest, civil penalties and other appropriate and
necessary equitable relief from both defendants.

77
JURISDICTION AND VENUE
7. This Court has jurisdiction over this action
pursuant to Sections 21(d), 21(e), and 27 of the
Exchange Act [15 U.S.C. §§ 78u(d), 78u(e), and 78aa].
Each defendant, directly or indirectly, made use of the
means or instruments of interstate commerce, or of the
mails, or the facilities of a national securities exchange
in connection with the transactions, acts, practices,
and courses of business alleged herein. Certain of the
acts, practices, and courses of conduct constituting the
violations of law alleged herein occurred within this
judicial district.
DEFENDANTS
8. Goldman, Sachs & Co. is the principal United
States broker-dealer of The Goldman Sachs Group,
Inc., a global investment banking, securities and
investment management firm headquartered in New
York City. GS&Co structured and marketed ABACUS
2007-AC1.
9. Fabrice Tourre, age 31, is a registered
representative with GS&Co. Tourre was the GS&Co
employee principally responsible for the structuring
and marketing of ABACUS 2007-AC1. Tourre worked
as a Vice President on the structured product
correlation trading desk at GS&Co headquarters in
New York City during the relevant period. Tourre
presently works in London as an Executive Director of
Goldman Sachs International.

78
FACTS
A. GS&CO’S CORRELATION TRADING DESK
10. GS&Co’s structured product correlation
trading desk was created in and around late
2004/early 2005. Among the services it provided was
the structuring and marketing of a series of synthetic
CDOs called “ABACUS” whose performance was tied
to RMBS. GS&Co sought to protect and expand this
profitable franchise in a competitive market
throughout the relevant period. According to an
internal GS&Co memorandum to the Goldman Sachs
Mortgage Capital Committee (“MCC”) dated March
12, 2007, the “ability to structure and execute
complicated transactions to meet multiple client’s
needs and objectives is key for our franchise,” and
“[e]xecuting this transaction [ABACUS 2007-AC1] and
others like it helps position Goldman to compete more
aggressively in the growing market for synthetics
written on structured products.”
B. PAULSON’S INVESTMENT STRATEGY
11. Paulson & Co. Inc. (“Paulson”) is a hedge fund
founded in 1994. Beginning in 2006, Paulson created
two funds, known as the Paulson Credit Opportunity
Funds, which took a bearish view on subprime
mortgage loans by buying protection through CDS on
various debt securities. A CDS is an over-the-counter
derivative contract under which a protection buyer
makes periodic premium payments and the protection
seller makes a contingent payment if a reference
obligation experiences a credit event.
12. RMBS are securities backed by residential
mortgages. Investors receive payments out of the
interest and principal on the underlying mortgages.

79
Paulson developed an investment strategy based upon
the belief that, for a variety of reasons, certain
mid-and-subprime RMBS rated “Triple B,” meaning
bonds rated “BBB” by S&P or “Baa2” by Moody’s,
would experience credit events. The Triple B tranche
is the lowest investment grade RMBS and, after
equity, the first part of the capital structure to
experience losses associated with a deterioration of the
underlying mortgage loan portfolio.
13. CDOs are debt securities collateralized by debt
obligations including RMBS. These securities are
packaged and generally held by a special purpose
vehicle (“SPV”) that issues notes entitling their
holders to payments derived from the underlying
assets. In a synthetic CDO, the SPV does not actually
own a portfolio of fixed income assets, but rather
enters into CDSs that reference the performance of a
portfolio (the SPV does hold some collateral securities
separate from the reference portfolio that it uses to
make payment obligations).
14. Paulson came to believe that synthetic CDOs
whose reference assets consisted of certain Triple
B-rated mid-and-subprime RMBS would experience
significant losses and, under certain circumstances,
even the more senior AAA-rated tranches of these
so-called “mezzanine” CDOs would become worthless.
C. GS&CO AND PAULSON
PROPOSED TRANSACTION

DISCUSS

A

15. Paulson
performed
an
analysis
of
recent-vintage Triple B-rated RMBS and identified
various bonds it expected to experience credit events.
Paulson then asked GS&Co to help it buy protection,
through the use of CDS, on the RMBS it had adversely

80
selected, meaning chosen in the belief that the bonds
would experience credit events.
16. Paulson discussed with GS&Co possible
transactions in which counterparties to its short
positions might be found. Among the transactions
considered were synthetic CDOs whose performance
was tied to Triple B-rated RMBS. Paulson discussed
with GS&Co the creation of a CDO that would allow
Paulson to participate in selecting a portfolio of
reference obligations and then effectively short the
RMBS portfolio it helped select by entering into CDS
with GS&Co to buy protection on specific layers of the
synthetic CDO’s capital structure.
17. A Paulson employee explained the investment
opportunity as of January 2007 as follows:
“It is true that the market is not pricing the
subprime RMBS wipeout scenario. In my
opinion this situation is due to the fact that
rating agencies, CDO managers and
underwriters have all the incentives to keep
the game going, while ‘real money’ investors
have neither the analytical tools nor the
institutional framework to take action before
the losses that one could anticipate based [on]
the ‘news’ available everywhere are actually
realized.”
18. At the same time, GS&Co recognized that
market conditions were presenting challenges to the
successful marketing of CDO transactions backed by
mortgage-related securities. For example, portions of
an email in French and English sent by Tourre to a
friend on January 23, 2007 stated, in English
translation where applicable: “More and more
leverage in the system, The whole building is about to

81
collapse anytime now . . . Only potential survivor, the
fabulous Fab[rice Tourre] . . . standing in the middle
of all these complex, highly leveraged, exotic trades he
created without necessarily understanding all of the
implications of those monstruosities!!!” Similarly, an
email on February 11, 2007 to Tourre from the head of
the GS&Co structured product correlation trading
desk stated in part, “the cdo biz is dead we don’t have
a lot of time left.”
D. INTRODUCTION
OF
ACA
PROPOSED TRANSACTION

TO

THE

19. GS&Co and Tourre knew that it would be
difficult, if not impossible, to place the liabilities of a
synthetic CDO if they disclosed to investors that a
short investor, such as Paulson, played a significant
role in the collateral selection process. By contrast,
they knew that the identification of an experienced
and independent third-party collateral manager as
having selected the portfolio would facilitate the
placement of the CDO liabilities in a market that was
beginning to show signs of distress.
20. GS&Co also knew that at least one significant
potential investor, IKB Deutsche Industriebank AG
(“IKB”), was unlikely to invest in the liabilities of a
CDO that did not utilize a collateral manager to
analyze and select the reference portfolio.
21. GS&Co therefore sought a collateral manager
to play a role in the transaction proposed by Paulson.
Contemporaneous internal correspondence reflects
that GS&Co recognized that not every collateral
manager would “agree to the type of names [of RMBS]
Paulson want[s] to use” and put its “name at risk...on
a weak quality portfolio.”

82
22. In or about January 2007, GS&Co approached
ACA and proposed that it serve as the “Portfolio
Selection Agent” for a CDO transaction sponsored by
Paulson. ACA previously had constructed and
managed numerous CDOs for a fee. As of
December 31, 2006, ACA had closed on 22 CDO
transactions with underlying portfolios consisting of
$15.7 billion of assets.
23. Internal GS&Co communications emphasized
the advantages from a marketing perspective of
having ACA associated with the transaction. For
example, an internal email from Tourre dated
February 7, 2007, stated:
“One thing that we need to make sure ACA
understands is that we want their name on
this transaction. This is a transaction for
which they are acting as portfolio selection
agent, this will be important that we can use
ACA’s branding to help distribute the bonds.”
24. Likewise, an internal GS&Co memorandum to
the Goldman Sachs MCC dated March 12, 2007
described the marketing advantages of ACA’s “brandname” and “credibility”:
“We expect the strong brand-name of ACA as
well as our market-leading position in
synthetic CDOs of structured products to
result in a successful offering.”
“We expect that the role of ACA as Portfolio
Selection Agent will broaden the investor
base for this and future ABACUS offerings.”
“We intend to target suitable structured
product investors who have previously
participated in ACA-managed cashflow CDO

83
transactions or who have previously
participated in prior ABACUS transactions.”
“We expect to leverage ACA’s credibility and
franchise to help distribute this Transaction.”
E. PAULSON’S PARTICIPATION IN
COLLATERAL SELECTION PROCESS

THE

25. In late 2006 and early 2007, Paulson
performed an analysis of recent-vintage Triple B
RMBS and identified over 100 bonds it expected to
experience credit events in the near future. Paulson’s
selection criteria favored RMBS that included a high
percentage of adjustable rate mortgages, relatively
low borrower FICO scores, and a high concentration of
mortgages in states like Arizona, California, Florida
and Nevada that had recently experienced high rates
of home price appreciation. Paulson informed GS&Co
that it wanted the reference portfolio for the
contemplated transaction to include the RMBS it
identified or bonds with similar characteristics.
26. On January 8, 2007, Tourre attended a
meeting with representatives from Paulson and ACA
at Paulson’s offices in New York City to discuss the
proposed transaction.
27. On January 9, 2007, GS&Co sent an email to
ACA with the subject line, “Paulson Portfolio.”
Attached to the email was a list of 123 2006 RMBS
rated Baa2. On January 9, 2007, ACA performed an
“overlap analysis” and determined that it previously
had purchased 62 of the 123 RMBS on Paulson’s list
at the same or lower ratings.
28. On January 9, 2007, GS&Co informed ACA
that Tourre was “very excited by the initial portfolio
feedback.”

84
29. On January 10, 2007, Tourre sent an email to
ACA with the subject line, “Transaction Summary.”
The text of Tourre’s email began, “we wanted to
summarize ACA’s proposed role as ‘Portfolio Selection
Agent’ for the transaction that would be sponsored by
Paulson (the ‘Transaction Sponsor’).” The email
continued in relevant part, “[s]tarting portfolio would
be ideally what the Transaction Sponsor shared, but
there is flexibility around the names.”
30. On January 22, 2007, ACA sent an email to
Tourre and others at GS&Co with the subject line,
“Paulson Portfolio 1-22-10.xls.” The text of the email
began, “Attached please find a worksheet with 86
sub-prime mortgage positions that we would
recommend taking exposure to synthetically. Of the
123 names that were originally submitted to us for
review, we have included only 55.”
31. On January 27, 2007, ACA met with a Paulson
representative in Jackson Hole, Wyoming, and they
discussed the proposed transaction and reference
portfolio. The next day, on January 28, 2007, ACA
summarized the meeting in an email to Tourre. Tourre
responded via email later that day, “this is confirming
my initial impression that [Paulson] wanted to
proceed with you subject to agreement on portfolio and
compensation structure.”
32. On February 2, 2007, Paulson, Tourre and
ACA met at ACA’s offices in New York City to discuss
the reference portfolio. Unbeknownst to ACA at the
time, Paulson intended to effectively short the RMBS
portfolio it helped select by entering into CDS with
GS&Co to buy protection on specific layers of the
synthetic CDO’s capital structure. Tourre and GS&Co,
of course, were fully aware that Paulson’s economic
interests with respect to the quality of the reference

85
portfolio were directly adverse to CDO investors.
During the meeting, Tourre sent an email to another
GS&Co employee stating, “I am at this aca paulson
meeting, this is surreal.” Later the same day, ACA
emailed Paulson, Tourre, and others at GS&Co a list
of 82 RMBS on which Paulson and ACA concurred,
plus a list of 21 “replacement” RMBS. ACA sought
Paulson’s approval of the revised list, asking, “Let me
know if these work for you at the Baa2 level.”
33. On February 5, 2007, Paulson sent an email to
ACA, with a copy to Tourre, deleting eight RMBS
recommended by ACA, leaving the rest, and stating
that Tourre agreed that 92 bonds were a sufficient
portfolio.
34. On February 5, 2007, an internal ACA email
asked, “Attached is the revised portfolio that Paulson
would like us to commit to — all names are at the Baa2
level. The final portfolio will have between 80 and
these 92 names. Are ‘we’ ok to say yes on this
portfolio?” The response was, “Looks good to me. Did
[Paulson] give a reason why they kicked out all the
Wells [Fargo] deals?” Wells Fargo was generally
perceived as one of the higher-quality subprime loan
originators.
35. On or about February 26, 2007, after further
discussion, Paulson and ACA came to an agreement on
a reference portfolio of 90 RMBS for ABACUS
2007-AC1.
F. GS&CO
MISLED
INVESTORS
BY
REPRESENTING THAT ACA SELECTED
THE PORTFOLIO WITHOUT DISCLOSING
PAULSON’S
SIGNIFICANT
ROLE
IN
DETERMINING THE PORTFOLIO AND ITS
ADVERSE ECONOMIC INTERESTS

86
36. GS&Co’s marketing materials for ABACUS
2007-AC1 were false and misleading because they
represented that ACA selected the reference portfolio
while omitting any mention that Paulson, a party with
economic interests adverse to CDO investors, played a
significant role in the selection of the reference
portfolio.
37. For example, a 9-page term sheet for ABACUS
2007-AC1 finalized by GS&Co on or about
February 26, 2007, described ACA as the “Portfolio
Selection Agent” and stated in bold print at the top of
the first page that the reference portfolio of RMBS had
been “selected by ACA.” This document contained no
mention of Paulson, its economic interests in the
transaction, or its role in selecting the reference
portfolio.
38. Similarly, a 65-page flip book for ABACUS
2007-AC1 finalized by GS&Co on or about
February 26, 2007 represented on its cover page that
the reference portfolio of RMBS had been “Selected by
ACA Management, LLC.” The flip book included a
28-page overview of ACA describing its business
strategy, senior management team, investment
philosophy, expertise, track record and credit selection
process, together with a 7-page section of biographical
information on ACA officers and employees. Investors
were assured that the party selecting the portfolio had
an “alignment of economic interest” with investors.
This document contained no mention of Paulson, its
economic interests in the transaction, or its role in
selecting the reference portfolio.
39. Tourre had primary responsibility
preparing the term sheet and flip book.

for

87
40. The Goldman Sachs MCC, which included
senior-level management of GS&Co, approved the
ABACUS 2007-AC1 on or about March 12, 2007.
GS&Co expected to earn between $15-and-$20 million
for structuring and marketing ABACUS 2007-AC1.
41. On or about April 26, 2007, GS&Co finalized a
178-page offering memorandum for ABACUS
2007-AC1. The cover page of the offering
memorandum included a description of ACA as
“Portfolio Selection Agent.” The Transaction
Overview, Summary and Portfolio Selection Agent
sections of the memorandum all represented that the
reference portfolio of RMBS had been selected by ACA.
This document contained no mention of Paulson, its
economic interests in the transaction, or its role in
selecting the reference portfolio.
42. Tourre reviewed at least the Summary section
of the offering memorandum before it was sent to
potential investors.
43. Although the marketing materials for
ABACUS 2007-AC1 made no mention of Paulson or its
role
in
the
transaction,
internal
GS&Co
communications clearly identified Paulson, its
economic interests, and its role in the transaction. For
example, the March 12, 2007 MCC memorandum
describing the transaction stated, “Goldman is
effectively working an order for Paulson to buy
protection
on
specific
layers
of
the
[ABACUS 2007-]AC1 capital structure.”
G. GS&CO MISLED ACA INTO BELIEVING
PAULSON WAS LONG EQUITY
44. GS&Co also misled ACA into believing that
Paulson was investing in the equity of ABACUS
2007-AC1 and therefore shared a long interest with

88
CDO investors. The equity tranche is at the bottom of
the capital structure and the first to experience losses
associated with deterioration in the performance of
the underlying RMBS. Equity investors therefore have
an economic interest in the successful performance of
a reference RMBS portfolio. As of early 2007, ACA had
participated in a number of CDO transactions
involving hedge funds that invested in the equity
tranche.
45. Had ACA been aware that Paulson was taking
a short position against the CDO, ACA would have
been reluctant to allow Paulson to occupy an
influential role in the selection of the reference
portfolio because it would present serious reputational
risk to ACA, which was in effect endorsing the
reference portfolio. In fact, it is unlikely that ACA
would have served as portfolio selection agent had it
known that Paulson was taking a significant short
position instead of a long equity stake in ABACUS
2007-AC1. Tourre and GS&Co were responsible for
ACA’s misimpression that Paulson had a long
position, rather than a short position, with respect to
the CDO.
46. On January 8, 2007, Tourre attended a
meeting with representatives from Paulson and ACA
at Paulson’s offices in New York City to discuss the
proposed transaction. Paulson’s economic interest was
unclear to ACA, which sought further clarification
from GS&Co. Later that day, ACA sent a GS&Co sales
representative an email with the subject line “Paulson
meeting” that read:
“I have no idea how it went — I wouldn’t say
it went poorly, not at all, but I think it didn’t
help that we didn’t know exactly how they

89
[Paulson] want to participate in the space.
Can you get us some feedback?”
47. On January 10, 2007, Tourre emailed ACA a
“Transaction Summary” that included a description of
Paulson as the “Transaction Sponsor” and referenced
a “Contemplated Capital Structure” with a
“[0]% - [9]%: pre-committed first loss” as part of the
Paulson deal structure. The description of this [0]% [9]% tranche at the bottom of the capital structure was
consistent with the description of an equity tranche
and ACA reasonably believed it to be a reference to the
equity tranche. In fact, GS&Co never intended to
market to anyone a “[0]%-[9]%” first loss equity
tranche in this transaction.
48. On January 12, 2007, Tourre spoke by
telephone with ACA about the proposed transaction.
Following that conversation, on January 14, 2007,
ACA sent an email to the GS&Co sales representative
raising questions about the proposed transaction and
referring to Paulson’s equity interest. The email,
which had the subject line “Call with Fabrice [Tourre]
on Friday,” read in pertinent part:
“I certainly hope I didn’t come across too
antagonistic on the call with Fabrice [Tourre]
last week but the structure looks difficult
from a debt investor perspective. I can
understand Paulson’s equity perspective but
for us to put our name on something, we have
to be sure it enhances our reputation.”
49. On January 16, 2007, the GS&Co sales
representative forwarded that email to Tourre. As of
that date, Tourre knew, or was reckless in not
knowing, that ACA had been misled into believing

90
Paulson intended to invest in the equity of ABACUS
2007-AC1.
50. Based upon the January 10, 2007,
“Transaction Summary” sent by Tourre, the
January 12, 2007 telephone call with Tourre and
continuing communications with Tourre and others at
GS&Co, ACA continued to believe through the course
of the transaction that Paulson would be an equity
investor in ABACUS 2007-AC1.
51. On February 12, 2007, ACA’s Commitments
Committee approved the firm’s participation in
ABACUS as portfolio selection agent. The written
approval memorandum described Paulson’s role as
follows: “the hedge fund equity investor wanted to
invest in the 0-9% tranche of a static mezzanine ABS
CDO backed 100% by subprime residential mortgage
securities.” Handwritten notes from the meeting
reflect discussion of “portfolio selection work with the
equity investor.”
H. ABACUS 2007-AC1 INVESTORS
1. IKB
52. IKB is a commercial bank headquartered in
Dusseldorf, Germany. Historically, IKB specialized in
lending to small and medium-sized companies.
Beginning in and around 2002, IKB, for itself and as
an advisor, was involved in the purchase of securitized
assets referencing, or consisting of, consumer credit
risk including RMBS CDOs backed by U.S.
mid-and-subprime
mortgages.
IKB’s
former
subsidiary, IKB Credit Asset Management GmbH,
provided investment advisory services to various
purchasing entities participating in a commercial

91
paper conduit known as the “Rhineland programme
conduit.”
53. The identity and experience of those involved
in the selection of CDO portfolios was an important
investment factor for IKB. In late 2006 IKB informed
a GS&Co sales representative and Tourre that it was
no longer comfortable investing in the liabilities of
CDOs that did not utilize a collateral manager,
meaning an independent third-party with knowledge
of the U.S. housing market and expertise in analyzing
RMBS. Tourre and GS&Co knew that ACA was a
collateral manager likely to be acceptable to IKB.
54. In February, March and April 2007, GS&Co
sent IKB copies of the ABACUS 2007-AC1 term sheet,
flip book and offering memorandum, all of which
represented that the RMBS portfolio had been selected
by ACA and omitted any reference to Paulson, its role
in selecting the reference portfolio and its adverse
economic interests. Those representations and
omissions were materially false and misleading
because, unbeknownst to IKB, Paulson played a
significant role in the collateral selection process and
had financial interests in the transaction directly
adverse to IKB. Neither GS&Co nor Tourre informed
IKB of Paulson’s participation in the collateral
selection process and its adverse economic interests.
55. The first written marketing materials for
ABACUS 2007-AC1 were distributed on February 15,
2007, when GS&Co emailed a preliminary term sheet
and reference portfolio to the GS&Co sales
representative covering IKB. Tourre was aware these
materials would be delivered to IKB.
56. On February 19, 2007, the GS&Co sales
representative forwarded the marketing materials to

92
IKB, explaining via email: “Attached are details of the
ACA trade we spoke about with Fabrice [Tourre] in
which you thought the AAAs would be interesting.”
57. Tourre maintained direct and indirect contact
with IKB in an effort to close the deal. This included
a March 6, 2007 email to the GS&Co sales
representative for IKB representing that, “This is a
portfolio selected by ACA . . .” Tourre subsequently
described the portfolio in an internal GS&Co email as
having been “selected by ACA/Paulson.”
58. ABACUS 2007-AC1 closed on or about
April 26, 2007. IKB bought $50 million worth of Class
A-1 notes at face value. The Class A-1 Notes paid a
variable interest rate equal to LIBOR plus 85 basis
points and were rated Aaa by Moody’s Investors
Services, Inc. (“Moody’s”) and AAA by Standard &
Poor’s Ratings & Services (“S&P”). IKB bought $100
million worth of Class A-2 Notes at face value. The
Class A-2 Notes paid a variable interest rate equal to
LIBOR plus 110 basis points and were rated Aaa by
Moody’s and AAA by S&P.
59. The fact that the portfolio had been selected by
an independent third-party with experience and
economic interests aligned with CDO investors was
important to IKB. IKB would not have invested in the
transaction had it known that Paulson played a
significant role in the collateral selection process while
intending to take a short position in ABACUS
2007-AC1. Among other things, knowledge of
Paulson’s role would have seriously undermined IKB’s
confidence in the portfolio selection process and led
senior IKB personnel to oppose the transaction.
60. Within
months
of
closing,
ABACUS
2007-AC1’s Class A-1 and A-2 Notes were nearly

93
worthless. IKB lost almost all of its $150 million
investment. Most of this money was ultimately paid to
Paulson in a series of transactions between GS&Co
and Paulson.
2. ACA/ABN AMRO
61. ACA’s parent company, ACA Capital Holdings,
Inc. (“ACA Capital”), provided financial guaranty
insurance on a variety of structured finance products
including RMBS CDOs, through its wholly-owned
subsidiary, ACA Financial Guaranty Corporation. On
or about May 31, 2007, ACA Capital sold protection or
“wrapped” the $909 million super senior tranche of
ABACUS 2007-AC1, meaning that it assumed the
credit risk associated with that portion of the capital
structure via a CDS in exchange for premium
payments of approximately 50 basis points per year.
62. ACA Capital was unaware of Paulson’s short
position in the transaction. It is unlikely that ACA
Capital would have written protection on the super
senior tranche if it had known that Paulson, which
played an influential role in selecting the reference
portfolio, had taken a significant short position
instead of a long equity stake in ABACUS 2007-AC1.
63. The super senior transaction with ACA Capital
was intermediated by ABN AMRO Bank N.V. (“ABN”),
which was one of the largest banks in Europe during
the relevant period. This meant that, through a series
of CDS between ABN and Goldman and between ABN
and ACA that netted ABN premium payments of
approximately 17 basis points per year, ABN assumed
the credit risk associated with the super senior portion
of ABACUS 2007-AC1’s capital structure in the event.
ACA Capital was unable to pay.

94
64. GS&Co sent ABN copies of the ABACUS
2007-AC1 term sheet, flip book and offering
memorandum, all of which represented that the
RMBS portfolio had been selected by ACA and omitted
any reference to Paulson’s role in the collateral
selection process and its adverse economic interest.
Tourre also told ABN in emails that ACA had selected
the portfolio. These representations and omissions
were materially false and misleading because,
unbeknownst to ABN, Paulson played a significant
role in the collateral selection process and had a
financial interest in the transaction that was adverse
to ACA Capital and ABN.
65. At the end of 2007, ACA Capital was
experiencing severe financial difficulties. In early
2008, ACA Capital entered into a global settlement
agreement with its counterparties to effectively
unwind approximately $69 billion worth of CDSs,
approximately $26 billion of which were related to
2005-06 vintage subprime RMBS. ACA Capital is
currently operating as a run-off financial guaranty
insurance company.
66. In late 2007, ABN was acquired by a
consortium of banks that included the Royal Bank of
Scotland (“RBS”). On or about August 7, 2008, RBS
unwound ABN’s super senior position in ABACUS
2007-AC1 by paying GS&Co $840,909,090. Most of
this money was subsequently paid by GS&Co to
Paulson.

95
CLAIMS FOR RELIEF
FIRST CLAIM
Section 17(a) of the Securities Act
67. Paragraphs 1-66 are realleged and incorporated herein by reference.
68. GS&Co and Tourre each violated Section
17(a)(1), (2) and (3) of the Exchange Act [15 U.S.C.
§ 77q(a)(1), (2) & (3)].
69. As set forth above, Goldman and Tourre, in the
offer or sale of securities or securities-based swap
agreements, by the use of means or instruments of
interstate commerce or by the mails, directly or
indirectly (a) employed devices, schemes or artifices to
defraud; (b) obtained money or property by means of
untrue statements of material facts or omissions of
material facts necessary in order to make the
statements made, in the light of the circumstances
under which they were made, not misleading; or
(c) engaged in transactions, practices or courses of
business which operated or would operate as a fraud
or deceit upon purchasers of securities.
70. GS&Co and Tourre knowingly, recklessly or
negligently misrepresented in the term sheet, flip book
and offering memorandum for ABACUS 2007-AC1
that the reference portfolio was selected by ACA
without disclosing the significant role in the portfolio
selection process played by Paulson, a hedge fund with
financial interests in the transaction directly adverse
to IKB, ACA Capital and ABN. GS&Co and Tourre
also knowingly, recklessly or negligently misled ACA
into believing that Paulson invested in the equity of
ABACUS 2007-AC1 and, accordingly, that Paulson’s
interests in the collateral selection process were

96
closely aligned with ACA’s when in reality their
interests were sharply conflicting.
SECOND CLAIM
Section 10(b) and Rule 10-b(5)
of the Exchange Act
71. Paragraphs
1-70
are
incorporated herein by reference.

realleged

and

72. GS&Co and Tourre each violated Section 10(b)
of the Exchange Act [15 U.S.C § 78j(b)] and Rule 10b-5
[17 C.F.R. § 240.10b-5].
73. As set forth above, GS&Co and Tourre, in
connection with the purchase or sale of securities or
securities-based swap agreements, by the use of
means or instrumentalities of interstate commerce or
of the mails, directly or indirectly (a) employed
devices, schemes or artifices to defraud; (b) made
untrue statements of material facts or omissions of
material facts necessary in order to make the
statements made, in the light of the circumstances
under which they were made, not misleading; or
(c) engaged in transactions, practices or courses of
business which operated or would operate as a fraud
or deceit upon persons.
74. GS&Co and Tourre knowingly or recklessly
misrepresented in the term sheet, flip book and
offering memorandum for ABACUS 2007-AC1 that the
reference portfolio was selected by ACA without
disclosing the significant role in the portfolio selection
process played by Paulson, a hedge fund with financial
interests in the transaction adverse to UIKB, ACA
Capital and ABN. GS&Co and Tourre also knowingly
or recklessly misled ACA into believing that Paulson
invested in the equity of ABACUS 2007-AC1 and,

97
accordingly, that Paulson’s interests in the collateral
selection process were closely aligned with ACA’s
when in reality their interests were sharply
conflicting.
PRAYER FOR RELIEF
WHEREFORE, the Commission respectfully
requests that this Court enter a judgment:
A. Finding that GS&Co and Tourre each violated
the federal securities laws and the Commission rule
alleged in this Complaint;
B. Permanently restraining and enjoining GS&Co
and Tourre from violating Section 17(a) of the
Securities Act [15 U.S.C. §77q(a)], Section 10(b) of the
Exchange Act [15 U.S.C. § 78j(b)] and Exchange Act
Rule 10b-5 [17 C.F.R. § 240.10b-5];
C. Ordering GS&Co and Tourre to disgorge all
illegal profits that they obtained as a result of their
fraudulent misconduct, acts or courses of conduct
described in this Complaint, and to pay prejudgment
interest thereon;
D. Imposing civil monetary penalties on GS&Co
and Tourre pursuant to Section 20(d)(2) of the
Securities Act [15 U.S.C. § 77t (d)(2)] and
Section 21(d)(3) of the Exchange Act [15 U.S.C.
§ 78u(d)(3)]; and
E. Granting such equitable relief as may be
appropriate or necessary for the benefit of investors
pursuant to Section 21(d)(5) of the Exchange Act
[15 U.S.C. § 78u(d)(5)] .
Dated: Washington, D.C.
April 16, 2010

98
Respectfully submitted,
/s/
Andrew M. Calamari (AC-4864)
Richard E. Simpson (RS 5859)
Reid A. Muoio (RM 2274)
Kenneth Lench
Cheryl J. Scarboro
James A. Kidney
Jeffrey Tao
Jason Anthony
Nicole C. Kelly
Jeff Leasure
Securities and Exchange Commission
100 F St., NE
Washington, D.C. 20549-4010
(202) 551-4492 (Simpson)
simpsonr@sec.gov

99
From:

Popov, Snejina

Sent:

Friday, April 16, 2010 1:09 PM

To:

Cc:

Blankfein, Loyd; Cohn, Gary; Viniar,
David; Rogers, John F.W.; van Praag.
Lucas; Solomon, David (IB, 200W/41);
Sherwood; Michael S; Evans, J.
Michael; Forst, Ed
gs-ir-30-cc

Subject:

GS and Peers: (After the Bell)

Attachments: Picture (Device Independent Bitmap)
• GS down 13.1% to $160.70 and a P/B of 1.37x
• The peer set down 5.9%, pulling broader markets
down 1.1%. Financials led markets sharply lower
after federal regulators filed civil fraud charges
against Goldman Sachs regarding alleged conflicts
of interest in connection with CDO marketing. The
news sent shock-waves into the market and
introduced new layers of uncertainty in the
potential direction of financial regulation. Market
participants appear to be questioning whether the
charges are an isolated event or the first in a series
of many amid greater scrutiny of the credibility of
the SEC. Incidentally, the allegations come as the
Obama administration seeks greater regulation of
the nation’s banks, with many believing the
announcement will likely hinder potential road
blocks.
• Adding to the negativity, a report showed
consumer sentiment fell from 73.6 in March to 69.5
in April, the lowest level in five months. The date
is largely inconsistent with recent signs that
Americans are beginning to spend more liberally

100
and a broader sense that a consumer-led recovery
is gaining steam.
• MS down 6.4% to a P/B of 1.07x
• C down 7.5% to a P/B of 0.85x
• JPM down 4.6% to a P/B of 1.16x
• BAC down 5.1% to a P/B of 0.87x despite a return
to profitability and better-than-expected 1Q10
results.

Goldman, Sachs & Co.
200 West Street, New York, NY 10282
Tel: 212-357-0187 | Fax: 212-426-4778
email: snejina.popov@gs.com
Snejina Popov
Investor Relations

Goldman
Sachs

101
Goldman, Sachs & Co. and Fabrice Tourre
Home > Litigation > Litigation Releases > 2010
SECURITIES AND EXCHANGE COMMISSION
Litigation Release No. 21489 / April 16, 2010
Securities and Exchange Commission v. Goldman,
Sachs & Co. and Fabrice Tourre, 10 Civ, 3229 (B3).
(S.D.N.Y. filed April 16, 2010)
The SEC Charges Goldman Sachs With Fraud In
Connection With The Structuring And Marketing of A
Synthetic CDO
The Securities and Exchange Commission today filed
securities fraud charges against Goldman, Sachs &
Co. (“GS&Co”) and a GS&Co employee, Fabrice Tourre
(“Tourre”), for making material misstatements and
omissions in connection with a synthetic collateralized
debt obligation (“CDO”) GS&Co structured and
marketed to investors. This synthetic CDO, ABACUS
2007-AC1, was tied to the performance of subprime
residential mortgage-backed securities (“RMBS”) and
was structured and marketed in early 2007 when the
United States housing market and the securities
referencing it were beginning to show signs of distress.
Synthetic CDOs like ABACUS 2007-AC1 contributed
to the recent financial crisis by magnifying losses
associated with the downturn in the United States
housing market.
According to the Commission’s complaint, the
marketing materials for ABACUS 2007-AC1 —
including the term sheet, flip book and offering
memorandum for the CDO — all represented that the
reference portfolio of RMB5 underlying the CDO was
selected by ACA Management LLC (‘‘ACA’’), a third
party with expertise in analyzing credit risk in RMBS.

102
Undisclosed in the marketing materials and
unbeknownst to investors, a large hedge fund, Paulson
& Co. Inc. (“Paulson”), with economic interests directly
adverse to investors in the ABACUS 2007-AC1 CDO
played a significant role in the portfolio selection
process. After participating in the selection of the
reference portfolio, Paulson effectively shorted the
NABS portfolio it helped select by entering into credit
default swaps (“CDS”) with GS&Co to buy protection
on specific layers of the ABACUS 2007-AC1 capital
structure. Given its financial short interest, Paulson
had an economic incentive to choose RMBS that it
expected to experience credit events in the near future.
GS&Co did not disclose Paulson’s adverse economic
interest or its role in the portfolio selection process in
the term sheet, flip book, offering memorandum or
other marketing materials.
The Commission alleges that Tourre was principally
responsible for ABACUS 2007-AC1. According to
the Commission’s complaint, Tourre devised the
transaction, prepared the marketing materials and
communicated directly with investors. Tourre is
alleged to have known of Paulson’s undisclosed short
interest and its role in the collateral selection process.
He is also alleged to have misled ACA into believing
that Paulson invested approximately $200 million in
the equity of ABACUS 2007-AC1 (a long position) and,
accordingly, that Paulson’s interests in the collateral
section process were aligned with ACA’s when in
reality Paulson’s interests were sharply conflicting.
The deal closed on April 26, 2007. Paulson paid
GS&Co approximately $15 million for structuring and
marketing ABACUS 2007-AC1. By October 24, 2007,
83% of the RMBS in the ABACUS 2007-AC1 portfolio
had been downgraded and 17% was on negative watch.

103
By January 29, 2008, 99% of the portfolio had
allegedly been downgraded, Investors in the liabilities
of ABACUS 2007-AC.1 are alleged to have lost over
$1 billion. Paulson’s opposite CDS positions yielded a
profit of approximately $1 billion.
The Commission’s complaint, which was filed in the
United States District Court for the Southern District
of New York, charges GS&Co and Tourre with
violations of Section 17 (a) of the Securities Act of
1933, 15 U.S.C. §77q(a), Section 10(b) of the Securities
Exchange Act of 1914, 15 U.S.C. §78j(b) and Exchange
Act Rule 10b-5, §240.10b-5. The Commission seeks
injunctive relief, disgorgement of profits, prejudgment
interest and civil penalties from both defendants.
The Commission’s investigation is continuing into
the practices of investment banks and others that
purchased and securitized pools of subprime
mortgages and the resecuritized CDO market with a
focus on products structured and marketed in late
2006 and early 2007 as the U.S. housing market was
beginning to show signs of distress.
See Also: SEC Complaint
http://www.sec.gov/litigation/litreleases/2010/ir21489.
htm
Last modified: 4/16/2010
CONFIDENTIAL

104
REUTERS
BUSINESS NEWS
April 16, 2010 / 10:57 AM / 8 years
Goldman Sachs charged with fraud by SEC

ago

Jonathan Stempel, Steve Eder
NEW YORK (Reuters) - Goldman Sachs Group Inc
was charged with fraud by the U.S. Securities and
Exchange Commission over its marketing of a
subprime mortgage product, igniting a battle between
Wall Street’s most powerful bank and the nation’s top
securities regulator.
The civil lawsuit is the biggest crisis in years for a
company that faced criticism over its pay and business
practices after emerging from the global financial
meltdown as Wall Street’s most influential bank.
It may also make it more difficult for the industry to
beat back calls for reform as lawmakers in Washington
debate an overhaul of financial regulations.
Goldman called the lawsuit “completely unfounded,”
adding, “We did not structure a portfolio that was
designed to lose money.”
The lawsuit puts Goldman Chief Executive Lloyd
Blankfein further on the defensive after he told the
federal Financial Crisis Inquiry Commission in
January that the bank packaged complex debt, while
also betting against the debt, because clients had the
appetite.
“We are not a fiduciary,” he said.
The case also involves John Paulson, a hedge fund
investor whose firm Paulson & Co made billions of
dollars by betting the nation’s housing market would
crash. This included an estimated $1 billion from the

105
transaction detailed in the lawsuit, which the SEC
said cost other investors more than $1 billion. Paulson
was not charged.
Fabrice Tourre, a Goldman vice president whom the
SEC said was mainly responsible for creating the
questionable mortgage product, known as ABACUS,
was charged with fraud.
Goldman shares slid 12.8 percent on Friday, closing
down $23.57 at $160.70 on the New York Stock
Exchange. The decline wiped out more than $12 billion
of market value, and trading volume topped 100
million shares, Reuters data show.
The news dragged down broad U.S. equity indexes,
which fell more than 1 percent. The perceived risk of
owning Goldman debt, as measured by credit default
swaps, increased. Treasury prices rose as investors
sought safe-haven government debt.
MORE SEVERE THAN EXPECTED
“These charges are far more severe than anyone had
imagined,” and suggest Goldman teamed with “the
leading short-seller in the industry to design a
portfolio of securities that would crash,” said John
Coffee, a securities law professor at Columbia Law
School in New York.
“The greatest penalty for Goldman is not the
financial damages – Goldman is enormously wealthy
– but the reputational damage,” he said, adding that
“it’s not impossible” to contemplate that the case could
lead to criminal charges. Coffee spoke on Reuters
Insider.
Goldman vowed to defend itself.

106
“The SEC’s charges are completely unfounded in law
and fact,” it said. “We will vigorously contest them and
defend the firm and its reputation.”
E-mails from former Washington Mutual Inc CEO
Kerry Killinger read aloud during a congressional
hearing this week illustrated clients’ concerns about
working with Goldman.
In 2007, Killinger discussed hiring Goldman or
another investment bank to help Washington Mutual
find ways to reduce its credit risk or raise new capital,
according to one of the e-mails, which Michigan
Democratic Sen Carl Levin read during the hearing.
“I don’t trust Goldie on this,” Levin quoted one of
Killinger’s e-mails as saying. “They are smart, but this
is swimming with the sharks. They were shorting
mortgages big-time while they were giving (Countrywide
Financial Corp) advice.”
The SEC lawsuit announced on Friday concerns
ABACUS, a synthetic collateralized debt obligation
that hinged on the performance of subprime residential
mortgage-backed securities, and which the regulator
said Goldman structured and marketed.
According to the SEC, Goldman did not tell investors
“vital information” about ABACUS, including that
Paulson & Co was involved in choosing which securities
would be part of the portfolio.
The SEC also alleged that Paulson took a short
position against the CDO in a bet that its value would
fall.
In a statement, Paulson & Co said it did buy credit
protection from Goldman on securities issued in the
ABACUS program, but did not market the product.

107
Tourre was not immediately available for comment.
Goldman had not disclosed that the SEC was
considering a lawsuit but had known charges were
possible and had urged the SEC not to file them,
people familiar with the situation said on Friday. The
sources requested anonymity because the probe was
not public.
To better understand CDOs, the SEC in 2008
approached some hedge funds, including Paulson &
Co, whose investment Paulo Pellegrini was among
those to talk with the regulator.
By betting against subprime mortgage-related debt,
Pellegrini helped Paulson’s firm earn an estimated
$15 billion in 2007. Pellegrini last year left to start his
own firm.
COMING OUT SWINGING
The lawsuit is a regulatory and public relations
nightmare for Blankfein, who has spent 18 months
fending off complaints that Goldman has been an
unfair beneficiary of taxpayer bailouts of Wall Street.
Blankfein became chief executive less than a year
before the product challenged by the SEC was created.
“This could be the beginning of a period where you
have a regulatory cloud over Goldman Sachs, and
perhaps even the entire investment banking industry,”
said Hank Smith, chief investment officer at Haverford
Trust Co in Philadelphia.
John Paulson is not related to Henry “Hank” Paulson,
who was Blankfein’s predecessor as Goldman chief
executive and later become U.S. Treasury secretary.

108
The SEC lawsuit represents an aggressive expansion
of regulatory efforts to hold people and companies
responsible for the nation’s financial crises.
It could help the regulator rehabilitate its reputation
after missing other high-profile cases, including Bernard
Madoff’s Ponzi scheme.
“The SEC has come out swinging,” said Cary Leahey,
senior managing director of Decision Economics in
New York.
Robert Khuzami, head of the SEC’s enforcement
division, said John Paulson was not charged because
it was Goldman that made misrepresentations to
investors, not Paulson.
Still, Khuzami called Paulson’s firm “a hedge fund
that had a particular interest in the securities
performing poorly.”
MORE LAWSUITS TO COME?
It is unlikely that criminal charges will be brought,
a person close to the matter said. Representatives for
the Justice Department declined to comment.
Yet the lawsuit is widely expected to spur other
lawsuits, and is “probably the first of several,” according to Doug Kass, president of hedge fund Seabreeze
Partners Management.
“Regulators and plaintiffs’ lawyers are going to be
looking at other deals, to what kind of conflicts
Goldman has,” said Jacob Zamansky, a lawyer who
represents investors in securities fraud lawsuits.
“I’ve been contacted by Goldman customers to bring
lawsuits to recover their losses,” he added. “With the
SEC bringing fraud charges it’s going to expose what’s
behind the curtain.”

109
E-MAIL TRAIL
According to the SEC, Goldman marketing materials
showed that a third party, ACA Management LLC,
chose the securities underlying ABACUS, without
revealing Paulson’s involvement.
The SEC complaint quotes extensively from internal
e-mails and memos, noting that in early 2007 it had
become difficult to market CDOs tied to mortgagebacked securities.
It quoted a January 23, 2007, e-mail from Tourre to
a friend as saying: “The whole building is about to
collapse anytime now . . . Only potential survivor, the
fabulous Fab . . . standing in the middle of all these
complex, highly leveraged, exotic trades he created
without necessarily understanding all of the implications of those monstrosities!!!”
Another e-mail, to Tourre from the head of Goldman’s
structured product correlation trading desk, complained:
“The CDO biz is dead we don’t have a lot of time left.”
INDEPENDENCE MATTERS TO CLIENTS
Other communications detail the importance of
hiring ACA.
The SEC said Goldman reached out to German bank
IKB to buy securities that Paulson was selling,
knowing it would buy only securities selected by an
independent asset manager.
“We expect the strong brand-name of ACA as well as
our market-leading position in synthetic CDOs of
structured products to result in a successful offering,”
a March 12, 2007, Goldman e-mail said.
IKB ultimately took on exposure to ABACUS, as did
the Dutch bank ABN Amro Holding NV.

110
The German government ultimately bailed out IKB
in the summer of 2007, in part because of the bank’s
investments, while lenders that eventually bought
much of ABN Amro were also subjected to their own
government bailouts.
In a statement after U.S. markets closed, Goldman
said it lost more than $90 million on the transaction,
six times the $15 million fee it received, and provided
“extensive disclosure” on the securities involved.
It also said it never represented to ACA Capital
Management, which invested $951 million in the
transaction, that Paulson was going to be a “long”
investor, meaning that Paulson was betting the
securities would gain in value.
Paulson & Co paid Goldman $15 million to structure
and market the ABACUS CDO, which closed on April
26, 2007, the SEC said. Little more than nine months
later, 99 percent of the portfolio had been downgraded,
the SEC said.
Janet Tavakoli, president of Tavakoli Structured
Finance Inc in Chicago and author of a book on
synthetic CDOs, said it may have been common on
Wall Street for hedge funds to play big roles in picking
mortgage-backed securities for use in CDOs.
“Many investors were not aware of how disadvantaged they were by these CDO structures,” she said.
WASHINGTON IMPACT
The charges are expected to fuel anti-Wall Street
sentiment on Capitol Hill where sweeping financial
industry reforms are expected to soon arrive on the
Senate floor for a vote.

111
A Democratic bill, strongly supported by President
Barack Obama, would slap new restraints on major
banks, likely curtailing their opportunities for profit
and revenue growth.
Similar legislation was approved in the House of
Representatives in December. Analysts believe a bill
could be signed into law by Obama by mid-year.
“Banks were getting their mojo back, successfully
fighting the regulatory reform bill,” said James Ellman,
president of Seacliff Capital in San Francisco. “Clearly,
such malfeasance could help get the bill to go through.”
Goldman in 2008 won a $5 billion investment from
Warren Buffett’s Berkshire Hathaway Inc.
Last month, Buffett praised Goldman as a “very,
very strong, well-run business,” and said of Blankfein,
“You cannot find a better manager.”
Buffett had no immediate comment, his assistant
Carrie Kizer said.
The SEC lawsuit was assigned to U.S. District
Judge Barbara Jones, who was appointed to the bench
in 1995 by President Bill Clinton. She presided over
the 2005 criminal trial of former WorldCom Inc Chief
Executive Bernard Ebbers over an $11 billion
accounting fraud at the phone company.
The case is SEC v. Goldman Sachs & Co et al, U.S.
District Court, Southern District of New York, No. 1003229. (Reporting by Jennifer Ablan, Maria Aspan,
Clare Baldwin, Karen Brettell, Jeffrey Cane, Elinor
Comlay, Kevin Drawbaugh, Steve Eder, Ellen Freilich,
Burton Frierson, David Gaffen, Joseph A. Giannone,
Matthew Goldstein, Svea Herbst-Bayliss, Ed Krudy,
Herb Lash, Grant McCool, Jeremy Pelofsky, Christian
Plumb, Aaron Pressman, Leah Schnurr, Jonathan

112
Spicer, Jonathan Stempel, Caroline Valetkevitch, Phil
Wahba, Dan Wilchins, Rolfe Winkler, Karey Wutkowski
and Rachelle Younglai; Editing by Robert MacMillan
and John Wallace)

113
Copyright 2010 Chicago Tribune Company
All Rights Reserved
CHICAGO TRIBUNE
April 17, 2010 Saturday
Chicagoland Final Edition
SECTION: NEWS; ZONE C; Pg. 8
LENGTH:

418 words

HEADLINE: SEC lawsuit alleges Goldman Sachs
fraud
BYLINE:

By
Nathaniel
Popper,
TRIBUNE
NEWSPAPERS Tribune Newspapers
reporter Tom Petruno contributed to this
report.

DATELINE: NEW YORK
BODY:
In one of the most dramatic cases emanating from
the global financial crisis, federal regulators accused
investment banking powerhouse Goldman Sachs Group
Inc. of fraud for its role in issuing securities that were
at the heart of the financial crisis.
The civil lawsuit, filed Friday by the Securities and
Exchange Commission, sent a shudder through Wall
Street as investors girded for possible suits against
other institutions. Stocks fell sharply after the
announcement, led by financial shares, with Goldman
stock down nearly 13 percent.
The charges relate to so-called collateralized debt
obligations, complex securities tied to the performance
of subprime mortgages, that Goldman created in 2007
near the end of the housing boom.

114
The value of the securities plunged in the mortgage
meltdown that began later that year, helping to set off
the global financial crisis.
At the heart of the case is the SEC’s claim that
Goldman duped investors by failing to give them the
entire story about the deal, and who really stood to
benefit.
The lawsuit alleges Goldman did not tell investors
that the products were based on a portfolio of mortgage
bonds selected by a hedge fund. Goldman subsequently
helped the hedge fund, Paulson & Co., place bets
against the same bond portfolio, the suit said.
“The product was new and complex, but the deception and conflicts are old and simple,” Robert Khuzami,
the SEC’s enforcement chief, said in a statement.
“Goldman wrongly permitted a client that was betting
against the mortgage market to heavily influence
which mortgage securities to include in an investment
portfolio, while telling other investors that the securities
were selected by an independent, objective third party.”
Paulson, which made a number of such bets, made
billions of dollars as the subprime home-loan market
collapsed in a wave of borrower defaults. It is not part
of the SEC’s case.
Goldman, meanwhile, denied any wrongdoing.
“The SEC’s charges are completely unfounded in law
and fact, and we will vigorously contest them and
defend the firm and its reputation,” Goldman said in a
statement
In the wake of the lawsuit, President Barack Obama
said he would veto any bill to overhaul financial regulations that doesn’t include new rules on derivatives.

115
Obama, facing stiffening Republican and industry
opposition to his proposal, said the government must
act to prevent another financial crisis, and new rules
should include regulating the $605 trillion over-thecounter derivatives market.
npopper@tribune.com

116
Copyright 2010 Associated Press
All Rights Reserved
THE ASSOCIATED PRESS
April 18, 2010 Sunday 09:28 PM GMT
SECTION: BUSINESS NEWS
LENGTH:

1214 words

HEADLINE:

Fraud charge
Goldman’s image

BYLINE:

By STEVENSON JACOBS, AP Business
Writer

deals

big

blow

to

DATELINE: NEW YORK
BODY:
While Goldman Sachs contends with the
government’s civil fraud charges, an equally serious
problem looms: a damaged reputation that may cost it
clients.
The Securities and Exchange Commission’s bombshell civil fraud charge against Goldman has tarnished
the Wall Street bank’s already bruised image, analysts
say. It could also hurt its ability to do business in an
industry based largely on trust.
Damage from the case could hit other big banks as
well. The SEC charges are expected to help the Obama
administration as it seeks to more tightly police
lucrative investment banking activities.
Goldman has denied the SEC’s allegation that it sold
risky mortgage investments without telling buyers
that the securities were crafted in part by a billionaire
hedge fund manager who was betting on them to fail.
A 31-year-old Goldman employee is also accused in the
civil suit that was announced Friday.

117
The charges could result in fines and restitution of
more than $700 million, predicted Brad Hintz, an
analyst at Sanford Bernstein. Yet, even if Goldman
beats the charge, the hit to its reputation could carry
a greater cost.
The company, founded in 1869, grew from a oneman outfit trading promissory notes in New York to
the world’s most powerful, most profitable and
arguably most envied securities and investment firm.
From its 43-story glass-and-steel headquarters in
Lower Manhattan, Goldman oversees a financial
empire that spans more than 30 countries and
includes more than 30,000 employees.
It has long attracted some of the world’s best and
brightest. Some have gone on to lofty careers in public
life, enhancing the firm’s aura of mystique and
influence. Goldman alumni include former Treasury
Secretaries Henry Paulson and Robert Rubin and
former New Jersey Gov. Jon Corzine.
In its corporate profile, the company says its culture
distinguishes it from other firms and “helps to make
us a magnet for talent.” That culture is summed up in
the firm’s “14 Business Principles,” which preach an
almost militant philosophy of putting the client before
the firm.
Now, it’s that very philosophy that has been
questioned by the government.
So far, no Goldman clients have publicly condemned
the bank’s alleged actions. But the negative publicity
and regulatory scrutiny could cause some to distance
themselves, said Mark T. Williams, a professor of
finance and economics at Boston University.

118
Goldman earned a record $4.79 billion during the
fourth quarter of last year and is expected to report
blowout first-quarter results on Tuesday. A big chunk
of its profits are from fee-based client businesses, such
as investment advising, underwriting securities and
brokering billion-dollar mergers.
“Goldman can really only truly be effective in the
marketplace if it maintains a strong reputation,”
Williams said.
Morgan Stanley, the No. 2 U.S. investment bank
after Goldman, could be in a position to poach some
Goldman clients, which include hedge funds, pension
funds and other big institutional investors. Overseas,
European rivals such as Deutsche Bank AG and UBS
could benefit.
Investors are already betting the legal troubles will
hurt Goldman’s finances. The company’s shares
plunged 13 percent after the charges were announced
Friday, erasing a staggering $12.5 billion in market
value.
“Reputation risk is the biggest issue in our view,”
Citigroup analyst Keith Horowitz wrote in a note to
clients. He predicted the fraud case won’t be a “lifethreatening issue” but that it “clearly seems like a
black eye for Goldman.”
It’s not the first. The company came under criticism
for receiving billions in bailout money that the
government funneled into crippled insurer American
International Group Inc. at the height of the financial
crisis in 2008. Goldman was owed the money, but
critics argued it should’ve been treated like other
creditors and be forced to accept less.

119
Goldman CEO Lloyd Blankfein angered the bank’s
critics last year after The Times of London quoted him
as saying he was “doing God’s work” running the firm
and handing out big employee bonuses. Blankfein
himself got a $9 million stock bonus for 2009.
Mishaps like those have been surprising given how
much attention Goldman pays to its image. “Our
clients’ interests always come first,” the company says
on its website under the heading, “Goldman Sachs
Business Principle No. 1.”
It’s a sales pitch that few Wall Street firms always
live up to. Some analysts blame that on a shift in the
industry’s business model from traditional investment
banking to one that focuses on making big bets for
itself or clients.
That shift culminated in the rise of Blankfein, a
former commodities trader, to the position of CEO in
2003. Today, trading accounts for nearly 70 percent of
Goldman’s revenue. Most of that trading is done on
behalf of clients, though Goldman generates about 10
percent of its revenue by trading for itself.
The heavy reliance on trading and Goldman’s peerless
performance have left the firm open to criticism that
it uses its market knowledge to game the system to
benefit itself and a select group of clients.
The SEC charges seemingly support that assertion.
Fabrice Tourre, the 31-year-old Goldman executive
accused of shepherding the deal in question, boasted
about the “exotic trades” he created “without necessarily
understanding all of the implications of those monstrosities!!!,” according to the SEC complaint.
In another e-mail, he describes as “surreal” a
meeting between his hedge fund client and another

120
firm that allegedly wasn’t told that the bundle of
securities it was buying were chosen with input from
a third party who was betting they would fail.
“Once upon a time, Wall Street firm protected
clients,” said Christopher Whalen, managing director
of financial research firm Institutional Risk Analytics.
“This litigation exposes the cynical, savage culture of
Wall Street that allows a dealer to commit fraud on
one customer to benefit another.”
In a lengthy rebuttal to the SEC charges Friday,
Goldman insisted it was a middleman in the transaction
and did nothing wrong by not disclosing bearish bets
against the pool by Paulson & Co., a major hedge fund led
by billionaire investor John Paulson. Goldman said it lost
$90 million on the deal.
The SEC said Goldman had a duty to inform buyers
of the mortgage investments that Paulson had played
a major role in choosing the securities that went into
the derivatives product and then bet that they would
go bust.
Derivatives are complex financial products whose
value is based on an underlying asset like mortgages
or other types of debt. They’re not traded on a public
exchange, allowing firms like Goldman to generate
fees by brokering deals between buyers and sellers.
The charges strengthen the government’s case for
increased regulation of derivatives like those Goldman
is accused of using, analysts said.
Regardless, Goldman’s ability to weather the storm
should not be discounted, said Janet Tavakoli, president
of Tavakoli Structured Finance, a Chicago consulting
firm.

121
“The benefits of the crisis have so far swamped the
reputation risks for Goldman,” she said.
“If anything,” she added, “they may wind up getting
more customers if people can’t avoid doing business
with them.”
AP Business Writer Chip Cutter contributed to this
report from New York.

122
THE WALL STREET JOURNAL
Wednesday, April 21, 2010
Where’s the Goldman Sachs That I Used to Know
By James B. Stewart
“Surreal” was the word Goldman Sachs Group’s
Fabrice Tourre used to describe a meeting in which the
firm of hedge-fund billionaire John Paulson discussed
with an investor a portfolio of mortgage-backed securities it eventually planned to short. That Goldman
Sachs, a name once synonymous with professionalism
and integrity, now stands accused by the Securities
and Exchange Commission of fraud also might be
deemed surreal.
It’s hard to imagine the damage that these developments have done already to Goldman Sach’s reputation.
The company has always maintained a public position
that business of investment backing depends on trust,
integrity and putting clients’ interests first.
Whether those clients remain loyal to Goldman, and
whether the firm can attract new ones, remains to be
seen. Investors’ reaction to the news was swift and
negative: Goldman shares dropped down 13% Friday
after the SEC filed its suit. Goldman says it is innocent
and will fight the accusations. The bank deserves its
day in court, and legal experts have said the SEC faces
a tough task in proving the company misled investors
about how its complex investment vehicles were constructed. Given the public anger at Wall Street, and
the criticism of the SEC’s failure to regulate more
effectively before the financial crisis struck, it’s worth
considering that Goldman makes an enticing political
target, regardless of the suit’s merits.

123
Goldman hasn’t disputed the basic facts in the SEC’s
narrative: (1) that the company allowed its client Mr.
Paulson, who famously made billions betting that
subprime mortgages would default, to play a role in
the selection of a portfolio of the worst imaginable
subprime mortgages that would be packaged into a
collateralized debt obligation, and (2) that the bank
failed to disclose to clients to whom it sold those CDOs
that it had, in effect, let the fox into the henhouse.
Goldman claims its sophisticated clients wouldn’t have
cared about such information or considered it important,
but if that’s the case, why did Goldman conceal it?
Goldman collected millions of dollars in fees from Mr.
Paulson, who bet against the doomed securities, and
from the clients who invested in them.
For many years, I was a Goldman Sachs shareholder.
I bought shares soon after they first went public in
1999 and held them until I sold them last year, as I
reported in this column. I owned them and recommended
them on several occasions because I believed in Goldman’s
integrity and the culture that fostered it. I have had
friends who work at Goldman or who have worked
there. To me, they embody the best of Wall Street.
They’re smart, well-educated, thoughtful, professional
and hard-working. This is the Goldman I invested in,
not the Goldman alleged to have collaborated with
someone like Mr. Paulson to hoodwink investors. I’m
not even that concerned about whether the Paulson
deal passes legal muster. To me, it fails the higher
standards of honesty and professionalism that Goldman
once embodied and urgently needs to restore. Then,
and only then, would I want to own Goldman shares
again.
In its first-quarter earnings conference call Tuesday
morning, the company continued to deny wrongdoing

124
and cited its net losses on the deal. Greg Palm, the
firm’s general counsel, said Goldman “would never
intentionally mislead anyone,” and that the company
“would never condone inappropriate behavior.”
To regain investor trust, Goldman must abandon
conventional public relations and legal strategies that
call for an all-out defense. It should stop saying it will
fight the charges aggressively and that the SEC’s suit
is “completely unfounded.” No matter how wronged
Goldman officials now feel, they must put those feelings
aside and view this matter from the perspective of
clients, investors, politicians and the public. Goldman’s
mantra should be cooperation, not defiance.
When an institution depends on trust and is accused
of wrongdoing, it needs to get ahead of the investigators. It needs to learn the facts, share them with the
public, impose accountability on its employees, and
take any steps necessary to remedy the problem and
restore trust. I say this as someone who has written
about wrongdoing on Wall Street for years and
watched once venerable firms like Kidder Peabody and
Drexel Burnham Lambert ignore such advice and pass
into oblivion.
This needn’t be Goldman’s fate. It’s already unfortunate that we’ve learned about the Paulson deals from
the SEC and the press rather than from Goldman
itself, especially because the firm says it’s been on
notice since July that it might be sued. But it isn’t too
late for the firm to move boldly to restore trust.
Goldman needs to explain:
 Why was a firm like Mr. Paulson’s allowed to
choose the securities in the CDO it was planning to bet
against? Although Mr. Paulson’s firm may have been
smart to bet against subprime mortgages, this deal

125
was like shooting fish in a barrel. Who else gets this
kind of access, what does Goldman receive in return,
and are their roles disclosed? (Though Mr. Paulson
hasn’t been accused of any wrongdoing it would be interesting to know how much money from the Troubled
Asset Relief Program paid to American International
Group, Goldman and others ended up going to him.)
 Who at Goldman was responsible for giving Mr.
Paulson such extraordinary access and then failing to
disclose it? Surely it wasn’t Mr. Tourre, the 31-yearold Stanford graduate named as a defendant in the
SEC suit. Who did he report to? What was the hierarchy
of oversight? In other words, where does the buck stop?
 Legal issues aside, does Goldman really believe
this deal needs its own standards of integrity, fairness
and professionalism? The notion that purchasers of
the securities wouldn’t care about Mr. Paulson’s role
already fails the common-sense test. Such an argument would be far more persuasive if it came from the
clients who bought them rather than Goldman. And
it’s no excuse that other firms were carrying out
similar deals with comparable disclosure.
 If Goldman concludes such a deal didn’t meet its
standards, it needs to acknowledge that and take whatever steps are necessary to prevent it from happening
again. Someone has to be responsible and held accountable, perhaps even a highly valued and revered highlevel official. Goldman needs to do this before it is
forced to do so by a court, regulators, or Congress. This
will be painful. It takes courage, objectivity, vision,
and perhaps most of all, humility.
 How will Goldman prevent such conflicts in the
future? What is it doing internally to restore a culture
of integrity? If Mr. Tourre or any other employee

126
thought he was caught in a “surreal” situation, to whom
could he take such concerns and get a fair hearing?
 The SEC suit isn’t Goldman’s only potential
scandal. The Wall Street Journal reported last week
that Goldman director Rajat Gupta is being investigated as part of the sprawling Galleon insider-trading
investigation. In the article, Goldman declined to
comment on whether Mr. Gupta informed the company
about having received a notice from prosecutors. What
does Goldman know about possible leaks of inside
information? Why, when Mr. Gupta told Goldman in
March he wouldn’t be standing for re-election, did
Goldman Chief executive Lloyd Blankfein issue a public
statement lavishing praise for his service? And why,
for that matter, wasn’t Mr. Gupta asked to resign immediately? Mr. Gupta hasn’t been accused of wrongdoing,
and Goldman is right not to prejudge him. But that
doesn’t mean Goldman should ignore the evidence or
that someone under investigation is entitled to a board
seat.
 Are there other investigations we should know
about?
These may well be isolated incidents, confined to a
few individuals, their timing an unfortunate coincidence.
If so, Goldman has all the more reason to get ahead of
the scandal, get the facts and disclose them. It may
require swallowing some pride and suffering some
criticism. It’s also the right thing to do.

127
THE WALL STREET JOURNAL
Friday, April 30, 2010 – Vol CCLV No. 100
Criminal Probe Looks Into Goldman Trading
By Susan Pulliam And Evan Perez
Federal prosecutors are conducting a criminal investigation into whether Goldman Sachs Group Inc. or its
employees committed securities fraud in connection
with its mortgage trading, people familiar with the
probe say.
The investigation from the Manhattan U.S. Attorney’s
Office, which is at a preliminary stage, stemmed from
a referral from the Securities and Exchange Commission,
these people say. The SEC recently filed civil securitiesfraud charges against the big Wall Street firm and a
trader in its mortgage group. Goldman and the trader
say they have done nothing wrong and are fighting the
civil charges.
Prosecutors haven’t determined whether they will
bring charges in the case, say the people familiar with
the matter. Many criminal investigations are launched
that never result in any charges.
The criminal probe raises the stakes for Goldman,
Wall Street’s most powerful firm. The investigation is
centered on different evidence than the SEC’s civil
case, the people say. It couldn’t be determined which
Goldman deals are being scrutinized in the criminal
investigation.
A spokesperson for the Manhattan U.S. Attorney’s
office declined to comment. Goldman declined to
comment.
Goldman shares fell 2.6% in after-hours trading to
$156.08 after The Wall Street Journal reported the

128
news of the investigation. At the 4 p.m. market close,
Goldman shares rose 2.1%.
The development comes amid public calls for more
Wall Street accountability for the industry’s role in the
financial crisis. Though there are multiple ongoing
criminal and civil investigations, no Wall Street executives connected with the meltdown have been convicted
of criminal charges. During congressional hearings
this week into Goldman’s role in the crisis, legislators
grilled Goldman executives for nearly 11 hours.
The SEC and Justice Department often coordinate
their actions on investigations. The probe underscores
heightened efforts by the Manhattan U.S. Attorney’s
office in prosecuting white collar and Wall Street crime.
It is in the midst of pursuing the largest insidertrading case in a generation, charging 21 individuals
and negotiating 12 guilty pleas in that matter.
But the Goldman probe presents a significant challenge for the government. Prosecutors in the Brooklyn
office of the U.S. Attorney last year lost a high-profile
fraud case against two former Bear Stearns Cos. executives, in the first major criminal case linked to the
financial meltdown.
Prosecutors had accused the Bear Stearns employees of lying to investors in 2007 about the health of two
funds that eventually collapsed. The case centered on
what the government viewed as incriminating emails
indicating the traders knew the mortgage marked
would fall but didn’t disclose that view to investors.
To bring any criminal charges in the Goldman matter,
prosecutors would need to believe they had gathered
evidence that showed that the film or its employees

129
knowingly committed fraud in their mortgage business. Proving such intent to break the law typically is
the toughest hurdle for prosecutors to clear.
Another stumbling block: Such financial cases can
be highly complex. Few outside of Wall Street understand arcane products such as collateralized debt
obligations, the pools of mortgage-related holdings at
the heart of the SEC civil case against Goldman.
On April 16, the SEC charged Goldman and an
employee, Fabrice Tourre, with securities fraud in a
civil suit relating to mortgage transaction known as
Abacus 2007-ACI, the deal the government said was
designed to fail. The SEC alleged that Goldman duped
its clients by failing to disclose that hedge fund
Paulson & Co. not only helped select the mortgages
included in the deal but also bet against the transaction. Both Goldman and Mr. Tourre have denied
wrongdoing.
Even the SEC’s case, which is subject to a lesser
standard of proof than a criminal case, is viewed as a
challenge for regulators. The SEC’s commissioners
were split 3-2 along party lines on whether the agency
should bring a case.
In battling the SEC charges, Goldman says its
investors were sophisticated and knew the underlying
securities they were buying. Goldman says it wasn’t
required to disclose who provided input into the deal
or the views of its clients in the transaction.
The congressional hearing involved numerous other
mortgage deals Goldman arranged in 2006 and 2007.
Lawmakers criticized Goldman and its executives for
allegedly stacking the deck against clients during the
market meltdown in 2007. Some of the emails released
by regulators, lawmakers and Goldman suggest a

130
callous attitude at Goldman toward the risks involved
in some of the mortgage deals, including one in which
an employee referred to a mortgage transaction the
firm sold to investors as a “sh---y” deal.
Over the years, the government has been reluctant
to criminally charge financial firms with wrongdoing
because the charge itself can cause a business to implode.
Some investing clients can’t or won’t trade with a firm
facing such a taint. Indeed, in the more than twocentury history of the U.S. financial markets, no major
financial firm has survived criminal charges. Securities
firms E.F. Hutton & Co. and Drexel Burnham Lambert
Inc. crumbled after being indicted in the 1980s. In
2002 Arthur Andersen LLP went bankrupt after it was
convicted of obstruction of justice for its role in covering up an investigation into Enron Corp. The conviction
was later overturned by the Supreme Court.
In recent years, some financial firms have agreed
to “deferred prosecutions,” in which they agree to a
probationary period for which they won’t commit any
future wrongdoing.
That’s what Prudential Securities Inc. did in 1994
when that securities firm faced criminal charges that
it misled investors about the risks and rewards of
limited-partnership investments.
–Susanne Craig contributed to this article.

131
From:

Libstag, Gwen (FIN 200W41)

Sent:

Friday, May 21, 2010 2:47 PM

To:

Cohn. Gary [EO] Viniar, David;Stecher,
Esta [GSBankUSA]; Rogers, John F.W.
[EO]; Solomon, David [IBD]; Dyal, Gordon
[IBD]; Scherr, Stephen [IBD]; Schwartz,
Harvey [Fin]; Heller, David B [Sec Div];
Eisler, Ed [Sec Div]; Sherwood, Michael S;
Cohen, Alan (AM-NY) [Compl]; Weinberg,
John S. [IBD]

Subject: In case you somehow missed this one
 May 21, 2010, 11:53 AM GMT
How Goldman Gets Its Premium Back
Top of Form 1
Search The Source
 By Robert Armstrong and Gregory J. Milman
For the first time since 2003, Goldman Sachs trades
at a price/tangible book discount to both JP Morgan
Chase and Morgan Stanley. When the SEC is suing
you and Congress is grilling you, investors simply
steer clear of your stock. That’s the common
explanation. [Read our GS coverage here.]
But there is another possibility: that the premium
has dissolved because the market is worried, not about
lawsuits or politics, but about Goldman’s core
business.
The Abacus affair has highlighted the conflicts
intrinsic to the investment banking business. But
historically Goldman has managed those conflicts
well. Moreover, the conflicts in the Abacus deal at the
center or the SEC’s case have nothing to do with

132
trading priorities versus I-banking responsibilities —
the tension usually cited in discussions of Goldman.
The conflicts in the creation of the now-notorious
synthetic CDOs were all on the trading side of the
business.
The issue is more subtle than that. To see that, let’s
play a quick game of Can You Spot the Conflict?
Which of the following conflicts is nothing to worry
about, in a gray area, or beyond the pale?
1. Bank makes a market in a company’s securities
while its prop desk is net short those securities.
2. Bank uses information about its clients’ overall
trading activities to make prop trading decisions.
3. Bank makes a market in mortgage securities
issued by financial institution while its prop desk is
net short that institution’s shares.
4. Bank acts as adviser to mortgage company
while its prop desk is net short mortgages.
5. Bank does advisory work for a client while its
prop desk is short that client’s shares.
6. Bank sells and supports an IPO or other equity
or debt issue recognized to be very low quality.
7. Bank designs and sells structured mortgage
security product while it is net short against the
mortgage market and/or against buyers of the
structured product.
8. Bank designs and sells
synthetic CDO product while:

hyper-leveraged

a. believing at the management level that the
mortgage market is ready to crack;

133
b. knowing the short party is more sophisticated
than the long; and/or
c. there is more money to be made in the long run
from the relationship with short party than
from the long.
9. Bank’s prop desk is net short a security while an
analyst has a buy recommendation on it.
10. Bank uses inside information gained though
client relationships to take short/long positions on that
client’s shares.
A good argument can be made that 1 and 2 are not
problematic while 9 and 10 are out of bounds.
If you believe it is difficult, if not impossible, to
separate flow and prop trading and that major banks
cannot compete in advisory services without a sales
and trading operation, the conflicts in scenarios 3
through 7 are inherent to the business and simply
have to be managed.
As a group, 6 through 8 are particularly important.
More than the other cases, a bank is benefiting from
its own role as a financial counselor to trade for its own
account or earn a fee. These three cases carry the
greatest risk of serious conflicts, tainted advice and
reputational harm. Banks that push the boundaries in
these kinds of cases are giving all their advisory
customers reason to worry.
Of course, scenario 8 is based on Abacus. Whatever
the true facts are in Goldman’s case, the business of
constructing a synthetic CDO in a volatile market,
shuttling between the counterparties to create the
customized product, is riddled with potential conflicts.

134
This territory is especially dangerous for Goldman
because of the perception that it is an elite adviser and
an elite trader that can do both simultaneously while
managing the conflicts to the satisfaction of its clients.
That’s why its stock carries a premium to its peers in
bull markets.
Conversely, evidence of poorly managed conflicts is
especially dangerous to Goldman. Some damage has
already been done.
“If I’m a corporate treasurer would I do a debt
underwriting with Goldman right now? I might say it’s
not worth the hassle of trying to explain to a board of
directors or irate shareholders or my boss,” says
Sanford C. Bernstein and Co. analyst Brad Hintz.
Goldman will always play in gray areas — that’s the
nature of the modern I-bank — but everyone can tell
dark gray from light gray.
To regain its valuation premium, Goldman must
steer back to the light side.
Goldman, Sachs & Co.
200 West Street | 30th Floor | New York, NY 10282
Tel: (212)-902-0393 | Fax: (212)-493-9791
Email: tamilla.ghodsi@gs.com
Tamilla Ghodsi
Managing Director
Business Selection & Conflicts
Copyright 2010 The Goldman Sachs Group, Inc. All
rights reserved. See http://www.gs.com/disclaimer/
email/salesandtrading.html for important risk
disclosure order handling practices, conflicts of
interest and other terms and conditions relating to

135
this email and your reliance on information contained
in it. This message contains confidential or privileged
information. If you are not the intended recipient
please advise immediately and delete this message.
See
http://gs.com/disclaimer/email
for
further
information on confidentiality and the risks of nonsecure electronic email communication. If you cannot
access these links, please notify as by reply message
and we will send the contents to you.

136
FINANCIAL TIMES
Thursday June 10, 2010
US Regulators step up probe of second
Goldman mortgage deal
CDO was not part of charges filed in April
By Francesco Guerrera, Justin Baer and Greg Farrell
in New York
The US Securities and Exchange Commission has
stepped up its inquiries into a complex mortgagebacked deal by Goldman Sachs that was not part of the
civil fraud charges filed against the bank in April,
according to people close to the matter.
SEC interest in Hudson Mezzanine Funding, a $2bn
collaterised debt obligation, comes amid settlement
talks with Goldman over accusations that the bank
defrauded investors in Abacus, a similar CDO. Goldman
has denied the SEC’s complaint.
People familiar with the matter said that in recent
weeks the SEC had been gathering information on
Hudson Mezzanine, which featured prominently in an
11-hour grilling of Goldman’s executives in the US
Senate in April. The SEC and Goldman declined to
comment.
The inquiry into Hudson Mezzanine is part of a
wider investigation into the CDO activities of Wall
Street banks. People close to the situation said the
probe was preliminary and there was no certainty that
it would lead to additional actions against Goldman.
The bank created and sold Hudson Mezzanine,
which contained residential mortgage-backed securities
from its own balance sheet, in late 2006.

137
In an internal e-mail unearthed by the Senate
investigation, a Goldman employee said a potential
investor in the CDO was “too smart to buy this kind of
junk”.
Goldman went “short” on Hudson Mezzanine,
buying protection on the entire value of the CDO,
according to internal documents. Less than 18 months
later, as the US housing bubble burst, Hudson
Mezzanine’s credit rating had plunged to junk status,
causing losses for investors and enabling Goldman to
collect on the insurance.
Legal experts said that inquiries into Hudson
Mezzanine were likely to focus on whether Goldman
provided investors with adequate disclosure. In a
marketing document, Goldman stated its interests
were “aligned” with investors because it would buy
equity in the CDO. In legal disclaimers, Goldman also
said it would buy protection on the security, but it did
not specify how much.
Carl Levin, the senator who chairs the subcommittee investigating Wall Street’s actions during
the crisis, seized on the “junk” reference repeatedly
during the hearing when questioning Lloyd Blankfein
and other Goldman executives.

138
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
10-CV-3229 (BSJ)
————
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
GOLDMAN, SACHS & CO. and FABRICE TOURRE,
Defendants.
————
CONSENT OF DEFENDANT
GOLDMAN, SACHS & CO.
1. Defendant Goldman, Sachs & Co. (“Defendant”
or “Goldman”) acknowledges having been served with
the complaint in this action, enters a general
appearance, and admits the Court’s jurisdiction over
Defendant and over the subject matter of this action.
2. Without admitting or denying the allegations of
the complaint (except as to personal and subject
matter jurisdiction, which Defendant admits),
Defendant hereby consents to the entry of the final
Judgment in the form attached hereto (the “Final
Judgment”) and incorporated by reference herein,
which, among other things:
(a) permanently restrains and enjoins
Defendant from violation of Section 17(a)
of the Securities Act of 1933 [15 U.S.C.
§ 77q(a)];
(b) orders Defendant to pay disgorgement in
the amount of $15,000,000;

139
(c) orders Defendant to pay a civil penalty in
the amount of $535,000,000 under
Section 20(d)(2) of the Securities Act [15
U.S.C. § 77t(d)(2)]; and
(d) orders Defendant to comply with specified
undertakings for three (3) years from the
entry of the Final Judgment.
3. Goldman acknowledges that the marketing
materials for the ABACUS 2007-AC1 transaction
contained incomplete information. In particular, it
was a mistake for the Goldman marketing materials
to state that the reference portfolio was “selected by”
ACA Management LLC without disclosing the role of
Paulson & Co. Inc. in the portfolio selection process
and that Paulson’s economic interests were adverse to
CDO investors. Goldman regrets that the marketing
materials did not contain that disclosure.
4. Defendant acknowledges that the civil penalty
paid pursuant to the Final Judgment may be
distributed pursuant to the Fair Fund provisions of
Section 308(a) of the Sarbanes-Oxley Act of 2002.
Regardless of whether any such Fair Fund
distribution is made, the civil penalty shall be treated
as a penalty paid to the government for all purposes,
including all tax purposes. To preserve the deterrent
effect of the civil penalty, Defendant agrees that it
shall not, after offset or reduction of any award of
compensatory damages in any Related Investor Action
based on Defendant’s payment of disgorgement in this
action, argue that it is entitled to, nor shall it further
benefit by, offset or reduction of such compensatory
damages award by the amount of any part of
Defendant’s payment of a civil penalty in this action
(“Penalty Offset”). If the court in any Related Investor
Action grants such a Penalty Offset, Defendant agrees

140
that it shall, within 30 days after entry of a final order
granting the Penalty Offset, notify the Commission’s
counsel in this action and pay the amount of the
Penalty Offset to the United States Treasury or to a
Fair Fund, as the Commission directs. Such a payment
shall not be deemed an additional civil penalty and
shall not be deemed to change the amount of the civil
penalty imposed in this action. For purposes of this
paragraph, a “Related Investor Action” means a
private damages action brought against Defendant by
or on behalf of one or more investors based on
substantially the same facts as alleged in the
complaint in this action.
5. Defendant agrees that it shall not seek or
accept, directly or indirectly, reimbursement or
indemnification from any source, including but not
limited to payment made pursuant to any insurance
policy, with regard to any civil penalty amounts that
Defendant pays pursuant to the Final Judgment,
regardless of whether such penalty amounts or any
part thereof are added to a distribution fund or
otherwise used for the benefit of investors. Defendant
further agrees that it shall not claim, assert, or apply
for a tax deduction or tax credit with regard to any
federal, state, or local tax for any penalty amounts
that Defendant pays pursuant to the Final Judgment,
regardless of whether such penalty amounts or any
part thereof are added to a distribution fund or
otherwise used for the benefit of investors.
6. Defendant acknowledges that the Court is not
imposing a civil penalty in excess of $535,000,000
based on Defendant’s agreement to cooperate as set
forth in Paragraph 17 below. Defendant consents that
if at any time following the entry of the Final
Judgment the Defendant does not comply in any

141
material respect with its agreement to cooperate, the
Commission may, at its sole discretion with
reasonable notice to the Defendant, petition the Court
for an order requiring Defendant to pay an additional
civil penalty. In connection with the Commission’s
motion for civil penalties, and at any hearing held on
such a motion: (a) Defendant will be precluded from
arguing that it did not violate the federal securities
laws as alleged in the Complaint; (b) Defendant may
not challenge the validity of the Final Judgment, this
Consent, or any related Undertakings; (c) the
allegations of the Complaint, solely for the purposes of
such motion, shall be accepted as and deemed true by
the Court; and (d) the Court may determine the issues
raised in the motion on the basis of affidavits,
declarations, excerpts of sworn deposition or
investigative testimony, and documentary evidence
without regard to the standards for summary
judgment contained in Rule 56(c) of the Federal Rules
of Civil Procedure. Under these circumstances, the
parties may take discovery, including discovery from
appropriate non-parties.
7. Defendant agrees to comply with the following
undertakings, which shall expire three (3) years from
the entry of the Final Judgment herein;
(a) Product Review and Approval
Firmwide Capital Committee. Defendant shall
expand the role of its Firmwide Capital Committee (or
any successor committee, the “FCC”) in the vetting
and approval process for offerings of residential
mortgage-related securities, including, but not limited
to, collateralized debt obligations that reference such
securities (collectively “mortgage securities”). Except
as described below, offerings of mortgage securities by
Defendant’s Mortgage Department will first be

142
presented to the Structured Finance Capital
Committee (or any successor committee, the “SFCC”),
formerly the Mortgage Capital Committee. If the
transaction is approved by the SFCC, it shall then be
presented to the FCC, which, among other things,
shall have the right in its sole discretion to approve or
reject any such offerings. The FCC, in its discretion,
may direct that some or all mortgage securities
offerings shall be brought directly to the FCC. The
FCC shall ensure that processes are in place so that
written marketing materials (as defined below) for
mortgage securities offerings do not include any
material misstatement or omit to state a material fact
necessary in order to make the statements made, in
light of the circumstances under which they were
made, not misleading.
(b) Role of Internal Legal and Compliance
1. Marketing Materials. All written marketing
materials (i.e., investor presentations or “flip
books,” term sheets, and offering circulars/
prospectuses) used in connection with mortgage
securities offerings must be reviewed by
representatives of Defendant’s Legal Department
or Compliance Department. The review process
shall also include a review of the relevant
memoranda presented to the FCC/SFCC as part of
the approval process for mortgage securities
offerings and all other material terms of the
proposed transaction. Defendant shall establish
and maintain a centralized process to record these
reviews through recordation and retention of:
a. The name of each person in the Legal
Department or the Compliance Department
who reviewed the materials;

143
b.

The date of completion of review; and

c.

A list of the materials reviewed.

2. Internal Audit. On at least an annual basis,
Defendant’s internal audit function shall conduct a
review to determine that these requirements are
being complied with. Any deficiencies noted by
internal audit shall be promptly addressed by
Defendant.
(c) Role of Outside Counsel
In offerings of mortgage securities where Defendant
is the lead underwriter and retains outside counsel to
advise on the offering, such counsel will be asked to
review the term sheets, if any, the offering circular or
prospectus, and the form of any other marketing
materials used in connection with the offering. In
order to enhance the effectiveness of its review,
outside counsel will be provided with the relevant FCC
and/or SFCC memoranda as background information
and such other documents necessary to reflect all
material terms of the transaction.
(d) Education and Training
1. Within sixty (60) days following the hiring
by, or transfer to, Defendant’s Mortgage
Department of new individuals who will be
involved with the structuring or marketing of
mortgage securities offerings, each such person
shall participate in a training program that
includes, among other matters, instruction on the
disclosure requirements under the Federal
securities laws and that specifically addresses the
application of those requirements to offerings of
mortgage securities.

144
2. Not less frequently than annually, each
person in Defendant’s Mortgage Department who
is involved in the structuring or marketing of
mortgage securities offerings shall participate in a
training seminar that covers, among other matters,
disclosure requirements under the Federal
securities laws applicable to offerings of mortgage
securities. The first training seminar shall take
place not later than sixty (60) days following the
date of the Final Judgment.
3. Defendant shall provide for appropriate
record keeping to track compliance with these
requirements.
(e) Certification of Compliance by Defendant
The General Counsel or the Global Head of
Compliance of Defendant shall certify annually (one
year, two years, and three years, respectively, after
the date of entry of this Final Judgment), in writing,
compliance in all material respects with the
undertakings set forth above. The Commission staff
may make reasonable requests for further evidence of
compliance, and Defendant agrees to provide such
evidence. The certification and any such additional
materials shall be submitted to Kenneth R. Lench,
Chief of the Structured and New Products Unit, with
a copy to the Office of Chief Counsel of the
Enforcement Division.
In addition, Defendant acknowledges that it is
presently conducting a comprehensive, firmwide
review of its business standards. This review includes,
among other things, an evaluation of Defendant’s
conflict management, disclosure and transparency of
firmwide activities, structured products and
suitability, education, training and business ethics,

145
and client relationships and responsibilities. The
Commission has taken this review into account in
connection with the settlement of this matter.
8. Defendant waives the entry of findings of fact
and conclusions of law pursuant to Rule 52 of the
Federal Rules of Civil Procedure.
9. Defendant waives the right, if any, to a jury trial
and to appeal from the entry of the Final Judgment.
10. Defendant enters into this Consent voluntarily
and represents that no threats, offers, promises, or
inducements of any kind have been made by the
Commission or any member, officer, employee, agent,
or representative of the Commission to induce
Defendant to enter into this Consent.
11. Defendant agrees that this Consent shall be
incorporated into the Final Judgment with the same
force and effect as if fully set forth therein.
12. Defendant will not oppose the enforcement of
the Final Judgment on the ground, if any exists, that
it fails to comply with Rule 65(d) of the Federal Rules
of Civil Procedure, and hereby waives any objection
based thereon.
13. Defendant waives service of the Final
Judgment and agrees that entry of the Final
Judgment by the Court and filing with the Clerk of the
Court will constitute notice to Defendant of its terms
and conditions. Defendant further agrees to provide
counsel for the Commission, within thirty days after
the Final Judgment is filed with the Clerk of the
Court, with an affidavit or declaration stating that
Defendant has received and read a copy of the Final
Judgment.

146
14. Consistent with 17 C.F.R. 202.5(f), this
Consent resolves only the claims asserted against
Defendant in this civil proceeding. Defendant
acknowledges that no promise or representation has
been made by the Commission or any member, officer,
employee, agent, or representative of the Commission
with regard to any criminal liability that may have
arisen or may arise from the facts underlying this
action or immunity from any such criminal liability.
Defendant waives any claim of Double Jeopardy based
upon the settlement of this proceeding, including the
imposition of any remedy or civil penalty herein.
Defendant further acknowledges that the Court’s
entry of a permanent injunction may have collateral
consequences under federal or state law and the rules
and regulations of self-regulatory organizations,
licensing boards, and other regulatory organizations.
Such collateral consequences include, but are not
limited to, a statutory disqualification with respect to
membership or participation in, or association with a
member of, a self-regulatory organization. This
statutory disqualification has consequences that are
separate from any sanction imposed in an
administrative proceeding. In addition, in any
disciplinary proceeding before the Commission based
on the entry of the injunction in this action, Defendant
understands that it shall not be permitted to contest
the factual allegations of the complaint in this action.
15. Defendant understands and agrees to comply
with the Commission’s policy “not to permit a
defendant or respondent to consent to a judgment or
order that imposes a sanction while denying the
allegations in the complaint or order for proceedings.”
17 C.F.R. § 202.5. In compliance with this policy,
Defendant agrees: (i) not to take any action or to make

147
or permit to be made any public statement denying,
directly or indirectly, any allegation in the complaint
or creating the impression that the complaint is
without factual basis; and (ii) that upon the filing of
this Consent, Defendant hereby withdraws any papers
filed in this action to the extent that they deny any
allegation in the complaint. If Defendant breaches this
agreement, the Commission may petition the Court to
vacate the Final Judgment and restore this action to
its active docket. Nothing in this paragraph affects
Defendant’s: (i) testimonial obligations; or (ii) right to
take legal or factual positions in litigation or other
legal proceedings in which the Commission is not a
party.
16. Defendant hereby waives any rights under the
Equal Access to Justice Act, the Small Business
Regulatory Enforcement Fairness Act of 1996, or any
other provision of law to seek from the United States,
or any agency, or any official of the United States
acting in his or her official capacity, directly or
indirectly, reimbursement of attorney’s fees or other
fees, expenses, or costs expended by Defendant to
defend against this action. For these purposes,
Defendant agrees that Defendant is not the prevailing
party in this action since the parties have reached a
good faith settlement.
17. In connection with this action and any related
judicial or administrative proceeding or investigation
commenced by the Commission or to which the
Commission is a party, Defendant (i) agrees to require
its employees to make themselves available for
interviews at such times and places reasonably
requested by the Commission staff; (ii) agrees to
require that its employees testify at trial and other
judicial proceedings when requested by Commission

148
staff; (iii) will produce non-privileged documents and
other materials as requested by the Commission staff;
(iv) will accept service by mail or facsimile transmission of notices or subpoenas issued by the Commission
for documents or testimony at depositions, hearings,
or trials, or in connection with any related investigation by Commission staff; (v) appoints Defendant’s
undersigned attorney as agent to receive service of
such notices and subpoenas; (vi) with respect to such
notices and subpoenas, waives the territorial limits on
service contained in Rule 45 of the Federal Rules
of Civil Procedure and any applicable local rules,
provided that the party requesting the testimony
reimburses Defendant’s travel, lodging, and subsistence expenses at the then-prevailing U.S. Government
per diem rates; and (vii) consents to personal jurisdiction over Defendant in any United States District
Court for purposes of enforcing any such subpoena.
18. Defendant agrees that the Commission may
present the Final Judgment to the Court for signature
and entry without further notice.
19. Defendant agrees that this Court shall retain
jurisdiction over this matter for the purpose of
enforcing the terms of the Final Judgment.
Dated: July 14, 2010

/s/ Goldman, Sachs & Co.
Goldman, Sachs & Co.
By: /s/ Gregory K. Palm
Gregory K. Palm
Managing Director and
General Counsel
Goldman, Sachs & Co.
200 West Street,
15th Floor
New York, NY 10282

149
On July 14, 2010, Gregory K. Palm, a person known
to me, personally appeared before me and
acknowledged executing the foregoing Consent with
full authority to do so on behalf of Goldman Sachs, &
Co. as its General Counsel.
/s/ Norman Feit
Notary Public
Commission expires:
[STAMP]
Approved as to form:
/s/ Richard H. Klapper
Richard H. Klapper
Gandalfo V. DiBlasi
Karen Patten Seymour
Sullivan & Cromwell LLP
125 Broad Street
New York, NY 10004
(212) 558-4000
Attorneys for Defendant

150
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
Master File No. 1:10-cv-03461-PAC
————
CLASS ACTION
JURY TRIAL DEMANDED
ECF CASE
————
In re GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
This Document Relates To: ALL ACTIONS.
————
CONSOLIDATED
CLASS ACTION COMPLAINT FOR
VIOLATIONS OF FEDERAL SECURITIES LAWS

151
TABLE OF CONTENTS
Page
I.

INTRODUCTION .........................................

1

II. NATURE AND SUMMARY OF THE
ACTION ........................................................

1

III. JURISDICTION AND VENUE ...................

10

IV. THE PARTIES..............................................

10

A. Plaintiffs ..................................................

10

B. Defendants ..............................................

10

C. Relevant Non-Defendant Goldman
Personnel .................................................

12

V. CLASS ACTION ALLEGATIONS ...............

14

VI. FACTS SUPPORTING DEFENDANTS’
FALSE
AND
MATERIAL
MISSTATEMENTS AND OMISSIONS
AND SCIENTER AFTER THE SEC
NOTIFIED GOLDMAN IN JULY 2009
THAT IT HAD RECOMMENDED FILING
SECURITIES FRAUD CHARGES ..............

15

A. Goldman’s Undisclosed Conduct in
Connection with Abacus .........................

16

B. The SEC Files Securities Fraud
Charges that Goldman Settled for $550
Million .....................................................

26

C. Goldman’s Receipt of the Wells Notice in
July 2009 .................................................

27

D. Goldman Admitted that It Violated the
Rules of Its Securities Regulators by
Failing to Disclose Its Receipt of Wells
Notices Relating to Abacus .....................

30

152
Page
E. Goldman’s False and Misleading
Statements and Omissions Post-Receipt
of the Wells Notice in July 2009 .............

36

1. The
False
and
Misleading
Statements in SEC Filings and
Public Announcements from August
2, 2009 to November 10, 2009 ...........

36

2. The
False
and
Misleading
Statements in Response to the New
York Times Article .............................

40

3. The
False
and
Misleading
Statements in SEC Filings from
January 21, 2010 to March 1, 2010 ..

42

VII. FACTS SUPPORTING DEFENDANTS’
FALSE AND MATERIAL MISSTATEMENTS AND OMISSIONS AND SCIENTER CONCERNING THEIR IMPROPER
BUSINESS PRACTICES AND CLIENT
CONFLICTS OF INTEREST RELATED
TO ABACUS .................................................

44

VIII.FACTS SUPPORTING DEFENDANTS’
FALSE AND MATERIAL MISSTATEMENTS AND OMISSIONS AND SCIENTER REGARDING GOLDMAN’S FAILURE TO DISCLOSE ITS CONFLICTS OF
INTEREST WITH ITS CLIENTS AND
THE IMPACT ON GOLDMAN’S CLIENT
FRANCHISE AND REPUTATION ............

49

A. Goldman’s Financial Success Has Been
Driven by Its Reputation, Client
Franchise and Commitment to Put Its
Clients First Above All Else ...................

50

153
Page
B. Goldman’s Undisclosed Fraudulent
Conduct in 2006-2007 in Connection
with the Hudson, Anderson and
Timberwolf CDOs....................................

55

1. Hudson CDO ......................................

56

2. Anderson ............................................

65

3. Timberwolf I.......................................

72

C. The
Findings
of
the
Senate
Subcommittee ..........................................

88

D. Defendants’
False
and
Material
Misstatements and Omissions Which
Failed to Disclose Goldman’s Conflicts
of Interest with Its Clients and the
Impact on Goldman’s “Best in Class
Franchise” ...............................................

89

IX. THE TRUTH REGARDING GOLDMAN’S
FRAUDULENT
CONDUCT
IS
REVEALED ..................................................

100

X.

LOSS CAUSATION/ECONOMIC LOSS .....

105

XI. APPLICABILITY OF PRESUMPTION OF
RELIANCE FRAUD ON THE MARKET
DOCTRINE ...................................................

108

COUNT I ..............................................................

109

For Violation of §10(b) of the Exchange Act
and Rule 10b-5 Against All Defendants ........

109

COUNT II ............................................................
For Violation of §20(a) of the Exchange Act
Against All Defendants ..................................
PRAYER FOR RELIEF .......................................

110
110
110

JURY DEMAND ..................................................

111

154
I. INTRODUCTION
Court appointed Lead Plaintiffs, the Arkansas
Teacher Retirement System, the West Virginia
Investment Management Board, and Plumbers and
Pipefitters National Pension Fund (collectively, “Lead
Plaintiffs”), by their undersigned attorneys, bring this
action on behalf of themselves and all other similarly
situated purchasers of the securities of The Goldman
Sachs Group, Inc. (“Goldman” or “the Company”)
between February 5, 2007, and June 10, 2010,
inclusive (the “Class Period”).
Lead Plaintiffs allege the following upon personal
knowledge as to themselves and their acts, and upon
information and belief as to all other matters, based
on the investigation of counsel. The investigation of
counsel is predicated upon, among other things,
review and analysis of: (i) documents filed publicly by
Goldman with the Securities and Exchange
Commission (the “SEC”); (ii) press releases, new
articles, and other public statements issued by or
concerning Goldman and other defendants named
herein; (iii) research reports issued by financial
analysts concerning Goldman’s securities and
business; and (iv) other publicly available information
and data concerning Goldman and its securities,
including information concerning investigations of
Goldman and its affiliates by, among others: the
United States Senate Permanent Subcommittee on
Investigations (“Senate Subcommittee”); the SEC,
including the investigation leading to the Complaints
brought by the SEC against Goldman and one of its
employees, Fabrice Tourre; the Financial Industry
Regulatory Authority (“FINRA”); and the Financial
Services Authority (“FSA”) in the U.K., including the

155
investigation leading to a substantial financial
penalty on Goldman Sachs International (“GSI”).
II. NATURE AND SUMMARY OF THE ACTION
1. This is a federal securities action on behalf of all
persons and entities who purchased or otherwise
acquired the publicly traded securities of Goldman
from February 5, 2007 through June 10, 2010,
inclusive and certain of its officers and directors for
violations of the Securities Exchange Act of 1934 (“the
Exchange Act”).
2. On April 16, 2010, the SEC charged Goldman
with securities fraud for collaborating with Paulson &
Co., Inc. (“Paulson”), an important Goldman client, to
create a portfolio of securities titled Abacus AC-1
(“Abacus”) that was designed to fail, and for selling
this toxic collateralized debt obligation (“CDO”) to
other Goldman clients without telling them of
Paulson’s role in creating Abacus or his massive short
position on the CDO. In less than a year, Paulson
earned more than $1 billion from shorting Abacus with
Goldman’s assistance. Goldman’s clients, from whom
Goldman concealed Paulson’s key role in creating
Abacus and his short position in the CDO, lost
approximately $1 billion.
3. Following the SEC’s announcement of securities
fraud charges against Goldman, the Company’s stock
immediately plummeted from $184.27 to $160.70 per
share, a loss of approximately $13 billion in
shareholder value.
4. The next day, investors discovered that Goldman
had concealed from the public that it had been under
investigation by the SEC in connection with Abacus
since August 2008, and that the SEC told Goldman in

156
July 2009 via a formal Wells Notice that the SEC was
recommending the filing of securities fraud charges.
5. On April 25-26, 2010, the Senate Subcommittee
released Goldman internal emails showing that,
beginning in late 2006 through early 2008, Goldman
made billions by betting against the very mortgagerelated CDOs it sold to its clients, and structured and
underwrote Abacus to fail – allowing one of its most
important clients to reap billions at the expense of
Goldman’s other clients who bought Abacus.
6. On April 29, 2010, the Wall Street Journal
revealed that Goldman was under investigation by the
Department of Justice. On June 10, 2010, it was
reported that in addition to Goldman’s conduct in
connection with Abacus, the SEC was investigating
Goldman’s conduct in the Hudson CDO, specifically
whether Goldman rid itself of mortgage-backed
securities and related CDOs on Goldman’s books that
it knew were going to decline by selling these
securities to Goldman’s clients who suffered billions in
losses.
7. On July 15, 2010, Goldman agreed to pay the
SEC $550 million for its conduct in the Abacus CDO.
In connection with the settlement, Goldman
acknowledged:
[T]he marketing materials for the ABACUS
2007-AC1 transaction contained incomplete
information. In particular, it was a mistake
for the Goldman marketing materials to state
that the reference portfolio was ‘selected by’
ACA Management LLC without disclosing
the role of Paulson & Co. Inc. in the portfolio
selection process and that Paulson’s economic
interests were adverse to CDO investors.

157
8. On April 13, 2011, the Senate Subcommittee
issued a bi-partisan report authored by Senator Carl
Levin and Senator Tom Coburn which concluded that
Goldman had engaged in pervasive conflicts of interest
with its clients. The Report issued formal findings of
fact including that from 2006 through 2007, Goldman
(i) identified toxic mortgage-backed securities and
CDOs held on its books that Goldman believed would
significantly decline in value and cause the Company
to lose billions; (ii) packaged and sold these securities
to Goldman’s own clients; (iii) hid and made
affirmative misrepresentations to hide the fact that
Goldman had bet against these securities; and (iv)
made billions at its own clients’ expense when the
value of these securities plummeted, just as Goldman
anticipated they would.
9. The Senate identified four particular CDO deals
in 2006-2007, Abacus, “Hudson,” “Timberwolf,” and
“Anderson” in which Goldman engaged in the
improper practice of recommending and selling
securities to its clients while affirmatively hiding the
fact it (or Paulson, a favored client) was placing bets
that those same securities would significantly decline
in value.1

1

On May 11, 2011, the Senate Subcommittee referred its
report to the Department of Justice and SEC for review and
determination as to whether Goldman defrauded its clients, and
whether the Company’s executives, including CEO Blankfein
committed perjury before Congress. Additionally, on May 16,
2010, the New York Attorney General demanded documents from
Goldman in connection with an investigation into Goldman’s
mortgage-related CDO securities practices.

158
10. During the Class Period, defendants made three
categories of materially false and misleading
statements and omissions.
11. First, beginning in July 2009, Goldman
concealed from its quarterly and year-end SEC filings,
press releases and investor conference calls that the
Company had been notified in July 2009, via a formal
Wells Notice, that the SEC had recommended filing
securities fraud charges relating to Goldman’s conduct
in connection with Abacus. By failing to disclose the
Wells Notice, Goldman hid its improper conduct of
betting against (or allowing a favored client to bet
against) the very toxic securities that Goldman
designed to fail and packaged and sold to its clients.
12. Goldman also concealed from shareholders two
additional Wells Notices received by Goldman
employees on September 28, 2009 and January 29,
2010, that were also related to Abacus.
13. In October 2009, Goldman came under intense
scrutiny about the more than $16 billion in bonuses it
was scheduled to pay to Goldman’s executives and
employees. The Company embarked on a full fledged
public relations campaign to promote its reputation as
the preeminent Wall Street bank focused first and
foremost on responsible business practices that placed
their clients’ needs paramount to all else. Goldman
highlighted its $200 million donation to promote
education, and CEO Blankfein even went so far as to
claim that Goldman was doing “God’s work” – all while
concealing the fact that the SEC had told Goldman
that it had recommended the filing of securities fraud
charges against the Company.
14. On December 24, 2009, the New York Times
disclosed that Goldman had created and sold

159
mortgage-related debts in CDOs, bet against these
securities and made billions. Goldman immediately
issued a public denial defending its CDO practices as
necessary to meet “client demand.” In doing so,
Goldman again hid the fact that the SEC had already
notified the Company that the SEC had recommended
filing charges based on Goldman’s fraudulent conduct
that hurt – not benefited – Goldman’s clients.
Goldman also failed to disclose that the CDOs it sold
were not in response to “client demand,” but were
designed to allow Goldman to rid itself of mortgagerelated securities that it wanted off its books and sold
to its clients to make billions.
15. Goldman also lied to the market on April 2,
2010, when it issued its 2009 Annual Report. In a
letter to “Fellow Shareholders,” the Company again
defended its mortgage securitization practices, stating
that “our short positions were not a ‘bet against our
clients.’” Goldman again omitted that it had known
since July 2009 that the SEC had recommended filing
securities fraud charges, and that the Company had
engaged in the fraudulent conduct of profiting at the
expense of its own clients.
16. In addition, Goldman concealed information
about the Wells Notices from both its domestic and
international securities regulators, FINRA and the
FSA in the U.K., which ultimately fined Goldman
$650,000 and approximately $27 million, respectively,
for Goldman’s failure to report the Wells Notices.
17. Had Goldman disclosed and not affirmatively
concealed its receipt of the Wells Notices, the public
would have learned of Goldman’s fraudulent conduct,
which when disclosed between April 16, 2010 and
June 10, 2010, caused severe damage to Goldman’s

160
stock price and caused Goldman’s shareholders to lose
billions.
18. The second category of false and misleading
statements and omissions during the Class Period is
comprised of those statements by Goldman beginning
on February 7, 2007 in which the Company reassured
investors that “[w]e have extensive procedures and
controls that are designed to identify and
address conflicts of interest . . . .” These include
statements in which Goldman specified that “we
increasingly have to address potential conflicts of
interest, including situations where our services
to a particular client or our own proprietary
investments or other investments conflict, or are
perceived to conflict, with the interests of
another client . . . .”2
19. Goldman’s warnings to shareholders regarding
potential conflicts of interest omitted the fact that it
was indeed aware of the existence of such conflicts at
the time. Unbeknownst to Goldman’s clients and
shareholders, at the behest of Goldman senior
management, Goldman had designed the Abacus deal
from the outset to allow the Paulson hedge fund to
short more than $1 billion worth of Abacus securities
at the direct expense of its other clients to whom
Goldman had recommended and sold those same
securities.
20. The above statements were materially false and
misleading because they failed to disclose that
Goldman had deliberately created actual conflicts of
interest by engaging in transactions that were
designed from the outset by the Company to allow a
2

All emphasis is added unless otherwise indicated.

161
favored client to benefit at the expense of its other
clients.
21. The third category of false and misleading
statements and omissions during the Class Period is
comprised of those statements by Goldman beginning
in February 2007 in which the Company repeatedly
told the public that its “best in class” franchise and
continued success depended on the Company’s
reputation, honesty, integrity and commitment to put
its clients’ interests first above all else.
22. These statements failed to disclose Goldman’s
clear conflicts of interest with its own clients, whereby
Goldman intentionally packaged and sold to its clients
billions in securities that were designed to fail, while
at the same time reaping billions for itself or its
favored clients by taking massive short positions on
these securities. The Senate Subcommittee concluded
that Goldman’s undisclosed conduct constituted a
clear conflict of interest, finding:
Conflict Between Client Interests and
Proprietary Trading. In 2007, Goldman
Sachs went beyond its role as market maker
for clients seeking to buy or sell mortgage
related securities, traded billions of dollars in
mortgage related assets for the benefit of the
firm without disclosing its proprietary
positions to clients, and instructed its sales
force to sell mortgage related assets,
including high risk RMBS and CDO
securities that Goldman Sachs wanted to get
off its books, and utilizing key roles in CDO
transactions to promote its own interests at
the expense of investors, creating a conflict
between the firm’s proprietary interests
and the interests of its clients.

162
23. The then-chair of the Senate Subcommittee
stated that:
Investment banks such as Goldman Sachs
were not simply market-makers, they were
self-interested promoters of risky and
complicated financial schemes that helped
trigger the [financial] crisis[.] They bundled
toxic mortgages into complex financial
instruments, got the credit rating agencies to
label them as AAA securities, and sold them
to investors, magnifying and spreading risk
throughout the financial system, and all too
often betting against the instruments they
sold and profiting at the expense of their
clients.
24. The following are examples of the third category
of Goldman’s false and misleading statements and
omissions. In every Annual Report from 2006-2010,
Goldman emphasized The Goldman Sachs Business
Principles, including:
1 Our clients’ interests always come first.
Our experience shows that if we serve our clients
well, our own success will follow.
2 Our assets are our people, capital and
reputation. If any of these is ever diminished,
the last is the most difficult to restore. We are
dedicated to complying fully with the letter
and spirit of the laws, rules and ethical
principles that govern us. Our continued
success depends upon unswerving adherence
to this standard.
* * *

163
14 Integrity and honesty are at the heart of
our business.
25. Goldman also repeatedly made specific
statements and omissions in its SEC filings indicating
that its undisclosed fraudulent conduct was not
occurring – when in fact it was. Goldman warned its
shareholders about the dangers posed by client
conflicts of interest – all while omitting the fact that
the Company was engaged in pervasive conflicts of
interest by selling its clients securities that were
designed to fail and profiting at their clients’ expense.
These include statements in which Goldman stressed:
As we have expanded the scope of our
businesses and our client base, we
increasingly
[must]
address
potential
conflicts of interest, including situations
where our services to a particular client
or our own [proprietary] investments or
other interests conflict, or are perceived
to conflict, with the interests of another
client . . . .
Indeed, Goldman specifically identified the precise
risks posed by client conflicts of interest and securities
fraud violations that subsequently materialized when
Goldman was sued by the SEC, stating that “conflicts
could give rise to litigation or [regulatory]
enforcement actions.” However, Goldman reassured
investors, stating, “[w]e have extensive procedures
and controls that are designed to identify and
address conflicts of interest . . . .”
26. Goldman’s so-called “warnings” to shareholders
regarding potential conflicts of interest created the
false impression that it was unaware of the existence
of any such conflicts at the time. At the same exact

164
time that it was issuing these warnings about
potential conflicts, senior Goldman management was
well-aware of the clear, direct, massive, but
undisclosed conflicts created when Goldman shifted
the risks of billions of dollars in toxic mortgage-backed
securities from its books to its clients’ books and made
billions at its clients’ expense.
27. Goldman publicly conveyed numerous other
times during the Class Period the false and misleading
message that it had placed its clients’ interests
paramount above all else, stating in form or substance
what Goldman CEO Lloyd Blankfein stated in
November 2009: “During our history, our Firm has
been guided by three tenets – the needs and objectives
of our clients, attracting talented and long term
oriented people and our reputation and client
franchise.”
28. As detailed in the SEC Complaint and
settlement, the Senate Subcommittee Report,
Goldman internal documents, and herein, Goldman’s
statements were false and misleading because
Goldman purposefully failed to disclose its conduct
whereby the Company packaged toxic securities that
it wanted to clear from its books, sold them to its
clients, and placed short bets against these securities,
allowing Goldman to reap billions of dollars in profits
at the direct expense of its clients.
29. Goldman’s materially false and misleading
statements and omissions caused Goldman’s stock to
trade at artificially inflated levels during the Class
Period. When the SEC filed its securities fraud
complaint against Goldman on April 16, 2010, the
market learned that, contrary to Goldman’s public
representations, the Company had known that since
late July 2009 that the SEC intended to bring formal

165
securities fraud charges based on Goldman’s conduct
in connection with Abacus, and that the Company had
engaged in undisclosed conduct in which it profited at
the direct expense of its clients who sustained severe
losses. Goldman’s stock plummeted from $184.27 to
$160.70 per share, causing over a $13 billion loss in
shareholder value.
30. The artificial inflation continued to dissipate
from Goldman’s stock price between April 16, 2010
and June 10, 2010, when the Senate Subcommittee
released internal e-mails providing new details of
Goldman’s conduct in connection with Abacus, and the
public learned that the SEC and Department of
Justice were investigating Goldman’s mortgage
securitization practices beyond just the Abacus deal.
On each of these dates, Goldman suffered a
corresponding significant stock price decline, causing
investors to suffer additional billions in damage.
III. JURISDICTION AND VENUE
31. The claims asserted herein arise under §§10(b)
and 20(a) of the Exchange Act, 15 U.S.C. §§78j(b) and
78t(a), and SEC Rule 10b-5.
32. This Court has jurisdiction over the subject
matter of this action pursuant to §27 of the Exchange
Act.
33. Venue is proper in this District pursuant to §27
of the Exchange Act. Acts and transactions giving rise
to the violations of law complained of herein occurred
in this District.

166
IV. THE PARTIES
A. Plaintiffs
34. Lead Plaintiffs Arkansas Teacher Retirement
System, the West Virginia Investment Management
Board, and Plumbers and Pipefitters National Pension
Fund each purchased Goldman common stock during
the Class Period and was damaged thereby.
B. Defendants
35. Defendant Goldman is a financial holding
company, headquartered in New York, New York, that
provides global banking, securities and investment
management services in the United States and
internationally.
36. With respect to the CDO transactions
underlying the allegations of this Complaint, Goldman
senior management coordinated the activities of
several Goldman subsidiaries, which acted in a
collective and coordinated manner in a concerted effort
to seek out customers and sell CDO securities, thereby
transferring risks posed by the collapsing CDO market
from Goldman to its clients. These Goldman
subsidiaries include:
Goldman Sachs & Co. (“GS&Co”) a registered
as a United States broker-dealer and is
engaged in global investment banking,
securities and investment management.
GS&Co is Goldman’s principal broker-dealer
in the United States. Its principal executive
offices are located in New York, New York;
and
Goldman Sachs International (“GSI”), which
is engaged in global investment banking,
securities and investment management. GSI

167
has offices in London and New York, and
operates in the United States in conjunction
with Goldman and GS&Co.
37. Because these Goldman subsidiaries were all
acting in concert under common direction from
Goldman senior management and for a common
purpose, or, in the alternative, they were acting as
agents of The Goldman Sachs Group, Inc. and they are
referred to collectively herein as “Goldman,” except
where necessary to specify the particular entity.
38. Defendant Lloyd C. Blankfein (“Blankfein”) is
Chairman of the Board of Directors and Chief
Executive Officer (“CEO”) of Goldman. Blankfein
participated in the issuance of improper statements,
including the preparation of the improper press
releases and SEC filings.
39. Defendant David A. Viniar (“Viniar”) is Chief
Financial Officer (“CFO”) of Goldman. Viniar
participated in the issuance of improper statements,
including the preparation of the improper press
releases and SEC filings.
40. Defendant Gary D. Cohn (“Cohn”) is President
of and Chief Operating Officer and a director of
Goldman. Cohn participated in the issuance of
improper statements, including the preparation of the
improper press releases and SEC filings.
41. The defendants referenced above in ¶¶38-40 are
referred to herein as the “Individual Defendants.”
C. Relevant
Personnel

Non-Defendant

Goldman

42. The following Goldman employees were
involved in planning, creating, recommending and/or
selling the CDO securities at issue in this Complaint:

168
(a) Daniel Sparks (“Sparks”) was, at relevant
times, Head of Goldman’s Mortgage Department
and a Partner in The Goldman Sachs Group, Inc.
(b) Jonathan Egol (“Egol”) was, at relevant
times, Head of Goldman’s Correlation Trading
Desk. On October 24, 2007, Egol was named a
Managing Director of The Goldman Sachs Group,
Inc.
(c) David Lehman (“Lehman”) was, at relevant
times, Head of the Goldman Commercial Mortgage
Backed Securities Desk and Head of the CDO
Origination Desk. Lehman was also a senior
member of the Structured Products Group. On
October 26, 2006, Lehman was named a Managing
Director of The Goldman Sachs Group, Inc.
(d) Michael Swenson (“Swenson”), was, at
relevant times, a Managing Director in the
Structured Products Group Trading for The
Goldman Sachs Group, Inc.
(e) Peter Ostrem (“Ostrem”), was, at relevant
times, Head of Goldman’s CDO Origination Desk.
On October 26, 2007, Ostrem was named a
Managing Director in The Goldman Sachs Group,
Inc.
(f) Joshua Birnbaum (“Birnbaum”) was, at
relevant times, a Managing Director in the
Structured Products Group Trading for The
Goldman Sachs Group, Inc. He was among the
Mortgage Department’s top traders in ABX assets.
(g) Fabrice Tourre (“Tourre”), was, at relevant
times, an Executive Director in the Structured
Products Group Trading for The Goldman Sachs
Group, Inc. Tourre also worked at the Correlation

169
Desk and was principally involved as a lead
salesman in the Abacus CDO transaction.
(h) Jonathan Sobel (“Sobel”) was, at relevant
times, Head of Goldman’s Mortgage Department.
Sobel is also a Managing Director for The Goldman
Sachs Group, Inc.
(i) Benjamin Case (“Case”), was, at relevant
times, employed as a trader by Goldman Sachs &
Co. on the CDO Origination Desk. Case was
assigned lead responsibility for carrying out
Goldman’s liquidation agent functions.
(j) Matthew Bieber (“Bieber”) was, at relevant
times, employed on the CDO Origination Desk by
Goldman Sachs & Co. Bieber was the assigned
Deal Captain for the Anderson CDO.
(k) J. Michael Evans (“Evans”), was, at relevant
times, Vice Chairman of The Goldman Sachs
Group, Inc.
(l) Jon Winkelried (“Winkelried”), was, at
relevant times, Co-President of The Goldman
Sachs Group, Inc.
(m) Harvey Schwartz (“Schwartz”), was, at
relevant times, Managing Director, Head of Global
Sales and a Co-Head of the Securities division at
The Goldman Sachs Group, Inc.
(n) Tom Montag (“Montag”), was, at relevant
times, a Member of the Management Committee
and Equities/FICC Executive Committee, and CoHead of Global Securities at The Goldman Sachs
Group, Inc.

170
(o) David Solomon (“Solomon”), was, at relevant
times, Head of Investment Banking at The
Goldman Sachs Group, Inc.
(p) Craig Broderick (“Broderick”), was, at
relevant times, Chief Credit Officer of The
Goldman Sachs Group, Inc.
(q) Melanie Herald-Granoff (“Herald-Granoff”),
was, at relevant times, Vice-President of the
Mortgage Bond-Trading Department at The
Goldman Sachs Group, Inc.
(r) Mehra Cactus Raazi (“Raazi”), was, at
relevant times, a Broker at The Goldman Sachs
Group, Inc.
V. CLASS ACTION ALLEGATIONS
43. Lead Plaintiffs bring this action as a class action
pursuant to Rule 23 of the Federal Rules of Civil
Procedure on behalf of a class consisting of all persons
or entities who purchased or otherwise acquired
Goldman common stock during the Class Period and
who were damaged thereby (the “Class”). Excluded
from the Class are defendants and their families, the
officers and directors of the Company, at all relevant
times, members of their immediate families and their
legal representatives, heirs, successors or assigns and
any entity in which defendants have or had a
controlling interest.
44. The members of the Class are so numerous that
joinder of all members is impracticable. The
disposition of their claims in a class action will provide
substantial benefits to the parties and the Court.
Goldman has over 525 million shares of common stock
outstanding, owned by hundreds if not thousands of
persons.

171
45. There is a well-defined community of interest in
the questions of law and fact involved in this case.
Questions of law and fact common to the members of
the Class which predominate over questions which
may affect individual Class members include:
(a) whether the Exchange Act was violated by
defendants’ acts as alleged herein;
(b) whether statements made by defendants to
the investing public during the Class Period
omitted and/or misrepresented material facts
about the business and management of Goldman;
(c) whether the price of Goldman common stock
was artificially inflated; and
(d) to what extent the members of the Class have
sustained damages and the appropriate measure of
damages.
46. Lead Plaintiffs’ claims are typical of those of the
Class because Lead Plaintiffs and the Class sustained
damages from defendants’ wrongful conduct.
47. Lead Plaintiffs will adequately protect the
interests of the Class and have retained counsel who
are experienced in class action securities litigation.
Lead Plaintiffs have no interests which conflict with
those of the Class.
48. A class action is superior to other available
methods for the fair and efficient adjudication of this
controversy.
VI. FACTS
SUPPORTING
DEFENDANTS’
FALSE AND MATERIAL MISSTATEMENTS
AND OMISSIONS AND SCIENTER AFTER
THE SEC NOTIFIED GOLDMAN IN JULY

172
2009 THAT IT HAD RECOMMENDED
FILING SECURITIES FRAUD CHARGES
49. The first category of false and misleading
statements and omissions are those from July 2009
until June 2010, in which Goldman concealed from its
quarterly and year-end SEC filings, press releases and
investor conference calls that the Company had been
notified in July 2009, via a formal Wells Notice, that
the SEC had recommended filing securities fraud
charges relating to Goldman’s conduct in connection
with Abacus. By failing to disclose the Wells Notice,
Goldman hid its improper conduct of betting against
(or allowing a favored client to bet against) the very
toxic securities that Goldman designed to fail and
packaged and sold to its clients.
A. Goldman’s Undisclosed
Connection with Abacus

Conduct

in

50. Abacus 2007-AC1 was a $2 billion synthetic
CDO3 whose reference obligations were BBB rated mid
3

A synthetic CDO such as Abacus combines a CDO and CDS.
A CDO is an asset-backed security based on a portfolio of fixedincome collateral or notes, such as RMBS. To establish a CDO,
an investment bank, such as Goldman, incorporates a special
purpose vehicle (“SPV”) to which equity investors contribute
capital. A credit default swap (“CDS”) is an over-the-counter (i.e.,
not traded on formal exchange) derivative contract referencing a
bond or other financial obligation (the “reference obligation”). The
parties to a CDS are referred to as the protection buyer and the
protection seller. The protection buyer makes fixed periodic
payments, commonly referred to as premiums, to the protection
seller. In exchange, the protection seller agrees to make a
“contingent payment” to the protection buyer if the reference
obligation experiences a defined credit event, such as a default.
In the Abacus transaction, the sellers of protection and the
noteholders take the long position – meaning they both take the
position that the reference portfolio will perform – while the

173
and subprime RMBS securities issued in 2006 and
early 2007. It was the last in a series of 16 Abacus
CDOs referencing residential mortgage backed
securities (“RMBS”) designed by Goldman. Goldman
served as the underwriter or placement agent, the lead
manager, and the protection buyer, and also acted in
other roles related to the CDO.
51. In mid-to-late 2006, Goldman was approached
by the hedge fund Paulson, and asked to structure a
transaction that would enable the hedge fund to short
multiple RMBS securities. Goldman had previously
worked with Paulson and was aware that Paulson
held strong negative views of the residential mortgage
market and was making investments based on that
view. The Goldman Mortgage Capital Committee
Memorandum seeking approval of Abacus 2007-AC1,
for example, stated:
Paulson is a large macro hedge fund that has
taken directional views on the subprime
RMBS market for the past few months. In
2006 the Desk worked an order for Paulson to
buy protection on a supersenior tranche off a
portfolio similar to the Reference Portfolio
selected by ACA, and the AC1 Transaction is
another mean[s] for Paulson to accomplish
their trading objective: buying protection in
tranched format on the subprime RMBS
market.
52. An email sent to Daniel Sparks, head of the
Mortgage Department, by Fabrice Tourre, a

buyers of protection take the short position – meaning they take
the position that the reference portfolio will default.

174
Correlation Trading Desk employee who led the effort
on the Abacus CDO for Paulson, was even more blunt:
Gerstie and I are finishing up engagement
letters . . . for the large RMBS CDO ABACUS
trade that will help Paulson short senior
tranches off a reference portfolio of Baa2
subprime RMBS risk selected by ACA.
53. These documents make it clear that Goldman
knew Paulson’s investment strategy was to identify a
reference portfolio of assets for the Abacus CDO that
Paulson believed would perform poorly or fail, so that
its short position would profit at the expense of the
long investors. In addition, during his Subcommittee
interview, Tourre made it clear that he was aware of
the Paulson investment strategy.
54. Out of concern for its reputation, at least one
investment bank that Paulson approached prior to
Goldman declined to assist Paulson in structuring
what would eventually be called Abacus. Scott Eichel
of Bear Stearns, who reportedly met with Paulson
several times, has been quoted as saying that Paulson
wanted: “especially ugly mortgages for the CDOs, like
a bettor asking a football owner to bench a star
quarterback to improve the odds of his wager against
the team.” According to Eichel, such a transaction
“didn’t pass [Bear’s] ethics standards; it was a
reputation issue, and it didn’t pass our moral compass.
We didn’t think we should sell deals that someone was
shorting on the other side.”
55. In response to the inquiry from Paulson,
Goldman proposed structuring an Abacus CDO.
Fabrice Tourre was given lead responsibility for
organizing and structuring the Abacus transaction.
Goldman’s primary role was to act as an agent and

175
administrator of the CDO, obtaining its profit from the
fees it charged for the services rendered, rather than
from any investment in the CDO itself. In effect,
Goldman “rented” the Abacus platform to the Paulson
hedge fund and served as Paulson’s agent in carrying
out the hedge fund’s investment objectives.
56. Paolo Pellegrini, Paulson’s Managing Director
who led Paulson’s selection of the reference assets for
the Abacus 2007-AC1 transaction, told the SEC that it
was Goldman’s idea to have a portfolio selection agent.
At the same time, Goldman internal communications
made it clear that the objective was to select a portfolio
selection agent that would comply with Paulson’s
suggestions for the assets to be referenced in the CDO.
In an email to colleagues discussing the matter,
Tourre suggested finding a manager that:
will be flexible w.r.t. [with respect to] portfolio
selection (i.e., ideally we will send them a list
of 200 Baa2-rated 2006-vintage RMBS bonds
that fit certain criteria, and the portfolio
selection agent will select 100 out of the 200
bonds).
57. In the early part of January 2007, Tourre sent
an email to prospective selection agents describing
their anticipated role in the CDO. One of his points
was the following:
Reference Portfolio: static, fully identified
upfront, and consisting of approx 100 equallysized mezzanine subprime RMBS names
issued between Q4 [the fourth quarter of]
2005 and today. Starting portfolio would be
ideally what the Transaction Sponsor shared,
but there is flexibility around the names.

176
58. Jonathan Egol, chief architect of the Abacus
structure and head of the Correlation Trading Desk,
suggested that Goldman approach GSC Partners
(“GSC”), a New York hedge fund that Goldman had
worked with on other CDOs, including Anderson.
Tourre sent an email to colleagues asking:
Do you think gsc is easier to work with than
faxtor? They will never agree to the type of
names paulson want[s] to use, I don’t think
steffelin [a senior trader at GSC] will be
willing to put gsc’s name at risk for small
economics on a weak quality portfolio whose
bonds are distributed globally.
A colleague replied:
There are more managers out there than just
GSC / Faxtor. The way I look at it, the easiest
managers to work with should be used for our
own axes. Managers that are a bit more
difficult should be used for trades like
Paulson given how axed Paulson seems to be
(i.e. I’m betting they can give on certain terms
and overall portfolio increase).
59. On January 4, 2007, on behalf of Paulson,
Goldman approached GSC as well as two other
companies to act as the portfolio selection agent for the
Abacus CDO. Shortly thereafter, Tourre reported to
his colleagues that GSC had declined the offer to act
as the Abacus portfolio selection agent due to its
negative views of the assets Paulson wanted to include
in the CDO:
As you know, a couple of weeks ago we had
approached GSC to ask them to act as
portfolio selection agent for that Paulsonsponsored trade, and GSC had declined given

177
their negative views on most of the credits
that Paulson had selected.
60. Later, when Goldman began to market Abacus
2007-AC1 securities, Edward Steffelin, a senior trader
at GSC, sent an email to Peter Ostrem, head of
Goldman’s CDO Origination Desk saying: “I do not
have to say how bad it is that you guys are pushing
this thing.” When asked by the Subcommittee what he
meant, Steffelin responded that he believed that
particular Abacus CDO created “reputational risk” for
GSC as the collateral manager and for the whole
market.
61. Without disclosing Paulson’s intended role as
the sole short party, Goldman and Paulson
approached ACA Capital Management, LLC (“ACA”),
a company with experience in selecting assets for
CDOs. ACA agreed to act as the portfolio selection
agent and Goldman employees expressed hope that
ACA’s involvement would improve the sales of the
Abacus securities. In an internal memorandum
seeking approval of the CDO, for example, Goldman
personnel wrote: “We expect to leverage ACA’s
credibility and franchise to help distribute this
Transaction.”
62. During January, February, and March 2007,
the Abacus reference assets were selected. The
Paulson hedge fund initiated the asset selection
process by providing Goldman with criteria for
choosing RMBS securities for the CDO. According to
Tourre, Goldman’s subsequent identification of
candidate assets was essentially ministerial, as
Paulson’s specified criteria had restricted the scope of
the RMBS securities that could be proposed. For
example, Paulson wanted RMBS securities that had
adjustable rate mortgages, low borrower FICO scores,

178
and mortgages in states with slowing home price
appreciation, like Arizona, California, Florida, and
Nevada. Paulson specifically required 2006-vintage or
2007-vintage subprime RMBS that were rated BBB by
S&P or Baa2 by Moody’s. Goldman sent Paulson a
database and spreadsheet listing the securities that
met Paulson’s criteria. Paulson used that database to
select 123 securities, and Goldman forwarded the
resulting list to ACA. Over the next two months, a
series of negotiations and meetings took place to
finalize selection of the reference assets and the
structure of the CDO.
63. On March 22, 2007, ACA and Paulson agreed on
the final $2 billion reference portfolio for Abacus 2007AC1. The assets consisted of 90 Baa2 rated mid and
subprime RMBS securities issued after January 1,
2006.
64. Goldman characterized Paulson’s participation
in the asset selection process as one in which the hedge
fund merely “express[ed] [its] views” about the
reference portfolio, which often happens in synthetic
CDO transactions. The evidence indicates, however,
that Paulson did more than express its views; it played
an active and determinative role in the asset selection
process. Paulson established the criteria used to
identify the initial list of RMBS securities, proposed a
majority of the reference assets in the final portfolio,
and approved 100% of the reference assets.
65. Moreover, the “views” expressed by Paulson
directly conflicted with the interests of the investors to
whom Goldman was marketing the Abacus 2007-AC1
deal. Pellegrini was quite clear about Paulson’s
intentions in a deposition with the SEC:

179
Question: Your portfolio analysis was
designed in large part to identify bonds that
weren’t going to perform, right?
Answer: Right.
Question: Because you wanted to short those
bonds?
Answer: Right.
66. Notwithstanding Paulson’s direct involvement
in the asset selection process, the Abacus Marketing
book falsely identified ACA as the only portfolio
selection agent for the CDO, and stated that the
portfolio selection agent had selected the reference
assets. The Abacus Offering Memorandum stated:
“The Initial Reference Portfolio will be selected by
ACA Management, L.L.C.”
67. Evidence obtained by the Senate Subcommittee
indicates that Paulson’s role in the Abacus asset
selection process and its investment objectives for the
CDO were not fully or accurately disclosed to key
parties or investors at the time the CDO was being
structured and sold.
68. Moody’s, one of the credit rating agencies asked
to rate the Abacus securities, was not informed of
Paulson’s role or investment objectives. At a Senate
Subcommittee hearing on the role of the credit rating
agencies in the financial crisis, Eric Kolchinsky, a
former Moody’s managing director who oversaw its
CDO ratings and was familiar with Abacus 2007-AC1,
provided sworn testimony that he had not known of
Paulson’s involvement with the CDO at the time it was
rated, did not know of Paulson’s role in selecting the
referenced assets, and believed his staff did not know
either. He testified that allowing an entity that wants

180
a CDO to “blow up” to pick its assets “changes the
whole dynamic,” and was information that he would
have wanted to know when rating the securities:
Senator Levin: And were you or your staff
aware at the time that Moody’s was working
on the ABACUS rating that Paulson was
shorting the assets in Abacus and playing a
role in selecting referenced assets expected to
perform poorly?
Mr. Kolchinsky: I did not know, and I suspect,
I am fairly sure, that my staff did not know
either.
Senator Levin: And are these facts that you
or your staff would have wanted to know
before rating ABACUS?
Mr. Kolchinsky: From my personal
perspective, it is something that I would have
wanted to know because it is more of a
qualitative not a quantitative assessment if
someone who intends the deal to blow up is
picking the portfolio. But, yes, that is
something that I would have personally
wanted to know. It changes the incentives in
the structure.
Senator Levin: Are people usually putting
deals together that want the deal to succeed?
Isn’t that the usual assumption?
Mr. Kolchinsky: That is the basic assumption,
yes.
Senator Levin: And if the person wanting the
deal to blow up is picking the assets, that
would run counter to what the usual
assumption is?

181
Mr. Kolchinsky: It just changes the whole
dynamic of the structure where the person
who is putting it together, choosing it, wants
it to blow up.
Moody’s assigned AAA ratings to two tranches of the
Abacus CDO.
69. ACA told the Senate Subcommittee that,
throughout the asset selection process, it was not
informed and remained unaware of Paulson’s true
investment objective, which was to identify and short
a set of assets that it believed would not perform and
would lose value. According to ACA, it believed that
Paulson was going to be a long investor in the CDO
through its purchase of the equity share that would
incur the first losses in the CDO.
70. Contemporaneous ACA documents support that
position. An internal ACA Commitments Committee
Memorandum on Abacus 2007-AC1 dated February
12, 2007, for example, stated: “The hedge fund is
taking the 0-9% tranche.” Ten days later, on February
23, 2007, the ACA Managing Director who worked on
the Abacus transaction spoke with a Goldman
representative, and took notes of the conversation
which stated in part: “Paulson taking 0-10%.”
71. In April 2007, the same ACA Managing Director
sent an email to the CEO and President of ACA’s
parent company, ACA Capital Holdings Inc., which
was considering buying Abacus securities for itself.
Her email stated: “We did price $192 million in total of
Class Al and A2 today to settle April 26th. Paulson
took down a proportionate amount of equity (0-10%
tranche).”
72. In addition, on January 10, 2007, a few days
after ACA was first approached by Goldman about

182
working on the Abacus CDO, Tourre sent ACA a
“Transaction Summary” describing the proposed
transaction. The Transaction Summary identified the
Paulson hedge fund as the “Transaction Sponsor,”
described the “Contemplated Capital Structure” of the
CDO, and indicated that the lowest tranche, “[0]%[9]%,” was “pre-committed first loss.” The ACA
Managing Director told the Subcommittee that the
“[0]%-[9]%” tranche identified in the Transaction
Summary matched the general description of an
equity tranche, and the wording suggested that
someone had already committed to buy it. She
explained that it was typical for a CDO sponsor to
purchase the equity tranche, and she believed that
Paulson, as the Abacus “sponsor,” had committed to
buy that tranche.
73. The Abacus Marketing book also specified that
the “First Loss” tranche of the CDO, of a “[+10%]” size,
was “Not Offered” for sale. The ACA Managing
Director declared in a statement to the SEC that she
had interpreted the phrase, “Not Offered,” to indicate
the equity tranche had been “pre-placed” and “ha[d]
already been committed to purchase by an investor
and [would] not be marketed.” She thought that
investor was the Paulson hedge fund.
74. When asked about the Transaction Summary
description of the lowest tranche in the Abacus CDO,
Tourre told the Senate Subcommittee that the phrase
“pre-committed first loss” normally indicated that the
tranche had been sold. He stated that he actually
meant to communicate that the tranche had not been
sold, and that portion of the Transaction Summary
was poorly worded.
75. ACA has since filed a civil lawsuit against
Goldman asserting that Goldman did not inform ACA

183
that “Paulson intended to take an enormous short
position” in Abacus and is seeking compensatory
damages and punitive damages for fraudulent
inducement, fraudulent concealment, and unjust
enrichment.
76. Regardless of the communications between
Goldman and ACA, it is clear that the Abacus
marketing material and offering documents provided
by Goldman to investors contained no mention of
Paulson’s short position in the CDO nor the significant
role it played in the selection of the CDOs reference
assets. This was confirmed by Tourre at the Senate
Subcommittee hearing:
Senator Levin: And was it reflected in the
Goldman Sachs security offering to investors
that Paulson had been part of the selection
process? Was that represented in that
document?
Mr. Tourre: Paulson was not disclosed in the
Abacus 07 AC-1 transaction, Mr. Chairman.
Senator Levin: It was not?
Mr. Tourre: No, it was not.
77. Still another troubling omission was Goldman’s
failure to advise potential Abacus investors that the
firm’s own economic interests were aligned with those
of the Paulson hedge fund. As part of the Abacus CDO
arrangement, Paulson agreed to pay Goldman a
higher fee if Goldman could provide Paulson with CDS
contracts containing premium payments below a
certain level. The problem with the fee incentive offer
was that, while lower premiums would result in lower
costs to Paulson, it would also result in lower premium
payments to the CDO, directly reducing the amount of

184
cash available to the long investors. The PaulsonGoldman compensation arrangement, thus, created a
direct conflict of interest between Goldman and the
investors to whom it was selling the Abacus securities.
78. Abacus 2007-AC1 closed, and its securities were
issued on April 26, 2007. They were issued later than
the securities from the Hudson, Anderson, and
Timberwolf CDOs and hit the market as subprime
mortgages were hitting record delinquency and
default rates. Goldman sold the Abacus 2007-AC1
securities to just three investors: IKB, the German
bank; ACA, the portfolio selection agent; and ACA
Financial Guaranty Corp., the owner of ACA and a
wholly owned subsidiary of ACA Capital Holdings Inc.
IKB bought $150 million of the AAA rated Abacus
securities. ACA bought about $42 million in the AAA
securities for placement in another CDO it was
managing. ACA Financial Guaranty Corp. was by far
the largest investor, taking the long side of a $909
million CDS contract referencing the super senior
portion of the CDO. Goldman took the short side of the
CDS contract, which it then transferred to Paulson.
79. Within months, the high risk subprime
mortgages underlying the RMBS securities referenced
in the Abacus portfolio incurred steep rates of default,
and the Abacus securities began to lose value.
According to the SEC, by October 2007, six months
after the securities were issued, 83% of the underlying
assets had received a credit rating downgrade and 17%
of the underlying assets had been placed on a negative
credit watch. On October 26, 2007, a Goldman
employee sent an email about Abacus 2007-AC1 with
an assessment even more negative than that of the
SEC:

185
This deal was number 1 in the universe of
CDO’s that were downgraded by MOODY’S
and S&P. 99.89% of the underlying assets
were downgraded.
80. While Sparks testified that, in 2007, the
Mortgage Department expected its CDOs “to perform,”
a contemporaneous draft presentation that he helped
prepare in May 2007 stated that the “desk expects [the
CDOs] to underperform.” Many other emails provide
his negative views of the CDO market at the time,
including emails in which Sparks described the
subprime market as “bad and getting worse,” and
directed Goldman’s mortgage traders to “[g]et out of
everything,” and “stay on the short side.” He wrote,
among other things: “Game over,” “bad news
everywhere,” and “the business is totally dead.”
81. The three long investors in Abacus 2007-AC 1
together lost more than $1 billion. As the sole short
investor, Paulson recorded a corresponding profit of
about $1 billion.
82. In addition to reaping the millions of dollars in
fees for structuring the Abacus 2007-AC 1 CDO,
Goldman also profited by purchasing CDS protection
or equity puts on ACA’s stock, essentially betting that
the stock price would fall or the company would lose
value. Specifically, after ACA Financial Guaranty
Corp., the parent company of ACA Management which
acted as the collateral manager of Abacus 2007-AC1,
purchased Abacus securities, Goldman purchased the
short side of a CDS contract that referenced ACA
Financial Guaranty. Once ACA Financial Guaranty
encountered extreme financial distress in late 2007,
Goldman made millions of dollars from ACA’s
misfortune – ironically, misfortune ultimately caused
by Goldman.

186
B. The SEC Files Securities Fraud Charges
that Goldman Settled for $550 Million
83. On April 16, 2010, the SEC filed a complaint
against Goldman and Tourre alleging violations of
Section 17(a) of the Securities Act of 1933, as well as
Section 10(b) and Rule 10b-5 of the Exchange Act. The
SEC contended that Goldman had failed to disclose to
potential investors materially adverse information to
its clients, stating:
In sum, GS&Co arranged a transaction at
Paulson’s request in which Paulson heavily
influenced the selection of the portfolio to suit
its economic interests, but failed to disclose to
investors, as part of the description of the
portfolio selection process contained in the
marketing materials used to promote the
transaction, Paulson’s role in the portfolio
selection process or its adverse economic
interests.
84. The day after the SEC filing, Lorin Reisner
(“Reisner”), Deputy Director, Division of Enforcement,
wrote in an e-mail to John Nester (“Nester”), Director,
Office of Public Affairs, and Robert Khuzami
(“Khuzami”),
Deputy
Director,
Division
of
Enforcement:
Goldman’s counsel had numerous discussions
with staff and a senior-level meeting in DC
with Rob and me. No mention of pursuing
settlement by Goldman. It was obvious that
we were serious and planned to pursue
charges.
85. On April 18, 2010, Khuzami wrote in an e-mail
to Nester, Reisner and others:

187
[Goldman] attended a March mtg on [the
Goldman Manager] and the seriousness of
the matter was quite apparent. Every
other counsel we have been involved with in
a Wells process knows it is serious and
conveys an intent to recommend charges
and thus lets us know that settlement is an
option, or asks for that heads-up if charges
are imminent.
86. On July 14, 2010, Goldman reached a $550
million settlement with the SEC. In connection with
the settlement, Goldman acknowledged:
[T]he marketing materials for the ABACUS
2007-AC1 transaction contained incomplete
information. In particular, it was a mistake
for the Goldman marketing materials to state
that the reference portfolio was “selected by”
ACA Management LLC without disclosing
the role of Paulson & Co. Inc. in the portfolio
selection process and that Paulson’s economic
interests were adverse to CDO investors.
87. In sum, Goldman failed to disclose to its own
clients that it had engaged in fraudulent conduct
which created clear conflicts of interest with its
clients, including that it constructed Abacus to help
Paulson, a favored client short multiple RMBS
securities, and profit at the expense of other Goldman
clients. Goldman further failed to disclose that it
allowed Paulson to play a significant role in the
selection of the CDOs referenced assets, while
employing an outside portfolio agent to give the
impression that the CDO assets were selected by a
disinterested third party. Goldman also failed to
disclose Paulson’s investment objective and asset
selection role to a credit rating agency that assigned

188
AAA ratings to two tranches of the Abacus securities.
In addition, Goldman failed to disclose to the investors
its compensation arrangement that provided
incentives for Goldman to minimize the premium
payments into the CDO. Within six months, the
Abacus securities began incurring losses and ratings
downgrades. Goldman watched its clients to whom it
had sold the securities lose virtually all the funds they
had invested, while its favored client Paulson walked
away with a profit of approximately $1 billion.
C. Goldman’s Receipt of the Wells Notice in
July 2009
88. In August 2008, the SEC notified Goldman that
it was commencing an investigation into Abacus and
served Goldman with a subpoena. Goldman responded
by producing approximately eight million pages of
documents. The SEC took five days of testimony from
Goldman’s
most
senior
management
with
responsibility over the Abacus transaction. Among
others, the SEC took testimony from Gail Kreitman, a
managing director, Melanie Herald-Granoff, a vicepresident in the mortgage bond-trading department,
and Fabrice Tourre, the Goldman vice president with
lead responsibility for structuring and marketing
Abacus.
89. In early February 2009, four senior personnel at
Goldman were informed that Tourre and another
Goldman employee (later identified as Jonathan Egol)
had been asked to give testimony in connection with
the SEC investigation.
90. On July 29, 2009, the SEC issued a Wells Notice
to Goldman. A Wells Notice provides notice to a person
or entity that the SEC intends to recommend an
enforcement action and affords the respondent an

189
opportunity
to
recommendation.

respond

concerning

the

91. Goldman provided written Wells submissions to
the SEC Enforcement Staff on with the SEC
Enforcement Staff on September 15, 2009, and
Goldman senior management and counsel met with
the SEC Enforcement Staff on a number of occasions
up until the April 16, 2010 SEC fraud charge, even as
it provided both formal and informal responses to the
SEC. Goldman hid existence of the Wells Notice,
omitting any mention in its financial statements and
public announcements.
92. Top-level senior managers at Goldman were
consulted with and made aware of the SEC
investigation, including the Wells Notices. Yet, during
the Class Period, Goldman did not reveal any
information pertaining to this investigation. Nor was
information about the SEC investigation available to
the public.
93, The SEC Enforcement Staff also issued a Wells
Notice to Tourre on September 28, 2009. Tourre made
a written Wells submission on October 26, 2009, and
met with the SEC Enforcement Staff on October 29,
2009.
94. Additionally, on January 29, 2010, the SEC
Enforcement Staff issued a Wells Notice to a
“Goldman Manager” on the Abacus transaction,
subsequently identified as Jonathan Egol who was
head of Goldman’s Correlation Trading Desk. Egol
provided a written Wells submission on February 24,
2010 and met with the Staff on March 4, 2010.
95. In direct violation of long-standing rules set
forth by its domestic and international regulators,
FINRA and FSA, respectively, Goldman failed to

190
timely report Wells Notices issued to Tourre and Egol,
who played primary roles in Abacus. Until the SEC
filed its securities fraud complaint against Goldman
on April 16, 2010, Goldman hid the Wells Notice
received by the Company and the Wells Notices
received by Tourre and Egol from its investors and
regulators, as well as the existence of an SEC
investigation.
96. Had Goldman timely disclosed the Wells
Notices served on the Company, or either of its two
employees, the public would have discovered the SEC
investigation of the Abacus transaction and Goldman’s
undisclosed fraudulent conduct.
97. From the time Goldman received the first Wells
Notice in July 2009 until the SEC filed its complaint
on April 16, 2010, Goldman failed to disclose that it
could potentially suffer corresponding material
adverse effects, including:
(a) the filing of a formal SEC complaint;
(b) questions arising as to Goldman’s integrity
and the manner in which it conducts various lines
of business;
(c) the impairment of certain highly profitable
lines of business as a result of any governmental
investigations;
(d) the impairment of certain highly profitable
lines of business as a result of a loss of confidence
in Goldman in the marketplace by clients that
would normally do business with Goldman; and
(e) the possibility of criminal prosecution arising
as a result of the civil investigation that would
further disrupt Goldman’s lines of business and

191
cause further long-term damage to its professional
reputation.
98. Additionally, Goldman’s failure to disclose the
SEC investigation and Wells Notices from both the
investing public and from its foreign and domestic
regulators strongly suggests a knowing effort to
conceal rather than a mere failure of oversight.
99. Goldman’s failure to timely disclose any Abacus
Wells Notice, rendered its statements from August
2009 through April 2010 false, incomplete, and
misleading and caused its stock to trade at artificially
inflated levels during the Class Period. Upon news of
the SEC complaint, on April 16, 2010 Goldman’s stock
plummeted from $184.27 to $160.70 per share, causing
more than a $13 billion loss in shareholder value.
D. Goldman Admitted that It Violated the
Rules of Its Securities Regulators by
Failing to Disclose Its Receipt of Wells
Notices Relating to Abacus
100. On May 10, 2010, Goldman disclosed that it
had received notices of investigation from FINRA, the
industry’s self-regulator, and Britain’s FSA relating to
the Company’s conduct in connection with Abacus. On
November 9, 2010, FINRA announced that it had fined
Goldman $650,000 for failing to disclose that Fabrice
Tourre, the trader primarily responsible for
structuring and marketing Abacus, and another
employee, had received a Wells notice in September
2009.
101. Goldman admitted in its settlement with
FINRA that it hid the Wells Notice received by Tourre
from the investing public in violation of FINRA rules.
Specifically, under NASD Conduct Rule 3010 and

192
FINRA Rule 2010, financial firms, like Goldman, are
required to report a Wells Notice to FINRA within 30
days. The existence of the Wells Notice is then posted
in a database that can be viewed by the public. As
explained in Goldman’s Settlement with FINRA:
In August 2008, the SEC began seeking
information from Goldman regarding Abacus,
including the names of the principal
employees responsible for Abacus and emails
related to the CDO offering. Over the next
year and a half, the SEC obtained documents
and testimony from Goldman and a number
of its employees related to the genesis,
structuring and marketing of the Abacus
transaction.
Tourre had worked as a Vice President on
the structured product correlation trading
desk at Goldman’s headquarters in New York
City when Abacus was structured and
marketed. On March 3-4, 2009, Tourre, who
at the time had become an Executive Director
working in London for the firm’s Goldman
Sachs International (“GSI”) affiliate, testified
at the SEC in Washington, D.C. in connection
with the Abacus investigation.4

4

GSI is a London-based wholly owned subsidiary of The
Goldman Sachs Group, Inc. GSI is not a FINRA member firm. In
a settlement with the United Kingdom’s FSA announced on
September 9, 2010, GSI paid a substantial fine in connection with
the FSA’s finding that GSI had failed to have proper and effective
systems and controls in place to ensure that its Compliance
department was apprised of information about the SEC’s
investigation of Goldman and Tourre.

193
Tourre’s counsel received a written
Wells Notice, dated September 28, 2009,
stating that the staff of the SEC intended
to recommend that the SEC file a civil
action
and
institute
a
public
administrative
proceeding
against
Tourre alleging that he violated Section
17(a) of the Securities Act of 1933, Section
10(b) of the Securities Exchange Act of
1934 and Rule 10b-5 thereunder in
connection with the CDO offering. Tourre
was registered with FINRA through Goldman
at the time he received the Wells Notice.
Tourre’s counsel immediately informed
Goldman’s Legal Department that the
Wells Notice had been received.
* * *
Thus, receipt of a written Wells notice
clearly triggers a reporting obligation on
a person’s Form U4. Despite the fact that
the reporting obligation clearly existed,
Goldman failed to ensure that Tourre’s Form
U4 was amended within 30 days of its
knowledge of the Wells Notice, as required
under the By-Laws. Tourre’s Form U4 was
not amended until May 3, 2010, more
than seven months after Goldman
learned of the Wells Notice, and only
after the SEC filed its Complaint against
Goldman and Tourre on April 16, 2010
(resulting in extensive news coverage.)
102. As detailed in the FINRA Settlement,
Goldman also hid receipt of an additional Wells Notice
to another unidentified Goldman employee (later
identified as Egol) from the investing public.

194
Goldman’s failure vis-à-vis Tourre’s
Form U4 was not an isolated incident.
Another Goldman employee in New York also
received a written Wells Notice during the
Relevant Period [Between November 2009
and May 2010], indicating that the staff of a
regulatory agency had made a preliminary
determination
to
recommend
that
disciplinary action be brought against him.
The employee was registered with FINRA
through Goldman at the time he received the
Wells Notice. In this instance, too,
Goldman’s Legal Department was
promptly informed that a Wells Notice
had been received. Goldman, however, did
not ensure that the Form U4 was amended
within 30 days of its knowledge of the Wells
Notice, as required under the By-Laws.
103. In settling with FINRA, Goldman admitted:
Between November 2009 and May 2010
(the “Relevant Period”), in two instances
Goldman
failed
to
update
Uniform
Applications
for
Securities
Industry
Registration or Transfer (“Forms U4”) to
disclose investigations when it was required
to do so by FINRA By-Laws, Article V, Section
2(c). In the first instance, Goldman failed to
file an amendment to Form U4 to disclose
that Fabrice Tourre had received a “Wells
Notice” from the Securities and Exchange
Commission (“SEC”) in connection with the
agency’s investigation of an offering of a
synthetic collateralized debt obligation
(“CDO”) called Abacus 2007-AC I (“Abacus”).
In the second instance, Goldman failed to

195
amend another employee’s Form U4 to
disclose that he had received a Wells Notice.
* * *
By reason of the foregoing, Goldman
violated NASD Conduct Rule 3010 and
FINRA Rule 2010.5 Goldman consents to
the imposition of a censure and a fine of
$650,000, and an undertaking that it will
certify that it has conducted a review of its
procedures and systems concerning Form U4
amendments and compliance with FINRA
By-Laws, Article V, Section 2(c) and
implemented any necessary revisions.
Form U4 is used to register associated
persons
of
broker-dealers
with
the
appropriate jurisdiction(s) and/or self
regulatory
organization(s)
(“SROs”).
Disclosures made in response to the questions
on Form U4 play a vital role in the securities
industry. The disclosures are used to
determine and monitor the fitness of
securities professionals. Timely, truthful, and
complete answers on Form U4 are essential
to meaningful regulation.
104. The FINRA Settlement also details the fact
that Goldman actively hid the Wells Notices from
its Global Compliance division. Senior executives
and attorneys at Goldman had knowledge of the
Tourre Wells Notice but treated the information as
confidential and shared it only on a “need to
know” basis:
5

NASD Conduct Rule 3010 became FINRA Rule 2010 effective
December 15, 2008.

196
Global Compliance is the Division within
Goldman that advises and assists the Firm’s
businesses to ensure compliance with
applicable laws and regulations. . . . Global
Compliance Employee Services (“GCES”)
manages registrations, outside interests and
private investments. The “Registrations
Group” within GCES is responsible for filing
initial Forms U4 and amendments thereto.
For GCES to fulfill its responsibility, other
sources within Goldman must identify and
communicate reportable events to GCES. In
the two instances here, GCES was not timely
informed of the Wells Notices. In the case of
Tourre, knowledge that he had received
a Wells Notice was limited to a small
circle of people inside the firm, including
certain senior staff and attorneys, who
treated the information as confidential
and shared it only on a “need to know”
basis. The fact that a Wells Notice had been
received was not communicated to GCES, and
Tourre’s Form U4 was not timely amended.
The divisional compliance personnel
embedded in the business units where Tourre
worked in London (for GSI) and where the
other individual worked in New York (for
Goldman) were not informed when the firm
learned about the Wells Notices.
* * *
By reason of the foregoing, Goldman
violated NASD Conduct Rule 3010 and
FINRA Rule 2010.

197
105. Goldman was also heavily fined by the United
Kingdom’s financial regulator, the FSA, for the same
conduct – failing to disclose the Abacus-related Wells
Notices. On September 9, 2010, the FSA announced
the second largest fine in its history, penalizing
Goldman nearly $27 million for failing to disclose (a)
the SEC’s investigation, (b) the Goldman Wells Notice,
and (c) the Tourre Wells Notice.
106. The FSA stated in its September 9, 2010 Final
Notice of Penalty (“FSA Notice”) its reasons for the
substantial fine:
The FSA imposes the financial penalty on
GSI for breaches of Principles 2, 3 and 11 in
relation to:
(1) GSI’s failure to inform the FSA, until 16
April 2010, that the staff of the United States
Securities and Exchange Commission (“SEC”)
had indicated by a Wells Call on 28
September 2009 that it would serve, and then
on 29 September 2009 served, a Wells Notice
indicating the SEC staff’s proposal to
recommend an enforcement action for serious
violations of US securities law by an approved
person employed by GSI, Mr. Fabrice Tourre,
relating to his prior activities when working
in the US for Goldman, Sachs & Co. (“the
Tourre Wells Notice”);
(2) GSI’s failure to ensure that it had proper
and effective systems and controls in place for
the communication to GSI Compliance of
information about regulatory investigations
relating to other members of The Goldman
Sachs Group, Inc. (“GS Group”) that might
affect GSI, as a result of which GSI failed to

198
consider providing the FSA with information
concerning the SEC’s investigation (“the SEC
Investigation”) into the Abacus 2007-AC1
synthetic collateralised debt obligation
(“Abacus” or “the Abacus transaction”), which
Goldman, Sachs & Co. (“GSC”) structured
and which was marketed to sophisticated
institutional investors, including by GSI from
the UK. This could have been considered
from February 2009 when approved
persons at GSI were called to give
testimony to the SEC regarding Abacus
and should have been considered at the
latest in July 2009, when GSC received a
Wells Notice from the SEC staff
indicating the SEC staff’s proposal to
recommend an enforcement action
against GSC for serious violations of US
securities law relating to Abacus (“the
GSC Wells Notice”); and
(3) GSI’s failure to conduct its business with
due skill, care and diligence with respect to
its regulatory reporting obligations.
* * *
During the Relevant Period, GSI breached
Principle 2 by failing to conduct its business
with due skill, care and diligence in relation
to its regulatory reporting obligations.
Specifically, GSI failed to consider the
regulatory implications for GSI of the SEC
Investigation, including the GSC Wells
Notice and the Tourre Wells Notice.
107. The FSA viewed Goldman’s failings
“particularly serious” because, inter alia:

as

199
(2) Given GSI’s sophistication and global
operations and the operation of Goldman
Sachs as an integrated global firm, it should
have had in place systems and controls that
were effective to ensure relevant information
concerning the SEC Investigation (and the
Wells Notices issued to GSC and Mr. Tourre)
potentially affecting GSI was communicated
appropriately and, in particular, to its
compliance department to enable it to
consider whether it needed to make
appropriate notifications to the FSA;
(3) In particular, throughout the Relevant
Period, there were a number of
developments which either individually
or cumulatively should have been
brought to the attention of GSI’s
compliance function so that it could
properly consider their impact on GSI’s
regulatory reporting obligations. This,
however, did not occur. These developments
included the following:
(a) when (from February 2009) the SEC staff
indicated its intention to interview and
subsequently (in March and May 2009)
took testimony from certain GSI
employees, who were holders of FSAapproved functions, for the purposes of its
investigation;
(b) when the SEC staff issued a Wells Notice
to GSC in respect of the SEC staff’s
proposal to recommend an enforcement
action for serious violations of US
securities law relating to Abacus, which
was marketed and sold by GSI from the

200
UK
to
sophisticated
institutional
investors (on 28 July 2009); and
(c) when the SEC staff indicated that it would
recommend enforcement action against
Mr. Tourre, a GSI employee and the
holder of a controlled function, by a Wells
Call on 28 September 2009 and
subsequently issued a Wells Notice to Mr.
Tourre indicating the SEC staff’s proposal
to recommend an enforcement action for
serious violations of US securities law
against him personally (on 29 September
2009);
(4) A number of senior managers and other
GSI personnel, including approved
persons, were aware of certain aspects of
the SEC Investigation, including that Mr.
Tourre had received a Wells Notice
containing allegations of serious securities
violations, well before 16 April 2010, but took
no steps to ensure that GSI Compliance was
made aware. Whilst it was not in the
circumstances unreasonable for those people
to assume that the matter would be properly
handled, the FSA is disappointed that none of
them raised the matter directly with GSI
Compliance.
108. The FSA Notice made clear that Goldman
senior managers had knowledge of the key events:
From July 2009 onwards, a number of
senior managers within GSC were aware
that a Wells Notice had been issued to
GSC. From September 2009, certain senior
managers at GSI also became aware of the

201
GSC Wells Notice in the context of being
made aware of the Tourre Wells Notice (as set
out below). It appears that none of these
individuals, nor the personnel in New York
who were managing or involved with GSC’s
engagement with the SEC Investigation,
considered the potential impact of the GSC
Wells Notice on GSI. Consequently, relevant
information relating to the GSC Wells Notice
was not communicated to GSI Compliance.
109. The FSA found that, “the seriousness of GSI’s
breach . . . merits a very substantial financial penalty.”
110. Consistent with its failure to inform
shareholders about the SEC’s Abacus-related
investigation, Goldman did not disclose that it had
received a notice of investigation from either FINRA
or FSA until May 10, 2010, after the market had
absorbed the April 16, 2010 SEC Complaint.
E. Goldman’s
False
and
Misleading
Statements and Omissions Post-Receipt
of the Wells Notice in July 2009
111. The first category of false and misleading
statements and omissions consists of those by
Goldman starting on August 2, 2009 in which
Goldman hid from its investors, and its domestic and
international financial regulators, the Company’s
knowledge that the SEC had issued a Wells Notice
recommending the filing of securities fraud charges.
By failing to disclose the Wells Notice, Goldman hid its
improper conduct of betting against (or allowing a
favored client to bet against) the very toxic securities
that Goldman designed to fail and packaged and sold
to its clients.

202
1. The False and Misleading Statements
in
SEC
Filings
and
Public
Announcements from August 2, 2009 to
November 10, 2009
112. On August 2, 2009, only two days after
receiving the Wells Notice, Goldman filed its Second
Quarter 2009 10-Q, which was signed by defendant
Viniar and included certifications from defendants
Blankfein and Viniar. In the Legal Proceedings
Section of the 10-Q, Goldman listed numerous
proceedings including a section titled “mortgage
related matters,” but concealed the existence of the
SEC Wells Notice or the investigation into Abacus.
113. The
Legal
Proceedings
section
was
represented to “amend[] our discussion set forth under
Item 3 “Legal Proceedings” in our Annual Report on
Form 10-K for the fiscal year ended November 28,
2008, as updated by our Quarterly Report on Form 10Q for the quarter ended March 27, 2009.” Regulation
S-K Item 103 (“Legal Proceedings”) requires the
disclosure of “proceedings known to be contemplated
by governmental authorities” and provides:
Describe briefly any material pending legal
proceedings, other than ordinary routine
litigation incidental to the business, to which
the registrant or any of its subsidiaries is a
party or of which any of their property is the
subject. Include the name of the court or
agency in which the proceedings are pending,
the date instituted, the principal parties
thereto, a description of the factual basis
alleged to underlie the proceeding and the
relief sought. Include similar information
as to any such proceedings known to be
contemplated by governmental authorities.

203
114. Goldman’s August 2, 2009 10-Q was false and
misleading and also violated Regulation S-K Item 103.
Goldman knew that the SEC had recommended the
filing of securities fraud charges, and thus knew that
a securities fraud “legal proceeding” was being
“contemplated
by
governmental
authorities.”
Goldman’s failure to disclose its receipt of the Wells
Notice and SEC investigation prevented the public
from discovering Goldman’s fraudulent conduct, which
when revealed on April 16, 2010 caused Goldman’s
stock to plummet, resulting in investors suffering
billions in losses. The above statement was also
materially false and misleading for the reasons stated
in ¶¶49-112.
115. On October 15, 2009, Goldman issued a press
release reporting its third quarter 2009 results, but
again failed to disclose that it had received a Wells
Notice or that it was under investigation by the SEC.
The above statement was materially false and
misleading for the reasons stated in ¶¶49-114 above.
116. The next day, October 16, 2009, Blankfein told
reporters that: “Our business correlates with growth.
Once it starts to turn, we get very involved in that
process. We benefit from it. . . . Behind that investment
is wealth creation and jobs.” When asked about credit
default swaps, Blankfein said, “I think they serve a
real social purpose.” Blankfein’s statement was
materially false and misleading because he
purposefully concealed the fact that the SEC had
already recommended the filing of securities fraud
charges in the Abacus transaction, which involved
credit default swaps.
117. Then in October 2009, when Goldman came
under intense scrutiny about the more than $16 billion
in bonuses it was scheduled to pay to Goldman’s

204
executives and employees, the Company embarked on
a full-fledged public relations campaign to promote its
reputation as the preeminent Wall Street bank
focused first and foremost on responsible business
practice that placed their clients needs paramount to
all else. This public relations blitz included
highlighting that the Company made a $200 million
donation to promote education, while at the same time
concealing the Wells Notice, SEC investigation and
Goldman’s abusive conduct of making billions at the
direct expense of its clients.
118. On November 4, 2009, Goldman filed its Third
Quarter 2009 10-Q, which was signed by defendant
Viniar and included certifications by defendants
Blankfein and Viniar. The Form 10-Q included a
section entitled “Legal Proceedings.”6 Goldman listed
numerous legal proceedings and referenced the IPO
litigation and other ongoing proceedings, such as the
specialists litigation and treasury matters and
mortgage-related matters, but omitted the SEC
investigation and Wells Notice.
119. Goldman’s Third Quarter 2009 10-Q was
materially false and misleading and also violated
Regulation S-K Item 103. Goldman knew that the SEC
had recommended the filing of securities fraud
charges, and thus knew that a securities fraud “legal
proceeding” was being “contemplated by governmental
authorities.” Goldman’s failure to disclose its receipt of
the Wells Notice and SEC investigation prevented the
6

The Legal Proceedings section was represented to “amend[]
our discussion set forth under Item 3 “Legal Proceedings” in our
Annual Report on Form 10-K for the fiscal year ended November
28, 2008, as updated by our Quarterly Reports on Form 10-Q for
the quarters ended March 27, 2009 and June 26, 2009.”

205
public from discovering Goldman’s fraudulent
conduct, which when revealed on April 16, 2010
caused Goldman’s stock to plummet, resulting in
investors suffering billions in losses. The above
statements were also materially false and misleading
for the reasons stated in ¶¶49-117.
120. Only four days later, on November 8, 2009, the
Sunday Times in London published an extensive
interview with Blankfein which stated in part:
We’re very important . . . . We help companies
to grow by helping them to raise capital.
Companies that grow create wealth. This, in
turn, allows people to have jobs that create
more growth and more wealth. It’s a virtuous
cycle. . . . We have a social purpose.
* * *
Call him what you will. He is, [Blankfein]
says, just a banker “doing God’s work.”
121. On November 10, 2009, CEO Blankfein spoke
at the Bank of America/Merrill Lynch Banking
Financial Services Conferences and hid from investors
Goldman’s knowledge of the SEC’s intent to
recommend fraud charges against the Company for its
fraudulent conduct of betting against its clients. To the
complete contrary, Blankfein highlighted that
Goldman’s reputation and past and continued
commitment to its clients was, and remained, the key
to Goldman’s success:
During our history, our Firm has been
guided by three tenets – the needs and
objectives of our clients, attracting
talented and long-term oriented people, and
our reputation and client franchise.

206
* * *
[O]ur duty to shareholders, is to protect and
grow this client franchise that is the
lifeblood of Goldman Sachs.
122. Blankfein’s statements were materially false
and misleading. He failed to disclose Goldman’s
receipt of the Wells Notice and the SEC investigation,
which would have revealed Goldman’s fraudulent
conduct of subjugating its clients’ interests below that
of the Company, including, that Goldman had (i)
identified toxic mortgage-backed securities and CDOs
held on its books that Goldman believed would
significantly decline in value and cause the firm to lose
billions; (ii) packaged and sold these securities to
Goldman’s own clients at inflated prices; (iii) made
affirmative misrepresentations to its own clients in
order to hide the fact that Goldman (or a favored
client) had bet against these securities; and (iv) made
billions at its own clients’ expense when the value of
these securities plummeted, just as Goldman
anticipated they would. The above statements were
also materially false and misleading for the reasons
stated in ¶¶49-120.
2. The False and Misleading Statements
in Response to the New York Times
Article
123. On December, 24, 2009, the New York Times
disclosed that Goldman had created and sold mortgage
related debts in CDOs, bet against these securities and
made billions. The article referenced Goldman’s series
of Abacus CDOs and the Hudson CDO, but did not
disclose Goldman’s fraudulent conduct in connection
with those securities.

207
124. On that same day, Goldman immediately
issued a public denial defending its CDO practices as
necessary to meet “client demand,” all the while again
hiding the fact that the SEC had already notified the
Company that it intended to recommend securities
fraud charges arising from its role in the Abacus deal.
Goldman’s press release stated:
Background: The New York Times published
a story on December 24th primarily focused
on the synthetic collateralized debt obligation
business of Goldman Sachs. In response to
questions from the paper prior to publication,
Goldman Sachs made the following points.
As reporters and commentators examine
some of the aspects of the financial crisis,
interest has gravitated toward a variety of
products associated with the mortgage
market. One of these products is synthetic
collateralized debt obligations (CDOs), which
are referred to as synthetic because the
underlying credit exposure is taken via credit
default swaps rather than by physically
owning assets or securities. The following
points provide a summary of how these
products worked and why they were created.
Any discussion of Goldman Sachs’
association with this product must begin with
our overall activities in the mortgage market.
Goldman Sachs, like other financial
institutions, suffered significant losses in its
residential mortgage portfolio due to the
deterioration of the housing market (we
disclosed $1.7 billion in residential mortgage
exposure write-downs in 2008). These losses
would have been substantially higher had we

208
not hedged. We consider hedging the
cornerstone of prudent risk management.
Synthetic CDOs were an established
product for corporate credit risk as early as
2002. With the introduction of credit default
swaps referencing mortgage products in
2004-2005, it is not surprising that market
participants would consider synthetic CDOs
in the context of mortgages. Although precise
tallies of synthetic CDO issuance are not
readily available, many observers would
agree the market size was in the hundreds of
billions of dollars.
Many of the synthetic CDOs arranged
were the result of demand from investing
clients seeking long exposure.
Synthetic CDOs were popular with many
investors prior to the financial crisis because
they gave investors the ability to work with
banks to design tailored securities which met
their particular criteria, whether it be
ratings, leverage or other aspects of the
transaction.
The buyers of synthetic mortgage CDOs
were large, sophisticated investors. These
investors had significant in-house research
staff to analyze portfolios and structures and
to suggest modifications. They did not rely
upon the issuing banks in making their
investment decisions.
For static synthetic CDOs, reference
portfolios were fully disclosed. Therefore,
potential buyers could simply decide not to

209
participate if they did not like some or all the
securities referenced in a particular portfolio.
Synthetic CDOs require one party to be
long the risk and the other to be short so
without the short position, a transaction
could not take place.
It is fully disclosed and well known to
investors that banks that arranged synthetic
CDOs took the initial short position and that
these positions could either have been applied
as hedges against other risk positions or
covered via trades with other investors.
Most major banks had similar businesses
in synthetic mortgage CDOs.
As housing price growth slowed and then
turned negative, the disruption in the
mortgage market resulted in synthetic CDO
losses for many investors and financial
institutions, including Goldman Sachs,
effectively putting an end to this market.
125. Goldman’s false and misleading press release
had its intended effect of negating any impact from the
New York Times article. As a result, Goldman stock
traded up that day, closing at $163.97 up from $163.63
the prior day.
126. The above statements were materially false
and misleading because they failed to disclose
Goldman’s receipt of the Wells Notice and the SEC
investigation, which would have revealed Goldman’s
fraudulent conduct of subjugating its clients’ interests
below that of the Company; including that Goldman
had (i) identified toxic mortgage-backed securities and
CDOs held on its books that Goldman believed would

210
significantly decline in value and cause the firm to lose
billions; (ii) packaged and sold these securities to
Goldman’s own clients at inflated prices; (iii) made
affirmative misrepresentations to its own clients in
order to hide the fact that Goldman had bet against
these securities; and (iv) made billions at its own
clients’ expense when the value of these securities
plummeted, just as Goldman anticipated they would.
The above statements were also materially false and
misleading for the reasons stated in ¶¶49-125.
3. The False and Misleading Statements
in SEC Filings from January 21, 2010
to March 1, 2010
127. On January 21, 2010, Goldman reported its
fourth quarter and year end December 31, 2009
results in a press release which emphasized the
Company’s commitment to its clients:
Throughout the year, particularly during
the most difficult conditions, Goldman Sachs
was an active adviser, market maker and
asset manager for our clients,” said Lloyd C.
Blankfein, Chairman and Chief Executive
Officer. “Our strong client franchise across
global capital markets, along with the
commitment and dedication of our people
drove our strong performance. That
performance, as well as recognition of the
broader environment, resulted in our lowest
ever compensation to net revenues ratio.
Despite significant economic headwinds, we
are seeing signs of growth and remain focused
on supporting that growth by helping
companies raise capital and manage their

211
risks, by providing liquidity to markets and
by investing for our clients.
The above statement was materially false and
misleading for the reasons stated in ¶¶49-126, 148306.
128. On or about March 1, 2010, Goldman filed its
Form 10-K for the year ended December 31, 2009,
signed by Defendants Blankfein, Viniar and Cohn,
which emphasized Goldman’s client focus:
In our client-driven businesses, FICC
[Fixed Income, Currency and Commodities]
and Equities strive to deliver high-quality
service by offering broad market-making and
market knowledge to our clients on a global
basis. In addition, we use our expertise to
take positions in markets, by committing
capital and taking risk, to facilitate client
transactions and to provide liquidity. Our
willingness to make markets, commit capital
and take risk in a broad range of fixed income,
currency, commodity and equity products and
their derivatives is crucial to our client
relationships
and
to
support
our
underwriting
business
by
providing
secondary market liquidity.
129. Goldman did not disclose the SEC
investigation and Wells Notice in its 2009 Form 10-K.
Instead, it vaguely mentioned that there are some
unknown “investigations presently under way,” and
that it had received “requests” from “various
governmental agencies.” In the preamble to the Legal
Proceedings section of its 2009 Form 10-K, Goldman
stated:

212
We are involved in a number of judicial,
regulatory and arbitration proceedings
(including those described below) concerning
matters arising in connection with the
conduct of our businesses. We believe, based
on currently available information, that
the results of such proceedings, in the
aggregate, will not have a material
adverse effect on our financial condition,
but might be material to our operating results
for any particular period, depending, in part,
upon the operating results for such period.
Given the range of litigation and
investigations presently under way, our
litigation expense can be expected to remain
high.
Then, despite the ten pages reporting Goldman’s legal
proceedings, in the subsection reporting MortgageRelated Matters, Goldman stated only that:
GS&Co. and certain of its affiliates,
together with other financial services firms,
have received requests for information
from various governmental agencies and
self-regulatory organizations relating to
subprime mortgages, and securitizations,
collateralized debt obligations and synthetic
products related to subprime mortgages.
GS&Co. and its affiliates are cooperating
with the requests.
The Form 10-K also mentioned certain “inquiries” into
derivatives:
Credit Derivatives
Group Inc. and certain of its affiliates have
received inquiries from various governmental

213
agencies and self-regulatory organizations
regarding credit derivative instruments. The
firm is cooperating with the requests.
130. The above statements were materially false
and misleading and also violated Regulation S-K Item
103. Goldman knew that the SEC had recommended
the filing of securities fraud charges, and thus knew
that a securities fraud “legal proceeding” was being
“contemplated
by
governmental
authorities.”
Goldman’s failure to disclose its receipt of the Wells
Notice and SEC investigation prevented the public
from discovering Goldman’s fraudulent conduct,
which, when revealed on April 16, 2010, caused
Goldman’s stock to plummet, resulting in investors
suffering billions in losses. The above statements were
also materially false and misleading for the reasons
stated in ¶¶49-127.
131. As set forth in Section X, Goldman’s materially
false and misleading statements and omissions caused
Goldman’s stock to trade at artificially inflated levels
during the Class Period. When the SEC filed its
securities fraud complaint against Goldman on April
16, 2010, the market finally learned that, contrary to
Goldman’s public representations, the Company had
known that since late July 2009 that the SEC intended
to bring formal securities fraud charges based on
Goldman’s conduct in connection with Abacus.
Goldman’s stock plummeted from $184.27 to $160.70
per share, causing over a $13 billion loss in
shareholder value.

214
VII. FACTS
SUPPORTING
DEFENDANTS’
FALSE AND MATERIAL MISSTATEMENTS
AND
OMISSIONS
AND
SCIENTER
CONCERNING
THEIR
IMPROPER
BUSINESS PRACTICES AND CLIENT
CONFLICTS OF INTEREST RELATED TO
ABACUS
132. The second category of false and misleading
statements consists of those by Goldman beginning on
February 5, 2007, when Goldman filed its Form 10-K
for the fiscal year ended November 24, 2006, in which
it reassured investors that it had extensive procedures
and controls to avoid conflicts of interest with and
among its clients. At the same time, Goldman hid from
its clients, investors, and its domestic and
international regulators, the Company’s improper
business practices with respect to Abacus, including
that Goldman had deliberately created client conflicts
of interest by designing the Abacus deal from the
outset to allow the Paulson hedge fund to short more
than $1 billion worth of Abacus securities at the direct
expense of its other clients to whom Goldman made
false representations while recommending and selling
those same securities.
133. Goldman repeatedly made specific statements
and omissions in its SEC filings indicating that its
undisclosed fraudulent conduct was not occurring –
when in fact it was. Goldman warned its shareholders
about the dangers posed by client conflicts of interest
– all while the omitting the fact that the Company was
engaged in pervasive conflicts of interest by selling its
clients securities that were designed to fail and
profiting at their clients’ expense.
134. In its Form 10-Ks throughout the Class Period,
Goldman repeatedly reassured its shareholders that it

215
had “extensive procedures and controls that are
designed to [identify and] address conflicts of
interest.” Goldman’s Form 10-Ks for 2006 and 2007
filed on February 6, 2007 and January 29, 2008,
respectively, stated:
Conflicts of interest are increasing and a
failure to appropriately deal with conflicts of
interest could adversely affect our businesses.
Our reputation is one of our most important
assets. As we have expanded the scope of
our businesses and our client base, we
increasingly have to address potential
conflicts of interest, including situations
where our services to a particular client
or our own proprietary investments or
other interests conflict, or are perceived
to conflict, with the interests of another
client . . . .
* * *
We have extensive procedures and
controls that are designed to [identify
and] address conflicts of interest,
including those designed to prevent the
improper sharing of information among our
businesses.
However,
appropriately
[identifying and] dealing with conflicts of
interest is complex and difficult, and our
reputation could be damaged and the
willingness of clients to enter into
transactions in which such a conflict might
arise may be affected if we fail, or appear to
fail, to [identify and] deal appropriately with
conflicts of interest. In addition, potential

216
or perceived conflicts could give rise to
litigation or enforcement actions.
135. Goldman’s Form 10-Ks for 2008, 2009, and
2010 filed on January 27, 2009, February 26, 2010 and
February 28, 2011, respectively, stated:
Conflicts of interest are increasing and a
failure to appropriately deal with conflicts of
interest could adversely affect our businesses.
* * *
We have extensive procedures and
controls that are designed to identify and
address conflicts of interest, including
those designed to prevent the improper
sharing of information among our businesses.
However, appropriately identifying and
dealing with conflicts of interest is complex
and difficult, and our reputation, which is one
of our most important assets, could be
damaged and the willingness of clients to
enter into transactions [with us] may be
affected if we fail, or appear to fail, to identify,
[disclose] and deal appropriately with
conflicts of interest. In addition, potential
or perceived conflicts could give rise to
litigation or [regulatory] enforcement
actions.
136. Indeed, Goldman specifically identified the
precise risks posed by client conflicts of interest that
subsequently materialized when Goldman was sued
by the SEC. Goldman stated in each of its Form 10-Ks
during the Class Period that “conflicts could give rise
to litigation or [regulatory[ enforcement actions.”
However, Goldman, in these same filings, reassured
investors by stating that “[w]e have extensive

217
procedures and controls that are designed to
[identify and] address conflicts of interest . . . .”
137. Goldman’s warnings to shareholders regarding
potential conflicts of interest omitted the fact that it
was aware of the existence of such conflicts at the time.
Unbeknownst to Goldman’s clients and shareholders,
at the behest of Goldman senior management,
Goldman had designed the Abacus deal from the
outset to allow the Paulson hedge fund to short more
than $1 billion worth of Abacus securities at the direct
expense of its other clients to whom it had
recommended and sold those same securities.
138. The above statements were materially false
and misleading because they failed to disclose that
Goldman had deliberately created actual conflicts of
interest by engaging in transactions that were
designed from the outset by the Company to allow a
favored client to benefit at the expense of its other
clients. The above statements were also materially
false and misleading because they failed to disclose
defendants’ improper conduct with respect to Abacus.
139. As discussed in Section VI.E.2., supra, on
December, 24, 2009, the New York Times disclosed
Goldman’s role in creating and selling the Abacus
securities, and Paulson’s short position, but did not
disclose Goldman’s fraudulent conduct with respect to
Abacus.
140. On that same day, Goldman immediately
issued a public denial defending its CDO practices as
necessary to meet “demand from investing clients
seeking long exposure.”
141. As alleged in Section VI.E.2., supra, and
alleged here as a separate misrepresentation,
Goldman’s statement that its CDO practices were

218
necessary to meet “client demand” was materially
false and misleading because it failed to disclose
Goldman’s improper business practices in designing
the Abacus deal from the outset in order to allow a
favored client to benefit at the expense of its other
clients. Specifically, defendants failed to disclose that
Goldman had designed the Abacus deal to allow the
Paulson hedge fund to short more than $1 billion
worth of Abacus securities at the direct expense of its
other clients to whom it made false representations
while recommending and selling to them those same
securities.
142. These statements were also materially false
and misleading for the reasons stated in ¶¶49-141
above.
143. A reasonable investor would have viewed the
Company’s improper conduct in Abacus and the
Company’s deliberate conflict of interests with its
clients in Abacus as significant, material information
in making an investment decision.
144. As previously noted, on April 16, 2010, the SEC
filed a complaint charging Goldman with securities
fraud in connection with the Abacus deal. In July
2010, Goldman settled that case for $550 million, the
largest SEC penalty in history, and admitted that:
[T]he marketing materials for the ABACUS
2007-AC1 transaction contained incomplete
information. In particular, it was a mistake
for the Goldman marketing materials to state
that the reference portfolio was ‘selected by’
ACA Management LLC without disclosing
the role of Paulson & Co. Inc. in the portfolio
selection process and that Paulson’s economic
interests were adverse to CDO investors.

219
145. In addition, on June 10, 2011, Judge Barbara
S. Jones issued an opinion denying in part Tourre’s
motion to dismiss the SEC’s complaint against him
based on the Abacus deal. Judge Jones held that the
SEC had adequately pled “all of the elements of a
Section 10(b) and Rule 10b-5 violation,” reasoning:
Here,
having
allegedly
affirmatively
represented Paulson had a particular
investment interest in ABACUS—that it was
long—in order to both accurate and complete
. . . , Goldman and Tourre had a duty to
disclose Paulson had a different investment
interest—that it was short. . . . Indeed, the
crux of the SEC’s allegation is that rather
than being financially interested in
ABACUS’s success, as the SEC alleges Tourre
represented to ACA . . . , Paulson, in fact, had
financial interests and expectations that were
diametrically opposed to ABACUS’s success.
SEC v. Tourre, No. 10 Civ. 3229, 2011 WL 2305988, at
*13 (S.D.N.Y. June 10, 2011) (internal quotations and
citations omitted).
146. ACA has also sued Goldman in New York state
court, asserting state law claims for fraudulent
inducement, fraudulent concealment and unjust
enrichment against the Company.
147. As set forth in Section X, Goldman’s materially
false and misleading statements and omissions caused
Goldman’s stock to trade at artificially inflated levels
during the Class Period. When the SEC filed its
securities fraud complaint against Goldman on April
16, 2010, the market finally learned that, contrary to
Goldman’s public representations regarding its
business practices, the Company had deliberately

220
created actual conflicts of interest by engaging in the
Abacus transaction that was designed from the outset
by the Company to allow a favored client to benefit at
the expense of Goldman’s other clients. In response,
Goldman’s stock plummeted from $184.27 to $160.70
per share, causing over a $13 billion loss in
shareholder value.
VIII. FACTS SUPPORTING DEFENDANTS’
FALSE AND MATERIAL MISSTATEMENTS AND OMISSIONS AND SCIENTER
REGARDING GOLDMAN’S FAILURE TO
DISCLOSE
ITS
CONFLICTS
OF
INTEREST WITH ITS CLIENTS AND THE
IMPACT
ON
GOLDMAN’S
CLIENT
FRANCHISE AND REPUTATION
148. In addition to Abacus, the Senate
Subcommittee identified Hudson Mezzanine Funding
2006-1 (“Hudson”), Anderson Mezzanine Funding
2007-1 (“Anderson”) and Timberwolf I (“Timberwolf”)
as other Goldman CDOs in Fall 2006 through Summer
of 2007, in which the Company engaged in clear
conflicts of interest by packaging and selling poor
quality mortgage-related securities, that were likely to
lose value, to its clients at higher prices than the
Company believed they were worth, and betting
against those very securities – thereby allowing the
Company to reap billions in profits at their clients’
direct expense.
149. The third category of false and misleading
statements and omissions consist of those made by
Goldman beginning in February 2007 in which the
Company repeatedly told the public that its “best in
class” franchise and continued success depended on
the Company’s reputation, honesty, integrity and

221
commitment to put its clients’ interests first above all
else. These statements failed to disclose Goldman’s
clear conflicts of interest with its own clients in
connection with the Abacus, Hudson, Anderson and
Timberwolf CDOs, whereby Goldman intentionally
packaged and sold billions of these securities that were
designed to fail to its clients, while at the same time
reaping billions for itself or its favored clients by
taking massive short positions on these securities.
150. During the Class Period, market analysts
incorporated the value of Goldman’s “best in class”
franchise, reputation and purported commitment to
its clients above all else into their estimates of
revenues, earnings and stock price, without
knowledge that Goldman profited handsomely by
betting against its own clients. Had Goldman disclosed
these material facts, it would have suffered the severe
damage to its franchise, reputation and stock price
that it ultimately suffered when the truth was
revealed between April 16, 2010 and June 2010.
A. Goldman’s Financial Success Has Been
Driven by Its Reputation, Client Franchise
and Commitment to Put Its Clients First
Above All Else
151. Goldman has been in existence since 1869,
serving as a private investment bank, publicly traded
corporation and now bank holding company. The
Company manages almost a trillion in assets. Between
2007 and 2010 Goldman recorded a collective profit of
over $35 billion.
152. The key to Goldman’s success and survival for
140 years has been its name and its reputation for
placing its clients’ interests paramount above all else.
As reported by the New York Times, “during the Great

222
Depression, Goldman was caught up in a scandal
involving the Goldman Sachs Trading Corporation.
The taint of the scandal drove away business for more
than a decade and made the firm extremely focused on
reputation.”
153. The Company has repeatedly publicly stressed
and highlighted its “best in class” franchise and
reputation and commitment to its clients, including
during the Class Period. At the very same time,
Goldman purposefully concealed that it had sold toxic
CDOs to its clients to reap huge profits at those clients’
expense, and that the SEC had notified Goldman of its
recommendation to file securities fraud charges
relating to Abacus.
154. Goldman’s statements include:


Goldman CEO Blankfein Statements at
November 10, 2009 Bank of America/Merrill
Lynch Banking Financial Services Conference
During our history, our Firm has been
guided by three tenets – the needs and
objectives of our clients, attracting
talented and long-term oriented people,
and our reputation and client
franchise.
* * *
[O]ur duty to shareholders, is to protect
and grow this client franchise that is
the lifeblood of Goldman Sachs.



Goldman CEO Blankfein Statements at
November 13, 2007 Merrill Lynch Banking
and Financial Investor Conference

223
What drove performance was the
quality of our client franchise. To me,
franchise describes the extent to which
our clients come to us for help, advice,
and
execution.
From
those
relationships, business opportunities
are brought to the firm.


Goldman CFO Viniar June 14, 2007
Statements on Goldman’s 2d Quarter Investor
Conference Call
Most importantly, and the basic
reason for our success, is our
extraordinary focus on our clients.



Goldman’s Annual Report (each year from
2006-2010)



Goldman Business Principles
1 Our clients’ interests always come
first. Our experience shows that if we
serve our clients well, our own success will
follow.
2 Our assets are our people, capital and
reputation. If any of these is ever
diminished, the last is the most
difficult to restore. We are dedicated
to complying fully with the letter and
spirit of the laws, rules and ethical
principles that govern us. Our
continued success depends upon
unswerving
adherence
to
this
standard.
* * *

224
14 Integrity and honesty are at the
heart of our business.


Goldman’s Form 10-Ks
Conflicts of interest are increasing and
a failure to appropriately deal with
conflicts of interest could adversely affect
our businesses.
Our reputation is one of our most
important assets. As we have expanded
the scope of our businesses and our client
base, we increasingly have to address
potential conflicts of interest, including
situations where our services to a
particular
client
or
our
own
proprietary investments or other
interests conflict, or are perceived to
conflict, with the interests of another
client, as well as situations where one or
more of our businesses have access to
material non-public information that may
not be shared with other businesses
within the firm.
* * *
We have extensive procedures and
controls that are designed to address
conflicts of interest, including those
designed to prevent the improper sharing
of information among our businesses.
However, appropriately identifying and
dealing with conflicts of interest is
complex and difficult, and our reputation,
which is one of our most important assets,
could be damaged and the willingness of
clients to enter into transactions in which

225
such a conflict might arise may be affected
if we fail, or appear to fail, to identify and
deal appropriately with conflicts of
interest. In addition, potential or
perceived conflicts could give rise to
litigation or enforcement actions.
* * *
Trading and Principal Investments7
* * *
We believe our willingness and
ability to take risk to facilitate client
transactions distinguishes us from
many of our competitors and
substantially enhances our client
relationships.
* * *
We generate trading net revenues from
our
client
[or
customer]-driven
businesses in three ways:


7

First, in large, highly liquid markets, we
undertake a high volume of transactions for
modest spreads and fees.

Goldman’s Trading and Principal Investments segment is
divided into three components: Fixed Income, Currency and
Commodities (“FICC”); Equities; and Principal Investments.
FICC has five principal businesses: commodities; credit products;
currencies; interest rate products, including money market
instruments; and mortgage-related securities and loan products
and other asset-backed instruments. The Goldman employees
that did the relevant deals were part of the mortgage business
section.

226


Second, by capitalizing on our strong
relationships and capital position, we
undertake transactions in less liquid
markets where spreads and fees are
generally larger.



Finally,
we
structure
and
execute
transactions that address complex client
needs.

155. Indeed, Goldman continued to admit that its
reputation, client franchise and commitment to its
clients above all else was the key to the Company’s
success:
• Goldman CEO Blankfein April 27, 2010
Testimony Before Congress
We have been a client-centered firm for
140 years and if our clients believe that
we don’t deserve their trust we cannot
survive.
156. The investment community has consistently
recognized that Goldman’s past and continued success
as the preeminent Wall Street investment bank is
undeniably tied to its reputation, client franchise and
purported commitment to its clients:
April 11, 2007 Deutsche Bank Analyst Report
Goldman Sachs is set apart by its bestin-class franchise.
* * *
Reputation – the bar is higher: Because
the firm probably benefits more from its
reputation than any of its peers, it is also
more vulnerable to high profile blow-ups.
A company lawyer speaks to employees each

227
year and says that each person has the
potential to do more harm than good, in an
effort to remind all of how much is at stake
with the firm’s reputation.
August 8, 2007 CIBC World Markets
“In the end, all you have is your word,
your name, and your reputation,” is what
my granny would often say. Goldman Sachs
operates from the same playbook, a point
that cannot be overemphasized and what
we believe to be the key to understanding
Goldman Sachs.
Reputation
is
everything
when
entering into a new market. Goldman’s
reputation is such that it has garnered it
the most coveted sovereign relationships
from China to the Middle East and
beyond. . . . Due to this, we believe
Goldman will dominate market share in
this region for years to come.
November 28, 2007 CIBC World Markets
[W]e met with CFO David Viniar, Head of IB
David Solomon, and Co-President Gary Cohn
at Goldman Sachs headquarters. Common to
each meeting was the theme of
communication
amongst
the
organization and with clients. For this,
GS maintains and grows its dominant
market share.
The message was direct: know what is going
on everywhere inside GS at all times, manage
risk, and put the client first in service.

228
157. In fact, as subprime mortgage backed
securities and CDOs experienced drastic declines from
summer 2007-2009, and Goldman’s competitors took
billions in mortgage-related writedowns, the
investment community stressed that Goldman’s
reputation for acting in the best interest of its clients
would – and did in fact allow – the Company to not
only withstand, but in fact profit, from the subprime
meltdown:
November 28, 2007 CIBC World Markets
Research Analyst Report
Goldman’s third quarter results stood
out by a mile from many of its peers who
took billions of dollars in credit
writedowns. Was this a fluke? Each
manager yesterday spoke to the value of
Goldman’s franchise specific to customer
relationships when characterizing the
third quarter. While many investors focus
on GS’s bet being “short” mortgages,
management stated that had GS earned half
what it did in mortgages during the third
quarter, results would not have differed
materially. The true strength of the
quarter as viewed by management was in
what Gary Cohn described as “one call”
transactions, deals in which Goldman
was brought in as the sole advisor due to
its reputation as a “can do” firm. These
transactions include Countrywide, Home
Depot, and the Bank of England for Northern
Rock. Client trading worked much in the
same way as Goldman gained market share
from its clients understanding that if a deal

229
had any chance of getting done, Goldman
could do it.
September 18, 2008 HSBC Global Research
Analyst Report
We have long held the opinion that
much of the world worships at the altar
of Goldman. Rating agencies, equity
investors, debt investors, and political
officials all seem to hold the institution in
higher regard than any of its
competitors. Its performance through the
first stage of the credit bubble unwind
reinforced those views.
June 4, 2009 Bernstein Research Analyst
Report
[W]e believe Goldman Sachs will be the
ultimate winner during a FICC [Fixed
Income Currency and Commodities]
recovery as GS is unrelenting in
maintaining its reputation as the largest,
most successful institutional trading firm on
Wall Street and will continue to seize “up for
grabs” market share and take advantage of
credit market opportunities.
* * *
Risks
The biggest risk to any major broker-dealer
is a loss of confidence in its name in the
markets.

230
B. Goldman’s Undisclosed Fraudulent
Conduct in 2006-2007 in Connection
with the Hudson, Anderson and
Timberwolf CDOs
158. At the end of 2006 and throughout 2007,
Goldman’s senior management made a firm-wide
decision to put Goldman’s interests ahead of its own
clients. Seeking to avoid the impending economic
downturn which led to the collapse of some of
Goldman’s competitors, including Bear Stearns and
Lehman Brothers, Goldman unloaded billions of
dollars of deteriorating toxic assets off its books and
onto its own clients. In addition to Abacus, the three
CDO transactions detailed below demonstrate
Goldman’s fraudulent conduct in which Goldman took
a substantial portion of the short side of each CDO,
betting that the assets within the CDO would fall in
value or not perform. Goldman’s short position was in
direct opposition to the clients to whom it sold the
CDO securities, yet Goldman failed to disclose that it
had designed these deals to fail, and that it took
massive short positions to allow the Company to rid
itself of mortgage related assets on its books and profit
handsomely.
1. Hudson CDO
159. By
mid-2006,
Goldman’s
Mortgage
Department had a predominantly pessimistic view of
the U.S. subprime mortgage market. According to
Michael Swenson, head of the Mortgage Department’s
Structured Products Group: “[D]uring the early
summer of 2006 it was clear that the market
fundamentals in subprime and the highly levered
nature of CDOs [were] going to have a very unhappy
ending.”

231
160. By August 2006, Goldman management had
decided that the upside for RMBS and CDOs linked to
the ABX Index8 had “run its course,” and directed the
Mortgage Department’s Asset Backed Securities
(“ABS”) Desk to sell off its billions of dollars of ABX
long holdings that Goldman accumulated throughout
2005 and 2006. After several weeks of effort, however,
the ABS Desk was unable to find many buyers, and its
ABX assets referencing mezzanine subprime RMBS
securities, which were dropping in value, were losing
hundreds of millions and began to pose a
disproportionate risk to both Goldman’s Mortgage
Department and the firm as a whole.
161. In September 2006 Mortgage Department
head Daniel Sparks and his superior, Jonathan Sobel,
initiated a series of meetings with Swenson, head of
the Structured Products Group (“SPG”), and
Birnbaum, the Mortgage Department’s top trader in
ABX assets, to discuss the Department’s long
mortgage-related securities holdings. In those
meetings, they discussed whether the Asset Backed
Security (ABS) Trading Desk within SPG should get
out of its existing positions or “double down.”
162. In simple terms, if the Mortgage Department’s
existing long positions could be transferred off SPG’s
books by finding a “structured place to go with the
risk,” the ABS Trading Desk would then be free to
“double down” by taking on new positions and risk.
163. That same month, September 2006, the ABS
and CDO Desks reached agreement on constructing a
8

The ABX index is a key point of reference for securities
backed by home loans issued to borrowers with weak credit. The
index is comprised of a series of credit-default swaps based on 20
bonds that consist of subprime mortgages.

232
new CDO to provide the ABS Desk with a “structured
exit” from some of its existing investments. The CDO
was called Hudson Mezzanine Funding 2006-1.
Goldman designed Hudson from its inception as a way
to transfer the risk of loss associated with assets from
Goldman’s inventory to the Goldman clients that
invested in Hudson. In fact, Goldman admitted to the
Senate that Hudson was “initiated by the firm as the
most efficient method to reduce long ABX exposures,”
and was an “exit for our long ABX risk.”
164. Hudson was a $2 billion static synthetic CDO
that was structured and began to be marketed by
Goldman in or around late 2006. The actual offering of
the Hudson CDO securities commenced on or about
December 5, 2006, and was led by Goldman
employees, Peter Ostrem (who headed the desk that
originated CDOs for Goldman) and Darryl Herrick
(“Herrick”) (who eventually became the Hudson deal
captain).
165. Goldman used the Hudson CDO to short $1.2
billion in ABX Index assets from Goldman’s own
inventory and to short another $800 million in single
name CDS contracts referencing subprime RMBS
securities. By holding 100% of the short position at the
same time it solicited clients to buy the Hudson
securities, Goldman created and hid an egregious
conflict of interest with its clients.
166. The Hudson transaction allowed Goldman to
profit directly from its clients’ losses – while
misleading those clients about the source of the
reference assets and Goldman’s position on the short
side. When the Hudson securities declined in value,
Goldman made a $1.35 billion profit on its proprietary
short position at the expense of the clients to whom it
had sold the Hudson securities.

233
167. According to Goldman’s contemporaneous
records and its responses to Senate Subcommittee
questions, 100% of the CDS contracts included in
Hudson were supplied by Goldman’s Mortgage
Department. Because Hudson contained only CDS
contracts, it was entirely “synthetic”; it contained no
loan pools or RMBS securities that directed actual
cash payments to the CDO. Instead, the only cash
payments made to Hudson consisted of the cash paid
by investors making initial purchases of the Hudson
securities and the premiums that Goldman paid into
Hudson as the sole short party.
168. After establishing its basic characteristics and
selecting the CDS assets to be included in Hudson,
Goldman began to look for investors. A key
development took place early on, when near the end of
September 2006, Morgan Stanley’s proprietary
trading desk committed to entering into a CDS
agreement with Goldman referencing the “super
senior” portion of Hudson, meaning the CDO’s lowest
risk tranche that would be the first to receive
payments to the CDO.” Morgan Stanley agreed to take
the long side of a CDS that represented $1.2 billion of
the $2 billion CDO. Goldman failed to disclose the fact
that it would be the sole short party in the entire $2
billion CDO.
169. After getting the commitment from Morgan
Stanley, Goldman turned its focus to selling the
remaining Hudson securities. Goldman’s CDO
marketing strategy typically involved its sales
personnel sending clients a marketing booklet
outlining different features of a particular CDO.
Herrick drafted the marketing booklet for Hudson,
and circulated it for review to Ostrem and other
members of the CDO Origination Desk including

234
Benjamin Case and Matthew Bieber. The executive
summary of the marketing booklet described
Goldman’s Hudson CDO program generally and
Hudson Mezzanine Funding 2006-1 in particular:
Goldman Sachs developed the Hudson CDO
program in 2006 to create a consistent,
programmatic approach to invest in
attractive relative value opportunities in the
RMBS and structured product market[.]
* * *
Goldman Sachs has aligned incentives with
the Hudson program by investing in a portion
of equity and playing the ongoing role of
Liquidation Agent.
170. The marketing booklet also described the
Hudson assets, and the selection process for those
assets:
The portfolio composition of Hudson
Mezzanine Funding 2006-1 will consist of
100% CDS on RMBS.
– 60% of the RMBS will be single name CDS
on all 40 obligors in ABX 2006-1 and ABX
2006-2.
– 40% of the RMBS will consist of single name
CDS on 2005 and 2006 vintage RMBS . . .
Goldman Sachs’ portfolio selection process:
– Assets sourced from the Street. Hudson
Mezzanine Funding is not a Balance Sheet
CDO
– Goldman Sachs CDO desk pre-screens and
evaluates assets for portfolio suitability

235
– Goldman Sachs CDO desk reviews
individual assets in conjunction with
respective
mortgage
trading
desks
(Subprime, Midprime, Prime, etc.) and makes
decision to add or decline[.]
171. Goldman’s statement that “Goldman Sachs
has aligned incentives with the Hudson program by
investing in a portion of equity,” was false and
misleading. Goldman did, in fact, purchase
approximately $6 million in Hudson equity. However,
that $6 million equity investment was outweighed 300
times over by Goldman’s $2 billion short position in
Hudson, which made Goldman’s interest adverse to,
rather than aligned with, the Hudson investors.
Neither the marketing booklet nor other offering
materials disclosed to investors the size or nature of
Goldman’s short position in Hudson.
172. The marketing booklet also stated that
Hudson’s assets were “sourced from the Street,” and
that it was “not a Balance Sheet CDO,” even though
all of the CDS contracts had been produced and priced
internally by Goldman and $1.2 billion of the contracts
offset Goldman ABX holdings. The plain meaning of
the phrase, “sourced from the Street,” is that the
Hudson assets were purchased from several brokerdealers on Wall Street.
173. The Senate Subcommittee asked several
Goldman employees involved in Hudson to explain
their understanding of the phrase:
(a) A former Goldman salesperson, Andrew
Davilman, who sold Hudson securities to investors,
told the Senate Subcommittee that he thought
“sourced from the Street” referred to assets being
acquired from a variety of different broker-

236
dealers at the best prices, and was surprised to
learn that all of the Hudson assets had been provided
by Goldman’s ABS Desk;
(b) Herrick, who drafted the Hudson marketing
booklet, stated that “sourced from the Street” meant
the assets were “sourced from a street dealer at
street prices”;
(c) Ostrem stated that “sourced from the Street”
referred to the fact the underlying RMBS securities
were not originated or underwritten by Goldman;
and
(d) Deeb Salem, a Goldman mortgage trader who
selected 40% of the assets in Hudson, described “the
Street” as simply “short hand for all brokerdealers.”
174. By using the phrase, “sourced from the Street,”
Goldman misled investors into thinking that the
referenced assets had been purchased from several
broker-dealers and obtained at arms-length prices,
rather than simply taken directly from Goldman’s
inventory and priced by its own personnel. Moreover,
this phrase hides the fact that Goldman had an
adverse interest to investors and was seeking to
transfer unwanted risk from its own inventory to the
clients it was soliciting. By claiming it was “not a
Balance Sheet CDO,” Goldman also misled investors
into believing that Goldman had little interest in the
performance of the referenced assets in Hudson,
rather than having selected the assets to offset risks
on its own books.
175. In addition to the Hudson marketing booklet,
in December 2006, Goldman issued an Offering
Circular which it distributed to potential investors.
The Offering Circular contained the statement that no

237
independent third party had reviewed the prices at
which the CDS contracts were sold to Hudson. This
purported disclosure was incomplete. In addition to
lacking third-party verification, no external
counterparty had participated in any aspect of the
CDS contracts. All of the CDS contracts had been
produced, signed, and priced internally by two
Goldman trading desks which exercised complete
control over the Hudson CDO.
176. Internally,
while
Hudson
was
being
constructed, Goldman personnel acknowledged that
they were using a novel pricing approach. At one point,
Swenson sent an email to Birnbaum, raising questions
about how they could explain some of the pricing
decisions. Swenson wrote that he was: “concerned that
the levels we put on the abx cdo for single-a and triplebs do not compare favorably with the single-a off of a
abx 1 + abx 2 trade,” telling Birnbaum “[w]e need a
goo[d] story as to why we think the risk is different.”
The prices that Goldman established for the CDS
contracts that Hudson “bought” affected the value of
the CDO and the Hudson securities Goldman sold to
investors, but the Offering Circular failed to disclose
the extent to which Goldman had single-handedly
controlled the pricing of 100% of the CDOs assets.
177. Goldman also failed to disclose the fact that it
would be the sole short party in the entire $2 billion
CDO. The Goldman materials told investors that an
affiliate, GSI, would be the “credit protection buyer” or
initial short party for the Hudson CDO. It was
common practice for underwriters to act as the initial
short party in a CDO, acting as an intermediary
between the CDO vehicle and broker-dealers offering
competitive bids in order to short the assets referenced
in the CDO. The disclosure provided by Goldman

238
contained boiler plate language suggesting that would
be the role played by GSI in the Hudson transaction.
Goldman never disclosed that it had provided all of
Hudson’s assets internally, GSI was not acting as an
intermediary, and GSI would not be passing on any
portion of the short interest in Hudson to any other
party, but would be keeping 100% of the short position.
The Hudson disclosures failed to state that, rather
than serving as an intermediary, Goldman was
making a proprietary investment in the CDO which
placed it in a direct, adverse position to the investors
to whom it was selling the Hudson securities.
178. The Offering Circular also contained a section
entitled, “Certain Conflicts of Interest,” which
included a subsection entitled, “The Credit Protection
Buyer and Senior Swap Counterparty,” in which
Goldman could have disclosed its short position.
Rather than disclose that short position, however,
Goldman stated in part:
GSI and/or any of its affiliates may invest
and/or deal, for their own respective accounts
for which they have investment discretion, in
securities or in other interests in the
Reference Entities, in obligations of the
Reference Entities or in the obligors in
respect of any Reference Obligations or
Collateral Securities (the “Investments”), or
in credit default swaps (whether as protection
buyer or seller), total return swaps or other
instruments enabling credit and/or other
risks to be traded that are linked to one or
more Investments.
This disclosure indicates that GSI or an affiliate “may
invest and/or deal” in securities or other “interests” in
the assets underlying the Hudson CDO, and “may

239
invest and/or deal” in securities that are “adverse to”
the Hudson “investments.” The Offering Circular,
however, misrepresented Goldman’s investment
plans. At the time it was created in December 2006,
Goldman had already determined to keep 100% of the
short side of the Hudson CDO and act as the sole
counterparty to the investors buying Hudson
securities, thereby acquiring a $2 billion financial
interest that was directly adverse to theirs.
179. Consistent with both industry and Goldman
practice, customers learning of GSI’s role as the initial
sole counterparty in Hudson would have assumed that
GSI planned to sell its initial short position to other
parties.
180. Goldman placed a priority on selling Hudson
securities, delaying the issuance of other CDOs in
order to facilitate Goldman’s own proprietary short
position in Hudson. Goldman sales representatives
reported that clients expressed skepticism regarding
the quality of the Hudson assets, but Goldman
continued to promote the sale of the CDO as if its
interests were truly aligned with its clients’ interests.
181. Once it constructed the Hudson CDO,
Goldman personnel were focused on completing and
selling the Hudson securities as quickly as possible.
Goldman senior executives closely followed Hudson’s
development and sale. Hudson was discussed, for
example, at five different Firmwide Risk Committee
meetings attended by senior Goldman executives and
chaired by CFO David Viniar. Mortgage Department
executives also sent progress reports to the senior
executives on Hudson. On October 25, 2006, for
example, Sobel sent an email to COO Gary Cohn and
Viniar alerting them to Hudson sales efforts and the
pricing of its securities.

240
182. The Goldman sales force sold most of the
Hudson securities prior to the CDOs closing in
December 2006, and continued its sales efforts after
the closing as well. Overall, Goldman sold Hudson
securities to 25 investors. Morgan Stanley made the
largest investment, taking $1.2 billion of the super
senior portion of the CDO. Other investors included
National Australia Bank, which purchased $80
million worth of the AAA rated securities; Security
Benefit Mutual, which bought $10 million of the AA
rated securities; and Bear Stearns, which bought $5
million of the equity tranche.
183. On October 30, 2006, after Hudson was
presented to investors and pre-sold most of its
securities, Peter Ostrem, the head of the CDO
Origination Desk, sent a celebratory email to the ABS
and CDO teams with Hudson highlights. He wrote:
“Goldman was the sole buyer of protection on the
entire $2.0 billion of assets,” meaning Goldman had
kept 100% of the short position. By shorting Hudson,
Goldman had transferred $1.2 billion worth of risky
ABX assets Goldman wanted off its books, and shorted
another $800 million in RMBS securities.
184. Over the next year, Goldman pocketed nearly
$1.7 billion in gross revenues from Hudson, all at the
direct expense of the Hudson investors. Goldman
collected $1.393 billion in gains from its short of the
assets referencing its ABX inventory and collected
another $304 million in gains due to its short of the
other $800 million in single name CDS contracts
included in Hudson.
185. Goldman also received substantial fees from
the roles it played in underwriting and administering
Hudson, including $31 million in underwriting fees
and $3.1 million for serving as the liquidation agent.

241
Overall, Goldman recorded a profit from Hudson
of more than $1.35 billion.
186. In contrast to Goldman, Hudson investors
suffered substantial losses. In March 2007, less than
three months after the issuance of the Hudson
securities, when asked to analyze how a holder of
Hudson securities could hedge against a drop in their
value, a Goldman trader wrote: “their likelihood of
getting principal back is almost zero.” Six months
later, the credit rating downgrades began. In
September 2007, Moody’s downgraded several Hudson
securities and followed with additional downgrades in
November 2007. S&P began downgrades of Hudson in
December 2007, and by February 2008, had
downgraded even the AAA rated securities.
187. Morgan Stanley, the largest Hudson investor,
lost $930 million. As other investors incurred
increasing losses, they sold their securities back to
Goldman at rock bottom prices. In September 2007, for
example, nine months after the Hudson securities
were first issued, Goldman repurchased $10 million
worth of Hudson securities from Greywolf Capital at a
price of five cents on the dollar; in October 2007,
another hedge fund sold $1 million in Hudson
securities back to Goldman at a price of 2.5 cents on
the dollar. In November 2008, Hudson was completely
liquidated by Goldman. Today, Hudson securities are
worthless.
188. In sum, Goldman constructed Hudson as a way
to transfer its ABX risk to the investors who bought
Hudson securities. When marketing the Hudson
securities, Goldman misled investors by claiming its
investment interests were aligned with theirs, when it
was the sole short party and was betting against the
very securities it was recommending. Goldman also

242
implied that Hudson’s assets had been purchased from
outside sources, and failed to state that it had selected
the majority of the assets from its own inventory and
priced the assets without any third party
participation. By holding 100% of the short
position at the same time it solicited clients to
buy the Hudson securities, Goldman created a
conflict of interest with its clients, concealed the
conflict from them, and profited at their expense.
2. Anderson
189. In the summer of 2006, Goldman began work
on Anderson, a $500 million synthetic CDO whose
assets were single name CDS contracts referencing
subprime RMBS securities with mezzanine credit
ratings. To execute the Anderson CDO, Goldman
partnered with GSC, a New York hedge fund founded
by a former Goldman partner. Goldman personnel
working on the CDO included Peter Ostrem, head of
the CDO Origination Desk, and Matthew Bieber, a
CDO Origination Desk employee assigned to be deal
captain for the Anderson CDO.
190. GSC and Goldman participated together in the
selection of assets for Anderson. Anderson was
designed to be a synthetic CDO whose assets would
consist solely of CDS contracts referencing RMBS
securities whose average credit ratings would be BBB
or BBB-.
191. Anderson’s assets were purchased from 11
different broker-dealers from September 2006 to
March 2007. Goldman was the source of 28 of the 61
CDS contracts in Anderson, and Goldman retained the
short side. Goldman also served as the sole credit
protection buyer to the Anderson CDO, acting as the

243
intermediary between the CDO and the various
broker-dealers selling it assets.
192. By February 2007, the Anderson warehouse
account contained $305 million out of the intended
$500 million worth of single name CDS, many of which
referenced mortgage pools originated by New Century,
Fremont, and Countrywide-subprime lenders known
within the industry for issuing poor quality loans and
RMBS securities. Approximately 45% of the
referenced RMBS securities contained New Century
mortgages.
193. During the same time period in which the
Anderson single name CDS contracts were being
accumulated, Goldman was becoming increasingly
concerned about the subprime mortgage market, was
reacting to bad news from the subprime lenders it did
business with, and was building a large short position
against the same types of BBB rated RMBS securities
referenced in Anderson. By February 2007, the value
of subprime RMBS securities was falling, and the
Goldman CDO Origination Desk was forced to mark
down the value of the long single name CDS contracts
in its CDO warehouse accounts, including Anderson.
194. In February 2007, Goldman CEO Lloyd
Blankfein personally reviewed the Mortgage
Department’s efforts to reduce its subprime RMBS
whole loan, securities, and residual equity positions,
asking Montag: “[W]hat is the short summary of our
risk and the further writedowns that are likely[?]”
After a short report from Montag, Blankfein replied:
[Y]ou refer to losses stemming from residual
positions in old deals. Could/should we have
cleaned up these books before and are we

244
doing enough right now to sell off cats and
dogs in other books throughout the division?
195. Sparks also made increasingly dire predictions
about the decline in the subprime mortgage market
and issued emphatic instructions to his staff about the
need to get rid of subprime loans and other assets. On
February 8, 2007, for example, Sparks wrote:
Subprime environment – bad and getting
worse. Everyday is a major fight for some
aspect of the business (think whack-a-mole)
. . . . [P]ain is broad (including investors in
certain GS issued deals).
196. On February 14, 2007, Sparks exchanged
emails with Goldman’s Co-President Jon Winkelried
about the deterioration in the subprime market:
Mr. Winkelried: Another downdraft?
Mr. Sparks: Very large – it’s getting messy
. . . . Bad news everywhere. Novastar bad
earnings and 1/3 of market cap gone
immediately. Wells [Fargo] laying off 300
subprime staff and home price appreciation
data showed for first time lower prices on
homes over year broad based.
197. On February 26, 2007, when Montag asked
him about two CDO2 transactions being assembled by
the CDO Origination Desk, Timberwolf and Point
Pleasant, Sparks expressed his concern about both:
Mr. Montag: cdo squared–how big and how
dangerous
Mr. Sparks: Roughly 2bb, and they are the
deals to worry about

245
198. Goldman was also aware that its longtime
customer, New Century, was in financial distress. On
February 7, 2007, New Century announced publicly it
would be restating its 2006 earnings, causing a sharp
drop in the company’s share price. On February 8,
2007, Goldman’s Chief Credit Officer Craig Broderick
sent Sparks and others a press clipping about New
Century and warned:
[T]his is a materially adverse development.
The issues involve inadequate [early payment
default] provisions and marks on residuals.
. . . [I]n a confidence sensitive industry it will
be ugly even if all problems have been
identified. . . . We have a call with the
company in a few minutes (to be led by Dan
Sparks).
199. On some occasions, Sparks addressed negative
news about New Century in the same email he
discussed liquidating assets in warehouse accounts for
upcoming CDOs. On March 8, 2007, for example,
Sparks noted in an email to senior executives: “New
Century remains a problem” due to loans experiencing
early payment defaults, and informed them that the
Mortgage Department had “liquidated a few deals and
could liquidate a couple more.”
200. On February 23, 2007, Sparks sent an email to
senior Goldman executives estimating that Goldman
had lost $72 million on the holdings in its CDO
warehouse accounts, due to falling prices. He directed
Mortgage Department personnel to liquidate rather
than securitize the assets in certain warehouse
accounts. Two days later, on February 25, 2007,
Sparks informed senior executives of his intention to
liquidate Anderson:

246
[T]he CDO business liquidated 3 warehouses
for deals of $530mm (about half risk was
subprime related). . . . One more CDO
warehouse may be liquidated this week –
approximately $300mm with GSC as
manager.
201. After Sparks relayed this decision, Ostrem and
Bieber began to strategize ways to convince Sparks to
reverse his decision. Ostrem and Bieber assembled a
list of likely buyers of the Anderson securities to
present to Sparks, and brainstormed about other
CDOs that could potentially buy Anderson securities
for their asset pools. Ostrem also proposed allowing a
hedge fund to short assets into the deal as an incentive
to buy the Anderson securities, but Bieber thought
Sparks would want to “preserve that ability for
Goldman.”
202. At some point, Sparks changed his mind and
decided to go forward with underwriting the Anderson
CDO. The Anderson CDO closed on March 20, 2007.
As finally constructed, 100% of its assets were CDS
contracts referencing $307 million in mezzanine
subprime RMBS securities, meaning RMBS securities
carrying BBB or BBB- credit ratings. About 45% of the
subprime mortgages in the referenced RMBS
securities were issued by New Century. Another 8%
were issued by Countrywide, and almost 7% were
issued by Fremont. Goldman took about 40% of the
short side of the Anderson CDO.
203. During March 2007, selling Anderson
securities became a top priority for Goldman. Goldman
even put another deal on hold, the Abacus 2007-AC 1
deal with the Paulson hedge fund, to promote
Anderson. As Egol advised Goldman personnel: “Given
risk priorities, subprime news and market conditions,

247
we need to discuss side-lining [Abacus 2007-AC1] in
favor of prioritizing Anderson in the short term.”
204. On March 13, 2007, Goldman issued internal
talking points for its sales force on the Anderson CDO.
Among the points highlighted were:
Portfolio selected by GSC. Goldman is
underwriting the equity and expects to hold
up to 50%. . . . Low fee structure[.] . . . No
reinvestment risk.
The talking points described Goldman as holding up to
50% of the equity tranche in the CDO – worth about
$21 million, without mentioning that Goldman would
also be holding 40% – about $135 million – of the short
side of Anderson, placing its investment interests in
direct opposition to the investors to whom it was
selling Anderson securities. Goldman also did not
disclose to potential investors that it had almost
canceled the CDO, due to its assets’ falling values.
205. Of particular concern for investors was the
concentration of New Century mortgages in Anderson.
On March 13, 2007, a potential investor, Rabobank,
asked Goldman sales representatives: “how did you
get comfortable with all the new centu ry [sic]
collateral in particular the new century serviced deals
– con sidering [sic] you are holding the equity and their
servicing may not be around is that concerning for you
at all?” Goldman and GSC prepared a list of talking
points with which to respond to the investor:


Historically New Century has on average
displayed much better performance in terms of
delinq[uency] and default data



Prepayments have tended to be higher
lowering the extension risk

248


Losses and REO [Real Estate Owned by a
lender taking possession of a property] are
historically lower than the rest of the market



Traditionally the structures have strong
enhancement/subordination.

206. The talking points did not disclose that, in fact,
Goldman, too, was uncomfortable with New Century
mortgages. On March 8, 2007, five days before
receiving the investor’s inquiry, Sparks had reported
to senior Goldman executives, including Co-President
Gary Cohn and CFO David Viniar, that New Century
mortgages “remain[ed] a problem on [early payment
default].” On March 13, the same day as the investor
inquiry, Goldman personnel completed a review of
New Century mortgages with early payment defaults
that were on Goldman’s books and found fraud,
“material compliance issues,” and collateral problems.
The review found that “62% of the pool has not made
any pmts [payments]” and recommended “putting
back 26% of the pool” to New Century for repurchase
“if possible.” Goldman also did not disclose to the
investor that it was shorting 40% of the Anderson
CDO.
207. Some Goldman clients also had questions
about GSC’s involvement in Anderson. An Australian
sales representative wanted “more color on asset
selection process, especially with respect to GSC
involvement.” This clarification was necessary,
because although GSC’s role was mentioned in
numerous internal Goldman documents, the official
Anderson marketing materials did not mention GSC’s
role in asset selection. In previous drafts of the
marketing materials, for example, Goldman stated
that “Goldman Sachs and GSC Group (“GSC”) coselected the assets”; “GSC pre-screens and evaluates

249
assets for portfolio suitability”; the CDO was “cosponsored by Goldman Sachs and GSC Eliot Bridge
Fund”; and “Goldman Sachs and GSC ha[ve] aligned
incentives with Anderson Funding by investing in a
portion of equity.” But all of the references to GSC
were removed from the final documents.
208. Despite the poor reception by investors,
Goldman continued “pushing the axe” with its sales
force to sell Anderson securities. Bieber identified and
monitored potential investors and attempted to sell
Anderson securities to pension funds and place
Anderson securities in other Goldman CDOs as
collateral securities. On March 20, 2007, when Bieber
reported selling $20 million in Anderson securities, his
supervisor, Ostrem, responded with the single word:
“Profit!” In a separate email a week later, Ostrem told
Bieber he did an “[e]xcellent job pushing to closure
these deals in a period of extreme difficulty.”
209. After several months of effort, Goldman sold
approximately $102 million of the $307 million in
Anderson securities.
210. Goldman profited from holding 40% of the
short position on certain Anderson assets, which
produced a $131 million gain at the direct expense of
the investors to whom Goldman had sold the Anderson
securities. Goldman was also paid $200,000 for
serving as the liquidation agent, and collected $2
million in CDS premiums while it warehoused
Anderson assets.
211. Anderson’s investors suffered substantial
losses. Seven months after its issuance, in November
2007, Anderson securities experienced their first
ratings downgrades. At that point, 27% of the assets
underlying Anderson were downgraded below a B-

250
rating. Within a year, Anderson securities that were
originally rated AAA had been downgraded to BB. In
the end, the Anderson investors were wiped out and
lost virtually their entire investments.
212. In sum, Goldman constructed the Anderson
CDO using CDS contracts referencing subprime
RMBS securities, the majority of which were issued by
subprime lenders like New Century who were known
for issuing poor quality loans. When potential
investors asked how Goldman was able to “get
comfortable” with the New Century mortgage pools
referenced in Anderson, Goldman attempted to dispel
concerns about the New Century loans, withheld
information about its own discomfort with New
Century, and withheld that it was taking 40% of the
short side of the CDO, essentially betting against the
very securities it was selling to its clients. Instead,
Goldman instructed its sales force to tell potential
investors that Goldman was buying up to 50% of the
equity tranche. Goldman also did not disclose to
potential investors that it had almost cancelled the
CDO due to the falling value of its assets.
3. Timberwolf I
213. Timberwolf I was a $1 billion hybrid CDO2
transaction that Goldman constructed, underwrote,
and sold.9 It contained or referenced A rated CDO
securities which, in turn, referenced primarily BBB
rated RMBS securities. The assets in Timberwolf were
selected by Greywolf Capital Management (a
registered investment adviser founded by former
Goldman employees), with the approval of Goldman.
9

A collateralized debt obligation squared (CDO2) is backed by
a pool of CDO tranches.

251
Greywolf served as the collateral manager of the CDO.
Goldman effectively served as the collateral put
provider. Timberwolf was initiated in the summer of
2006, and closed in March 2007.
214. Timberwolf’s single name CDS and CDO
securities were acquired from 12 different brokerdealers. Goldman was the single largest source of
assets, providing 36% of the assets by value, including
$15 million in single name CDS contracts naming
Abacus securities. As a result, Goldman held 36% of
the short interest in Timberwolf.
215. Altogether, Timberwolf contained 56 different
assets, of which 51 were single name CDS contracts
referencing CDO securities and five were cash CDO
securities. The 51 single name CDS contracts
referenced both CDO and CDO2 securities, and each
CDO or CDO2 security contained or referenced its own
RMBS, CMBS, or CDO securities or other assets. In
total, Timberwolf had over 4,500 unique underlying
securities and a grand total of almost 7,000 securities.
This process was further complicated by the fact that
the CDO assets in Timberwolf were privately issued
and often had little or no publicly available
information on the underlying assets they contained.
216. Goldman’s marketing booklet for Timberwolf
stated that Goldman was purchasing 50% of the equity
tranche, and that Greywolf was purchasing the other
50%. However, the booklet failed to disclose that
Goldman’s equity investment was far outweighed by
its short investment.
217. By the time Greywolf and Goldman were
nearing completion of the acquisition of the
Timberwolf assets in the spring of 2007, Goldman was
becoming
increasingly
concerned
about
the

252
deteriorating subprime mortgage market and the
falling value of the assets in its CDO warehouse
accounts. In February 2007, Sparks, the Mortgage
Department head, and Goldman senior executive
Thomas Montag exchanged emails about the
warehouse risk posed by Timberwolf and another
pending CDO2 called Point Pleasant. Montag asked
Sparks: “cdo squared–how big and how dangerous””
Sparks responded: “[R]oughly 2 bb [billion], and they
are the deals to worry about.” Sparks also told Montag
that, due to falling subprime prices, the assets
accumulated in the warehouse account for the $1
billion Timberwolf CDO had already incurred
significant losses, those losses had eaten through all of
Greywolf’s portion of the warehouse risk sharing
agreement, and any additional drops in value would
be Goldman’s exclusive obligation.
218. In March 2007, due to the falling values of
subprime RMBS and CDO securities, Goldman
decided against completing several CDOs under
construction, and liquidated the assets in their
warehouse accounts. Goldman decided, in contrast, to
accelerate completion of Timberwolf.
219. At the same time, on March 3, 2007, Sparks
memorialized the following remarks after a telephone
call: “Things we need to do . . . Get out of everything.”
On March 7, 2007, Sparks again reported to
Goldman’s Firmwide Risk Committee on accelerating
problems in the subprime mortgage market:


“Game Over” – accelerating meltdown for
subprime lenders such as Fremont and
New Century.

253


The Street is highly vulnerable, . . . .
Current strategies are to “put back”
inventory, . . . or liquidate positions.



The Mortgage business is currently
closing down every subprime exposure
possible.

220. On March 8, 2007, Sparks emailed several
senior executives, including Viniar and Cohn about
“Mortgage risk”: “we are trying to close everything
down, but stay on the short side.”
221. On March 8, 2007, in an email to senior
management, Sparks listed a number of “large risks I
worry about.” At the top of the list was “CDO and
Residential loan securitization stoppage – either via
buyer strike or dramatic rating agency change.”
Sparks was referring to the possibility that Goldman
would be unable to securitize and sell its remaining
subprime mortgage related inventory by repackaging
it into RMBS and CDOs for sale to customers.
222. Despite Goldman’s internal concerns of the
CDO market, the Company proceeded with
Timberwolf I and the offering closed on March 27,
2007, approximately six weeks ahead of schedule. The
final CDO had $1 billion in cash and synthetic assets,
including $960 million in single name CDS referencing
CDO securities, and $56 million in cash CDO
securities.
223. Not surprisingly, selling Timberwolf securities
was a high priority for Goldman. Sparks worked with
senior sales managers to review ideas, telling them: “I
can’t overstate the importance to the business of
selling these positions and new issues.”

254
224. On March 9, 2007, Sparks emailed a call for
“help” to Goldman’s top sales managers around the
world to “sell our new issues – CDOs and RMBS – and
to sell our other cash trading positions.” The Goldman
sales manager for Europe and the Middle East
suggested that Sparks focus the CDO sales efforts
abroad, because the clients there were not involved in
the U.S. housing market and therefore were “not
feeling pain.”
225. During the spring and summer of 2007, the
Goldman Syndicate emailed the CDO sales force a list
of “Senior CDO Axes” or sales directives on a weekly
and sometimes daily basis, many of which placed a
priority on selling Timberwolf securities. As early as
February, the Goldman sales force developed “broader
lists” of clients to target for Timberwolf sales. After
exhausting those initial lists, Goldman sales
personnel began to target “non-traditional” buyers’ as
well as clients outside of the United States. The sales
force had some early successes. On March 28, 2007, for
example, the Syndicate included a note in one of the
axe sheets:
Great job Cactus Raazi trading us out of our
entire Timberwolf Single-A position –
$16mm. Sales – Good job over the last two
weeks moving over $66mm of risk off the axe
sheet. Please stay focused on trading these
axes.
226. As sales began to flag in April, Sparks sent
emails reminding Goldman sales personnel that
Timberwolf “is our priority.” On one occasion, on April
19, 2007, Sparks suggested to a sales manager offering
“ginormous credits” as an incentive to sell Goldman’s
CDO securities: “for example, let’s double the current
offering of credits for [T]imberwolf.” Sparks was

255
informed in response: “[W]e have done that with
timberwolf already.”
227. On March 9, 2007, Harvey Schwartz, a senior
executive at Goldman Sachs, expressed concern to
Sparks and others about what Goldman sales
personnel were telling clients: “Seems to me . . . one of
our biggest issues is how we communicate our views of
the market – consistently with what the desk wants to
execute.” Sparks responded by outlining several
concerns and the need for the sales team and traders
to work together. He wrote:
3 things to keep in mind:
(1) The market is so volatile and dislocated
that priorities and relative value situations
change dramatically and constantly.
(2) Liquidity is so light that discretion with
information is very important to allow
execution and avoid getting run over.
(3) The team is working incredibly hard and
is stretched.
He concluded: Priority 1 – sell our new issues and
our cash positions.
228. Despite the urgency communicated by
Goldman management, Timberwolf sales slowed. By
May 11, 2007, only one Timberwolf sale had taken
place in the previous several weeks. Goldman
personnel also knew that the value of the Timberwolf
securities, and the value of their underlying assets,
were falling.
229. On May 11, 2007, Sparks notified Goldman
senior executives that marking down the value of the

256
unsold CDO securities would indicate to the firm that
their current market value had become a “real issue”:
Cdo positions and market liquidity and
transparency have seized. I posted senior
guys that I felt there is a real issue. . . . We
are going to have a very large mark down –
multiple hundreds. Not good.
That same evening, David Lehman sent out a
“Gameplan” to colleagues in the Mortgage
Department announcing that Goldman was going to
undertake a detailed valuation of its CDO2 securities
using three different valuation methods, and would
also take “a more detailed look” at the values of the
assets in the CDO warehouse accounts and in
Goldman’s own inventory. Using the three valuation
methods, the presentation estimated that the loss in
value and the total writedowns required for the firm’s
CDO assets were between $237 and $448 million.
230. Also on May 11, Chief Credit Officer Craig
Broderick sent an email to his team to set up a survey
of Goldman clients who might encounter financial
difficulty if Goldman lowered the value of the CDO
securities they had purchased. As explained earlier,
some Goldman clients had purchased their CDO
securities with financing supplied by Goldman that
required them to post more cash margin if the financed
securities lost value. Other clients had invested in the
CDO securities by taking the long side of a CDS
contract with Goldman and also had to post more cash
collateral if the value of the CDO securities declined.
All of these clients would also have to record a loss on
their books due to the lowered valuations.
231. With respect to the CDO securities that had
yet to be sold, Goldman senior executive Harvey

257
Schwartz raised another issue related to lowering the
values of the CDO securities Goldman was selling to
clients: “[D]on’t think we can trade this with our
clients andf [sic] then mark them down dramatically
the next day. . . . Needs to be a discussion if that risk
exists.” In an email to Sparks, Montag, and Schwartz,
Goldman
senior
executive
Donald
Mullen
acknowledged concerns “about the representations we
may be making to clients as well as how we will price
assets once we sell them to clients.” The executives
also agreed, however, not to “slow or delay” efforts to
sell Timberwolf securities if they got “strong bids.”
232. The CDO valuation project generated many
comments on how to price the firm’s unsold CDO
securities, including Timberwolf. One Goldman
employee, who was applying Goldman’s most common
valuation method to Timberwolf, wrote that the price
should be dramatically lower:
Based on current single-A CDO marks, the
A2 tranche of Timberwolf would have a price
of 72 cents on the dollar.
He also noted:
Based on a small sample of single-A CDOs for
which we have complete underlier marks, we
believe that the risks of the RMBS underliers
are frequently not fully reflected in the marks
on the CDOs. If the trends in this small
sample are extrapolated, the fair spread on
the CDOs could even be double where they
are marked now; if that were the case, the
price of the A2 tranche of Timberwolf would
actually be 35-41 cents on the dollar,
depending on the correlation.

258
Several days later, in preparation for a meeting with
senior executives on the valuation issue, the same
Goldman employee calculated that, for the A2 tranche
of Timberwolf, the “price based on CDO marks” was 66
cents on the dollar, while the “price based on RMBS
marks” was 24 cents on the dollar.
233. Throughout the valuation process, senior
management, including Co-President Gary Cohn, was
kept posted on how the Mortgage Department planned
to value the firm’s CDO assets. On Sunday, May 20,
2007, the Mortgage Department presented its findings
in a 9:00 p.m. conference call with CFO David Viniar
and others. The presentation’s executive summary
expressed concern about valuing a range of CDO
assets, including unsold securities from Goldmanoriginated CDOs. The presentation stated: “[T]he desk
is most concerned about the CDO^2 positions,
comprised of the recent Timberwolf and Point
Pleasant transactions. The lack of liquidity in this
space and the complexity of the product make these
extremely difficult to value.”
234. The presentation recommended unwinding
and selling the assets in the CDO warehouse accounts
and using “independent teams” to continue to value
the unsold CDO securities from Goldman originations.
It also recommended switching to a targeted sales
effort for the unsold CDO2 securities, focused on four
hedge fund clients: Basis Capital, Fortress, Polygon,
and Winchester Capital. The Goldman sales force
apparently felt those four hedge funds were the clients
most likely to buy the CDO2 securities, and two of
them, Basis Capital and Polygon, did subsequently
purchase Timberwolf securities. An appendix to the
presentation identified another 35 clients for targeted
sales efforts and provided an assessment of the CDO

259
sales efforts for each. Several of those clients later
purchased Timberwolf securities.
235. The CDO valuation project undertaken in May
provided clear notice to Goldman senior management
at the highest levels that its CDO assets had fallen
sharply in value, and that despite their lower value,
the Mortgage Department planned to aggressively
market them to customers.
236. Despite Goldman’s internal analysis that the
value of the Timberwolf securities was in rapid
decline, the Company did not lower the prices at which
it marketed the securities to clients. Instead, Goldman
took substantial writedowns on the value of its own
CDO inventory on May 25, 2007. For example,
Goldman marked down the AAA rated Timberwolf A2
securities to a value of $80. At the same time, Goldman
continued to market them at inflated prices, selling
Timberwolf A2 securities to clients at $87.00 on May
24, at $83.90 on May 30, and at $84.50 on June 11. On
May 25, Goldman also marked the AA rated
Timberwolf B securities to an internal value of $65.00.
Over a month later, Goldman sold $9 million of those
AA rated securities to Bank Hapoalim at a price of
$78.25, but by then Goldman’s internal valuation had
fallen to $55, a difference of more than 30% of the
market value.
Timberwolf Sales to Basis Capital
237. A couple of weeks before the CDO valuation
project, Goldman’s Australia sales representative,
George Maltezos, announced he had found a potential
Australian buyer for a Goldman CDO being
constructed by the Correlation Desk: “I think I found
white elephant, flying pig and unicorn all at once.”

260
This “white elephant, flying pig and unicorn” would
later be identified at Basis Capital.
238. Maltezos began pressing Basis Capital to buy
the securities. On May 22, Maltezos urged Basis
Capital to consider buying the securities before the
end of the quarter:
I appreciate you are flat chat [busy] at the
moment, but pls [please] keep in mind GS is
an aggressive seller of risk for QTR [quarter]
end purposes (last day of quarter is this
Friday). We would certainly appreciate your
support, and equally help create something
where the return on invested capital for Basis
is over 60%.
At the same time Maltezos was claiming that a
Timberwolf investment could provide over a 60%
return on invested capital, Goldman’s internal marks
were showing that Timberwolf was continuing to fall
in value.
239. Basis Capital indicated that it was interested
in the Timberwolf securities, but had several issues it
needed to work through. First, Basis Capital indicated
that Goldman would have to help it find financing for
the purchase price. Second, Basis Capital was
concerned about the value of its existing CDO2
investment with Goldman. On April 19, 2007, Basis
Capital had purchased BBB rated Point Pleasant
securities at a price of $81.72. Goldman had provided
the financing for this purchase. Two weeks later,
Goldman had marked down the value of the securities
to $76.72, and asked Basis Capital to post additional
cash collateral totaling $700,000. When Basis Capital
asked how the value of the security had fallen $5 in
just two weeks, Goldman responded that the price had

261
gone back up to $81.72, and no additional cash was
required.
240. In May and June 2007, Maltezos worked to
convince Basis Capital to purchase $100 million in
Timberwolf securities. At one point Basis Capital
pressed for a lower sales price, but was told by
Maltezos: “I don’t think the trading desk shares the
sentiment with regard to such spread levels [lower
prices].” During the negotiations over the Timberwolf
sale, on June 12, 2007, Goldman again marked down
the value of the Point Pleasant securities to $75, and
again asked Basis to post more cash collateral. When
Basis Capital asked Maltezos to justify the lower
value, Maltezos wrote:
[T]here has certainly been further softening
in the market since the Point Pleasant trade
was put on 8 weeks ago. We have infact [sic]
traded some Point Pleasant BBBs at this
level in the last 2 weeks.
In fact, no such sales had taken place, and the lower
value could not be justified by any sales transactions.
The lower mark was instead related to Goldman’s
CDO valuation project in May, which had concluded
that its CDO2 securities had lost significant value.
241. Stuart Fowler at Basis Capital brought up the
valuation issue in the context of the Timberwolf
securities, and asked Maltezos: “I need to be very clear
on this and are we going to see a similar problem on
[T]imberwolf?” Maltezos responded: “Stuart – I assure
you no foul here,” and offered to set up some “1-on-1
time with the trading desk” to discuss pricing.
242. On June 13, 2007, Lehman reported that
Goldman had reached agreement on $100 million in
Timberwolf sales to Basis Capital. The sale consisted

262
of the hedge fund taking the long side of a CDS
contract with Goldman, referencing $50 million in
AAA rated Timberwolf securities and $50 million in
AA rated Timberwolf securities. Lehman told Montag
that the CDS premiums that Basis Capital had agreed
to accept implied a cash price of $84 for the AAA
securities and $76 for the AA securities. Montag asked
what Goldman’s internal mark was for the Timberwolf
AA securities, and Lehman responded: “$65.”
243. The Timberwolf sale to Basis Capital was
finalized on June 18, 2007. Goldman provided the
financing. Just two weeks later, Goldman informed
Basis Capital that the Timberwolf securities had lost
value and required the hedge fund to post additional
cash collateral.
244. Eight days later, on July 12, Goldman again
marked down the value of the Timberwolf securities to
prices of $65 and $60, after having sold them to Basis
Capital one month earlier at $84 and $76. This
repricing resulted in a $37.5 million movement in the
value of the securities, and required Basis Capital to
post substantially more cash collateral with the firm.
On July 13, 2007, Basis Capital told Goldman that one
of its funds was “in real trouble.” On July 16, Goldman
again marked down Basis Capital’s securities to prices
of $55 for AAA and $45 for AA. These prices matched
Goldman’s internal valuations. By the end of July,
Basis Capital was forced to liquidate its hedge fund.
Other Timberwolf Sales
245. At the conclusion of the CDO valuation project,
which found that Timberwolf and Goldman’s other
CDO securities had lost significant value, the
Mortgage Department resumed its efforts to push
Timberwolf sales. On May 24, 2007, a Goldman sales

263
associate told Lehman and Sparks that he wanted
more information to send to a European hedge fund
that was “not experts in this space at all but [I] made
them a lot of money in correlation dislocation and will
do as I suggest. Would like to show stuff in today if
possible.” Lehman told the sales associate that he was
available to get on the telephone with the clients, and
forwarded him the Timberwolf offering circular and
marketing materials.
246. On June 5, 2007, Goldman trader Benjamin
Case emailed Lehman with a “[g]ameplan for
distribution” or sales of Goldman’s remaining CDO2
securities. The plan was to target “institutional buyers
that can take larger bite size than traditional CDO
buyers . . . for example, Asian banks and insurance
companies.” Case also noted that Goldman was
shorting “51 CDO names in the two portfolios
[Timberwolf and Point Pleasant] and we have been
aggressively sourcing further protection in the CDS
market on names in the two portfolios recently.”
247. In early June, Goldman targeted a Korean
insurance company called Hungkuk Life for
Timberwolf sales. According to a Goldman employee in
the Japan sales office, Jay Lee, “the largest hurdle
from the client’s perspective is whether or not they can
get the mandate to buy something backed by
synthetically sourced CDO’s [sic], as they have never
bought CDO^2 before.” Lee was also concerned that
the value of the securities would drop soon after the
office sold the Timberwolf securities to the insurance
company. Lee stated:
[T]he largest hurdle from a sales’
perspective is MTM [mark to market]. It is an
important client, and if the mark widens out
more than 1pt immediately after selling the

264
asset to them, sales cannot sell it.
Understanding that it is a volatile asset, sales
wants to know that where we sell it to the
client will not be more than 1pt less than
where the mark would be, provided no new
market information.
Despite Lee’s concerns, on June 1, he reported that
Hungkuk Life had purchased $36 million in AAA rated
Timberwolf securities. Sparks responded “good job –
keep going.”
248. Six days later, on June 7, 2007, the head of the
Goldman Japan sales office, Omar Chaudhary,
contacted Sparks and Lehman about a possible
additional sale of Timberwolf securities to Hungkuk
Life. Chaudhary wrote that the head of Goldman’s
Korean sales office was “pushing on our personal
relationships” to make the sale and wanted to be
assured he’d be paid more if he “got it done”:
Jay and I spoke to the head of Korea Sales
today. He said that he feels like he can push
for H[ungkuk] Life to increase their size from
the 36mm of AAA’s and wanted to see if we
would pay more GC’s [sales credits] if he got
it done. Told him that if we sell –45-50mm+
[$45-50 million more] that we would honor
the 7.0% even if we trade at 84.5 dollar px
[expected price]. Trust you will support this
as we are pushing on our personal
relationships to get this done.
Lehman and Sparks told Chaudhary to “go for it” and
“[g]et `er done.” The Korean office did get it done, and
Goldman sold another $56 million in Timberwolf
securities to Hungkuk Life at a price of $84.50. The
sales representative was awarded the 7% sales credit.

265
Sparks wrote to the sales office: “you boys are
awesome and many people are noticing.” Montag, a
senior Goldman executive monitoring the Timberwolf
sales, told the mortgage team it had done an
“incredible job – just incredible.”
249. On June 11, 2007, Lehman received an email
from the Goldman Syndicate asking whether the CDO
axe sheet, which included directives to sell Timberwolf
securities, could be sent to the Japan sales office for
re-distribution to sales representatives across Asia.
Lehman agreed: “let’s send to all Japan sales.” Two
days later, on June 13, 2007, the Japan sales office
reported over $250 million in new sales of Goldman’s
CDO securities, including Timberwolf.
250. Montag continued to monitor the sales of
Timberwolf as well as other CDO securities in
Goldman’s inventory and warehouse accounts. On
June 22, 2007, Sparks reported to him on the
completion of a number of sales of CDO and RMBS
securities that Goldman had purchased from the two
failed Bear Stearns hedge funds. Montag asked
Sparks to provide him with a “complete rundown” on
“what[’]s left.” Sparks responded that the “main thing
left” was $300 million in Timberwolf securities.
Montag responded: “boy that timeberwo[l]f was one
shitty deal.”
251. Despite Montag’s assessment of Timberwolf,
he continued to press for the sale of Timberwolf
securities to Goldman clients. On June 25, 2007,
Sparks emailed Montag and others with another
update on selling Goldman’s remaining CDO assets.
Sparks informed the group that Goldman would
probably have to lower the values of the CDO assets
over the next few days, but that the net effect for
Goldman would be positive, since its short position

266
was larger than its long. In fact, the Mortgage
Department made $42.5 million that day. Montag
remained focused on Timberwolf, responding: “[h]ow
are twolf sales doing?”
252. On July 12, 2007, another Goldman sales
representative, Leor Ceder, reported selling $9 million
in Timberwolf securities to Bank Hapoalim at a price
of $78.25. Goldman trader Mitchell Resnick asked
Lehman “to pay him well on this.” Ceder was paid an
8% sales credit. That was Goldman’s last Timberwolf
sale, even though its Syndicate continued to list the
CDO as a top sales priority for months afterward.
253. Goldman ultimately sold about $853 million of
the $1 billion in Timberwolf securities to about 12
investors.
Limited Disclosures
254. Despite their aggressive sales efforts, Goldman
sales personnel typically did not help potential
investors analyze the Timberwolf securities and the
4,500 unique assets underlying the CDO. One
Goldman employee told his colleagues: “In terms of
telling customers. I prefer to give them the general
idea of the trade. Then give them the excel spread
sheet with our info on ref obs [reference obligations]
and let them draw their own conclusions.” Another
Goldman employee, discussing a potential buyer of
Timberwolf, warned:
[H]e is going to want to look at the TWOLF
trade on a fundamental basis with a lot of
supporting runs to back up any additional
mark downs we have – telling him we are
busy when it comes to month end and we can’t
run that analysis because we are resourceconstrained will not be good enough.

267
Still another Goldman employee stated with respect to
Timberwolf and Point Pleasant: “The trickiest part
about sharing this [pricing] analysis with custies
[customers] is that it shows just how rudimentary our
own understanding of these positions actually is.”
255. Goldman also in many instances refused to
provide investors with its pricing methodology or
specific prices or values for the CDO securities it was
selling. After its securities began to lose value, Basis
Capital emailed George Maltezos, David Lehman, and
others asking: “How many times do we have to request
data points and scenarios by email. These were read
out to us on the call and it was agreed that GS would
send them through. I am getting weary of continually
hearing about transparency and yet an obvious
avoidance of ‘putting things to paper.’”
256. Similarly, when Hungkuk Life requested
additional information about the underlying
Timberwolf assets, Goldman sent an asset report, but
only after removing all of its pricing and valuing
information related to those assets. In August 2007,
Jay Lee from Goldman’s Japan sales office told a sales
associate who was seeking information about
Goldman’s marks for Tokyo Star Bank:
[U]nder no circumstances are we going to be
able to provide materials specific to
Timberwolf . . . or even use the word “mark”
in written materials. . . . Everything will be
described in general terms, and if what we
provide is too vague or general, the medium
for further clarification must be oral, not
written.
Lehman added: “[W]e should be clear that the
information we are providing is not our pricing

268
methodology but rather some tho[ugh]ts on the
current market.”
257. A Goldman salesperson in Taiwan sought help
in explaining Goldman’s markdowns to a bank whose
CDO investment had been marked down from about
97 to about 45 cents on the dollar in a matter of weeks:
[B]ank just bought the altius deal from gs
[Goldman Sachs] 5 weeks ago and the mtm
[mark-to-market] dropped over 50%. We
understand the liquidity is thin but I really
need some info to support this price. . . . This
is very important as this transaction has a lot
to do with our reputation in Taiwan market.
I understand that all deals are down and
spread is trading wider now. Unless the
principal is at risk now, the mtm is not
supposed to drop so quickly during such short
period of time.
258. Furthermore, as Goldman marked down the
values in the summer of 2007, it began to decrease the
volume of the securities it was willing to buy or sell at
the prices it quoted to clients. Goldman was initially
willing to buy or sell CDO securities in blocks of $10
million, but by July, it lowered the maximum size to
$3 million for some securities and $1 million for others:
“Given the current market environment, we would like
our bid for size for CDO valuations to be MAX $3mm
for AAA to AA, and $1mm for A and below. No
valuations should go out with a bid for $10mm.”
“A Day that Will Live in Infamy”
259. The Timberwolf securities issued by Goldman
steadily lost money from the day they were issued.
Less than four months after they were issued, on July
16, 2007, Lehman instructed the Timberwolf deal

269
captain, Bieber, to “create an ‘unwind’ spreadsheet
. . . where we can input CDS spds [spreads]/prices and
liability prices so we can determine if unwinding these
deals makes sense.” The analysis appeared to show
that it would cost Goldman $140 million to unwind
Timberwolf, and the conclusion was to “Hold Off.”
Instead of unwinding, Goldman continued its sales
push.
260. In September 2007, Montag asked for data
tracking the drop in prices for a Goldman CDO that
experienced a dramatic fall in value, such as
Timberwolf. In response, a Goldman employee
provided prices for the A2 tranche of the Timberwolf
securities using a combination of Goldman’s internal
marks and the bids provided to investors, from the
issuance of the CDO on March 27, 2007 through
September. The data showed that, in six months,
prices for Timberwolf’s AAA rated A2 security had
fallen from $94 per security to $15, a drop of almost
80%:
3/31/07
4/30/07
5/31/07
6/29/07
7/31/07
8/31/07
Current

94-12
87-25
83-16
75-00
30-00
15-00
15-00

261. After receiving this pricing history, Bieber, the
Timberwolf deal captain, described March 27, the
Timberwolf issuance date, as “a day that will live in
infamy.”
262. Between mid-June 2007 and early August
2007, the value of Timberwolf securities dropped
precipitously. Indeed, Goldman personnel were aware

270
of its falling value while selling the securities to
clients. Goldman profited in part from Timberwolf’s
decline in value due to its 36% short interest in the
CDO. In addition, June was the month that Goldman
built its $13.9 billion big short, which meant that the
decline in most mortgage related assets translated
into increasing profits for Goldman.
263. Timberwolf experienced its first credit rating
downgrades in November 2007, just eight months
after the CDO closed and issued its securities. The
downgrades included the AAA rated securities. In
March 2008, one year after Timberwolf was issued, its
AAA securities were downgraded to junk status. In
June 2008, a controlling class of debt investors voted
to liquidate Timberwolf, and the deal was terminated
in October 2008.
264. Goldman’s 36% short position in Timberwolf
produced about $330 million in revenues at the direct
expense of the clients to whom Goldman had sold the
Timberwolf securities. Goldman also made $3 million
in interest while the Timberwolf assets were in
Goldman’s warehouse account.
265. Timberwolf’s investors lost virtually their
entire investments. Basis Capital ended up declaring
bankruptcy and has filed suit against Goldman.
266. One Goldman salesperson expressed remorse
over the impact on their customers of CDO sales
followed by large markdowns within days or weeks of
the client’s purchase:
Real bad feeling across European sales about
some of the trades we did with clients. The
damage this has done to our franchise is
very significant. Aggregate loss for our
clients on just . . . 5 trades alone is 1bln+.

271
267. In sum, Goldman constructed Timberwolf
using CDO assets that began to fall in value almost as
soon as the Timberwolf securities were issued, yet
solicited clients to buy the securities. Timberwolf
contained or referenced CDO assets with more than
4,500 unique mortgage related securities, but
Goldman offered potential investors little help in
understanding those securities, and targeted clients
with limited or no experience in CDO investments.
When marketing Timberwolf, Goldman withheld its
internal marks showing the securities losing value
and did not mention its short position. Senior
Goldman executives knew the firm was selling poor
quality assets at inflated prices. Within six months of
issuance, AAA Timberwolf securities lost almost 80%
of their value. Due to its overall short position in
Timberwolf and other mortgage related assets,
Goldman profited at the expense of the clients to whom
it sold the Timberwolf securities.
C. The Findings of the Senate Subcommittee
268. The Senate Subcommittee found that
Goldman’s undisclosed conduct in connection with
Abacus, Hudson, Anderson and Timberwolf created a
clear conflict of interest with Goldman’s clients. The
Senate Subcommittee found:
(2) Magnifying Risk. Goldman Sachs
magnified the impact of toxic mortgages on
financial markets by re-securitizing RMBS
securities in collateralized debt obligations
(CDOs), referencing them in synthetic CDOs,
selling the CDO securities to investors, and
using credit default swaps and index trading
to profit from the failure of the same RMBS
and CDO securities it sold.

272
(3) Shorting the Mortgage Market. As
high risk mortgage delinquencies increased,
and RMBS and CDO securities began to lose
value, Goldman Sachs took a net short
position on the mortgage market, remaining
net short throughout 2007, and cashed in
very large short positions, generating billions
of dollars in gain.
(4) Conflict Between Client Interests
and Proprietary Trading. In 2007,
Goldman Sachs went beyond its role as
market maker for clients seeking to buy or
sell mortgage related securities, traded
billions of dollars in mortgage related assets
for the benefit of the firm without disclosing
its proprietary positions to clients, and
instructed its sales force to sell mortgage
related assets, including high risk RMBS and
CDO securities that Goldman Sachs wanted
to get off its books, and utilizing key roles in
CDO transactions to promote its own
interests at the expense of investors, creating
a conflict between the firm’s proprietary
interests and the interests of its clients.
269. Further,
according
to
then-Senate
Subcommittee Chairman Sen. Carl Levin:
Investment banks such as Goldman Sachs
were not simply market-makers, they were
self-interested promoters of risky and
complicated financial schemes that helped
trigger the [financial] crisis[.] They bundled
toxic mortgages into complex financial
instruments, got the credit rating agencies to
label them as AAA securities, and sold them
to investors, magnifying and spreading risk

273
throughout the financial system, and all too
often betting against the instruments they
sold and profiting at the expense of their
clients.
270. As set forth below, defendants’ undisclosed
fraudulent conduct rendered its statements from
February 2007 – April 2010 false and misleading.
D. Defendants’
False
and
Material
Misstatements and Omissions Which
Failed to Disclose Goldman’s Conflicts of
Interest with Its Clients and the Impact
on Goldman’s “Best in Class Franchise”
271. On February 6, 2007, Goldman issued its Form
10-K for fiscal year ended November 24, 2006, which
was signed by defendants CEO Blankfein and CFO
Viniar and represented that:
Trading and Principal Investments
Trading
and
Principal
Investments
represented 68% of 2006 net revenues. . . .
* * *
We believe our willingness and ability to
take risk to facilitate client transactions
distinguishes us from many of our
competitors and substantially enhances
our client relationships.
* * *
We generate trading net revenues from our
customer-driven businesses in three ways:


First, in large, highly liquid markets, we
undertake a high volume of transactions for
modest spreads and fees.

274


Second, by capitalizing on our strong
relationships and capital position, we
undertake transactions in less liquid markets
where spreads and fees are generally larger.



Finally, we structure and execute transactions
that address complex client needs.

272. Goldman, in its 2006 Form 10-K, further
stated that:
Conflicts of interest are increasing and a
failure to appropriately deal with conflicts of
interest could adversely affect our businesses.
Our reputation is one of our most
important assets. As we have expanded the
scope of our businesses and our client base,
we increasingly have to address potential
conflicts of interest, including situations
where our services to a particular client or our
own proprietary investments or other
interests conflict, or are perceived to conflict,
with the interests of another client, as well as
situations where one or more of our
businesses have access to material non-public
information that may not be shared with
other businesses within the firm.
* * *
We have extensive procedures and
controls that are designed to address
conflicts of interest, including those
designed to prevent the improper sharing of
information among our businesses. However,
appropriately dealing with conflicts of
interest is complex and difficult, and our
reputation could be damaged and the

275
willingness of clients to enter into
transactions in which such a conflict
might arise may be affected if we fail, or
appear to fail, to deal appropriately with
conflicts of interest. In addition,
potential or perceived conflicts could
give rise to litigation or enforcement
actions.
273. In its 2006 Form 10-K, Goldman stressed the
various committees that monitored the Company’s
business practices and purportedly ensured that
Goldman conducted itself with the highest priority.
Specifically, Goldman represented that its “Business
Practices Committee” assisted senior management in
its oversight of compliance and operational risks and
related reputational concerns and that “the Business
Practices Committee also reviews Goldman Sachs’
business practices, policies and procedures for
consistency with our business principles.”
274. Goldman also represented in its 2006 Form 10K that a separate committee, the “Commitments
Committee,” reviewed and approved underwriting and
distribution activities, primarily with respect to
offerings of equity and equity-related securities, and
“sets and maintains policies and procedures designed
to ensure that legal, reputational, regulatory and
business standards are maintained in conjunction
with these activities.”
275. Goldman further stated in its 2006 Form 10-K
that’s its “Structured Products Committee” reviewed
and approved structured product transactions entered
into with clients that “raise legal, regulatory, tax or
accounting issues or present reputational risk to
Goldman Sachs.”

276
276. The above statements were materially false
and misleading because defendants failed to disclose
Goldman’s fraudulent conduct and conflicts of interest
with its clients in connection with Hudson, Anderson,
Timberwolf and Abacus, including that Goldman had
(i) identified toxic mortgage-backed securities and
CDOs held on its books that Goldman believed would
significantly decline in value and cause the firm to lose
billions; (ii) packaged and sold these securities to
Goldman’s own clients in order to shift the risks posed
by those toxic assets from Goldman’s books onto those
of its clients, and not in response to client demand; (iii)
made affirmative misrepresentations to its own clients
in order to hide the fact that Goldman had bet against
these securities; and (iv) made billions at its own
clients’ expense when the value of these securities
plummeted, just as Goldman anticipated they would.
They also omitted the known fact that Goldman was
engaged in direct conflicts of interest with its clients,
while Goldman warned that such conflicts could only
“potentially” arise. These statements were further
materially false and misleading because Goldman did
not adequately monitor the business conduct of its
employees. Indeed, senior management openly
instructed employees to shift the risks of toxic
mortgage-backed securities from Goldman’s books on
to investors, which when ultimately disclosed caused
severe reputational damage to Goldman’s client
franchise. These statements were also materially false
and misleading for the reasons stated in ¶¶148-270.
277. On February 21, 2007 Goldman issued its 2006
Annual Report to Shareholders, which contained “The
Goldman Sachs Business Principles,” including:

277
1 Our clients’ interests always come first.
Our experience shows that if we serve our
clients well, our own success will follow.
2 Our assets are our people, capital and
reputation. If any of these is ever
diminished, the last is the most difficult
to restore. We are dedicated to complying
fully with the letter and spirit of the laws,
rules and ethical principles that govern
us. Our continued success depends upon
unswerving adherence to this standard.
* * *
14 Integrity and honesty are at the heart
of our business.
278. The above statements were materially false
and misleading for reasons stated in ¶¶148-276 above.
279. On March 13, 2007, Goldman held an investor
conference call to discuss its first quarter 2007 results.
CFO Viniar told investors: “[Our] record results for the
first quarter, . . . reflects the depth of our client
franchise and the diversity of our business mix.” The
above statement was materially false and misleading
for the reasons stated in ¶¶148-278 above.
280. On June 14, 2007, Goldman held an investor
conference call to discuss its second quarter 2007
results, Goldman CFO Viniar stressed that it was
“another strong quarter” for the Company:
Most importantly, and the basic reason for
our success, is our extraordinary focus on
our clients.
The above statements was materially false and
misleading for the reasons stated in ¶¶148-279 above.

278
281. On November 13, 2007, Goldman CEO
Blankfein told investors at the 2007 Merrill Lynch
Banking and Financial Investor Services Conference
that:
What drove performance was the
quality of our client franchise. To me,
franchise describes the extent to which our
clients come to us for help, advice, and
execution. From those relationships,
business opportunities are brought to the
firm.
The above statements were materially false and
misleading for the reasons stated in ¶¶148-280 above.
282. On December 18, 2007, Goldman held an
investor conference call to discuss fourth quarter 2007
results. Goldman CFO Viniar highlighted that
Goldman’s client franchise and reputation allowed the
Company to continue to flourish in the midst of the
subprime meltdown unlike its main competitors:
In light of the recently more challenging
market conditions, our record results
demonstrate the diversity of our business
mix, the breadth of our global footprint and
most importantly the strength of the
Goldman Sachs client franchise.
* * *
FICC produced another record year in
arguabl[y] the most challenging mortgage
and credit markets [we] have seen in almost
a decade. At the core of fixed success is the
strength of its clients franchise.
The above statement was materially false and
misleading for the reasons stated in ¶¶148-281 above.

279
283. On January 29, 2008, Goldman issued its Form
10-K for fiscal year ended November 30, 2007 which
was signed by defendants CEO Blankfein and CFO
Viniar and represented that:

Trading and Principal Investments
Trading
and
Principal
Investments
represented 68% of 2007 net revenues.
* * *
We believe our willingness and ability to
take risk to facilitate client transactions
distinguishes us from many of our
competitors and substantially enhances
our client relationships.
* * *
We generate trading net revenues from our
customer-driven businesses in three ways:


First, in large, highly liquid markets, we
undertake a high volume of transactions for
modest spreads and fees.



Second, by capitalizing on our strong
relationships and capital position, we
undertake transactions in less liquid markets
where spreads and fees are generally larger.



Finally, we structure and execute transactions
that address complex client needs.

284. In its 2007 Form 10-K, Goldman further stated
that:

280
Conflicts of interest are increasing and a
failure to appropriately identify and deal with
conflicts of interest could adversely affect our
businesses.
Our reputation is one of our most
important assets. As we have expanded the
scope of our businesses and our client base,
we increasingly have to address potential
conflicts of interest, including situations
where our services to a particular client
or our own proprietary investments or
other interests conflict, or are perceived
to conflict, with the interests of another
client, as well as situations where one or
more of our businesses have access to
material non-public information that may not
be shared with other businesses within the
firm.
* * *
We have extensive procedures and
controls that are designed to identify and
address conflicts of interest, including
those designed to prevent the improper
sharing of information among our businesses.
However, appropriately identifying and
dealing with conflicts of interest is complex
and difficult, and our reputation could be
damaged and the willingness of clients to
enter into transactions in which such a
conflict might arise may be affected if we
fail, or appear to fail, to identify and
deal appropriately with conflicts of
interest. In addition, potential or
perceived conflicts could give rise to
litigation or enforcement actions.

281
285. In its 2007 Form 10-K, Goldman touted the
various committees that monitored the Company’s
business practices. Specifically, Goldman represented
in its annual SEC filings that its “Business Practices
Committee” assisted senior management in its
oversight of compliance and operational risks and
related reputational concerns, in order to “ensure the
consistency of our policies, practices and procedures
with our Business Principles.”
286. Goldman also represented in its 2007 Form 10K that a separate committee, the “Commitments
Committee,” reviewed and approved underwriting and
distribution activities, primarily with respect to
offerings of equity and equity-related securities, and
“sets and maintains policies and procedures designed
to ensure that legal, reputational, regulatory and
business standards are maintained in conjunction
with these activities.”
287. Goldman further stated in its 2007 Form 10-K
that’s its “Structured Products Committee” reviewed
and approved structured product transactions entered
into with clients that “raise legal, regulatory, tax or
accounting issues or present reputational risk to
Goldman Sachs.”
288. The above statements were materially false
and misleading for the reasons stated in ¶¶148-282
above.
289. On March 7, 2008, Goldman issued its 2007
Annual Report to Shareholders which contained “The
Goldman Sachs Business Principles,” including:
1 Our clients’ interests always come first.
Our experience shows that if we serve our
clients well, our own success will follow.

282
2 Our assets are our people, capital and
reputation. If any of these is ever
diminished, the last is the most difficult
to restore. We are dedicated to complying
fully with the letter and spirit of the laws,
rules and ethical principles that govern
us. Our continued success depends upon
unswerving adherence to this standard.
* * *
14 Integrity and honesty are at the heart
of our business.
290. The above statements were materially false
and misleading for the reasons stated in ¶¶148-288
above.
291. On March 18, 2008, Goldman held an investor
conference call to discuss first quarter results. CEO
Viniar stated:
However, given the significant weakness in
the broader market environment during the
first quarter, we believe our results clearly
demonstrate value of the Goldman Sachs
client franchise and business model, as well
as our culture of teamwork and risk
management.
The above statement was materially false and
misleading for the reasons stated in ¶¶148-290 above.
292. On September 16, 2008 Goldman held an
investor call to discuss its third quarter 2008 results.
CFO Viniar stated:
Through our financial performance as a
public company, we have repeatedly
demonstrated the benefits of having a deep

283
and broad franchise. It is this business model
and franchise which, despite the challenging
environment, generated a return on equity of
nearly 19% over the past four quarters.
* * *
While I cannot predict the near-term macro
environment, I can assure you that
Goldman Sachs has never been closer to
our clients or better positioned to face tough
markets and take advantage of profitable
opportunities. We will continue to manage
this firm with our focus utmost on
protecting this valuable franchise.
The above statements were materially false and
misleading for the reasons stated in ¶¶148-291 above.
293. On January 27, 2009, Goldman issued its Form
10-K for fiscal year ended November 30, 2008 which
was signed by defendants CEO Blankfein and CFO
Viniar and represented that:
Trading and Principal Investments
Trading
and
Principal
Investments
represented 41% of 2008 net revenues.
* * *
We believe our willingness and ability to
take risk to facilitate client transactions
distinguishes us from many of our
competitors and substantially enhances
our client relationships.
* * *
We generate trading net revenues from our
client-driven businesses in three ways:

284


First, in large, highly liquid markets, we
undertake a high volume of transactions for
modest spreads and fees.



Second, by capitalizing on our strong
relationships and capital position, we
undertake transactions in less liquid markets
where spreads and fees are generally larger.



Finally, we structure and execute transactions
that address complex client needs.

294. Goldman, in its 2008 Form 10-K, further
stated that:
Conflicts of interest are increasing and a
failure to appropriately identify and deal with
conflicts of interest could adversely affect our
businesses. As we have expanded the scope of
our businesses and our client base, we
increasingly must address potential conflicts
of interest, including situations where our
services to a particular client or our own
investments or other interests conflict, or
are perceived to conflict, with the
interests of another client, as well as
situations where one or more of our
businesses have access to material non-public
information that may not be shared with
other businesses within the firm and
situations where we may be a creditor of an
entity with which we also have an advisory or
other relationship.
* * *
We have extensive procedures and
controls that are designed to identify and
address conflicts of interest, including

285
those designed to prevent the improper
sharing of information among our businesses.
However, appropriately identifying and
dealing with conflicts of interest is complex
and difficult, and our reputation, which is one
of our most important assets, could be
damaged and the willingness of clients to
enter into transactions in which such a
conflict might arise may be affected if we fail,
or appear to fail, to identify and deal
appropriately with conflicts of interest. In
addition, potential or perceived conflicts could
give rise to litigation or enforcement actions.
295. In its 2008 Form 10-K, Goldman also touted
the various committees that monitored the Company’s
business practices. Specifically, Goldman represented
in its annual SEC filings that its “Business Practices
Committee” assisted senior management in its
oversight of compliance and operational risks and
related reputational concerns, in order to “ensure the
consistency of our policies, practices and procedures
with our Business Principles.”
296. Goldman also represented in its 2008 Form 10K that a separate committee, the “Commitments
Committee,” reviewed and approved underwriting and
distribution activities, primarily with respect to
offerings of equity and equity-related securities, and
“sets and maintains policies and procedures designed
to ensure that legal, reputational, regulatory and
business standards are maintained in conjunction
with these activities.”
297. Goldman further stated in its 2008 Form 10-K
that’s its “Structured Products Committee” reviewed
and approved structured product transactions entered
into with clients that “raise legal, regulatory, tax or

286
accounting issues or present reputational risk to
Goldman Sachs.”
298. The above statements were materially false
and misleading for the reasons stated in ¶¶148-292
above.
299. On April 6, 2009 Goldman issued its 2008
Annual Report to Shareholders which contained “The
Goldman Sachs Business Principles,” including:
1 Our clients’ interests always come first.
Our experience shows that if we serve our
clients well, our own success will follow.
2 Our assets are our people, capital and
reputation. If any of these is ever
diminished, the last is the most difficult
to restore. We are dedicated to complying
fully with the letter and spirit of the laws,
rules and ethical principles that govern
us. Our continued success depends upon
unswerving adherence to this standard.
* * *
14 Integrity and honesty are at the heart
of our business.
300. The above statements were materially false
and misleading for the reasons stated in ¶¶148-298
above.
301. On July 14, 2009 Goldman held an investor
conference call to discuss its second quarter 2009
results. CFO Viniar stated:
For the past two years, we’ve operated in an
extremely challenging environment. Our
performance in this cycle has been
guided by several principles, including

287
putting our clients’ needs first, executing
our stated strategy and acting as a good
steward of the Firm. We adhere to these
philosophies to enhance and preserve our
franchise and protect the interest of our
shareholders. These are longstanding
principles, and we remain committed to them.
The above statements were materially false and
misleading for the reasons stated in ¶¶148-300 above.
302. Goldman, in its 2009 Form 10-K, which was
issued on February 26, 2010, stated that:
Trading and Principal Investments
Trading and Principal Investments
represented 76% of 2009 net revenues. . . .
We believe our willingness and ability to
take risk to facilitate client transactions
distinguishes us from many of our
competitors and substantially enhances
our client relationships.
* * *
We generate trading net revenues from our
client-driven businesses in three ways:


First, in large, highly liquid markets, we
undertake a high volume of transactions for
modest spreads and fees.



Second, by capitalizing on our strong
relationships and capital position, we
undertake transactions in less liquid markets
where spreads and fees are generally larger.



Finally, we structure and execute transactions
that address complex client needs.

288
303. Goldman, in its 2009 Form 10-K, further
stated that:
Conflicts of interest are increasing and a
failure to appropriately identify and deal with
conflicts of interest could adversely affect our
businesses. As we have expanded the scope of
our businesses and our client base, we
increasingly must address potential conflicts
of interest, including situations where our
services to a particular client or our own
investments or other interests conflict, or
are perceived to conflict, with the
interests of another client, as well as
situations where one or more of our
businesses have access to material non-public
information that may not be shared with
other businesses within the firm and
situations where we may be a creditor of an
entity with which we also have an advisory or
other relationship. . . .
We have extensive procedures and
controls that are designed to identify and
address conflicts of interest, including
those designed to prevent the improper
sharing of information among our businesses.
However, appropriately identifying and
dealing with conflicts of interest is complex
and difficult, and our reputation, which is
one of our most important assets, could
be damaged and the willingness of
clients to enter into transactions in
which such a conflict might arise may be
affected if we fail, or appear to fail, to
identify and deal appropriately with
conflicts of interest. In addition,

289
potential or perceived conflicts could
give rise to litigation or regulatory
enforcement actions.
304. The above statements were materially false
and misleading for the reasons stated in ¶¶148-301
above.
305. On April 7, 2010, Goldman issued its 2009
Annual Report to Shareholders which contained “The
Goldman Sachs Business Principles,” including:
1 Our clients’ interests always come first.
Our experience shows that if we serve our
clients well, our own success will follow.
2 Our assets are our people, capital and
reputation. If any of these is ever
diminished, the last is the most difficult
to restore. We are dedicated to complying
fully with the letter and spirit of the laws,
rules and ethical principles that govern
us. Our continued success depends upon
unswerving adherence to this standard.
* * *
14 Integrity and honesty are at the heart
of our business.
306. The above statements were materially false
and misleading for the reasons stated in ¶¶148-304
above.
IX. THE TRUTH REGARDING GOLDMAN’S
FRAUDULENT CONDUCT IS REVEALED
307. On April 16, 2010, shortly after the market
opened, the SEC filed a complaint charging Goldman
with securities fraud in connection with the Abacus
CDO. The SEC alleged:

290
The Commission brings this securities
fraud action against Goldman, Sachs & Co.
(“GS&Co”) and a GS&Co employee, Fabrice
Tourre (“Tourre”), for making materially
misleading statements and omissions in
connection
with
a
synthetic
collateralized debt obligation (“CDO”)
GS&Co structured and marketed to
investors. This synthetic CDO, Abacus
2007AC1, was tied to the performance of
subprime
residential
mortgage-backed
securities (“RMBS”) and was structured and
marketed by GS&Co in early 2007 when the
United States housing market and related
securities were beginning to show signs of
distress. Synthetic CDOs like Abacus 2007AC1 contributed to the recent financial crisis
by magnifying losses associated with the
downturn in the United States housing
market.
GS&Co marketing materials for Abacus
2007-AC1 – including the term sheet, flip
book and offering memorandum for the CDO
– all represented that the reference
portfolio of RMBS underlying the CDO
was selected by ACA Management LLC
(“ACA”), a third-party with experience
analyzing credit risk in RMBS. Undisclosed
in
the
marketing
materials
and
unbeknownst to investors, a large hedge
fund, Paulson & Co. Inc. (“Paulson”), with
economic interests directly adverse to
investors in the Abacus 2007-AC1 CDO,
played a significant role in the portfolio
selection process. After participating in the

291
selection of the reference portfolio, Paulson
effectively shorted the RMBS portfolio it
helped select by entering into credit default
swaps (“CDS”) with GS&Co to buy protection
on specific layers of the Abacus 2007-AC1
capital structure. Given its financial short
interest, Paulson had an economic incentive
to choose RMBS that it expected to experience
credit events in the near future. GS&Co did
not disclose Paulson’s adverse economic
interests or its role in the portfolio
selection process in the term sheet, flip
book, offering memorandum or other
marketing
materials
provided
to
investors.
* * *
By engaging in the misconduct described
herein, GS&Co and Tourre directly or
indirectly engaged in transactions, acts,
practices and a course of business that
violated Section 17(a) of the Securities Act of
1933, 15 U.S.C. §77q(a) (“the Securities Act”),
Section 10(b) of the Securities Exchange Act
of 1934, 15 U.S.C. §78j(b)(“the Exchange Act”)
and Exchange Act Rule 10b-5, 17 C.F.R.
§240.10b-5. The Commission seeks injunctive
relief, disgorgement of profits, prejudgment
interest, civil penalties and other appropriate
and necessary equitable relief from both
defendants.
308. Upon this news, Goldman stock immediately
declined, ultimately falling from $184.27 per share on
April 15, 2010 to $160.70 per share on April 16, 2010,
a decline of 13% on extremely high volume of 101.9

292
million shares. Shareholders suffered a $13 billion
dollar loss in the value.
309. Market analysts estimated that the financial
impact to Goldman of the SEC lawsuit was
approximately $1 billion, reflecting the potential
penalties relating to the Abacus deal.
310. The $13 billion loss in shareholder value in
Goldman’s stock on April 16, 2010, immediately
following the filing of the SEC fraud suit grossly
exceeded the $1 billion estimated “worst case”
financial impact to Goldman from an unfavorable
verdict in the SEC fraud suit.
311. Despite this undeniable fact, on April 20, 2010,
Goldman Co-General Counsel Gregory Palm told the
public that Goldman’s failure to disclose the fact that
it knew as soon as July 2009 that the SEC intended to
bring securities fraud charges was justified because
Goldman did not consider the Wells Notice to be
material:
[W]hat I would say about that is our policy
has always been to disclose to our investors
everything that we consider to be material.
And that would include investigations,
obviously lawsuits, regulatory matters,
anything. Whether there is a Wells or not a
Wells, if we consider it to be material we go
ahead and disclose it and that is our policy.
To get to your question we do not disclose
every Wells we get simply because that
wouldn’t make sense. Therefore we just
disclose it if we consider it to be material.
312. Market commentary further confirmed what
the $13 billion dollar loss in shareholder value already
established – that the financial impact to Goldman

293
due to the SEC fraud charge was obviously material
and not limited to the potential penalties relating to
Abacus. Rather, when the SEC’s fraud charge revealed
Goldman’s undisclosed conduct of betting against its
clients to make billions, Goldman suffered severe
harm and investors punished the stock accordingly.
313. On April 16, 2010, Professor John Coffee, one
of the leading and renowned defense experts in the
securities fraud area told Dow Jones:
“These charges are far more severe than
anyone had imagined,” and suggest Goldman
teamed with “the leading short-seller in the
industry to design a portfolio of securities
that would crash,” said John Coffee, a
securities law professor at Columbia Law
School in New York.
“The greatest penalty for Goldman is
not the financial damages – Goldman is
enormously
wealthy
–
but
the
reputational damage,” he said, adding that
“it’s not impossible” to contemplate that the
case could lead to criminal charges.
314. Market analysts agreed with Professor Coffee:


April 19, 2010 Macquarie (USA) Equities
Research

Normally, firms settle with the SEC to
avoid the risk of losing in court, which would
tee-up huge class-action wins. However, in
this case, the losses only total $1bn.
Typically,
reputational
damage,
particularly in the institutional context,
is a paper tiger. However, in this case, the
response by the media and Washington

294
has been so severe, that we believe
management will want their day in court to
prove the firm’s innocence. As a result, we
may not see the typical settlement but a trial.
As for the direct financial impact, the
worst-case scenario is probably $1.10/sh or
6% of our 2010 estimate while there were no
material expectations for synthetic CDO
revenue in forward estimates. As for
reputation, Goldman clients are “eyeswide-open”.


April 22, 2010 the Times (London)

There were signs yesterday that the
scandal was costing Goldman business.
BayernLB, one of Germany’s biggest
banks, said that it would stop dealing
with Goldman with immediate effect.
315. Moody’s, one of the largest credit rating
agencies, confirmed that the damage caused by the
SEC lawsuit went well beyond the potential $1 billion
penalty relating to Abacus:
April 19, 2010 Moody’s Weekly Credit
Outlook Report:
On Friday morning in a civil complaint, the
SEC accused Goldman Sachs (A1, negative) of
fraud in the marketing and origination of a
synthetic collateralized debt obligation
(CDO). Later on Friday, Goldman Sachs
denied the SEC’s allegations. This
development is a credit negative for
Goldman Sachs given the potential
franchise implications and direct
financial costs.

295
316. Between April 16, 2010 and June 10, 2010,
Goldman suffered additional significant stock price
declines. On April 25-26, 2010, the Senate
Subcommittee released Goldman internal emails
further detailing that Goldman made billions by
betting against the CDOs it sold to its clients.
317. Upon the disclosure of this new information
relating to Goldman’s fraudulent conduct, on April 26,
2010, Goldman stock declined approximately 3.5%
from $157.40 to $152.03.
318. On April 29, 2010, two days after ten Goldman
executives, including CEO Blankfein, CFO Viniar,
COO Cohn, and Mortgage Department Head Daniel
Sparks testified before the Senate Subcommittee and
vehemently denied that they had done anything
wrong, the Wall Street Journal reported that Goldman
was the subject of a criminal investigation by the
Department of Justice.
319. Upon the disclosure of this news on April 30,
2010, Goldman suffered an approximate 9.5% stock
price decline from $160.24 to $145.20.
320. Market commentary again confirmed that this
new information caused Goldman’s stock to decline.
321. On May 5, 2010 Fitch Ratings lowered
Goldman’s “Ratings Outlook” from “Stable” to
“Negative,” stating:
The Rating Outlook revision to
Negative incorporates recent legal
developments and ongoing regulatory
challenges that could adversely impact
Goldman’s reputation and revenue
generating
capacity.
Goldman’s
franchise and market position are

296
potentially vulnerable to scrutiny by
stakeholders, and like peers, may be
affected by the industry’s regulatory
evolution.
Subsequent to civil fraud charges filed by
the Securities and Exchange Commission
(SEC) last month, it appears that the U.S.
Attorney’s Office in Manhattan is initiating a
criminal probe in connection with Goldman’s
mortgage trading activity. Given the level of
recent public scrutiny, it is not surprising
that other authorities outside of the U.S. have
also expressed intentions to investigate select
mortgage-related transactions conducted by
Goldman. At a minimum, Fitch believes the
civil charges to date and the pending
criminal investigation, coupled with a
highly public hearing by the U.S.
Senate’s Permanent Subcommittee on
Investigations,
generate
adverse
publicity that tarnishes Goldman’s
reputation. And for financial services
companies, particularly those dependent
on the capital markets, reputation is
critically important.
322. On June 10, 2010, it was reported that the SEC
was investigating whether in connection with the
Hudson CDO, Goldman profited by ridding itself of
mortgage backed securities and related CDO’s on
Goldman’s books that it knew were going to decline by
selling these securities to Goldman’s clients who
suffered billions in losses. Goldman stock fell over 2%,
from $136.80 to $133.77.
323. Market commentary again confirmed that the
negative news which began with the filing of the SEC

297
fraud suit on April 16, 2010 had caused severe damage
to Goldman’s stock price:


June 11, 2010 Reuters Hedgeworld (New York)

To date, the regulatory scandal, which
began with the filing of the SEC lawsuit on
April 16, has cost Goldman $25 billion in
market capitalization.


July 19, 2010 Wall Street Journal Europe

The SEC’s fraud accusations hurt
Goldman in the battle for some plum
assignments, people familiar with the
matter said.
Investment bankers up and down Wall
Street spent months courting General Motors
Co. and the U.S. government to handle the
auto maker’s expected initial public offering
later this year.
Goldman President Gary D. Cohn flew to
Washington to make the case that Goldman
should be considered to lead the deal. But the
firm couldn’t overcome the black eye
inflicted by the SEC’s suit over Goldman’s
creation and sale of a mortgage-securities
deal called Abacus 2007-AC1, according to
people familiar with the discussions.


June 23, 2010 HedgeWorld Daily News

The firm has already taken some hits.
Goldman didn’t make the cut as a lead
underwriter on a $300 million initial
public offering for consulting firm Booz
Allen Hamilton, said people familiar
with the situation. The Carlyle Group,

298
the private equity firm which acquired
Booz Allen in a $2.54 billion buyout, was
worried about the public perception of
Goldman leading an IPO for a company
with close ties to the U.S. Department of
Defense.
X. LOSS CAUSATION/ECONOMIC LOSS
324. During the Class Period, defendants made
numerous false and misleading statements and
omissions of material facts necessary to render those
statements not false or misleading, which artificially
inflated Goldman’s stock price.
325. These include the three categories of
Goldman’s materially false and misleading statements
and omissions made during the Class Period.
326. First, from July 2009 until April 2010
Goldman concealed from its quarterly and year-end
SEC filings, press releases and investor conference
calls that the Company had been notified in July 2009,
via a formal Wells Notice, that the SEC had
recommended filing securities fraud charges relating
to Goldman’s conduct in connection with Abacus. By
failing to disclose the Wells Notice, Goldman hid its
improper conduct of betting against (or allowing a
favored client to bet against) the very toxic securities
that Goldman designed to fail and packaged and sold
to its clients.
327. Second, from February 7, 2007 through April
2010, Goldman reassured investors that “[w]e have
extensive procedures and controls that are
designed to [identify and] address conflicts of
interest . . . .” Goldman’s statements were false and
misleading and omitted the fact that the Company was

299
engaged in pervasive conflicts of interest, including
that Goldman had designed Abacus to allow a favored
client to benefit at the expense of Goldman’s other
clients.
328. Third, Goldman repeatedly told the public that
its client franchise and continued success depended on
the Company’s reputation, honesty, integrity and
commitment to put its clients’ interests first above all
else, all while concealing that the Company had (i)
identified toxic mortgage-backed and CDOs held on its
books that Goldman believed would significantly
decline in value and cause the firm to lose billions; (ii)
created clear conflicts of interest by packaging and
selling these securities to Goldman’s own clients in
order to shift the risk posed by these toxic assets from
Goldman’s books onto those of its clients; (iii) hid and
made affirmative misrepresentations which obscured
the fact that Goldman had bet against these securities;
and (iv) made billions at its own clients’ expense when
the value of these securities; plummeted, just as
Goldman anticipated they would.
329. Lead Plaintiffs and investors purchased
Goldman stock at these inflated prices and suffered
damages when the price of Goldman stock declined
upon the revelations of the truth, in contrast to earlier
misstatements.
330. The inflation in Goldman’s stock was
dissipated through a series of partial disclosures of the
truth that revealed that, contrary to its
representations, the Company had engaged in the
abusive conduct of placing the Company’s interests
above its own clients. The resulting significant stock
price declines upon release of truthful information
were due to firm-specific fraud related disclosures, and
not a result of market or industry. The following

300
examples are not exhaustive because fact and expert
discovery have yet to commence:
331. On April 16, 2010 the SEC filed its securities
fraud case against Goldman, which revealed that
Goldman’s had collaborated with a favored client to
design a portfolio of securities that would decline in
value, and sold this toxic portfolio to other Goldman
clients. The SEC’s fraud charge inflicted severe
damage. Upon this news, Goldman stock immediately
declined, ultimately falling from $184.27 per share on
April 15, 2010 to $160.70 per share on April 16, 2010,
a decline of 13% on extremely high volume of 102
million shares – while the S&P 500 was down only
1.6% and the S&P 500 financials was down only 3.9%.
Shareholders suffered a $13 billion dollar loss in the
value of Goldman stock.
332. The $13 billion loss in shareholder value in
Goldman’s stock on April 16, 2010, immediately
following the filing of the SEC fraud suit grossly
exceeded the $1 billion estimated “worst case”
financial impact to Goldman from an unfavorable
verdict in the SEC fraud suit.
333. On
April
25-26,
2010,
the
Senate
Subcommittee released Goldman internal emails
further revealing that Goldman’s practice of betting
against the very securities it sold to its clients. Upon
the disclosure of this new material information on
April 26, 2010, Goldman stock declined approximately
3.5% from $157.40 to $152.03, while the S&P 500 was
down only .4% and the S&P 500 financials was down
only 1.7%.
334. On April 29, 2010, two days after ten Goldman
executives, including CEO Blankfein, CFO Viniar,
COO Cohn, and Mortgage Department Head Daniel

301
Sparks testified before the Senate Subcommittee and
vehemently denied that they had done anything wrong
or illegal whatsoever, the Wall Street Journal reported
that Goldman was the subject of a criminal
investigation by the Department of Justice. Upon the
disclosure of this new material information, on April
30, 2010, Goldman suffered an approximate 9.5%
stock price decline from $160.24 to $145.20, while the
S&P 500 was down only 1.7% and the S&P 500
financials was down only 2.5%.
335. On June 10, 2010, it was reported that the SEC
was investigating whether in connection with the
Hudson CDO, Goldman profited by ridding itself of
mortgage backed securities and related CDO’s on
Goldman’s books that it knew were going to decline by
selling these securities to Goldman’s clients who
suffered billions in losses. Upon disclosure of this new
material information, on June 10, 2010, Goldman
stock fell over 2%, from $136.80 to $133.77, while the
S&P 500 was up 2.9% and the S&P 500 financials was
up 3.3%.
XI. APPLICABILITY OF PRESUMPTION OF
RELIANCE FRAUD ON THE MARKET
DOCTRINE
336. At all relevant times, the market for
Goldman’s common stock was an efficient market for
the following reasons, among others:
(i) Goldman stock met the requirements for
listing, and was listed and actively traded on
the NYSE, a highly efficient and automated
market;

302
(ii) As a regulated issuer, Goldman filed
periodic public reports with the SEC and the
NYSE;
(iii) Goldman regularly communicated with
public investors via established market
communication mechanisms, including through
regular disseminations of press releases on the
national circuits of major newswire services and
through other wide-ranging public disclosures,
such as communications with the financial
press and other similar reporting services;
(iv) Goldman was followed by securities
analysts employed by major brokerage firms
who wrote reports that were distributed to the
sales force and certain customers of their
respective brokerage firms. Each of these
reports was publicly available and entered the
public marketplace; and
(v) Goldman’s stock price reacted to the
disclosure of firm specific news about the
Company.
337. As a result of the foregoing, the market for
Goldman’s common stock promptly digested current
information regarding Goldman from all publicly
available sources and reflected such information in
Goldman’s stock price. Under these circumstances, all
purchasers of Goldman’s common stock during the
Class Period suffered similar injury through their
purchase of Goldman’s common stock at artificially
inflated prices and a presumption of reliance applies.

303
COUNT I
For Violation of §10(b) of the Exchange Act
and Rule 10b-5 Against All Defendants
338. Lead
reference.

Plaintiffs

incorporate

¶¶1-337

by

339. During the Class Period, defendants
disseminated or approved the false statements
specified above, which they knew or deliberately
disregarded were misleading in that they contained
misrepresentations and failed to disclose material
facts necessary in order to make the statements made,
in light of the circumstances under which they were
made, not misleading.
340. Defendants violated §10(b) of the Exchange
Act and Rule 10b-5 in that they:
(a) employed devices, schemes and artifices to
defraud;
(b) made untrue statements of material facts or
omitted to state material facts necessary in order
to make the statements made, in light of the
circumstances under which they were made, not
misleading; or
(c) engaged in acts, practices and a course of
business that operated as a fraud or deceit upon
Lead Plaintiffs and others similarly situated in
connection with their purchases of Goldman
common stock during the Class Period.
341. Lead Plaintiffs and the Class have suffered
damages in that, in reliance on the integrity of the
market, they paid artificially inflated prices for
Goldman common stock. Lead Plaintiffs and the Class
would not have purchased Goldman common stock at

304
the prices they paid, or at all, if they had been aware
that the market prices had been artificially and falsely
inflated by defendants’ misleading statements.
COUNT II
For Violation of §20(a) of the Exchange Act
Against All Defendants
342. Lead
reference.

Plaintiffs

incorporate

¶¶1-341

by

343. The Individual Defendants acted as controlling
persons of Goldman within the meaning of §20(a) of
the Exchange Act. By reason of their positions with the
Company, and their ownership of Goldman stock, the
Individual Defendants had the power and authority to
cause Goldman to engage in the wrongful conduct
complained of herein. Goldman controlled the
Individual Defendants and all of its employees. By
reason of such conduct, defendants are liable pursuant
to §20(a) of the Exchange Act.
PRAYER FOR RELIEF
WHEREFORE, Lead Plaintiffs pray for judgment as
follows:
A. Declaring this action to be a proper class action
pursuant to Fed. R. Civ. P. 23;
B. Awarding Lead Plaintiffs and the members of
the Class damages, including interest;
C. Awarding Lead Plaintiffs’ reasonable costs and
attorneys’ fees; and
D. Awarding such equitable/injunctive or other
relief as the Court may deem just and proper.

305
JURY DEMAND
Lead Plaintiffs demand a trial by jury.

DATED: July 25, 2011
LABATON
SUCHAROW LLP
/s/ Thomas A. Dubbs
Thomas A. Dubbs
James W. Johnson
Louis Gottlieb
Thomas G. Hoffman
Jeffrey R. Alexander
140 Broadway,
34th Floor
New York, NY 10005
Tel: 212/907-0700
Fax: 212/818-0477

ROBBINS GELLER
RUDMAN & DOWD LLP
/s/ Spencer A. Burkholz
Spencer A. Burkholz
Jonah H. Goldstein
Robert R. Henssler Jr.
Eric I. Niehaus
Danielle S. Myers
655 West Broadway,
Suite 1900
San Diego, CA 92101
Tel: 619/231-1058
Fax: 619/231-7423
ROBBINS GELLER
RUDMAN & DOWD LLP
SAMUEL H. RUDMAN
58 South Service Road,
Suite 200
Melville, NY 11747
Telephone: 631/367-7100
631/367-1173 (fax)

Co-Lead Counsel for Lead Plaintiffs

306
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
10 Civ. 3461 (PAC)
————
ILENE RICHMAN, Individually and on behalf of all
others similarly situated,
Plaintiffs,
-againstGOLDMAN SACHS GROUP, INC, et al.,
Defendants.
————
OPINION & ORDER
HONORABLE PAUL A. CROTTY, United States
District Judge:
Plaintiffs in this class action allege that Goldman
Sachs & Co. (“Goldman”), Lloyd C. Blankfein, David
A. Viniar, and Gary D. Cohn (the “Individual
Defendants,” and collectively with Goldman, the
“Defendants”) violated § 10(b) of the Exchange Act,
and Rule 10b-5 promulgated thereunder (Count One);
and § 20(a) of the Exchange Act (Count II). Plaintiffs,
who are purchasers of Goldman’s common stock
during the period February 5, 2007 through June 10,
2010, claim that Defendants made material misstatements and omissions regarding: (1) Goldman’s receipt
of “Wells Notices” from the Securities and Exchange
Commission (“SEC”) relating to Goldman’s role in the
synthetic collateralized debt obligation (“CDO”), titled
ABACUS 2007 AC-1 (“Abacus”); and (2) Goldman’s
conflicts of interest that arose from its role in
the Abacus, Hudson Mezzanine Funding 2006-1

307
(“Hudson”), The Anderson Mezzanine Funding 2007-1
(“Anderson”), and Timberwolf I CDO transactions.
Defendants move, pursuant to Fed. R. Civ. P. 9(b)
and 12(b)(6), to dismiss the Consolidated Class Action
Complaint (the “Complaint”). For the following
reasons, Defendants’ motion with respect to the failure
to disclose the Wells Notices is GRANTED, and
otherwise DENIED.
BACKGROUND
I. Abacus and the SEC Investigation
On April 26, 2007, the Abacus synthetic CDO
transaction closed.1 Goldman served as the
underwriter or placement agent, the lead manager,
and the protection buyer for the Abacus transaction.
(Compl. ¶ 50 & n.3.) Plaintiffs claim that “the Abacus
transaction [ ] was designed from the outset by
[Goldman] to allow a favored client to benefit at the
expense of Goldman’s other clients.” (Id. ¶ 147.)
Specifically, Plaintiffs claim that Goldman allowed
Paulson & Co., a hedge fund client, to “play[ ] an active
and determinative role in the selection process,” and
knew that Paulson was picking assets that it “believed
would perform poorly or fail.” (Id. ¶¶ 53, 64.) Indeed,
1

In a typical CDO, a special purpose vehicle (“SPV”) issues
notes and uses the proceeds to acquire a portfolio of assets, such
as residential mortgage-backed securities (“RMBS”). The SPV
makes payments to noteholders from the income generated by the
underlying assets. In a synthetic CDO, the SPV contains a CDO
and credit default swap (“CDS”). The SPV obtains derivative
exposure to a “reference” portfolio—which may be RMBS or
CDOs—by entering into a CDS, pursuant to which counterparties
agree to make periodic payments to the SPV in exchange for
commitment by the SPV to make payments to the counterparties
in the event that the reference securities experience adverse
credit events. (See Compl. ¶ 50 & n.3.)

308
“Paulson had agreed to pay Goldman a higher fee if
Goldman could provide Paulson with CDS contracts
containing premium payments below a certain level.”
(Id. ¶ 77.) Rather than disclose Paulson’s role in the
asset selection process, Goldman “falsely identified
ACA [Management LLC] as the only portfolio selection
agent for the CDO.” (Id. ¶¶ 59-66.) Goldman hid
Paulson’s role, because it “expect[ed] to leverage
ACA’s credibility and franchise to help distribute this
Transaction.” (Id. ¶ 61 (quoting a Goldman internal
memorandum)). The Abacus transaction performed
poorly, as Paulson intended; the investors lost
approximately $1 billion, and Paulson, holding the
sole short position, profited by this amount. (Id. ¶ 81.)
In August 2008, the SEC notified Goldman that it
had commenced an investigation into Abacus and
served Goldman with a subpoena. (Compl. ¶ 88.)
Goldman disclosed in its SEC filings that it had
“received requests for information from various
governmental agencies and self-regulatory organizations relating to subprime mortgages, and
securitizations, collateralized debt obligations and
synthetic products relating to subprime mortgages”
and that Goldman was “cooperating with the
requests.” (Id. ¶¶ 129, 130.) On July 29, 2009, the SEC
issued a Wells Notice to Goldman, notifying it that
the SEC’s Enforcement Division staff “intends to
recommend an enforcement action” and providing
Goldman with “an opportunity to respond concerning
the recommendation.” (Id. ¶ 90.) On September 10
and 25, 2009, Goldman provided written Wells
submissions to the SEC. (Id. ¶ 91.) Goldman
thereafter met with the SEC on numerous occasions.
(Id. ¶ 91.) Plaintiffs claim that by failing to disclose its
receipt of a Wells Notice, Goldman “hid its improper

309
conduct of betting against” its clients, and caused its
stock to trade at artificially inflated levels. (Id. ¶¶ 49,
99.)
On September 28, 2009 and January 29, 2010, the
SEC issued Wells Notices to Fabrice Tourre and
Jonathan Egol, two Goldman employees involved in
the Abacus transaction. (Id. ¶¶ 93, 94.) On April 16,
2010, the SEC filed a complaint against Goldman and
Tourre—but not Egol—alleging securities fraud
violations. (Id. ¶ 83.) As a result, Goldman’s stock
dropped from $184.27 to $160.70 per share, a drop of
approximately 13%. (Id. ¶ 99.)
On July 14, 2010, Goldman reached a $550 million
settlement with the SEC, in which Goldman
acknowledged that its marketing material was
incomplete and that it had made a mistake:
[T]he marketing material for the ABACUS
2001-AC1 transaction contained incomplete
information. In particular, it was a mistake
for the Goldman marketing materials to state
that the reference portfolio was “selected by”
ACA Management LLC without disclosing
the role of Paulson & Co. Inc. in the portfolio
selection process and that Paulson’s economic
interests were adverse to CDO investors.
(Id. ¶ 87.)
On November 9, 2010, the Financial Industry
Regulatory Authority (“FINRA”) announced that it
fined Goldman $650,000 for failing to disclose, within
30 days, that Tourre and Egol had received Wells
Notices, in violation of National Association of
Securities Dealers’ (“NASD”) Conduct Rule 3010
(which became FINRA Rule 2010, when FINRA
succeeded NASD). (Id. ¶¶ 100-102.) In settling with

310
FINRA, Goldman admitted that it violated these rules.
(Id. ¶¶ 101, 102.)
II. Hudson
Hudson was a synthetic CDO that commenced on or
around December 5, 2006, which Goldman packaged
and sold. (Id. ¶¶ 148, 164.) Plaintiffs allege that
Goldman had “clear conflicts of interest” in the
Hudson transaction because it knew that the reference
assets were poor quality mortgage related securities
which were likely to lose value, and yet, sold these
products to its clients at higher prices than Goldman
believed they were worth, while betting against those
very securities, “thereby allowing the Company to
reap billions in profits at their clients direct expense.”
(Id. ¶ 148.) Goldman had told investors that it “has
aligned incentives with the Hudson program by
investing in a portion of equity,” without disclosing
that it also held 100% of the short position at the same
time. (Id. ¶¶ 165, 171, 177.) Goldman’s incentive from
holding $6 million in equity was substantially
outweighed by its $2 billion short position. (Id. ¶ 171.)
Further, Goldman had not disclosed that the assets
had been taken directly from Goldman’s inventory,
and had been priced by Goldman’s own personnel. (Id.
¶¶ 174, 177.)
III. Anderson
Anderson was a synthetic CDO transaction that
closed on March 20, 2007, for which Goldman served
as the sole credit protection buyer and acted as an
intermediary between the CDO and various brokerdealers. (Compl. ¶¶ 190, 191, 202.) Goldman was the
source of 28 of the 61 CDS contracts that made up
Anderson, and held a 40% short position. (Id. ¶¶ 189191.) Plaintiffs allege that Goldman developed

311
misleading talking points for its sales force, which did
not adequately disclose the asset selection process and
touted that Goldman would hold up to 50% of the
equity tranche in the CDO, which was worth $21
million, without mentioning its $135 million short
position. (Id. ¶¶ 204-207).
IV. Timberwolf I
Timberwolf I is a hybrid CDO squared transaction,2
which closed in March 2007, that Goldman
constructed, underwrote, and sold. (Id. ¶ 213.) In its
marketing booklet, Goldman stated that it was
purchasing 50% of the equity tranche, but failed to
disclose that it was the largest source of assets and
held a 36% short position in the CDO. (Id. ¶¶ 214,
216.) Goldman aggressively sold Timberwolf I without
explaining its pricing methodology. (Id. ¶ 255.)
Plaintiffs allege that Goldman knew it was selling
poorly quality assets at inflated prices, and profited
from its short position. (Id. ¶¶ 264-67.)
LEGAL STANDARDS
Since Plaintiffs bring claims for security fraud, they
must meet heightened pleading requirements of Fed.
R. Civ. P. 9(b), and the Private Securities Litigation
Reform Act of 1995 (“PSLRA”). ATSI Commc’ns v.
Shaar Fund, Ltd., 493 F.3d 87, 99 (2d Cir.2007); see
also 15 U.S.C. § 78u–4(b)(1).
Section 10(b) of the Exchange Act prohibits any
person from using or employing “any manipulative or
deceptive device or contrivance in contravention” of
SEC rules. 15 U.S.C. § 78j(b). Rule 10b-5, promulgated
under Section 10(b), prohibits “any device, scheme, or
artifice to defraud” and “any untrue statement of a
2

A CDO squared is backed by a pool of CDO tranches.

312
material fact or to omit to state a material fact
necessary in order to make the statements made . . .
not misleading . . . .” 17 C.F.R. § 240.10b-5.
To state a claim in a private action under section
10(b) and Rule 10b–5, a plaintiff must prove: “(1) a
material misrepresentation or omission by the
defendant; (2) scienter; (3) a connection between the
misrepresentation or omission and the purchase or
sale of a security; (4) reliance upon the misrepresentation or omission [or transaction causation]; (5)
economic loss; and (6) loss causation.” Stoneridge Inv.
Partners, L.L.C. v. Scientific–Atlanta, Inc., 552 U.S.
148, 157 (2008).
Defendants argue that the Complaint should be
dismissed because: (1) Plaintiff failed to plead an
actionable misstatement or omission; (2) Plaintiffs
failed to allege facts giving rise to a strong inference of
scienter; and (3) Plaintiffs failed to adequately allege
loss causation.
ANALYSIS
I. Goldman’s Failure to Disclose Its Receipt of
Wells Notices
A. Disclosure Requirements and The Wells Notice
Process
Under Section 13 of the Exchange Act, Regulation
S-K Item 103, a company is required to “[d]escribe
briefly any material pending legal proceedings . . .
known to be contemplated by governmental
authorities.” 17 C.F.R. § 229.103. Section 240.12b-20
“supplements Regulation S–K by requiring a person
who has provided such information in ‘a statement or
report . . . [to] add[ ] such further material information,
if any, as may be necessary to make the required

313
statements, in light of the circumstances under which
they are made, not misleading.’” United States v.
Yeaman, 987 F.Supp. 373, 381 (E.D.Pa. 1997).
The SEC provides a target of an investigation with
a Wells Notice “whenever the Enforcement Division
staff decides, even preliminarily, to recommend
charges.” In re Initial Public Offering Sec. Litig., No.
21 MC 92(SAS), 2004 WL 60290, at *1 (S.D.N.Y. Jan.
12. 2004). The party at risk of an enforcement action
is then entitled, under SEC rules, to make a “Wells
submission” to the SEC, “presenting arguments why
the Commissioners should reject the [Enforcement
Division] staff’s recommendation for enforcement.”
WHX Corp. v. S.E.C., 362 F.3d 854, 860 (D.C. Cir.
2004) (citing 17 C.F.R. § 202.5(c)). A party’s
entitlement to make a Wells submission is “obviously
based on recognition that staff advice is not
authoritative.” Id. Indeed, “[t]he Wells process was
implemented so that the Commission would have the
opportunity to hear a defendant’s arguments before
deciding whether to go forward with enforcement
proceedings.” In re Initial Public Offering, 2004 WL
60290, at *1. Accordingly, receipt of a Wells Notice
does not necessarily indicate that charges will be filed.
“An investigation on its own is not a ‘pending legal
proceeding’ until it reaches a stage when the agency or
prosecutorial authority makes known that it is
contemplating filing suit or bringing charges.” ABA
Disclosure Obligations under the Federal Securities
Laws in Government Investigations—Part II.C.;
Regulation S-K, Item 103: Disclosure of “Legal
Proceedings,” 64 Bus. Law. 973 (2009). A Wells Notice
may be considered an indication that the staff of a
government agency is considering making a
recommendation, id., but that is well short of

314
litigation. Further, Plaintiffs conceded at oral
argument that no court has ever held that a company’s
failure to disclose receipt of a Wells Notice constitutes
an actionable omission under § 10(b) or Rule 10b-5.
(May 21, 2012 Oral Arg. Tr. 22:17-22.)
In addition to Regulation S-K, Item 103, FINRA
Rule 2010, and NASD Conduct Rule 3010 explicitly
require financial firms to report an employee’s receipt
of a Wells Notice to FINRA within 30 days. (Compl.
¶ 100.)
In this case, the Defendants disclosed, as early as
January 27, 2009, that there were governmental
investigations into, inter alia, Goldman’s synthetic
CDO practices.3 Goldman never disclosed the Wells
Notices that it and its employees received on July 29,
2009, September 28, 2009, and January 29, 2010.
(Compl. ¶¶ 90-94, 129.)
An omission is actionable where (1) the omitted fact
is material; and (2) the omission is (a) “in
contravention of an affirmative legal disclosure
obligation”; or (b) needed “to prevent existing
disclosures from being misleading.” In re Morgan
Stanley Info. Fund Sec. Litig., 592 F.3d 347, 360 (2d
Cir. 2010). Plaintiffs argue (1) that Defendants had to
disclose their receipt of Wells Notices in order to
3

Plaintiffs’ Complaint cites to the 2009 10-K concerning
“requests for information from various governmental agencies”
regarding, inter alia, synthetic CDOs. (Compl. ¶ 129.) Both
parties refer to this statement as notice of governmental
“investigations.” (See e.g., Pl. Opp. 4.) Defendants attached SEC
filings going back to at least January 27, 2009 that contain an
identical disclosure. (See Walker Decl. Ex. J.) While these
materials were not attached to the Complaint, the Court can take
judicial notice of SEC filings. See Finn v. Barney, No. 11–1270–
CV, 2012 WL 1003656, at *1 (2d Cir. Mar. 27, 2012).

315
prevent their prior disclosures about government
investigations from being misleading, and (2) that
Defendants had an affirmative legal obligation to
disclose their receipt of Wells Notices under
Regulation S-K, Item 103, FINRA and NASD Rules.
B. A Duty to Be Accurate and Complete in
Making Disclosures
Plaintiffs’ primary argument is that Defendants’
disclosures about governmental investigations
triggered a duty to disclose Goldman’s subsequent
receipt of Wells Notices. Specifically, Plaintiffs argue
that by failing to disclose that the government
inquiries resulted in Wells Notices, Defendants misled
the public into “erroneously” concluding that “no
significant developments had occurred which made
the investigation more likely to result in formal
charges.” (Pl. Opp. 6.)
When a corporation chooses to speak—even where it
lacks a duty to speak—it has a “duty to be both
accurate and complete.” Caiola v. Citibank, N.A., 295
F.3d 312, 331 (2d Cir. 2002). A corporation, however,
“only [has to reveal] such [facts], if any, that are
needed so that what was revealed would not be so
incomplete as to mislead.” In re Bristol Myers Squibb
Co. Sec. Litig., 586 F.Supp.2d 148, 160 (S.D.N.Y. 2008)
(citation omitted). The federal securities laws “do not
require a company to accuse itself of wrongdoing.” In
re Citigroup, Inc. Sec. Litig., 330 F.Supp.2d 367, 377
(S.D.N.Y. 2004) (citing In re Am. Express Co.
Shareholder Litig., 840 F.Supp. 260, 269-70 (S.D.N.Y.
1993)); see also Ciresi v. Citicorp, 782 F.Supp. 819, 823
(S.D.N.Y. 1991) (dismissing Exchange Act claims in
part because “the law does not impose a duty to
disclose uncharged, unadjudicated wrongdoing or
mismanagement”). Moreover, “defendants [a]re not

316
bound to predict as the ‘imminent’ or ‘likely’ outcome
of the investigations that indictments of [the company]
and its chief officer[s] would follow, with financial
disaster in their train.” Ballan v. Wilfred Am. Educ.
Corp., 720 F.Supp. 241, 248 (E.D.N.Y. 1989).
In In re Citigroup, plaintiffs’ 10(b) claims premised
on Citigroup’s failure to disclose “litigation risks
associated
with
its
Enron-related,
analysis/
investment banking and reporting activities” were
dismissed because “Citigroup was not required to
make disclosures predicting such litigation”; plaintiffs
did not allege that litigation “was substantially certain
to occur”; and the SEC filings at issue contained some
“discuss[ion of] pending litigation.” 330 F.Supp.2d at
377. Similarly, here, Plaintiffs do not allege that
litigation was substantially certain to occur, and
concede that Defendants provided some notice about
ongoing governmental investigations in their SEC
disclosures. Indeed, Plaintiffs cannot claim that a
Wells Notice indicated that litigation was
“substantially certain to occur” because Jonathan
Egol, a Goldman employee, received a Wells Notice
regarding the Abacus transaction and ultimately was
not sued by the SEC. While Goldman and Tourre were
sued, the Defendants were not obligated to predict
and/or disclose their predictions regarding the
likelihood of suit. See Ballan, 720 F.Supp. at 248.
Moreover, revealing one fact about a subject does
not trigger a duty to reveal all facts on the subject, so
long as “what was revealed would not be so incomplete
as to mislead.” In re Bristol Myers, 586 F.Supp.2d at
160 (quoting Backman v. Polaroid Corp., 910 F.2d 10,
16 (1st Cir. 1990)). Plaintiffs have not shown that
Defendants were required to disclose their receipt of
Wells Notice to prevent their prior disclosures from

317
being inaccurate or incomplete, as their receipt of
Wells Notices indicated that the governmental
investigations were indeed ongoing. While Plaintiffs
claim to want to know about the Wells Notices, “a
corporation is not required to disclose a fact merely
because a reasonable investor would very much like to
know that fact.” In re Time Warner Sec. Litig, 9 F.3d
259, 267 (2d Cir. 1993). At best, a Wells Notice
indicates not litigation but only the desire of the
Enforcement staff to move forward, which it has no
power to effectuate. This contingency need not be
disclosed.
Plaintiffs also argue that Defendants’ statements in
response to a December 24, 2009 New York Times
Article (the “Article”) triggered a duty to disclose the
Wells Notices. The Article, which mentioned other
investment companies but focused on Goldman, stated
that the SEC, Congress, and FINRA are scrutinizing
“[h]ow these disastrously performing [synthetic CDO]
securities were devised.” (Walker Decl. Ex. O at 1.)4 In
response, Goldman released a one-page press release
addressing answers to questions the Times had asked
prior to publication, but which had not been included
in the Article. Goldman explained how synthetic CDOs
worked and why they were created. (Compl. ¶ 124.)
Goldman’s response did not address or mention the
existence of governmental investigations. Accordingly,
Goldman’s press release contained nothing concerning
the investigations that could be considered inaccurate
or incomplete.

4

Since Plaintiffs obviously relied on this Article in drafting
their Complaint, the Court can consider it here. Roth v. Jennings,
489 F.3d 499, 509 (2d Cir. 2007).

318
In sum, Plaintiffs have not shown that Defendants’
nondisclosure of their receipt of Wells Notices made
their prior disclosures about ongoing governmental
investigations materially misleading; or that Defendants breached their duty to be accurate and complete
in making their disclosures.
C. A Regulatory Duty To Disclose
Plaintiffs also argue that Defendants had an
affirmative legal obligation to disclose their receipt of
Wells Notices under Regulation S-K, Item 103, FINRA
and NASD Rules. There is nothing in Regulation S-K,
Item 103 which mandates disclosure of Wells Notices.
Item 103 does not explicitly require disclosure of a
Wells Notices, and no court has ever held that this
regulation creates an implicit duty to disclose receipt
of a Wells Notice. When the regulatory investigation
matures to the point where litigation is apparent and
substantially certain to occur, then 10(b) disclosure is
mandated, as discussed above. Until then, disclosure
is not required. Moreover, even if Goldman had such a
duty here, “[i]t is far from certain that the requirement
that there be a duty to disclose under Rule 10b–5 may
be satisfied by importing the disclosure duties from
[an] S–K [regulation].” In re Canandaigua Sec. Litig.,
944 F.Supp. 1202, 1210 (S.D.N.Y. 1996) (addressing SK regulation 303).
With respect to FINRA Rule 2010 and NASD
Conduct Rule 3010, there is no dispute that Goldman
was bound by and violated these regulations by failing
to disclose Tourre and Egol’s receipt of Wells Notices
within 30 days. (Compl. ¶¶ 100-103.) Courts, however,
have cautioned against allowing securities fraud
claims to be predicated solely on violations of NASD

319
rules5 because such “rules do not confer private rights
of action.” Weinraub v. Glen Rauch Sec., Inc., 399
F.Supp.2d 454, 462 (S.D.N.Y. 2005); Tucker v. Janney
Montgomery Scott, Inc., No. 96 Civ. 1923(LLS), 1997
WL 151509, at *3 (S.D.N.Y. Apr. 1, 1997); see also
GMS Grp., LLC v. Benderson, 326 F.3d 75, 81-82 (2d
Cir. 2003) (“arguably there is no right of action simply
for a violation of NASD rules.”).6
Plaintiffs have not shown that Goldman had a
regulatory duty, upon which a Section 10(b) or Rule
10b-5 claim can be based, to disclose its receipt of
Wells Notices. Accordingly, Plaintiffs’ claim premised
on Defendants’ failure to disclose receipt of Wells
Notices fails.
D. Scienter
While there was no duty to disclose, even if there
was such a duty, Plaintiffs’ claim would still fail
because Plaintiffs have not adequately alleged
scienter.
“The requisite state of mind, or scienter, in an action
under section 10(b) and Rule 10b-5 is ‘an intent to
deceive, manipulate or defraud.’” In re GeoPharma,
Inc. Sec. Litig., 411 F.Supp.2d 434, 441 (S.D.N.Y.
2006) (quoting Ganino v. Citizens Utils. Corp., 228
F.3d 154, 168 (2d Cir.2000)). Moreover, to satisfy Rule
9(b), a plaintiff must allege “facts that give rise to a
strong inference of fraudulent intent.” Shields v.
5

This is applicable to FINRA rules, since FINRA is NASD’s
successor.
6

A violation of Item 103 or NASD rules may nonetheless be
relevant to a 10(b) and 10b-5 analysis. See GMS Grp., 326 F.3d
75, 82 (NASD “violations may be considered relevant for purposes
of § 10(b) unsuitability claims”); Clark v. John Lamula Investors,
Inc., 583 F.2d 594, 601 (2d Cir. 1978).

320
Citytrust Bancorp, Inc., 25 F.3d 1124, 1128 (2d Cir.
1994). A plaintiff claiming fraud can plead scienter
“either (a) by alleging facts to show that defendants
had both motive and opportunity to commit fraud,
or (b) by alleging facts that constitute strong
circumstantial evidence of conscious misbehavior or
recklessness.” Lerner v. Fleet Bank, N.A., 459 F.3d
273, 290-91 (2d Cir. 2006).
While Plaintiffs failed to raise a strong inference of
motive and opportunity,7 “they could raise a strong
inference of scienter under the ‘strong circumstantial
evidence [of conscious misbehavior or recklessness]’
prong, ‘though the strength of the circumstantial
allegations must be correspondingly greater’ if there is
no motive.” ECA, Local 134 IBEW Joint Pension Trust
of Chicago v. JP Morgan Chase Co., 553 F.3d 187, 19899 (2d Cir. 2009) (quoting Kalnit v. Eichler, 264 F.3d
131, 143-44 (2d Cir. 2001). Recklessness sufficient to
establish scienter involves conduct that is “highly
unreasonable and . . . represents an extreme departure
7

Plaintiffs argue (in a footnote) that Defendants “had a motive
to maintain [Goldman’s] appearance of financial health . . . .” (Pl.
Opp. 20-21 n.17 (quoting RMED Intern., Inc. v. Sloan's
Supermarkets, Inc., 878 F.Supp. 16, 19 (S.D.N.Y. 1995).) In
RMED Intern., the court found that Defendants had a motive to
hide the existence of an FTC investigation in order to “maintain
[Defendant’s] appearance of financial health to both its existing
shareholders and its potential investors.” Id. This argument is
made in Plaintiffs’ opposition brief, but their Complaint does not
allege that Defendants omitted any mention of Wells Notices in
order to maintain the appearance of financial health. Even if
Plaintiffs had made such an allegation, the Second Circuit has
since held: “Motives that are common to most corporate officers,
such as the desire for the corporation to appear profitable and the
desire to keep stock prices high . . . do not constitute ‘motive’ for
purposes of this inquiry.” ECA, 553 F.3d at 198.

321
from the standards of ordinary care.” Chill v. Gen.
Elec. Co., 101 F.3d 263, 269 (2d Cir.1996) (quoting Rolf
v. Blyth, Eastman Dillon & Co., 570 F.2d 38, 47 (2d
Cir.1978)). A strong inference of scienter may arise
where a plaintiff alleges, inter alia, defendants “‘knew
facts or had access to information suggesting that
their public statements were not accurate’; or [ ] ‘failed
to check information they had a duty to monitor.’”
Novak v. Kasaks, 216 F.3d 300, 311 (2d Cir. 2000).
Plaintiffs argue that Defendants knew of the Wells
Notices and admitted that their failure to disclose
Tourre and Egol’s receipt of Wells Notices violated
FINRA and NASD rules. As previously indicated,
Defendants’ failure to disclose receipt of Wells Notices
did not make their prior and ongoing disclosures
inaccurate. Thus, Defendants “failure to disclose [their
receipt of Wells Notices], by itself, can only constitute
recklessness if there was an obvious duty to disclose
that information.” In re GeoPharma, 411 F.Supp.2d at
446 (citing Kalnit, 264 F.3d at 143-44)). The
requirement that the duty be “obvious” ensures that
fraudulent intent will not be imputed to a company
every time a public statement lacks detail. See Bragger
v. Trinity Capital Enter. Corp., No. 92 Civ. 2124
(LMM), 1994 WL 75239, at *4 (S.D.N.Y. Mar. 7, 1994).
Plaintiffs failed to show that Defendants had an
obvious duty to disclose their receipt of Wells Notices.
Regulation S-K, Item 103 and FINRA and NASD
Rules do not create an obvious duty to disclose,
sufficient for Section10(b) and Rule 10b-5 purposes; no
court has ever held otherwise. Since “the duty to
disclose . . . was not so clear,” Defendants’
“recklessness cannot be inferred from the failure to
disclose.” Kalnit, 264 F.3d at 143 (holding that since
“this case does not present facts indicating a clear duty

322
to disclose, plaintiff’s scienter allegations do not
provide strong evidence of conscious misbehavior or
recklessness.”); see also In re GeoPharma, 411
F.Supp.2d at 446-47 (holding that defendants had no
“obvious duty to disclose [the contents of an] FDA
letter” given “what defendants did disclose” in their
press release).
In sum, Plaintiffs failed to satisfy both the duty and
scienter requirements to state a Section 10(b) and
Rule 10b-5 claim. Accordingly, Defendants’ motion to
dismiss Plaintiffs’ claims premised on Defendants’
failure to disclose their receipt of Wells Notices is
GRANTED.
II. Goldman’s Alleged Conflicts of Interest
Plaintiffs claim that Goldman made material
misstatements and omissions concerning Goldman’s
business practices and conflicts of interest, which are
actionable in light of Goldman’s misstatements and
fraudulent conduct in the Abacus, Hudson, Anderson,
and Timberwolf I CDO transactions. Plaintiffs are
Goldman’s own shareholders—not investors in the
Abacus, Hudson, Anderson, and Timberwolf I CDO
transactions. Accordingly, to state a claim, Plaintiffs
have to show that Goldman made material
misstatements and omissions with the intent to
defraud its own shareholders. See In re Sadia, S.A.
Sec. Litig., 643 F.Supp.2d 521, 532 (S.D.N.Y. 2009)
(distinguishing acts that deceive a company’s own
shareholders, which can give rise to shareholders’
securities fraud claims, from those that deceive
investors in the securities of other companies, which
are not actionable when raised by the company’s own
shareholders).

323
A. Actionable Misstatements and Omissions
Plaintiffs claim that Goldman’s conduct in the
Abacus, Hudson, Anderson, and Timberwolf I CDO
transactions made the following disclosures
materially misleading:


“[W]e increasingly have to address
potential conflicts of interest, including
situations where our services to a
particular client or our own proprietary
investments or other interests conflict, or
are perceived to conflict, with the interest
of another client . . . .” (Compl. ¶ 134 (Form
10-K));



“We have extensive procedures and
controls that are designed to . . . address
conflicts of interest” (Compl. ¶¶ 134, 154
(Form 10-K));



“Our clients’ interests always come first.
Our experience shows that if we serve our
clients well, our own success will follow.”
(Compl. ¶ 154 (Goldman Annual Report));



“We are dedicated to complying fully with
the letter and spirit of the laws, rules and
ethical principles that govern us. Our
continued
success
depends
upon
unswerving adherence to this standard.”
(Compl. ¶ 154 (Goldman Annual Report));



“Integrity and honesty are at the heart of
our business” (Compl. ¶ 289 (Goldman
Annual Report));



“Most importantly, and the basic reason
for our success, is our extraordinary focus
on our clients” (Compl. ¶ 154 (Viniar’s

324
Statements on Goldman’s
Conference Call));


Investor

“Our reputation is one of our most
important assets” (Compl. ¶ 154 (Form 10K)).

Defendants argue that these statements are nonactionable statements of opinion, puffery, or mere
allegations of corporate mismanagement (Def. Br. 2021); and that Goldman’s conflict of interest disclosures
foreclose liability (Def. Reply Br. 8-10).8
“Expressions of puffery and corporate optimism do
not give rise to securities violations.” Rombach v.
Chang, 355 F.3d 164, 174 (2d Cir. 2004) (citation
omitted). “Likewise, allegations of corporate mismanagement without an element of deception or
manipulation are not actionable.” Lapin v. Goldman
Sachs Grp., Inc., 506 F.Supp.2d 221, 239 (S.D.N.Y.
2006) (citing In re Citigroup, Inc. Sec. Litig., 330 F.
Supp.2d 36, 375-76 (S.D.N.Y. 2004)). “The important
limitation on these principles is that optimistic
statements may be actionable upon a showing that the
defendants did not genuinely or reasonably believe the
positive opinions they touted (i.e., the opinion was
without a basis in fact or the speakers were aware of
facts undermining the positive statements), or that
the opinions imply certainty.” Id. (citing cases).
Moreover, by putting the “topic of the cause of its
financial success at issue, [a company] then [ ] is
8

Goldman’s arguments in this respect are Orwellian. Words
such as “honesty,” “integrity,” and “fair dealing” apparently do
not mean what they say; they do not set standards; they are mere
shibboleths. If Goldman’s claim of “honesty” and “integrity” are
simply puffery, the world of finance may be in more trouble than
we recognize.

325
‘obligated to disclose information concerning the
source of its success, since reasonable investors would
find that such information would significantly alter
the mix of available information.” In re Van der
Moolen Holding N.V. Sec. Litig., 405 F.Supp.2d 388,
400-01 (S.D.N.Y. 2005) (quoting In re Providian Fin.
Corp. Sec. Litig., 152 F.Supp.2d 814, 824-25 (E.D.Pa.
2001).
Additionally, disclaimers do not always shield a
defendant from liability. For example, “[c]autionary
words about future risk cannot insulate from liability
the failure to disclose that the risk has transpired.”
Rombach, 355 F.3d at 173. Indeed, “under certain
circumstances, cautionary statements can give rise to
Section 10(b) liability.” In re Van der Moolen, 405
F.Supp.2d at 400. “[T]he disclosure required by the
securities laws is measured not by literal truth, but by
the ability of the material to accurately inform rather
than mislead prospective buyers.” McMahan v.
Wherehouse Entm’t, Inc., 900 F.2d 576, 579 (2d Cir.
1990).
With respect to the Abacus transaction, Plaintiffs
argue that Goldman’s conduct “involved both client
conflicts and outright fraud.” (Pl. Opp. 15). Plaintiffs
allege that Goldman knowingly allowed Paulson to
select the assets for the Abacus CDO, and knew that
Paulson was selecting assets that it believed would
perform poorly or fail. (See, e.g., Compl. ¶¶ 59-66.) To
compound this absence of transparency, Goldman hid
Paulson’s role, and disclosed only ACA’s role in the
asset selection process, in order to “leverage ACA’s
credibility and franchise to help distribute this
Transaction.” (Id.) Plaintiffs have thus plausibly
alleged that Goldman made a material omission
regarding Paulson’s role in the asset selection process

326
when it spoke about this topic. See Caiola v. Citibank,
N.A., 295 F.3d 312, 331 (2d Cir. 2002) (holding that
corporations have a “duty to be both accurate and
complete” in their disclosures). Investors on the long
side of this offering, the ratings agencies, and ACA
were kept in the dark.
Goldman’s assertion that it “neither admitted, nor
denied” that its Abacus disclosures were fraudulent is
eviscerated by its concession that “it was a mistake for
the Goldman marketing materials to state that the
reference portfolio was ‘selected by’ ACA Management
LLC without disclosing the role of Paulson & Co. Inc.
in the portfolio selection process and that Paulson’s
economic interests were adverse to CDO investors.”
(Id. ¶ 144.) Goldman paid a $550 Million settlement to
the SEC—the largest SEC penalty in history—because
of the “mistake” it acknowledged. (Id.) In the SEC
action, District Court Judge Barbara S. Jones found
Tourre’s conduct fraudulent because: “having
allegedly affirmatively represented Paulson had a
particular investment interest in ABACUS—that it
was long—in order to be both accurate and complete,
Goldman and Tourre had a duty to disclose Paulson
had a different investment interest—that it was short
. . . [because it was] a fact that, if disclosed, would
significantly alter the ‘total mix’ of available
information.” S.E.C. v. Goldman Sachs & Co., 790
F.Supp.2d 147, 162-63 (S.D.N.Y. 2011) (internal
citations and quotations omitted).
In the Hudson, Anderson, and Timberwolf I CDO
transactions Goldman affirmatively represented that
it held a long position in the equity tranches, without
disclosing its substantial short positions. Specifically,
in the Hudson transaction, Goldman stated that it had
“aligned incentives” with investors by “investing in a

327
portion of equity,” which amounted to $6 Million,
without disclosing that it also held 100% of the short
position at the same time, which amounted to $2
Billion. (Compl. ¶¶ 148, 164, 165, 171, 174, 177.)9
Goldman’s talking points in the Anderson transaction
touted that Goldman would hold up to 50% of the
equity tranche, which would be worth up to $21
Million, without mentioning its $135 Million short
position. (Id. ¶¶ 204-207). Goldman’s marketing
booklet for the Timberwolf I transaction stated that
Goldman was purchasing 50% of the equity tranche,
without disclosing that it was the largest source of
assets and held a 36% short position in the CDO. (Id.
¶¶ 214, 216.) Thus, as with the Abacus transaction,
Plaintiffs have plausibly alleged that Goldman made
material omissions in the Hudson, Anderson, and
Timberwolf I transactions because “having allegedly
affirmatively represented [Goldman] had a particular
investment interest in [these synthetic CDOs]—that it
was long—in order to be both accurate and complete,
Goldman . . . had a duty to disclose [it] had a [greater]
investment interest [from its] short [position]. . . .
9

Goldman’s statements in the Hudson transaction were made
before the beginning of the class period. (Compl. ¶¶ 148, 164, 165,
171, 174, 177.) While a defendant can be found “liable only for
those statements made during the class period,” In re IBM Sec.
Litig., 163 F.3d 102, 107 (2d Cir. 1998), a prior misstatement does
not require dismissal, if the prior statement is “relevant in
determining whether defendants had a duty to make a corrective
disclosure during the Class Period.” In Re Quintel Entm’t Sec.
Litig., 72 F. Supp. 2d 283, 290-291 (S.D.N.Y. 1999). Here, it was
Goldman’s subsequent statements regarding its business
practices and conflicts of interest, which were made during the
relevant time period, that are alleged to be material
misstatements when viewed in light of Goldman’s previous
conduct in the Hudson transaction. Accordingly, the Court need
not dismiss such conduct.

328
[because that was] a fact that, if disclosed, would
significantly alter the ‘total mix’ of available
information.” S.E.C. v. Goldman Sachs & Co., 790
F.Supp.2d at 162-163.
Plaintiffs plausibly allege that Goldman’s material
omissions in the Abacus, Hudson, Anderson, and
Timberwolf I transactions: (1) made its disclosures, to
its own shareholders, concerning its business practices
materially misleading; and (2) conflicted with its
shareholders’ interests, because fraudulent conduct
hurts a company’s share price, and concealing such
conduct caused Goldman’s stock to trade at artificially
high prices, as discussed below. Given Goldman’s
fraudulent acts, it could not have genuinely believed
that its statements about complying with the letter
and spirit of the law—and that its continued success
depends upon it, valuing its reputation, and its ability
to address “potential” conflict of interests were
accurate and complete. See Lapin, 506 F.Supp.2d at
240 (upholding securities law claims where the
complaint “alleges that Goldman knew about the
pervasive conflicts and the effect they had on its
research reports and buy recommendations, allegedly
one of its core competencies, yet, they allegedly failed
to disclose such material information to its
investors.”); see also In re Sadia, S.A. Sec. Litig., 643
F.Supp.2d at 532 (upholding securities law claims
where plaintiffs alleged that defendants materially
misstated in their Sarbanes-Oxley certifications that
there was not “any fraud” at the company, while
“knowingly conceal[ing] that the Company had
entered into substantial high-risk currency hedging
contracts in violation of its internal hedging policy.”)
Goldman must not be allowed to pass off its repeated
assertions that it complies with the letter and spirit of

329
the law, values its reputation, and is able to address
“potential” conflicts of interest as mere puffery or
statements of opinion. Assuming the truth of
Plaintiffs’ allegations, they involve “misrepresentations of existing facts.” Freudenberg v. E*Trade
Financial Corp., 712 F.Supp.2d 171, 190 (S.D.N.Y.
2010) (finding “statements touting risk management
[that] were . . . juxtaposed against detailed factual
descriptions of the Company’s woefully inadequate or
non-existent credit risk procedures” were actionable
misstatements) (quoting Novak, 216 F.3d at 315).
Moreover,
Goldman’s
allegedly
manipulative,
deceitful, and fraudulent conduct in hiding Paulson’s
role and investment position in Abacus transaction,
and in hiding its own investment position in Hudson,
Anderson, and Timberwolf I transactions takes
Plaintiffs’ claim beyond that of mere mismanagement.
See Lapin, 506 F.Supp.2d at 240 (“Goldman also
misconstrues Plaintiff’s allegations as merely stating
it mismanaged its research business by allowing
conflicts to proliferate[,] . . . . [when the complaint]
actually alleges that Goldman knew about the
pervasive conflicts and the effect they had on its
research reports and buy recommendations, allegedly
one of its core competencies, yet, they allegedly failed
to disclose such material information to its
investors.”); see also Freudenberg, 712 F.Supp.2d at
193 (“Because Plaintiffs allege that Defendants
intentionally misled the public, rather than simply
making bad business decisions, Plaintiffs have pled
more than mere mismanagement.”).
Defendants also argue that the above statements
were not material. A complaint, however, “may not
properly be dismissed . . . on the ground that the
alleged misstatements or omissions are not material

330
unless they are so obviously unimportant to a
reasonable investor that reasonable minds could not
differ on the question of their importance.” ECA, 553
F.3d at 197 (quoting Ganino, 228 F.3d at 162).
Plaintiffs have sufficiently alleged that Goldman’s
misstatements in the Abacus, Hudson, Anderson, and
Timberwolf I transactions were material. See S.E.C. v.
Goldman Sachs, 790 F.Supp.2d at 162-63 (finding that
Paulson’s role was “a fact that, if disclosed, would
significantly alter the ‘total mix’ of available
information.”). Accepting Plaintiffs allegations as true
at this juncture, as the Court must, the Court cannot
say that Goldman’s statements that it complies with
the letter and spirit of the law and that its success
depends on such compliance, its ability to address
“potential” conflict of interests, and valuing its
reputation, would be so obviously unimportant to a
reasonable investor. See generally, Lapin, 506
F.Supp.2d at 240-41 (“[I]t defies logic to suggest that,
for example, an investor would not reasonably rely on
a statement, contained in . . . a list of Goldman’s
business principles, that recognized Goldman’s
dedication to complying with the letter and spirit of
the laws and that Goldman’s success depended on such
adherence.”); In re Citigroup Inc. Sec. Litig., 753
F.Supp.2d 206, 236 (S.D.N.Y. 2010).
Accordingly, Plaintiffs have sufficiently alleged that
Goldman made material misstatements about its
business practices and conflicts of interest, viewed in
light of its role and conduct in the Abacus, Hudson,
Anderson and Timberwolf I transactions.

331
B. Scienter
A strong inference of scienter can arise where
defendants “knew facts or had access to information
suggesting that their public statements were not
accurate.” Novak, 216 F.3d at 311.
With respect to Abacus, Goldman certainly knew
that Paulson played an active role in the asset
selection process. How else could Goldman admit that
it was a “mistake” not to have disclosed such
information. Goldman knew that Paulson’s interests
were adverse to investors as “Paulson had agreed to
pay Goldman a higher fee if Goldman could provide
Paulson with CDS contracts containing premium
payments below a certain level.” (Id. ¶ 77.) Goldman
approached and enlisted ACA without disclosing
Paulson’s intended role as the sole short party. (Id. ¶
61.) Goldman “expressed hope that ACA’s involvement
would improve sales” and “expect[ed] to leverage
ACA’s credibility and franchise to help distribute this
transaction.” (Id.) Rather than disclose Paulson’s role
or adverse interests, however, Goldman concealed its
actions and put forward ACA as the sole asset selector.
(Id. ¶ 66.) Plaintiffs have thus plausibly created a
strong inference of scienter with respect to Goldman’s
knowledge of its material misstatements and
omissions in the Abacus transaction. See S.E.C. v.
Goldman Sachs & Co., 790 F.Supp.2d at 163.
With respect to the Hudson, Anderson, and
Timberwolf I CDOs, Plaintiffs have plausibly alleged
that Goldman knew that its statements about holding
long positions and having aligned interest with
investors were inaccurate due to its substantial short
positions. Indeed, Plaintiffs have referenced a number
of internal Goldman communications showing that
Goldman believed that the “[s]ubprime environment”

332
was “bad and getting worse,” and wanted to make a
“structured exit” by “trying to close everything down,
but stay on the short side.”10 (Compl. ¶¶ 195, 202.)
Goldman concealed its efforts to shut “everything
down” and “stay on the short side” in the Hudson,
Anderson, and Timberwolf I CDOs by claiming to have
aligned interest with investors and disclosing only its
long position.
Meanwhile, Goldman repeatedly reassured its own
shareholders that it was complying with the letter and
spirit of the law and that its “continued success
depends upon unswerving adherence to this
standard”; and that it had procedures in place to
address “potential conflicts of interest.” (Compl.
¶¶ 134, 154). Given Goldman’s practice of making
material misrepresentations to third party investors
regarding its short position, or Paulson’s short
position, Goldman knew or should have known that its
statements about complying with the letter and spirit
of the law, and its disclaimers regarding “potential”
conflicts of interest were inaccurate and incomplete.
See Lapin, 506 F.Supp.2d at 241-42; In re Citigroup
Inc. Sec. Litig., 753 F.Supp.2d 206, 238 (S.D.N.Y.
2010) (finding Plaintiffs adequately alleged scienter by
10

“When the defendant is a corporate entity, the law imputes
the state of mind of the employees or agents who made the
statement(s) to the corporation.” In re Vivendi Universal, S.A.
Sec. Litig., 765 F. Supp. 2d 512, 543 (S.D.N.Y. 2011) (citing
Teamsters Local 445 Freight Div. Pension Fund v. Dynex Capital
Inc., 531 F.3d 190, 195 (2d Cir. 2008) (“To prove liability against
a corporation, of course, a plaintiff must prove that an agent of
the corporation committed a culpable act with the requisite
scienter, and that the act (and accompanying mental state) are
attributable to the corporation.”)). Accordingly, the scienter
reflected in Goldman’s Mortgage Department Head’s statements
can be attributed to Goldman.

333
showing that “Citigroup was taking significant steps
internally to address increasing risk in its CDO
portfolio but at the same time it was continuing to
mislead investors about the significant risk those
assets posed.”). Accepting Plaintiffs allegations as
true, there is a strong inference of scienter with
respect to Goldman’s conduct in the Hudson, Anderson
and Timberwolf I transactions.
C. Loss Causation
Allegations of loss causation are not subject to the
heightened pleading requirements of Rule 9(b) and the
PSLRA. Rather, a “short and plain statement”—the
standard of Rule 8(a)—”is all that is necessary at this
stage of the litigation.” CompuDyne Corp. v. Shane,
453 F.Supp.2d 807, 828 (S.D.N.Y. 2006).
To survive a motion to dismiss, a plaintiff need only
allege either: “(i) facts sufficient to support an
inference that it was a defendant’s fraud — rather
than other salient factors—that proximately caused
plaintiff’s loss,” Lentell v. Merrill Lynch & Co., Inc, 396
F.3d 161, 177 (2d Cir. 2005), or (ii) “facts that would
allow a factfinder to ascribe some rough proportion of
the whole loss to . . . [the defendant’s fraud].” Lattanzio
v. Deloitte & Touche LLP, 476 F.3d 147, 158 (2d Cir.
2007). “[L]oss causation has to do with the relationship
between the plaintiff’s investment loss and the
information misstated or concealed by the defendant.
If that relationship is sufficiently direct, loss causation
is established, but if the connection is attenuated, or if
the plaintiff fails to demonstrate a causal connection
between the content of the alleged misstatements or
omissions and the harm actually suffered, a fraud
claim will not lie.” Lentell, 396 F.3d at 174 (quotations
and citations omitted).

334
A decline in stock price following a public
announcement of “bad news” does not, by itself,
demonstrate loss causation. See Leykin v. AT & T
Corp., 423 F.Supp.2d 229, 245 (S.D.N.Y. 2006). A
plaintiff may, however, “successfully allege loss
causation by . . . alleging that the market reacted
negatively to a ‘corrective disclosure,’ which revealed
an alleged misstatement’s falsity or disclosed that
allegedly material information had been omitted.” In
re Merrill Lynch & Co. Research Reports & Sec. Litig.,
No. 02 Civ. 9690(JFK), 2008 WL 2324111, at *5
(S.D.N.Y. June 4, 2008). “[A] corrective disclosure need
not take the form of a single announcement, but
rather, can occur through a series of disclosing
events.” In re Bristol Myers Squibb Co. Sec. Litig., 586
F.Supp.2d 148, 165 (S.D.N.Y. 2008) (citing cases).
Plaintiffs claim to have purchased Goldman stock at
inflated values because they purchased stock before
Goldman’s practice of making material misstatements
and omissions came to light. (Compl. ¶ 329.) They
claim that Goldman’s misstatements and conflicts of
interest came to light on: (1) April 16, 2010, when the
SEC filed fraud charges related to the Abacus
transaction, which caused Goldman’s stock to drop
from $184.27 per share to $160.70 per share (a 13%
drop); (2) April 25-26, 2010, when the Senate released
Goldman’s internal emails reflecting its practice of
betting against the securities it sold to investors,
which caused a stock drop from $157.40 per share to
$152.03 per share (a 3% drop); and (3) June 10, 2010,
when the SEC announced it was investigating the
Hudson CDO transaction, which caused a stock drop
from $136.80 per share to $133.77 per share (a 2%
drop). (Compl. ¶¶ 329-35.)

335
While Defendants argue that the lawsuits and
investigations themselves cause the stock decline,
these suits and investigations can more appropriately
be seen as a series of “corrective disclosures,” because
they revealed Goldman’s material misstatements—
and indeed pattern of making misstatements—and its
conflicts of interest. See In re Bristol Myers, 586
F.Supp.2d at 164 (finding that a “disclosure of the
Justice Department investigation” was “more akin to
a corrective disclosure” because it revealed that
Defendants had not complied with their obligation to
present accurate information to regulators which
resulted in the investigation). Plaintiffs’ allegations
are thus sufficient at this juncture to show that
Goldman’s misstatements and omissions caused, or at
least contributed to, Plaintiffs’ losses. See id. at 16466; see also Emergent Capital Inv. Mgmt., LLC v.
Stonepath Grp., Inc., 343 F.3d 189, 197 (2d Cir. 2003)
(viewing the facts most favorably to plaintiff and
finding allegations that defendants artificially inflated
the stock before “dumping” their own was adequate to
allege loss causation).
III. Individual Defendants
For the Individual Defendants “to be liable for
securities fraud, these defendants must also be
responsible for [Goldman’s] misleading statements
and omissions.” In re Citigroup Inc. Sec. Litig., 753
F.Supp.2d 206, 239 (S.D.N.Y. 2010). Each of the
Individual Defendants is alleged to have helped
prepare the SEC filings at issue. (Compl. ¶ 38-40, 154.)
To show scienter, Plaintiffs allege that each of the
Individual Defendants had knowledge of Goldman’s
synthetic CDO operations. Specifically, Plaintiffs
allege that in February 2007—before the Abacus,
Anderson, and Timberwolf I CDOs closed, Blankfein

336
reviewed the Mortgage Department’s efforts to reduce
its subprime RMBS positions and asked about: “losses
stemming from residual positions in old deals.
Could/should we have cleaned up these books before
and are we doing enough right now to sell off cats and
dogs in other books throughout the division.” (Compl.
¶ 194.) Viniar and Cohn were the recipients of the
email from Goldman’s Mortgage Department Head
stating that Goldman was trying to make a
“structured exit” from the subprime market by “trying
to close everything down, but stay on the short side.”
(Compl. ¶ 202.) Cohn and Viniar were alerted to
Hudson’s sales efforts, and how the CDO assets were
valued. (Compl. ¶ 181.) Viniar was also alerted to how
the CDOs were valued in general, Goldman’s sales
efforts with respect to CDOs, and even chaired
multiple meetings on the CDO transactions at issue.
(Compl. ¶¶ 181, 233.) “Although plaintiffs do not
allege with specificity the matters discussed at these
meetings, their mere existence is indicative of
scienter: That defendants engaged in meetings
concerning [Goldman’s] CDO risks is inconsistent with
the company’s public statements” that they held
equity positions and had interests that were aligned
with the purchasers of the synthetic CDOs. In re
Citigroup, 753 F.Supp.2d at 238-239 (S.D.N.Y. 2010).
These allegations, taken as true, show that each
Individual Defendant actively monitored the status of
Goldman’s subprime assets and subprime deals
during the relevant time, and that each knew that
Goldman was trying to purge these assets from its
books and stay on the short side. These allegations
create a strong inference that the Individual
Defendants knew that Goldman was making material
misstatements in the Abacus, Hudson, Anderson, and

337
Timberwolf I CDOs, when it sold poor quality assets to
investors without disclosing its or Paulson’s
substantial short positions. Given such knowledge, the
Individual Defendants were in a position to know that
Goldman’s statements about complying with the letter
and spirit of the law, valuing its reputation, and
disclaimers regarding “potential” conflicts of interest
were inaccurate and incomplete.
IV. Section 20 Claims
To maintain a claim for control person liability
pursuant to Section 20(a), a plaintiff must “allege facts
showing (1) ‘a primary violation by the controlled
person,’ (2) ‘control of the primary violator by the
targeted defendant,’ and (3) that the ‘controlling
person was in some meaningful sense a culpable
participant in the fraud perpetrated.’” In re Citigroup,
753 F.Supp.2d at 248 (quoting In re Beacon Assocs.
Litig., 745 F.Supp.2d at 411, 2010 WL 3895582, at
*17).
The Individual Defendants do not contest their
control person status; rather they argue that Plaintiffs
have not alleged a primary violation by a controlled
person. For the reasons above, however, Plaintiffs
have plausibly alleged § 10(b) and 10b-5 claims
against Goldman. Moreover, for the reasons above,
Plaintiffs
have
adequately
alleged
culpable
participation with respect to the Individual
Defendants, because “[a]llegations sufficient to plead
scienter for the purposes of primary liability pursuant
to Section 10(b) ‘necessarily satisfy’ the culpable
participation pleading requirement for Section 20(a)
claims.” Id. Accordingly, Defendants’ motion to
dismiss Count Two is denied.

338
CONCLUSION
In conclusion, Defendants’ motion to dismiss is
GRANTED with respect to Plaintiffs’ claim relating to
Defendants’ failure to disclose their receipt of Wells
Notices, and DENIED in all other respects. The Clerk
of Court is directed to terminate this motion.
Dated: New York, New York
June 21, 2012
SO ORDERED,
/s/ Paul A. Crotty
PAUL A. CROTTY
United States District Judge

339
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
Master File No. 10 Civ. 3461 (PAC)
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
This Document Relates To: ALL ACTIONS
———
MEMORANDUM & ORDER
HONORABLE PAUL A. CROTTY, United States
District Judge:
In this consolidated securities class action, Plaintiffs
allege that Goldman Sachs Group, Inc. (“Goldman”)
and certain of its senior executives (collectively,
“Defendants”) made material misstatements and
misleading omissions relating to four collateralized
debt obligation (“CDO”) transactions in 2006 and
2007. Previously, the Court (1) granted Defendants’
motion to dismiss claims regarding their failure to
disclose Goldman’s receipt of Wells notices from the
Securities and Exchange Commission (“SEC”), but (2)
denied the motion with respect to claims that Goldman
had made misstatements about its conflicts of interest
in those transactions. See Richman v. Goldman Sachs
Grp., Inc., 868 F. Supp. 2d 261 (S.D.N.Y. 2012).
Defendants now move for partial reconsideration of
that decision on the grounds that three intervening
Second Circuit decisions have clarified what kinds
of statements constitute inactionable “puffery.” The
motion is denied.

340
BACKGROUND
A. The Court’s Prior Decision
As explained more fully in the Court’s prior decision,
Plaintiffs allege that Goldman improperly failed to
disclose that it, or a favored client, held short positions
in certain CDO transactions that it sold to other
clients. See id. 269–71. That is, Goldman allegedly had
conflicts of interests with those buyer-clients because
it was selling them the same financial products that it
was effectively betting against and profiting from the
clients’ losses. See id. In three of those transactions,
“Goldman affirmatively represented that it held a long
position in the equity tranches, without disclosing its
substantial short positions.” Id. at 278. In one of those
three, “Goldman stated that it had ‘aligned incentives’
with investors by ‘investing in a portion of equity,’
which amounted to $6 Million, without disclosing that
it also held 100% of the short position at the same
time, which amounted to $2 Billion.” Id. at 278–79.
In light of the foregoing conduct, Plaintiffs claim
that the following statements made by Defendants
during the class period were materially misleading:


“[W]e increasingly have to address
potential conflicts of interest, including
situations where our services to a
particular client or our own proprietary
investments or other interests conflict, or
are perceived to conflict, with the interest
of another client . . . .” (Compl. ¶ 134 (Form
10–K))



“We have extensive procedures and
controls that are designed to . . . address
conflicts of interest.” (Compl. ¶¶ 134, 154
(Form 10–K))

341


“Our clients’ interests always come first.
Our experience shows that if we serve our
clients well, our own success will follow.”
(Compl. ¶ 154 (Goldman Annual Report))



“We are dedicated to complying fully with
the letter and spirit of the laws, rules and
ethical principles that govern us. Our
continued
success
depends
upon
unswerving adherence to this standard.”
(Compl. ¶ 154 (Goldman Annual Report))



“Integrity and honesty are at the heart of
our business.” (Compl. ¶ 289 (Goldman
Annual Report))



“Most importantly, and the basic reason
for our success, is our extraordinary focus
on our clients.” (Compl. ¶ 154 (Viniar’s
Statements on Goldman’s Investor
Conference Call))



“Our reputation is one of our most
important assets.” (Compl. ¶ 154 (Form
10–K))

See 868 F. Supp. 2d at 277.
Both parties previously addressed ECA & Local 134
IBEW Joint Pension Trust of Chi. v. JP Morgan Chase
Co., 553 F.3d 187, 206 (2d Cir. 2009) (“JP Morgan”),
which held that the statements at issue were “no more
than ‘puffery’” because they were “too general to cause
a reasonable investor to rely upon them.” The
defendant’s statements at issue there were that it
“had ‘risk management processes [that] are highly
disciplined and designed to preserve the integrity of
the risk management process,’ that it ‘set the
standard’ for ‘integrity,’ and that it would ‘continue to

342
reposition and strengthen [its] franchises with a focus
on financial discipline.’” Id. at 205–06 (citations
omitted). The plaintiffs argued that those statements
“were misleading because [defendant]’s poor financial
discipline led to liability in the WorldCom litigation
and involvement in the Enron scandal.” Id. at 206. The
Second Circuit rejected the argument, reasoning
that they “were merely generalizations regarding
[defendant]’s business practices” and did not “amount
to a guarantee that its choices would prevent failures
in its risk management practices.” Id.
In this case, the Court rejected Defendants’
argument that JP Morgan required dismissal: “[T]he
Court cannot say that Goldman’s statements that it
complies with the letter and spirit of the law and that
its success depends on such compliance, its ability to
address ‘potential’ conflict of interests, and valuing its
reputation, would be so obviously unimportant to a
reasonable investor.” 868 F. Supp. 2d at 280.
B. Intervening Second Circuit Decisions
Defendants cite three subsequent Second Circuit
decisions which held that certain general statements
about compliance, reputation, and integrity were
inactionable puffery. See City of Pontiac Policemen’s &
Firemen’s Ret. Sys. v. UBS AG, No. 12-4355-CV, 2014
WL 1778041, at *5, 6 (2d Cir. May 6, 2014) (“UBS”);
Carpenters Pension Trust Fund of St. Louis v. Barclays
PLC, No. 13-2678-CV, 2014 U.S. App. LEXIS 7864, at
*22–23 (2d Cir. Apr. 25, 2014) (“Barclays”); Boca
Raton Firefighters & Police Pension Fund v. Bahash,
506 F. App’x 32, 37 (2d Cir. 2012) (summary order)
(“Bahash”). Defendants contend that if applied here,
these cases would result in dismissal of the pending
claims.

343
In UBS, the defendant stated that it “held its
employees to the highest ethical standards and
complied with all applicable laws, and that [its] wealth
management division did not provide services to
clients in the United States when, in fact, [it] was
[allegedly] engaged in [a] cross-border tax scheme.”
2014 WL 1778041, at *4. The Second Circuit affirmed
dismissal of the plaintiffs’ claim that the statements
were misleading:
It is well-established that general statements
about reputation, integrity, and compliance
with ethical norms are inactionable “puffery”
. . . . This is particularly true where, as here,
the statements are explicitly aspirational,
with qualifiers such as “aims to,” “wants to,”
and “should.” Plaintiffs’ claim that these
statements were knowingly and verifiably
false when made does not cure their
generality, which is what prevents them from
rising to the level of materiality required to
form the basis for assessing a potential
investment.
Id. at *5 (citing JP Morgan, 553 F.3d at 206). The court
also affirmed dismissal of a claim that defendant had
falsely stated that it “avoided ‘concentrated positions’
of assets,” though it had accumulated a portfolio of
$100 billion in residential mortgage-backed securities
(“RMBS”) and related CDOs. Id. at *6–7. The court
observed that the plaintiffs’ contention that this
statement was an “important” representation missed
the mark: “[W]hile importance is undoubtedly a
necessary element of materiality, importance and
materiality are not synonymous. To be ‘material’
within the meaning of § 10(b), the alleged
misstatement must be sufficiently specific for an

344
investor to reasonably rely on that statement as a
guarantee of some concrete fact or outcome . . . .” Id. at
*6 (citing, inter alia, JP Morgan, 553 F.3d at 206). The
court further explained that the statements at issue
were “too open-ended and subjective to constitute a
guarantee that UBS would not accumulate a $100
billion RMBS portfolio, comprising 5% of UBS’s overall
portfolio, or 16% of its trading portfolio.” Id. at *7.
In Barclays, the defendant stated that “[m]inimum
control requirements have been established for all key
areas of identified risk,” even though it allegedly
“submit[ted] false information for the purpose of
calculating the London Interbank Offered Rate
(“LIBOR”)” and “had no specific systems or controls for
its LIBOR submissions process.” 2014 U.S. App.
LEXIS 7864, at *3, 9. The Second Circuit affirmed
dismissal on the grounds that the plaintiffs did not
“demonstrate with specificity that Barclays’s
minimum control statements were false or
misleading” as required by the Private Securities
Litigation Reform Act (“PSLRA”), 15 U.S.C. § 78u4(b)(1)(B). Id. at *22–23. The court explained that
“Barclays’s statements do not mention LIBOR, nor do
they say that Barclays had established ‘specific
systems or controls’ relating to LIBOR submission
rates. . . . [,] but only that it had established controls
for other areas of its business.” Id. at *22.
In Bahash, the Second Circuit affirmed dismissal of
claims that defendants “made public statements about
the honesty and integrity of S&P’s credit-ratings
services while knowing that its ratings method was
basically a sham.” 506 F. App’x at 34. The court stated
that these statements “are the type of mere ‘puffery’
that we have previously held to be not actionable” due
to their “generic, indefinite nature.” Id. at 37.

345
DISCUSSION
I. Standard for Motion for Reconsideration
A district court’s discretion to reconsider a prior
decision is “limited” by the doctrine of the law of the
case: “where litigants have once battled for the court’s
decision, they should neither be required, nor without
good reason permitted, to battle for it again.” Official
Comm. of Unsecured Creditors of Color Tile, Inc. v.
Coopers & Lybrand, L.L.P., 322 F.3d 147, 167
(2d Cir. 2003) (internal quotation marks omitted).
Accordingly, decisions should “not usually be changed
unless there is ‘an intervening change of controlling
law, the availability of new evidence, or the need to
correct a clear error or prevent a manifest injustice.’”
Id.
“It is not enough . . . that defendants could now make
a more persuasive argument . . . . The law of the case
will be disregarded only when the court has ‘a clear
conviction of error’ with respect to a point of law on
which its previous decision was predicated.” Fogel v.
Chestnutt, 668 F.2d 100, 109 (2d Cir. 1981) (citation
omitted). “Thus generally, there is a strong
presumption against amendment of prior orders.”
Bergerson v. N.Y. State Office of Mental Health, 652
F.3d 277, 288 (2d Cir. 2011).
II. Analysis
A. Basis for Reconsideration
Contrary to Defendants’ argument, UBS, Barclays,
and Bahash do not constitute an intervening change
in controlling law, but merely elaborate on JP Morgan,
which the Court considered in its June 2012 decision.
Defendants principally rely on UBS, where the
Second Circuit stated that the “puffery” rule it was

346
applying was “well-established” liberally quoted the
portion of JP Morgan that was at issue in the motion
to dismiss. See 2014 WL 1778041, at *5 & nn.43, 44.
Likewise, UBS’s subsequent observations—regarding
the “guarantee” element of materiality and the
distinction between “importance” and materiality—
cited substantially identical statements in JP Morgan.
See id. at *6 & nn.56, 57.
Nor do Barclays or Bahash constitute a sub silentio
change in controlling law. Barclays did not announce
any new rule regarding materiality; rather, it contains
a brief discussion applying the PSLRA’s heightened
pleading standard to the issue of whether particular
statements were false or misleading under the
circumstances. See 2014 U.S. App. LEXIS 7864, at
*22–23 (“Plaintiffs fail, therefore, to demonstrate
with specificity that Barclays’s minimum control
statements were false or misleading.”). Bahash was a
nonprecedential summary order1 concluding that the
statements at issue “regarding [defendant]’s integrity
and credibility and the objectivity of S&P’s credit
ratings are the type of mere ‘puffery’ that we have
previously held to be not actionable.” 506 F. App’x at
37 (emphasis added) (citing JP Morgan, 553 F.3d at
206).
Defendants apparently seek an exception to the
requirement that there be a change in controlling law,
suggesting that a decision that “clarif[ies]” or
“extend[s] and crystallize[s] the scope and meaning”
of a prior decision is sufficient to warrant
reconsideration. (Defs.’ Mem. at 4, 8.) Of course, the
law changes, but reconsideration is not warranted
1

See 2d Cir. Local R. 32.1.1(a) (“Rulings by summary order do
not have precedential effect.”).

347
when an appellate court “merely applie[s] the existing
standard to a new set of facts.” In re Fannie Mae 2008
ERISA Litig., No. 09-CV-1350, 2014 WL 1577769, at
*4 (S.D.N.Y. Apr. 21, 2014). Accordingly, the motion
for reconsideration must be denied.
B. There Was No Error in the Prior Decision
Even if the Court were to grant the motion for
reconsideration, it would adhere to its prior decision.
As Judge Scheindlin noted in distinguishing Barclays
and Bahash from this case, Goldman’s “statements
about business practices were directly related to the
subject of the fraud.” Gusinsky v. Barclays PLC, 944 F.
Supp. 2d 279, 290 n.74 (S.D.N.Y. 2013), aff’d in
relevant part, Barclays, 750 F.3d 227.
The statements at issue in UBS, Barclays, and
Bahash were too open-ended, indefinite, or subjective
to be actionable under the circumstances. For
instance, in UBS, the defendant’s statement that it
strove to comply with applicable laws could not be
interpreted as a guarantee that it would never be out
of compliance, and its statement that it avoided
“concentrated positions of assets” was not a guarantee
that it would avoid investing 5% of its portfolio
in RMBS. Likewise, in Barclays, stating that
“[m]inimum control requirements have been
established for all key areas of identified risk” was too
general to constitute a guarantee that it had specific
control systems for potential manipulations of LIBOR.
Finally, in Bahash, statements about the reputation
and integrity of S&P was not a guarantee against the
specific deficiencies alleged to have afflicted its ratings
process.
In contrast, Goldman’s representations about its
purported controls for avoiding conflicts were directly

348
at odds with its alleged conduct. For instance,
Goldman represented that “[w]e have extensive
procedures and controls that are designed to . . .
address conflicts of interest” and “we increasingly
have to address potential conflicts of interest,
including situations where our services to a particular
client or our own proprietary investments or other
interests conflict, or are perceived to conflict, with the
interest of another client . . . .” (Compl. ¶¶ 134, 154
(Form 10– K).) Meanwhile, Goldman is alleged to have
sold financial products to clients despite clear and
egregious conflicts of interest—indeed, where its
“services to a particular client” (Paulson & Co. in the
Abacus deal) and its “own proprietary investments” (in
short positions in the Hudson, Anderson, and
Timberwolf I deals) “conflict[ed] with the interest
of [the] []other client[s]” investing in those deals.
Particularly in light of Goldman’s statements prior to
the class period regarding its “aligned incentives” with
its clients, the Court cannot say that as a matter of
law no reasonable investor would have relied on the
statements above in making an investment decision.
See 17 C.F.R. § 240.10b-5 (whether omission is
materially misleading is judged “in the light of the
circumstances under which [the statements] were
made”); JP Morgan, 553 F.3d at 197, 206 (statements
not immaterial as a matter of law “unless they are so
obviously unimportant to a reasonable investor that
reasonable minds could not differ on the question of
their importance” or “too general to cause a reasonable
investor to rely upon them”).
The parties have seized upon the Court’s
observations about the financial crisis in a footnote in
the prior decision. See 868 F. Supp. 2d at 277 n.8 (“If
Goldman’s claim of ‘honesty’ and ‘integrity’ are simply

349
puffery, the world of finance may be in more trouble
than we recognize.”). The real issue in the prior
decision was whether Plaintiffs had adequately
alleged that Defendants made a material misstatement or misleading omission. On the basis of
Defendants’ statements regarding conflicts of interest
alone, the Court adheres to its conclusion that
Plaintiffs have pleaded a viable claim.
CONCLUSION
For the foregoing reasons, Defendants’ motion for
partial reconsideration is DENIED.
Dated: New York, New York
June 23, 2014
SO ORDERED
/s/ Paul A. Crotty
PAUL A. CROTTY
United States District Judge

350
[1] **CONFIDENTIAL**
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
Master File
No. 1:10-CV-03461-PAC
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
October 28, 2014
8:01 a.m.
————
Videotaped Deposition of DAVID VINIAR, taken by
Plaintiffs, pursuant to Notice, held at the offices of
Sullivan & Cromwell LLP, 125 Broad Street, New
York, New York, before Todd DeSimone, a Registered
Professional Reporter and Notary Public of the State
of New York.
* * *
[14] Q. How about a failure to control for potential
conflicts of interest [15] between Goldman and its
customers, would that affect Goldman’s reputation?
A.

Yes, it would.

Q. Any examples you can recall of that happening?
A. I can recall more recent examples of people
thinking that we had not handled a conflict
particularly well. There was one with, I’m trying to
remember the deal recently where an investment
banker was representing a company and also owned

351
stock in that company, and it was deemed to be, you
know, a conflict.
Q. How about between Goldman Sachs and its
clients or customers, any examples you recall of a
breach of conflicts of interest policy that harmed
Goldman’s reputation?
A. Well, sure, there was the SEC suit on the
Abacus case.
Q. And so you will agree that the SEC suit harmed
Goldman’s reputation?
A.

Yes.
* * *

352
[1]** CONFIDENTIAL **
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
Master File No. 1:10-cv-03461-PAC
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
PURSUANT TO PROTECTIVE ORDER
Videotaped deposition of
JOHN D. FINNERTY, PH.D.
New York, New York
Thursday, March 19, 2015
————
Reported by: Annette Arlequin, CCR, RPR, CRR, CLR
Job No. 90764
* * *
[142] So when I read that body of information, I can
form a judgment concerning what was disclosed in
April 16th, April 30th, June 10th, and I can then run
the statistical tests to see if the market reacts in a
statistically significant way, but I’m forming my
judgment as an economist before I look at the
statistical test results.
Q. What are these -- what are the objective factors,
if any, that you use to determine whether news is
economically significant?
A. There’s a large body of research that
identify certain kinds of events that the market has
reacted to in a significant way and therefore one can

353
conclude that the market believes that these types of
information are significant.
One type of information is fraud. If a company is
accused of fraud by a regulatory body, that’s bad news
and the market reacts negatively.
* * *
[147] Q. So an allegation alleging the same offense
but one in the form of a criminal complaint versus one
in the form of a civil complaint could engender a
different price reaction?
A.

Yes, it could.

Q. Does this literature discuss the difference
between, say, a regulatory complaint where it’s filed
and settled at the same time versus one where it’s filed
but not settled?
A.

Yes, I think it does.

Q.

And what does it say?

A. I don’t recall, but I believe that’s one of the
issues that is covered, is it -- because you get
resolution. If you announce the settlement and it gets
resolved, that’s [148] different from having the case
filed and having uncertainties as to how it will come
out. So certainly there’s a difference in the timing of
the reactions, and I believe that has been the subject
of research, but I can’t give you any citations off the
top of my head.
Q. But why would there be a difference in impact
of those two events?
A.

The resolution of the uncertainty.

354
Q.

The uncertainty of a case hanging out there?

A.

Yes.
* * *

355
[1]** CONFIDENTIAL **
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
Master File
No. 1:10-CV-03461-PAC
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
May 1, 2015
9:07 a.m.
————
Videotaped Deposition of CHARLES PORTEN,
taken by Plaintiffs, pursuant to Notice, held at the
offices of Labaton Sucharow LLP, 140 Broadway, New
York, New York, before Todd DeSimone, a Registered
Professional Reporter and Notary Public of the State
of New York.
————
[2] APPEARANCES:
LABATON SUCHAROW LLP
140 Broadway
34th Floor
New York, New York 10005
Attorneys for Plaintiffs
BY:

MICHAEL H. ROGERS, ESQ.
mrogers@labaton.com
JEFFREY A. DUBBIN, ESQ.
jdubbin@labaton.com

356
ROBBINS GELLER RUDMAN & DOWD LLP
655 West Broadway
Suite 1900
San Diego, California 92101
Attorneys for Plaintiffs
BY:

BRIAN E. COCHRAN, ESQ.
bcochran@rgrdlaw.com

SULLIVAN & CROMWELL LLP
125 Broad Street
New York, New York 10004-2498
Attorneys for Defendants
BY:

DAVID M.J. REIN, ESQ.
reind@sullcrom.com
JESSICA P. STOKES, ESQ.
stokesj@sullcrom.com

ALSO PRESENT:
VILDAN ALTUGLU, Cornerstone Research
DEVERELL WRITE, Videographer
[3] THE VIDEOGRAPHER: We are on the record.
Please note that the microphones are sensitive and
may pick up whispering and private conversations.
My name is Deverell Write representing Veritext
Legal Solutions. Today’s date is May 1st, 2015. The
time on the video monitor is approximately [sic] a.m.
This deposition is being taken on behalf of the
plaintiff in the case of In Re Goldman Sachs Group,
Inc. Securities Litigation. This case is filed in the U.S.
District Court for the Southern District of New York,
case number 1:10-CV-03461. The name of the witness
is Charles Porten.

357
At this time will counsel please state their
appearances.
MR.
ROGERS: Michael
Rogers,
Sucharow LLP, for plaintiffs and the class.

Labaton

MR. DUBBIN: Jeff
Sucharow as well.

Labaton

Dubbin

from

[4] MR. COCHRAN: Brian Cochran from Robbins
Geller for plaintiffs.
MR. REIN: David Rein, Sullivan & Cromwell LLP,
for defendants.
MS. STOKES: Jessica Stokes,
Cromwell LLP, for defendants.
MS. ALTUGLU:
Research.

Sullivan

&

Vildan Altuglu from Cornerstone
* * *

[4] CHARLES PORTEN, called as a witness, having
been first duly sworn, was examined and testified as
follows:
EXAMINATION BY MR. ROGERS:
Q. Good morning.
A.

Good morning.

Q. Is it Mr. Porten or is it Dr. or Professor Porten?
A.

Most people call me Charlie.

Q. I’m going to call you either by one of those titles
though. Is it Dr. or Professor or are you just Mr. in this
case?
A.

Just Mr.

358
[5] Q. Okay, Mr. Porten. You can call me Mr.
Rogers. We will get all those jokes out in advance.
Have you had your deposition taken?
A.

Yes.

Q. How many times approximately?
A.

About 10, 12.

Q. And those 10 to 12 depositions, are those all in
an expert capacity or were some of those where you
were a party or a witness to a suit?
A.

All in an expert capacity.

Q. And I only ask that right now just to make sure
we all know the rules of the road. So you understand
the basics.
I will ask questions, you will answer. We have to be
careful not to talk over each other. There is a reporter
taking down all of our words, so try to articulate
answers, not just nod or shake your head. If at any
time you need a break, let me know and as long as
there is no question pending we will accommodate
* * *
[198][“]. . . However, appropriately identifying and
dealing with conflicts of interest is complex and
difficult, and our reputation could be damaged and the
willingness of clients to enter into transactions in
which such a conflict might arise may be affected if we
fail, or appear to fail, to identify and deal
appropriately with conflicts of interest. In addition,
potential or perceived conflicts could give rise to
litigation or enforcement actions.”
Did you consider whether this statement on page
289 of the Merrill Lynch report related to the
misstatement as alleged in our complaint?

359
A.

Yes.

Q. And your conclusion was?
A. As you read this report, it refers to discussion of
private equity and then goes on to make some
generalized statements about the importance of
dealing with conflicts of interest.
There is no reference to any [199] statements the
company made in its 10-Ks about conflicts of interest
or in the conference call. He is just saying there were
discussion of private equity, and he is going on to say
that dealing with conflicts of interest is important,
which is obvious, and he thinks the company does a
good job of it.
There is no reference to what was reported in the 10K or what was cited in the conference call. So I
concluded this report did not make reference to the
alleged misstatements.
Q. You just said you thought it is obvious that
dealing with conflicts of interest is important; is that
correct?
A.

Yes.

Q. Important to whom?
A. To everyone.
Q. Including investors?
A.

Yes.

Q. So it’s important for investors whether a
company manages its conflicts of interest, correct?
[200] A.

Yes.

360
Q. And it was important to investors whether
Goldman Sachs managed its conflicts of interest,
correct?
A.

Yes.

Q. Now, going back to the answer that you just
gave a moment ago, is there any specific basis that you
concluded that this statement about conflicts of
interest does not relate to Goldman’s statement about
prevention of conflicts of interest and how its
reputation could be damaged if conflicts arose?
MR. REIN:
answered.

I object to the form, asked and

A. He begins this paragraph referring to a
discussion of private equity, and then he says it gives
rise to concerns over conflicts, and then everything
else that follows is his statement about why dealing
with conflicts is important.
I see nothing here where he says he is citing specific
statements made [201] in the 10-K or made in a
conference call. He is talking about discussion of
private equity and then going on to offer his viewpoint
about the importance of managing conflicts of interest.
Q. So it’s the absence of the citation to the 10-K
that causes you to reach that conclusion?
MR. REIN: I object to the form, foundation,
misstates testimony.
A. There is no reference in this statement that he
is citing that the company made certain statements in
its 10-K about conflicts of interest or in the conference
call. He is referring to discussion of private equity and
he has an a-ha moment. “Private equity gives rise to
concerns over conflicts.”

361
He goes on to make some general statements about
he thinks the company does a good job.
Q. And what was his basis of concluding that he
thinks the company was doing a good job; do you
know?
[202] A. He says “The consistency with which the
firm has avoided crossing the line and damaging its
reputation is such that it must be doing something
right.”
That’s his basis for saying that.
Q. And did you consider whether his basis for that
conclusion was what Goldman said in its 10-K?
MR. REIN:

I object to the form, foundation.

Q. Did you consider that possibility?
MR. REIN:

I object to the form.

A. He is basing this, as he says at the outset, based
on the discussion of private equity.
Q. Now, you said a few moments ago that it was
obvious that conflict of interest management was
important, right?
MR. REIN:
A.

It is important to every firm.

[203] Q.
correct?
A.

I object to the form.

And important to investors as well,

Yes.

Q. So based upon that expert conclusion, do you
conclude that it also would have been important on
March 13th, 2007 if Goldman was failing to control for
conflicts of interest?

362
MR. REIN:

I object to the form.

A. Well, certainly if conflicts of interest are
important, as I said they are, and if it’s proven that a
company failed to deal with conflicts, that would be
important.
Q. Now, would you expect the Merrill Lynch
analyst to say in his report “and I’m also very pleased
to report that I’m not aware of any instances of
Goldman violating its conflicts policies”? Would you
expect him to say that?
MR. REIN: I object to the form.
A.

No.

[204] Q. Now, you said a moment ago, though,
that if conflicts of interest are important and if it is
proven that a company failed to deal with conflicts,
that would be important. You said that, right?
A.

Yes.

Q. Now, would such a statement of that
importance need to necessarily include the words “we
failed to properly prevent conflicts”?
MR. REIN: I object to the form.
A. I’m not sure I understand your question.
Q. You said that information proving that a
company failed to prevent conflicts would be
important information, right?
MR. REIN:
A.

I object to the form, foundation.

Yes.

Q. And therefore if it is important analysts would
address it, [205] correct?
A.

Yes.

363
Q. Now, is it your expert testimony that any
analyst discussing that important information,
proving a failure to prevent conflicts, would only be
valid if it said explicitly “and Goldman failed to
prevent conflicts”; in other words, are there any other
ways that information could be revealed other than
saying “a failure to prevent conflicts”?
MR. REIN:

I object to the form, foundation.

A. I don’t know.
Q. I’m going to mark as Porten 8 a document that
runs from the Bates number Porten 00012298 through
2309, a Merrill Lynch analyst report with a buy
recommendation, July 28th, 2008, covering the
Goldman Sachs Group, titled Position For
Opportunity Amid Chaos.
(Porten Exhibit 8 marked for identification.)
Q. As always, feel free to review
* * *
[302] MR. REIN: I object to the form, foundation.
A. The time to buy or sell a company is really case
specific.
Q. But, in other words, the idea that a particular
company can have extremely harmful news come out
in which its stock price plummets, but if the market
believes that all the bad news is out and the future
news is going to be good, it is a great time to buy, right?
MR. REIN:
A.

I object to the form, foundation.

It is case-specific.

Q. But what I just described is a possibility,
correct?

364
MR. REIN:

I object to form, asked and answered.

A. Anything is possible. In my opinion, what you
are saying always happens to me is case-specific when
it is time to buy or sell.
Q. Well, let’s look at some of that specificity. It’s
not just a buy [303] recommendation, more specifically
it’s a buy high risk as a change from buy medium risk,
correct?
A. But what
recommendation.

carries

the

day

is

the

buy

Q. So you are saying his change of the word
“medium risk” to “high risk” is meaningless?
MR. REIN:
tion.

I object to the form, mischaracteriza-

A. It’s of much less significance than the fact that
he is still carrying a buy recommendation.
What prevails in IBES reports where the analysts
give their opinion and their target price and their
earnings is just the opinion, not whether it is high or
low risk. So that’s not deemed to be of great
significance in the industry.
Q. But in your expert opinion, information that
affects a company’s stock price will be addressed by
analysts in their reports, correct?
A. Correct.
[304] Q. And this analyst talks about reputational
risk and the possibility of follow-on lawsuits related to
the SEC action, correct?
A. Correct.
Q. And Goldman’s misstatement about its conflict
of interests policies identified that its reputation could

365
be damaged if conflicts arose as well as perceived
conflicts could possibly give rise to litigation actions,
correct?
MR. REIN:

I object to the form, foundation.

Q. Is that correct, sir?
A.

Yes, you properly read from my report.

Q. Let’s mark as Porten 17 a document that’s been
Bates numbered PORTEN 00011802 through 807.
And this is a Merrill Lynch — excuse me, Bank of
America Merrill Lynch, this is after the merger, April
16, 2010 report titled SEC Case Seems Limited, But
Reputational Fall-Out Worrisome.
[305] (Porten Exhibit 17 marked for identification.)
Q. You will see that the first bullet point is entitled
“SEC brings a civil fraud case relating to alleged
misrepresentations” — strike that.
Before we go on, in your expert opinion, does what
analysts focus on in the title of the report indicate the
importance of a certain subject?
A. It could.
Q. How about in this case where they are saying
“reputational fall-out is worrisome”?
A. Well, I haven’t studied the whole report as to all
the things he is saying and why he chose to give it the
title he did.
Q. Would you agree that reputation is one of the
concerns of this analyst in this report?
A. He is citing that the SEC case, while it seems
limited, could result in some reputational fall-out.
* * *

366
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
————
No. 1:10-cv-03461-PAC
————
IN RE GOLDMAN SACHS GROUP, INC.
SECURITIES LITIGATION
————
CLASS ACTION
JURY TRIAL DEMANDED
ECF CASE
————
EXPERT REPORT OF
JOHN D. FINNERTY, Ph.D.
IN SUPPORT OF LOSS CAUSATION
AND DAMAGES
————

367
Table of Contents
I. Qualifications .................................................

1

II. Assignment .....................................................

3

III. Summary of Opinions...................................

4

IV. Factual Background .......................................

5

A. The Four Synthetic CDOs at Issue in
This Matter ...............................................

5

1) Abacus 2007-AC1 CDO .......................

5

2) Hudson 2006-1 CDO ............................

6

3) Anderson 2007-1 CDO .........................

6

4) Timberwolf 1 CDO ...............................

7

V. Alleged False and Misleading Statements
and Omissions Identified in the Plaintiff’s
Complaint .......................................................

7

A. Goldman’s Alleged False and Misleading
Statements and Omissions in Its
Financial Reports, Annual Reports to
Shareholders, Investor Conference Calls,
and Other Public Announcements ...........

9

B. Goldman’s Alleged False and Misleading
Statements and Omissions in Connection
with Management of Its Conflicts of
Interest and Its Business Principles ........

15

VI. Corrective Disclosures with Regard to the
Alleged False and Misleading Statements
and Omissions and Loss Causation Analysis
on the Corrective Disclosure Dates ...............

6

A. Calculation of Abnormal Returns on
Goldman’s Common Stock ........................

17

368
B. April 16, 2010 ............................................

23

1) Corrective Disclosures with Regard to
the Alleged False and Misleading
Statements and Omissions .................

23

2) Abnormal Return Analysis .................

27

3) Loss Causation Analysis .....................

28

C. April 26, 2010 ............................................

33

1) Corrective Disclosures with Regard to
the Alleged False and Misleading
Statements and Omissions .................

33

2) Abnormal Return Analysis .................

35

3) Loss Causation Analysis .....................

35

D. April 30, 2010 ............................................

37

1) Corrective Disclosures with Regard to
the Alleged False and Misleading
Statements and Omissions .................

37

2) Abnormal Return Analysis .................

42

3) Loss Causation Analysis .....................

42

E. June 10, 2010 ............................................

46

1) Corrective Disclosures with Regard to
the Alleged False and Misleading
Statements and Omissions .................

46

2) Abnormal Return Analysis .................

47

3) Loss Causation Analysis .....................

47

F. Overall Conclusion Regarding Loss
Causation ..................................................

49

VII. Calculation of Damages per Share ..............

49

A. April 16, 2010 ............................................

50

369
B. April 30, 2010 ............................................

51

C. June 10, 2010 ............................................

52

VIII. Calculation of Inflation per Share during
the Class Period ........................................

53

IX. Conclusions ...................................................

54

370
I, John D. Finnerty, declare pursuant to 28 U.S.C.
§ 1746, as follows:
I. Qualifications
1. I am a Managing Director at AlixPartners, LLP,
a financial and operational consulting firm. I have
extensive experience in securities valuation,
derivatives valuation, solvency analysis, business
valuation, the calculation of damages, and litigation
support for matters involving securities fraud, breach
of contract, commercial disputes, valuation disputes,
solvency, fairness, breach of fiduciary duty, and
employment disputes involving the valuation of
employee stock options. I have testified as an expert in
securities and other financial matters, broker hiring
disputes, and valuation disputes, in federal and state
court and in arbitration and mediation proceedings. I
have also testified as an expert in bankruptcy court
concerning the valuation of securities and businesses
and the fairness of proposed plans of reorganization.
2. Prior to joining AlixPartners, I was a Managing
Principal at Finnerty Economic Consulting, LLC
(“FinnEcon”), which provided financial consulting and
valuation services to law firms, corporations, industry
associations, and government agencies. Prior to
forming FinnEcon in 2003, I was a Managing Principal
at Analysis Group, Inc., an economic consulting firm.
Prior to joining Analysis Group, I was a Partner (nonaudit) in the PricewaterhouseCoopers Financial
Advisory Services Group. I have also held investment
banking positions at Morgan Stanley, Lazard Frères,
McFarland Dewey, and Houlihan Lokey Howard &
Zukin.

371
3. I am on leave from my position as a Professor of
Finance at Fordham University’s Graduate School of
Business Administration, where I was the founding
Director of the school’s Master of Science in
Quantitative Finance Program. I was awarded early
tenure in 1991, and I received the Gladys and Henry
Crown Award for Faculty Excellence in 1997. I have
published 15 books, including Corporate Financial
Management, 4th ed., Project Financing, 3rd ed., and
Debt Management, and I have published more than
100 articles and professional papers concerning
corporate finance, fixed income, and business and
securities valuation.
4. I have previously published a paper on the
calculation of damages in securities fraud cases
entitled, “An Improved Two-Trader Model for
Measuring Damages in Securities Fraud Class
Actions,” which was published in the Spring 2003
issue of the Stanford Journal of Law, Business &
Finance. I have also published a paper on the
settlement amounts in securities fraud class actions,
entitled, “Determinants of the Settlement Amount in
Securities Fraud Class Action Litigation,” which was
published in the Summer 2006 issue of the Hastings
Business Law Journal. I have extensive experience
testing for market efficiency, performing loss
causation analysis, and calculating damages in
securities fraud cases.
5. My teaching and research deal mainly with
corporate finance, investment banking, fixed income
securities
valuation,
fixed
income
portfolio
management, and the design and valuation of complex
securities. My corporate finance and investment
banking courses cover business valuation and
securities valuation, among other topics. My corporate

372
finance and fixed income courses cover derivative
instruments and their use in designing and
implementing investment and hedging strategies. I
was inducted into the Fixed Income Analysts Society
Hall of Fame in 2011.
6. I previously served as the Chair of the Trustees,
President, and Director, and I am currently serving as
a Trustee of the Eastern Finance Association, an
academic finance organization. I am a former Director
of the Financial Management Association. I have
served as the President and Director of the Fixed
Income Analysts Society, an association of finance
professionals based in New York City. I am a former
editor of Financial Management, one of the leading
academic finance journals, and a former editor of FMA
Online. I am an associate editor of the Journal of
Applied Finance and a member of the editorial boards
of the Journal of Portfolio Management and the
International Journal of Portfolio Analysis &
Management.
7. I received a Ph.D. in Operations Research from
the Naval Postgraduate School, an M.A. in Economics
from Cambridge University, where I was a Marshall
Scholar, and a B.A. in Mathematics from Williams
College. Attached as Appendix A is a true and correct
copy of my current resume, which lists all publications
I have written or co-authored and includes a brief
description of my trial and deposition testimony
within at least the past four years.
8. AlixPartners is being compensated at a rate of
$1,020 per hour for my work on this matter. My
compensation is not contingent on my findings or on
the outcome of this matter. I have been assisted in the
preparation of this expert report by AlixPartners’s
staff working under my direction and supervision.

373
9. Attached as Appendix B is a list of the
documents I considered in coming to my opinions in
this matter.
II. Assignment
10. Labaton Sucharow LLP (“Labaton”) and
Robbins Geller Rudman & Dowd LLP (“Robbins
Geller”), co-counsel for the Plaintiffs in this matter
(collectively “Counsel”), have asked me to (1) perform
a loss causation analysis and opine on whether the
declines in the price of the common stock of Goldman
Sachs Group, Inc. (“Goldman” or the “Company”) on
the alleged disclosure dates were attributable to and
substantially caused by identifiable news events
relating to the disclosure of the fraud allegedly
committed by Goldman during the period extending
from February 5, 2007 through June 10, 2010,
inclusive (the “Class Period”) and (2) calculate the
amount of damages per share experienced by class
members who purchased shares of Goldman’s common
stock when the fraud-related inflation was removed
from the stock price during the Class Period.
III. Summary of Opinions
11. I have reached the following opinions, after
conducting appropriate studies, the results of which
are described in this expert report:
a. Goldman’s common stock price declined on
April 16, 2010, April 26, 2010, April 30, 2010, and
June 10, 2010 (the “Disclosure Dates”) immediately
following the public revelation of previously
undisclosed facts regarding Goldman’s fraudulent
conduct concerning management of its conflicts of
interest and its business principles;

374
b. The abnormal returns on Goldman’s common
stock on April 16, 2010, April 30, 2010, and June
10, 2010 are -9.27%, -7.75%, and -4.52%,
respectively. These abnormal returns are all
statistically significant. The abnormal return on
April 26, 2010 is -1.68%, which is not statistically
significant. Goldman’s rebuttal and forthcoming
Senate testimony the very next day appear to have
muted the market’s reaction.
c. The statistically significant abnormal
returns on April 16, 2010, April 30, 2010, and June
10, 2010 were not due to any macroeconomic
factors, industry-specific factors, or non-fraudrelated Goldman news, but were substantially
caused by a series of revelations concerning
Goldman’s alleged fraudulent conduct related to
the management of its conflicts of interest and its
business principles; and
d. The amount of damages suffered by
purchasers of the shares of Goldman’s common
stock as a result of the disclosure of the truth about
Goldman’s fraudulent conduct on April 16, 2010,
April 30, 2010, and June 10, 2010 is, in total, up to
$35.70 per share, depending on when the shares
were bought and sold during the Class Period.
12. These opinions are based on the results of the
loss causation analysis and the damages calculations
that are described in this expert report.
IV. Factual Background
A. The Four Synthetic CDOs at Issue in This
Matter
13. The Complaint in this matter alleges that
Goldman made a series of misrepresentations and

375
omissions with respect to four CDO transactions that
Goldman structured and sold between December 2006
and April 2007. The four CDO transactions at issue in
this matter are Abacus 2007-AC1, Hudson Mezzanine
Funding 2006-1 (“Hudson 2006-1”), Anderson
Mezzanine Funding 2007-1 (“Anderson 2007-1”), and
Timberwolf 1.
* * *
88. For example, a Financial Times article
announced that Whitehall Street International,
Goldman’s internal real estate fund, had lost almost
all of its $1.8 billion of equity from its investments
across U.S., Japan, and Germany, and that it was
down to $30 million, according to the annual report
sent to investors the preceding month.69 This news
article did not contain new information because the
information was previously revealed in the fund’s
annual report to its investors.70
89. Another Financial Times article reported that
Demand Media Inc., which sifts online search engine
data, had hired Goldman for an initial public offering
as early as August of 2010 that may value the
company at $1.5 billion.71 Such a transaction would
occur normally in Goldman’s investment banking
business.
69

Financial Times, “Goldman real estate fund down to $30m,”
April 15, 2010; and SmarTrend News Watch, “Goldman Sachs
Group, Inc. Affected by Real Estate Market Losses,” April 16,
2010.
70

Financial Times, “Goldman Real Estate Fund Down to
$30m,” April 16, 2010.
71

Financial Times, “Demand Media enlists Goldman for IPO,”
April 15, 2010. Bloomberg News, “Demand Media Hires Goldman
Sachs for IPO, FT Says,” April 15, 2010.

376
90. The majority of news articles and securities
analysts’ reports released after the market close on
April 15, 2010 through the market close on April 16,
2010 predominantly covered the SEC’s law suit
against Goldman in connection with Abacus 2007AC1. (See Appendix B.) The SEC Complaint revealed
that Goldman had been engaged in fraudulent conduct
in connection with Abacus 2007-AC1, not adequately
disclosing Paulson’s involvement in the portfolio
selection process and intentionally misleading ACA
with respect to the CDO transaction. The confounding
news released on this date was not economically
significant.
91. In order to examine the impact of the news
concerning the SEC Complaint and its allegations on
the price of Goldman’s common stock, I investigated
Goldman stock price movements after the market
close on April 15, 2010 through the market close on
April 16, 2010. (See Exhibit 4.) As illustrated in the
chart, on April 16, 2010, immediately after a news
article concerning the SEC’s regulatory enforcement
action was released around 10:38 AM, the price of
Goldman’s common stock plunged more than 10
percent in the first half-hour of trading and stayed low
throughout the day through the market close.
92. Thus, the abnormal return on Goldman’s
common stock of -9.27% on April 16, 2010 is
attributable to the announcement of the SEC’s
regulatory enforcement action against Goldman. The
SEC’s regulatory enforcement action was, in fact, a
direct consequence of Goldman’s alleged fraudulent
conduct in connection with Abacus 2007-AC1.
Furthermore, the announcement of the SEC’s
regulatory enforcement action finally disclosed to
market participants that Goldman had engaged in

377
undisclosed conflicts of interest and violated its
business principles in contrast to the false and
misleading statements during the Class Period.
93. Defendants’ experts have argued that
Goldman’s stock price reaction on the Disclosure Date
was due to the announcement of the SEC enforcement
action by itself and was not due to the revelation of
Goldman’s fraudulent conduct in connection with the
CDO transaction at issue.72 However, the regulatory
enforcement action by the SEC would not have been
brought if there had been no evidence of fraudulent
conduct with respect to the Abacus 2007-AC1 CDO
transaction, which revealed that Goldman had made
alleged false and misleading statements and
omissions during the Class Period. I examined this
argument and provided a complete rejection of it in the
Finnerty Rebuttal Declaration.
94. Therefore, it is my opinion that the abnormal
return of -9.27% on Goldman’s common stock on April
16, 2010 is attributable to the corrective information
revealed in the announcement of the SEC’s regulatory
enforcement action in connection with Abacus 2007AC1. The SEC’s fraud charge provided new
information to the market that Goldman had been
engaged in undisclosed conflicts of interest and
violated its business principles in contrast to the false
and misleading statements during the Class Period.

72

The Gompers Declaration, ¶¶ 61, 66, 81, and 91. Declaration
of Stephen Choi, Ph.D., dated April 6, 2015 (the “Choi
Declaration”), ¶¶ 18-19.

378
C. April 26, 2010
1) Corrective Disclosures with Regard to
the Alleged False and Misleading
Statements and Omissions
95. On Saturday, April 24, 2010, the Senate
Subcommittee on Investigations announced the
release of four emails, which indicated that Goldman
made money betting against the CDOs it had sold to
its clients.73 In particular, Senator Carl Levin,
chairman of the Senate Subcommittee on
Investigations, noted that:
Investment banks such as Goldman Sachs
were not simply market-makers, they were
self-interested promoters of risky and
complicated financial schemes that helped
trigger the crisis. They bundled toxic
mortgages
into
complex
financial
instruments, got the credit rating agencies to
label them as AAA securities, and sold them
to investors, magnifying and spreading risk
throughout the financial system, and all too
often betting against the instruments they
sold and profiting at the expense of their
clients.74
96. He noted that the 2009 Goldman annual report
stated that the Company “did not generate enormous
73

U.S. Senate Committee on Home Land Security &
Governmental Affairs, “Senate Subcommittee Investigating
Financial Crisis Releases Documents on Role of Investment
Bank,”
April
24,
2010
and
underlying
exhibits
(http://www.hsgac.senate.gov/subcommittees/investigations/med
ia/senate-subcommittee-investigating-financial-crisis-releasesdocuments-on-role-of-investment-banks).
74

Ibid.

379
net revenues by betting against residential related
products. These e-mails show that, in fact, Goldman
made a lot of money by betting against the mortgage
market.”75
97. In one of the internal Goldman emails dated
November 18, 2007, Lloyd Blankfein, Goldman’s Chief
Executive Officer, wrote that “[o]f course we didn’t
dodge the mortgage mess. We lost money, then made
more than we lost because of shorts.”76
98. In other email correspondence dated July 25,
2007, Goldman’s employees discussed Goldman’s
trading activities, which reveal that the Company
netted over $50 million by taking short positions that
increased in value. In the email, David Viniar,
Goldman’s Chief Financial Officer, wrote that the
profit from short selling “[t]ells you what might be
happening to people who don’t have the big short.”77
99. In email correspondence dated May 17, 2007,
Goldman employees discussed the mortgage-related
securities issued by Long Beach Mortgage Company
and its charge-off of an unpaid principal balance.78 In
the email exchange, one employee, referencing a
recent “wipeout” of one security issued by Long Beach
Mortgage Company, wrote that another imminent
wipe out would cost Goldman $2.5 million but that
Goldman would make $5 million on its short position.
75

Ibid.

76

Ibid.

77

Ibid., Exhibit 104, E-mail from David Viniar to Gary Cohn,
subject: RE: Private & Confidential: FICC Financial Package
7/25/07.
78

Ibid., Exhibit 103, E-mail from Deeb Salem to Michael
Swenson, subject: FW: LBML 06A.

380
100. In email correspondence dated October 11,
2007, discussing RMBS downgrades by Moody’s, one
of Goldman’s managers wrote that, because of
Goldman’s short position, “[s]ounds like we will make
some serious money.”79
101. In response to the release of internal
Goldman documents by the Senate Subcommittee, on
April 24, 2010, a Goldman official stated that “the
contents of some of the emails [were] embarrassing
but showed no evidence of wrongdoing.”80 Goldman
also published on its website a 12-page document,
which included emails and revenue data regarding its
mortgage-business risk management during 2007-08,
to demonstrate that its subprime mortgage trading
reflected prudent risk management rather than
speculation.81
2) Abnormal Return Analysis
102. On Monday, April 26, 2010, Goldman’s
common stock price decreased 3.41% from $157.40 to
$152.03. (See Exhibit 3.) Based on the Modified FamaFrench Three-Factor Model, including the percentage
change in the Industry Index as an explanatory
variable, the abnormal return on April 26, 2010
is -1.68%, which is not statistically significant at the
10% level.

79

Ibid., Exhibit 102, E-mail from Michael Swenson to Donald
Mullen, subject: RE: Early post on P and L.
80

Bloomberg News, “Goldman Vulnerable? Don’t Ask Plaintiff
Lawyers,” April 25, 2010.
81

Financial Times, “Goldman Releases Internal Paper Trail,”
April 25, 2010. Bank of America Merrill Lynch, “GS Publishes
new ’07-08 MBS e-mail, data,” April 26, 2010.

381
103. However, the abnormal return may not have
risen to a level of statistical significance at the 95%
confidence level (more than 1.96 standard deviations
from the mean) because of Goldman’s immediate
rebuttal and claims that its conduct was proper. It was
also publicly known that Goldman executives,
including its CEO, were going to testify before the
Senate the following day. These facts may have led to
the decline not being statistically significant.
3) Loss Causation Analysis
104. As discussed above, on Saturday, April 24,
2010, the Senate Subcommittee on Investigations
released several internal Goldman documents,
including emails and reports, which indicated that
Goldman had made money betting against the CDOs
it had sold to its clients.82
105. In response to the release of the internal
Goldman documents, Bank of America Merrill Lynch
published a securities analyst report on April 26, 2010,
commenting on the recently released Goldman
internal documents as well as Goldman’s response.
Bank of America Merrill Lynch securities analysts
noted that:83
82

United State Senate Committee on Home Land Security &
Governmental Affairs, “Senate Subcommittee Investigating
Financial Crisis Releases Documents on Role of Investment
Bank,”
April
24,
2010
and
underlying
exhibits
(http://www.hsgac.senate.gov/subcommittees/investigations/med
ia/senate-subcommittee-investigating-financial-crisis-releasesdocuments-on-role-of-investment-banks).
Bloomberg
News,
“Goldman Fraud Charges: Emails and Internal Reports
Revealed,” April 26, 2010.
83

Bank of America Merrill Lynch, “GS Publishes new ’07-08
MBS e-mail, data,” April 26, 2010, p. 3.

382
Press reports over the weekend covered the emails released from the Subcommittee, which
appear to show Goldman broadly shorting
mortgages before and during the crisis.
Goldman then released a broader group of
emails, in an attempt to provide more context.
GS is trying to make clear that its risk
disciplines, in the face of huge market
uncertainty, were designed to minimize the
firm’s exposure rather than take big
directional bets.
They do seem, in our view, to show
considerable internal debate as to how the
firm should be positioned (i.e., no clear
“house” view that the firm should be short),
and a general mandate, in our opinion, from
top management that the firm should be
basically “close to home” in the MBS market,
i.e. not significantly exposed one way or the
other.
106. I have reviewed the media databases on
Bloomberg, Thomson Research, and other news
sources for Goldman-related news articles published
after the market close on Friday April 23, 2010
through the market close on Monday April 26, 2010. I
did not find any additional notable news items
regarding Goldman that received any news coverage
during that time period.
107. Goldman’s denial of the Senate Committee’s
allegations in conjunction with the upcoming Senate
testimony likely led to a more muted market reaction.
Since the abnormal return on Goldman’s common
stock on April 26, 2010 was not statistically

383
significant, I excluded the abnormal return on April
26, 2010 from my damages calculation.
D. April 30, 2010
1) Corrective Disclosures with Regard to
the Alleged False and Misleading
Statements and Omissions
108. On Thursday, April 29, 2010 after the market
closed, the Wall Street Journal reported that the
Department of Justice (DOJ) had opened a criminal
investigation into whether Goldman or its employees
had committed securities fraud in connection with
Goldman’s mortgage trading.84 This criminal
investigation was announced after a Senate hearing
that was held on April 27, 2010, where Goldman
employees were questioned regarding its fraudulent
conduct in connection with certain CDOs that
Goldman structured and sold. Therefore, as part of my
review of the Disclosure Date of April 30, 2010, the
first trading day after the disclosure of the DOJ
investigation, I also reviewed the information that was
released into the market on April 27, 2010.
109. On Tuesday, April 27, 2010, the Senate’s
Permanent Subcommittee on Investigations held a
hearing, where seven employees of Goldman appeared
in front of the subcommittee, to examine the role that
Goldman played in the credit crisis, particularly in
connection with sub-prime mortgage securitization.85
84

New York Times, “U.S. Said to Open Criminal Inquiry Into
Goldman,” April 29, 2010.
85

Hearings before the Permanent Subcommittee on
Investigations of the Committee on Homeland Security and
Governmental Affairs United States Senate, “Wall Street and the
Financial Crisis: The Role of Investment Banks,” April 27, 2010
(the “April 27, 2010 Senate Hearings”).

384
In addition to the SEC’s enforcement action
concerning the Abacus 2007-AC1 CDO, the
Subcommittee claimed that Goldman devised a series
of transactions (and not just a single CDO
transaction)86 to profit from the collapse of the home
mortgage market.
110. In the hearing, Senator Carl Levin, the
chairman of the Senate’s Permanent Subcommittee on
Investigations, asserted that Goldman repeatedly
placed its own interests and profits ahead of its clients’
interest,87 and profited substantially by betting
against its own clients in connection with synthetic
CDOs.88 In highlighting Goldman’s fraudulent
conduct, Senators referenced the Abacus 2007-AC1,
Hudson 2006-1, Timberwolf 1, and Anderson 2007-1
CDO transactions.89
111. For example, Senator Levin noted that
“Anderson Mezzanine Funding 2007-1 was a synthetic
product assembled by Goldman... and [Goldman] sold
Anderson securities to its clients without disclosing
that it would profit if those securities suffered
losses.”90 In particular, Senator Levin emphasized
that, instead of responding to clients’ questions and
disclosing Goldman’s significant short position in the
CDO tranches, Goldman had continued to “push hard”
on its clients to buy the Anderson 2007-1 CDO.
86

Ibid., pp. 6-7. For example, Senator Levin noted that
“Abacus may be the best-known example of conflicts of interest
revealed in the Goldman documents, but it is far from the only
example.”
87

Ibid., p. 3.

88

Ibid., pp. 4-5.

89

Ibid., pp. 6, 19, 24, 39, and 60.

90

Ibid., pp. 6-7.

385
Goldman did not properly disclose its short position
and misrepresented to clients that it was holding the
equity tranche, and thereby misled clients into
believing that Goldman was taking only the long side
of the CDO transaction.91
112. Senator Levin also discussed Goldman’s
conflicts of interest in connection with the Timberwolf
1 CDO, which consisted of low-quality assets.92 He
asserted that, while Goldman was taking short
positions against the Timberwolf 1 CDO to protect
itself, Goldman continued to sell this CDO to clients
without adequately disclosing to them the risks
associated with the CDO. He quoted internal Goldman
email correspondence dated June 22, 2007, in which
Goldman employees discussed its mortgage-linked
securities. In the email, Tomas Montag, the former
head of sales and trading at Goldman, wrote “[b]oy
that Timberwo[l]f was one shi**y deal.”93
113. The Senate committee also examined the
Hudson 2006-1 CDO, which Goldman allegedly
structured to “shift risks” from Goldman’s balance
sheet to investors.94 Senator Ensign stated, in
reference to the Hudson 2006-1 CDO, that:95
It was a synthetic CDO that referenced $2
billion in subprime BBB-rated mortgagebacked securities. Goldman selected the
referenced assets. The purpose of the
transaction appears to have been to get those
91

Ibid., p. 22.

92

Ibid., pp. 24-25.

93

Ibid., pp. 24-25.

94

Ibid., p. 60.

95

Ibid., p. 60.

386
assets off Goldman’s own books. Basically
Goldman was the only buyer to see this CDO
and then make a bet against it.
114. Senator Levin also noted that Goldman’s
marketing booklet for the Hudson 2006-1 CDO only
disclosed one side of Goldman’s position.96 The
Executive Summary section of the marketing booklet
stated that “Goldman Sachs has aligned incentives
with the Hudson program by investing in a portion of
equity and playing the ongoing role of Liquidation
Agent.”97 In fact, it was revealed in an internal
Goldman email dated October 30, 2006 that “Goldman
was the sole buyer of protection on the entire $2.0
billion of assets.”98
115. In response to the Senate’s allegations in the
hearing, Goldman executives and managers
repeatedly denied the allegations and defended their
actions, and they emphasized that Goldman had
always tried to balance its portfolio investments so
that Goldman would not have a long or short net
position.
116. For example, Lloyd Blankfein, Goldman’s
Chief Executive Officer, defended the Company’s
practice by stating that “we certainly did not bet
against our client.”99 Tourre, executive director in the
Structured Products Group, who was mainly
responsible for structuring and organizing the Abacus

96

Ibid., p. 71.

97

Ibid., p. 554.

98

Ibid., p. 588.

99

Ibid., p. 132.

387
2007-AC1 transaction,
allegations.100

also

denied

the

SEC’s

117. Two days later, on Thursday, April 29, 2010
after the market closed, the Wall Street Journal
reported that the DOJ had opened a criminal
investigation.101 The article noted that the
investigation was led by the Manhattan US Attorney’s
office and stemmed from a referral from the SEC. The
Wall Street Journal also reported that the criminal
investigation was centered on different evidence than
the SEC’s civil case but that it was unable to
determine which of Goldman’s deals were being
scrutinized in the investigation.
118. The Washington Post also published an
article on April 29, 2010, covering the DOJ’s criminal
investigation into Goldman, reporting that:102
The Justice Department usually investigates
high-profile cases of securities fraud, but the
threshold for criminal prosecution is
significantly higher than that of civil cases . .
. It is rare for the government to indict a firm,
and even the threat of criminal prosecution
can doom a company.
119. The Washington Post published another
article on April 30, 2010, covering the same issue,
reporting that:103
100

Ibid., pp. 17-18.

101

New York Times, “U.S. Said to Open Criminal Inquiry Into
Goldman,” April 29, 2010.
102

Washington Post, “Goldman May Be Prosecuted,” April 29,

2010.
103

Washington Post, “Justice Department Opens Goldman
Sachs Criminal Investigation, Sources Say,” April 30, 2010.

388
It was not immediately clear if the FBI and
prosecutors are probing different mortgagerelated transactions than those at issue in the
civil case.
120. The Washington Post published a follow-up
article on the same day, reporting that:104
The
Justice
Department’s
criminal
investigation into Goldman Sachs goes
beyond the financial transactions targeted by
the Securities and Exchange Commission in
the civil fraud suit brought against the firm
last month, the law enforcement sources said
Friday.
The Justice Department probe began weeks
ago and is essentially on a parallel track with
the SEC investigation, the sources said.
While prosecutors and investigators are
focusing on some of the same mortgagerelated transactions as the SEC, the sources
said, the Justice Department cast a wider net.
121. A few days later on May 5, 2010, in response
to the news concerning the DOJ’s criminal
investigation, Fitch Ratings also released a report, in
which it lowered Goldman’s rating outlook to Negative
from Stable confirming that the DOJ’s investigation
provided additional new information to the market
participants. 105Fitch Ratings stated in the release
that:

104

Washington Post, “Justice Probe of Goldman Goes Beyond
Deals Cited By SEC,” April 30, 2010.
105

Bloomberg News, “Fitch Affirms Goldman Sachs at
‘A+/F1+’; Outlook to Negative,” May 5, 2010.

389
The Rating Outlook revision to Negative
incorporates recent legal developments and
ongoing regulatory challenges that could
adversely impact Goldman’s reputation and
revenue generating capacity. Goldman’s
franchise and market position are potentially
vulnerable to scrutiny by stakeholders, and
like peers, may be affected by the industry’s
regulatory evolution.
Subsequent to civil fraud charges filed by the
Securities and Exchange Commission (SEC)
last month, it appears that the U.S.
Attorney’s Office in Manhattan is initiating a
criminal probe in connection with Goldman’s
mortgage trading activities. Given the level of
recent public scrutiny, it is not surprising
that other authorities outside of the U.S. have
also expressed intentions to investigate select
mortgage-related transactions conducted by
Goldman. At minimum, Fitch believes the
civil charges to date and the pending criminal
investigation, coupled with a highly public
hearing by the U.S. Senate’s Permanent
Subcommittee on Investigations, generate
adverse publicity that tarnishes Goldman’s
reputation. And for financial services
companies, particularly those dependent on
the capital markets, reputation is critically
important.
While not expected, Fitch believes Goldman’s
franchise is at greater risk in the event the
company was to be the recipient of a formal
criminal indictment.
122. While Goldman consistently denied the SEC’s
charges, the criminal investigation by the DOJ

390
disclosed, with respect to other CDOs in addition to
the Abacus 2007-AC1 CDO, that Goldman did not
have extensive procedures to control conflicts of
interest with its clients and did not comply with its
business principles, in contrast to what the Company
had consistently stated in its public announcements.
123. In sum, the Wall Street Journal article
reporting DOJ’s criminal investigation into Goldman’s
potential securities fraud in connection with certain
CDO transactions provided new information to the
market regarding the severity of Goldman’s conflicts
of interest and violations of its business principles in
contrast to the false and misleading statements during
the Class Period.
2) Abnormal Return Analysis
124. On Friday, April 30, 2010, Goldman’s
common stock price decreased 9.39% from $160.24 to
$145.20. (See Exhibit 3.) Based on the Modified FamaFrench Three-Factor Model, including the percentage
change in the Industry Index as an explanatory
variable, the abnormal return on April 30, 2010
is -7.75%, which is statistically significant at the 1%
level. Such a significance level means that there is less
than a 1 in 100 chance that the abnormal return
happened by mere chance.
3) Loss Causation Analysis
125. As discussed above, on Thursday, April 29,
2010, after the market closed, the Wall Street Journal
reported that US federal prosecutors had opened a
criminal investigation into whether Goldman or its
employees had committed securities fraud in

391
connection with its mortgage trading.106 The
Washington Post also reported that the DOJ’s criminal
prosecution could potentially “doom a company.” 107
126. Subsequent to the Wall Street Journal news
report concerning the DOJ’s criminal investigation,
Bank of America Merrill Lynch issued a securities
analyst report on April 30, 2010, and reduced its
rating stating that: 108
We are lowering our rating on GS to Neutral
from Buy and our price objective to $160 from
$220. Our downgrade is prompted by news
reports filed Thursday evening by the media
including the Wall St. Journal indicating that
federal prosecutors have opened an
investigation of GS in connection with its
trading activities, raising the possibility of
criminal charges.
However, it is very difficult to see the shares
making further progress until the matter has
been resolved.
127. Standard & Poor’s Equity Research Group cut
its investment recommendation on Goldman’s stock to
Sell from Hold and lowered its price target by $40 to
$140, stating that “we think the risk of a formal
securities fraud charge, on top of the SEC fraud charge

106

New York Times, “U.S. Said to Open Criminal Inquiry Into
Goldman,” April 29, 2010.
107

Washington Post, “Goldman May Be Prosecuted,” April 29,

2010.
108

Bank of America Merrill Lynch, “Goldman Sachs – Cutting
to Neutral: concerns over reports of Federal probe,” April 30,
2010.

392
and pending legislation to reshape the financial
industry, further muddies Goldman’s outlook.”109
128. Buckingham Research Group downgraded
Goldman’s stock to Neutral from Buy, noting that they
were not convinced that Goldman’s issues would be
resolved in the near-term, which would leave a
significant amount of uncertainty in Goldman’s stock
for some time.110
129. Additionally, I have also reviewed a few
analyst reports published after April 30, 2010, which
continued to comment on the DOJ’s criminal
investigation into Goldman.
130. On May 2, 2010, Citigroup Global Market
issued a securities analyst report, extensively covering
Goldman’s legal risk and the potential for regulatory
reform. The report highlighted, among other issues,
the recent regulatory enforcement actions brought by
the SEC and the DOJ stating that (emphasis
supplied):111
It appears the civil case against Goldman is
focused on a single transaction and is based
on disclosure issues and questions of
misrepresentation.
Additional lawsuits from other investors
remains a risk.
109

Bloomberg News, “Goldman Shares Slide on Criminalprobe Concerns,” April 30, 2010.
110

Buckingham
Research
Group,
“Goldman
Sachs:
Downgrade to Neutral; Litigation/Political Risk Too Difficult to
Handicap,” April 30, 2010.
111

Citigroup Global Markets, “Goldman Sachs Group, Inc.
(GS), Reiterate Buy – Risks Are There, But Still See Significant
Upside,” May 2, 2010, pp. 8-9.

393
Reputational risk could damage Goldman’s
franchise – While we do not believe at this
point Goldman’s institutional client base has
altered their business practices at this point,
Goldman’s reputation is one of the firm’s
greatest assets. To the extent clients lose
faith and either reduce or eliminate
their transactions with Goldman, it
could have significant detrimental effect
across all of the firm’s business.
Potential implications to securities dealer of
criminal charges – There are several
potential implications of the filing of criminal
charges against a securities dealer. Trading
counterparties could pull back from the firm.
Investment banking clients could also turn
away from a firm, for fear of deals being
tainted by reputation of the charged firm.
Potential implications to criminal conviction
for a securities firm are severe – If a securities
firm were convicted of criminal fraud, then it
could lose its license as a primary treasury
dealer; broker dealer licenses to sell securities
could also be revoked.
131. On May 5, 2010, in response to the news
concerning the DOJ’s criminal investigation, Fitch
Ratings also released a report, in which it lowered
Goldman’s rating outlook to Negative from Stable
confirming that the DOJ’s investigation provided
significant new information to the market
participants.112

112

Bloomberg News, “Fitch Affirms Goldman Sachs at
‘A+/F1+’; Outlook to Negative,” May 5, 2010.

394
132. I have reviewed the media databases on
Bloomberg, Thomson Research, and other news
sources for Goldman-related news articles published
after the market close on Thursday, April 29, 2010
through the market close on Friday, April 30, 2010. I
did not find any additional notable news items
regarding Goldman that received any news coverage
during that time period.
133. The majority of news articles and securities
analysts’ reports released after the market close on
April 29, 2010 through the market close on April 30,
2010 mainly covered the news regarding the DOJ’s
criminal investigation into certain Goldman CDO
transactions.
134. In order to examine the impact of the news
concerning the DOJ’s criminal investigation on the
price of Goldman’s common stock, I investigated
Goldman stock price movements in response to the
disclosure of the DOJ’s criminal investigation. (See
Exhibit 5.) As illustrated in the chart, a news article
concerning the DOJ’s criminal investigation was
released on April 29, 2010 after the market had closed.
Before the market opened on April 30, 2010, Bank of
America Merrill Lynch analysts published an analyst
report, in which they downgraded Goldman’s stock
rating. Following the news regarding the DOJ
criminal investigation, the opening price of Goldman’s
stock on April 30, 2010 was significantly lower than
the previous day’s closing price. Subsequently,
Goldman’s stock price did not show any significant
reaction through the market close on that day.
135. Thus, the abnormal return on Goldman’s
common stock of -7.75% on April 30, 2010 is
attributable to the news announcement of the DOJ’s
criminal investigation into Goldman’s CDO

395
transactions,
including
securities
analysts’
downgrades in response to the news. The DOJ’s
criminal investigation was, in fact, a direct
consequence of Goldman’s alleged fraudulent conduct
in connection with certain CDOs other than Abacus
2007-AC1.
136. The news about the DOJ’s criminal
investigation provided significant new information
about the severity of Goldman’s conflicts of interest
and violations of its business principles in contrast to
its false and misleading statements during the Class
Period.
137. Therefore, it is my opinion that the abnormal
return of -7.75% on Goldman’s common stock on April
30, 2010 is attributable to the corrective information
revealed in the announcement of the DOJ’s criminal
investigation.
E. June 10, 2010
1) Corrective Disclosures with Regard to
the Alleged False and Misleading
Statements and Omissions
138. On Wednesday, June 9, 2010, after the
market closed, it was reported that the Hudson 20061 CDO, which was sold in 2006, was also the target of
a probe by the SEC in addition to the Abacus 2007AC1 CDO.113 Internal Goldman emails released in
April 2010 revealed one October 2006 email, in which
a Goldman employee had described how the Hudson
2006-1 transaction might have been viewed by
113

Bloomberg News, “Goldman Sachs Hudson CDO Said to Be
Probed by SEC (Update1),” June 9, 2010. Bloomberg News,
“Goldman Sachs Hudson CDO Said to Be Target of Second SEC
Probe,” June 10, 2010.

396
investors as “junk.”114 It was also alleged that, while
Goldman was shorting the Hudson 2006-1 CDO, a
marketing document distributed to its CDO investors
stated that “Goldman Sachs has aligned incentives
with the Hudson program.”115
139. Senator Levin criticized Goldman at the
Senate hearing held on April 27, 2010, noting that
Goldman’s sales of CDOs such as Hudson 2006-1
raised “a real ethical issue.” The additional SEC
investigation in connection with Hudson 2006-1,
however, implied that the issue might be beyond “an
ethical issue.”
140. In sum, while several internal Goldman
emails mentioning Hudson 2006-1 were previously
released in April 2010 and private litigation by
investors may have been expected, the second SEC
probe into a Goldman CDO transaction provided
significant new information regarding the severity of
Goldman’s conduct and revealed that Goldman had
been engaged in undisclosed conflicts of interest and
violated its business principles in contrast to the false
and misleading statements during the Class Period.
2) Abnormal Return Analysis
141. On Thursday, June 10, 2010, Goldman’s
common stock price decreased 2.21% from $136.80 to
$133.77. (See Exhibit 3.) Based on the Modified FamaFrench Three-Factor Model, including the percentage
change in the Industry Index as an explanatory
variable, the abnormal return on June 10, 2010
114

E-mail from Darryl Herrick to Tetsuya Ishikawa, “RE:
Hudson Mezz,” October 12, 2006, and the April 27, 2010 Senate
Hearings, Exhibit 170c.
115

The April 27, 2010 Senate Hearings, Exhibit 87.

397
is -4.52%, which is statistically significant at the 5%
level. Such a significance level means that there is less
than a 1 in 20 chance that the abnormal return
happened by mere chance.
3) Loss Causation Analysis
142. As discussed above, after the market closed
on Wednesday, June 9, 2010, it was reported that
Goldman’s $2 billion Hudson 2006-1 CDO was also the
target of a probe by the SEC (in addition to the Abacus
2007-AC1 transaction).116
143. Following the announcement of a second SEC
investigation into Goldman’s CDO transactions, this
one concerning Hudson 2006-1, Wells Fargo issued an
analyst report concerning Goldman’s short-term
“tough” environment after the market close. Wells
Fargo noted that near-term challenges for Goldman’s
stock were likely to persist, although it believed that a
settlement with the SEC in the future would be
positive for Goldman’s stock. Wells Fargo also noted
that media reports of a second SEC investigation into
Goldman’s CDO marketing practices, specifically the
Hudson 2006-1 CDO, pushed Goldman shares down as
much as 4% that day.117
144. I have reviewed the media databases on
Bloomberg, Thomson Research, and other news
sources for Goldman-related news articles published
116

Bloomberg News, “Goldman Sachs Hudson CDO Said to Be
Probed by SEC (Update1),” June 9, 2010. Bloomberg News,
“Goldman Sachs Hudson CDO Said to Be Target of Second SEC
Probe,” June 10, 2010.
117

Wells Fargo Equity Research, “The Goldman Sachs Group,
Inc. – GS: Reiterating Outperform Rating Despite Near-Term
Volatility,” June 10, 2010.

398
after the market close on Wednesday, June 9, 2010
through the market close on Thursday, June 10, 2010.
I identified other Goldman-specific news unrelated to
the alleged fraud, which was not economically
significant. For example, it was reported that Bank of
America Corp. and Goldman were attempting to
remove $5 billion in debt from their books in
connection with loans they had made to help finance
the buyout of Hilton Worldwide.118 Such a transaction
would occur normally in Goldman’s investment
banking business.
145. I did not find any additional notable news
articles regarding Goldman that received any news
coverage after the market close on June 9, 2010
through the market close on June 10, 2010.
146. In order to examine the impact of the news
concerning the second SEC probe concerning Hudson
2006-1 on the price of Goldman’s common stock, I
investigated Goldman stock price movements after the
market close on June 9, 2010 through the market close
on June 10, 2010. (See Exhibit 6.) As illustrated in the
chart, a news article concerning the second SEC
investigation was released on June 9, 2010 after the
market close. On June 10, 2010 in the morning, the
price of Goldman’s common stock was lower than the
previous day’s closing price. Subsequently, Goldman’s
stock price exhibited some volatility but did not
increase or decrease significantly through the market
close on that day.
147. Thus, the abnormal return on Goldman’s
common stock of -4.52% on June 10, 2010 is
substantially attributable to the news announcement
118

Bloomberg News, “Bank of America, Goldman Said to Offer
$5 Billion Hilton Debt,” June 10, 2010.

399
of the SEC investigation into Goldman’s Hudson 20061 transaction. The second SEC investigation was, in
fact, a direct consequence of Goldman’s alleged
fraudulent conduct in connection with Hudson 2006-1.
Furthermore, the news report of the second SEC
investigation disclosed to market participants the
severity of Goldman’s conduct and revealed that
Goldman had been engaged in undisclosed conflicts of
interest and violated its business principles in direct
contrast to the false and misleading statements during
the Class Period.
F. Overall Conclusion
Causation

Regarding

Loss

148. It is my opinion that the abnormal return
of -9.27% on Goldman’s common stock on April 16,
2010 is attributable to the corrective information
revealed in the announcement of the SEC’s regulatory
enforcement action in connection with Abacus 2007AC1.
149. It is my opinion that the abnormal return
of -1.68% on Goldman’s common stock on April 26,
2010 is attributable to the corrective information
revealed in several internal Goldman documents
released by the Senate Committee on Investigations.
Nonetheless, due to the factors discussed in paragraph
104 in this expert report, the abnormal return on
Goldman’s common stock on April 26, 2010 was not
statistically significant. Thus, I excluded the abnormal
return on April 26, 2010 from my damages calculation.
150. It is my opinion that the abnormal return of 7.75% on Goldman’s common stock on April 30, 2010
is attributable to the corrective information revealed
in the announcement of the DOJ’s criminal
investigation.

400
151. It is my opinion that the abnormal return of 4.52% on Goldman’s common stock on June 10, 2010
is attributable to the corrective information revealed
in the announcement of the SEC’s second Goldman
investigation, this one concerning the Hudson 2006-1
CDO.
* * *

